<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-22]
[From the U.S. Government Printing Office]


                                                  S. Hrg. 109-22, Pt. 5
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                                S. 1042

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2006 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR FOR THE ARMED FORCES, AND FOR 
                             OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                      MARCH 9; APRIL 11, 22, 2005


         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

21-106 PDF                       WASHINGTON : 2005 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



  






















                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
JEFF SESSIONS, Alabama               JOSEPH I. LIEBERMAN, Connecticut
SUSAN M. COLLINS, Maine              JACK REED, Rhode Island
JOHN ENSIGN, Nevada                  DANIEL K. AKAKA, Hawaii
JAMES M. TALENT, Missouri            BILL NELSON, Florida
SAXBY CHAMBLISS, Georgia             E. BENJAMIN NELSON, Nebraska
LINDSEY O. GRAHAM, South Carolina    MARK DAYTON, Minnesota
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN CORNYN, Texas                   HILLARY RODHAM CLINTON, New York
JOHN THUNE, South Dakota

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                      JOHN CORNYN, Texas, Chairman

PAT ROBERTS, Kansas                  JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              EDWARD M. KENNEDY, Massachusetts
JOHN ENSIGN, Nevada                  ROBERT C. BYRD, West Virginia
JAMES M. TALENT, Missouri            BILL NELSON, Florida
LINDSEY O. GRAHAM, South Carolina    E. BENAJAMIN NELSON, Nebraska
ELIZABETH DOLE, North Carolina       EVAN BAYH, Indiana
JOHN THUNE, South Dakota             HILLARY RODHAM CLINTON, New York

                                  (ii)






















                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
               Science and Technology Budget and Strategy
                             march 9, 2005

                                                                   Page
Sega, Dr. Ronald M., Director, Defense Research and Engineering..     5
Killion, Dr. Thomas H., Deputy Assistant Secretary of the Army 
  for Research and Technology and Chief Scientist................    13
Cohen, RADM Jay M., USN, Chief of Naval Research.................    18
Engle, James B., Deputy Assistant Secretary of the Air Force for 
  Science, Technology, and Engineering...........................    24
Tether, Dr. Anthony J., Director, Defense Advanced Research 
  Projects Agency................................................    33

                   Chemical Demilitarization Program
                             april 11, 2005

Wynne, Hon. Michael W., Under Secretary of Defense for 
  Acquisition, Technology, and Logistics; Accompanied by Dale E. 
  Klein, Ph.D., Assistant to the Secretary of Defense for Nuclear 
  and Chemical and Biological Defense Programs...................   108
Bolton, Hon. Claude M., Jr., Assistant Secretary of the Army for 
  Acquisition, Logistics, and Technology.........................   112
Mahley, Hon. Donald A., Deputy Assistant Secretary of State, 
  Bureau of Arms Control.........................................   117
Salazar, Hon. Ken, U.S. Senator from Colorado....................   133

                    U.S. Special Operations Command
                             april 22, 2005

O'Connell, Hon. Thomas W., Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict..................   152
Brown, GEN Bryan D., USA, Commander, U.S. Special Operations 
  Command........................................................   156

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                        WEDNESDAY, MARCH 9, 2005

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

               SCIENCE AND TECHNOLOGY BUDGET AND STRATEGY

    The subcommittee met, pursuant to notice, at 9:34 a.m., in 
room SR-325, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn, Reed, E. 
Benjamin Nelson, and Clinton.
    Committee staff member present: Leah C. Brewer, nominations 
and hearings clerk.
    Majority staff members present: Elaine A. McCusker, 
professional staff member; Paula J. Philbin, professional staff 
member; and Lynn F. Rusten, professional staff member.
    Minority staff members present: Gabriella Eisen, research 
assistant; Richard W. Fieldhouse, professional staff member; 
and Arun A. Seraphin, professional staff member.
    Staff assistants present: Andrew W. Florell, Nicholas W. 
West, and Pendred K. Wilson.
    Committee members' assistants present: James B. Kadtke, 
assistant to Senator Warner; Russell J. Thomasson, assistant to 
Senator Cornyn; Elizabeth King, assistant to Senator Reed; 
William K. Sutey and Eric Pierce, assistants to Senator Bill 
Nelson.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. Good morning, and thanks to all of you for 
joining us today.
    This morning the Subcommittee on Emerging Threats and 
Capabilities meets to receive testimony on the Department of 
Defense's (DOD) fiscal year 2006 budget request for defense 
science and technology (S&T) programs. We will also examine the 
process and guidance used to make decisions on the appropriate 
level of investment for these programs.
    It is critical that our S&T investments produce 
capabilities which are responsive to current and emerging 
needs, but they must also focus on preparing us for the battle 
environments that we may face in the future.
    I would like to thank each of the witnesses and those who 
have provided the demonstrations in the back of the room for 
being here today. The displays I think have helped show all of 
us some of the real-world applications of some of the S&T that 
we are exploring today and understand how important S&T is in 
equipping, training, and protecting America's fighting force. 
It is important to remember that the origins of these 
successful capabilities were predominantly basic research 
programs at laboratories and universities around the country.
    Our witnesses today are the Department's S&T executives. 
They will highlight for us their fiscal year 2006 initiatives 
and explain some of the items on display. They will also 
describe how they develop their budgets to meet national 
security missions and corresponding technology strategies.
    Decades of investment in basic and applied research have 
led to a force that is better equipped and better protected. 
Our military possesses new standoff detection, surveillance, 
and when needed, lethal capabilities. We have advanced life-
saving medical technologies. New command and control systems 
are coming on line. Achievements in the area of unmanned 
systems continue to save lives and increase situational 
awareness. Ongoing work in materials and composites provide 
enhanced equipment and personnel protection systems.
    Another key product of the DOD S&T program that we cannot 
set on an easel or put in the space of a 6-foot display table 
is the technical workforce, the creative problem solvers who 
work in our defense labs and who think up new ideas and how to 
respond to the needs of those on the front lines.
    The committee took steps to enhance training, recruitment, 
and retention of talented individuals who possess unique 
national security related technical skills by establishing the 
Science, Mathematics, and Research for Transformation (SMART), 
scholarship for service pilot program in the National Defense 
Authorization Act (NDAA) for Fiscal Year 2005. I look forward 
to your comments on the status of this effort.
    As we listen to the witnesses today and discuss the 
Department's plans and budget for S&T, we will also explore how 
to maintain a robust research investment in an atmosphere of 
competing priorities and immediate operational needs.
    I have some questions about the long-term viability of our 
current investment strategy and some concern about the 
Department's apparent decision to deviate from previously set 
funding targets for S&T.
    I also have some questions about coordination, transition, 
and the technical workforce.
    I do, however, want to commend all of you on the great work 
that you are doing. The budget request before us reflects tough 
decisions made during a challenging time of evolving needs and 
continuing operational requirements.
    We look forward to hearing from each of the witnesses. 
Please note that your written testimony will be made a part of 
the record. To allow time for questions and answers, I ask that 
you summarize your remarks perhaps in the range of 5 minutes or 
so, and then we will come back and ask questions. Again, thanks 
to all of you for being here this morning.
    I just want to say from a personal standpoint how glad I am 
to be working with Senator Reed as the ranking member of this 
subcommittee. His experience on the subcommittee and on the 
Armed Services Committee and his service to our Nation in the 
uniformed services uniquely qualifies him to make a very 
important contribution to the work of this subcommittee, as he 
does to the committee as a whole.
    We are delighted to have Senator Nelson here with us this 
morning as well.
    With that, I would like to recognize Senator Reed for any 
comments he would care to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. thank you very much, Mr. Chairman. Let me 
first congratulate you on assuming the chairmanship of this 
very important subcommittee. I very much look forward to 
working with you, Mr. Chairman.
    I also understand that you are working to develop an 
energetic oversight agenda for the subcommittee, and I assure 
you that myself and my staff will work eagerly with you and 
your staff to get this very challenging agenda accomplished.
    Let me thank all the witnesses, as well as everyone who 
worked on putting together this very impressive display of S&T.
    During times of war, clearly our thoughts and efforts are 
focused on the current threats facing our troops deployed in 
harm's way. However, in the process of prosecuting operations 
in Iraq and Afghanistan, we must also think about the future. 
The Department's S&T program attempts to walk the line between 
addressing the near-term operational needs and investing in 
potentially revolutionary future capabilities.
    Through this hearing and the technologies we looked at this 
morning, we are exploring the important role that the 
Department's S&T program plays in supporting the global war on 
terrorism and operations in Iraq. The advanced munitions, 
sensors, and force protection systems displayed here are 
excellent examples of how we can leverage years of sustained 
investment in S&T into important new military capabilities for 
our forces today. The revolutionary advances in engineering, 
physics, and biology that are also funded by S&T offer the 
possibility of currently unimaginable capabilities for future 
forces.
    I note with some concern that the President's 2006 budget 
request cuts S&T by nearly $3 billion as compared to last 
year's appropriated level. Despite the fact that the overall 
DOD budget has grown, the S&T request is even below the amount 
of funding called for in the 2005 budget request.
    The request also does not meet the goal of investing 3 
percent of the DOD budget in these innovative S&T programs, a 
goal endorsed by Congress, Secretary Rumsfeld, the Quadrennial 
Defense Review (QDR), and the Defense Science Board. I hope the 
witnesses can explain how it was decided to reduce investments 
in S&T especially at a time when the benefits of those 
investments are becoming so easy to see.
    The reductions in these programs may severely impact our 
Nation's universities and hamper their ability to train the 
science and engineering (S&E) work force of the future. It may 
also harm our small high-tech businesses who are the real 
source of many of our most innovative defense technologies. It 
will certainly enable our global competitors to challenge our 
leadership in the areas of technology that will save the future 
battlefield, areas such as biotechnology, nanotechnology, and 
robotics. At a time when we are worried about new national 
security threats and global economic challenges, we should not 
be reducing support for America's innovators.
    In order to help us understand these budget decisions and 
develop the case for increased investment, it is critical to 
better demonstrate that the S&T program truly addresses the 
Department's short- and long-term challenges. I hope the 
witnesses can give us a sense that these S&T programs are not 
merely reacting to current needs and threats, but have been 
shaped with the strategic eye to the future so that our forces 
will maintain their superiority on the battlefields of both 
today and tomorrow.
    Once again, I welcome all of our distinguished witnesses. I 
look forward to the discussion and thank the chairman for his 
leadership.
    Senator Cornyn. Thank you, Senator Reed. I share some of 
your concerns. I know in the full committee we have heard from 
the leadership at the DOD about the budget, and of course, we 
are all concerned about living within our means, but obviously 
the most important priority of our Nation is our security. I 
want to make sure that our budget continues to reflect our 
security needs, not just the desire to hit a particular bottom 
line figure. I know the committee, under Chairman Warner's and 
Ranking Member Levin's leadership, will continue to look at 
those and examine ways that we can make sure that all of our 
national security needs are being met.
    Senator Nelson, I would be glad to recognize you for an 
opening statement, if you have one.
    Senator Ben Nelson. Thank you, Mr. Chairman. I too thank 
you for the opportunity to learn more about the experimental 
and developmental challenges that are being undertaken right 
now during modern warfare. We appreciate the demonstrations 
that we have seen. I look forward to more information. Thank 
you.
    Senator Cornyn. Thank you, Senator Nelson.
    Our witnesses today are Dr. Ronald Sega, Director of the 
Defense Research and Engineering (DDR&E). He will be followed 
by Dr. Thomas Killion, Deputy Assistant Secretary of the Army 
for Research and Technology and the Army's Chief Scientist. 
Rear Admiral Jay Cohen is with us, the Chief of Naval Research 
(CNR). We also have Jim Engle, Deputy Assistant Secretary of 
the Air Force for Science, Technology, and Engineering, and Dr. 
Tony Tether, Director of the Defense Advanced Research Projects 
Agency (DARPA). Gentlemen, thanks to each of you for being here 
with us.
    As I said, your full statements will be made part of the 
record, and I would like to start with you, Dr. Sega, and we 
will go down the line perhaps with about a 5-minute opening 
statement each. Then we will get into some of the questions.
    Dr. Sega.

STATEMENT OF DR. RONALD M. SEGA, DIRECTOR, DEFENSE RESEARCH AND 
                          ENGINEERING

    Dr. Sega. Mr. Chairman and distinguished members of the 
subcommittee, I appreciate the opportunity to discuss the 
Department's fiscal year 2006 S&T program.
    As the DDR&E and serving in the role of the Department's 
Chief Technology Officer, I would like to highlight a few 
representative S&T accomplishments within a framework of five 
established priorities. They include: integrate DOD S&T and 
focus on transformation; enhance technology transition; expand 
outreach to the combatant commanders and the Intelligence 
Community; accelerate support to the global war on terrorism; 
and fifth, strengthen the national security S&E workforce.
    Our fiscal year 2006 DOD S&T budget request is slightly 
less than we requested last year, but significantly higher than 
the request of fiscal year 2001. The fiscal year 2006 S&T 
budget request supports transformation and reflects strategic 
factors of increased pressures and threats from asymmetric and 
terrorist activity and increased pace in globalization of 
technology development.
    The Department has increased investments in chem-bio 
defense S&T by about $200 million; increased funding for 
sensors, surveillance, radio frequency (RF), and electronic 
warfare by roughly $100 million; and increased funding for 
combatting terrorism technology activity, hypersonic propulsion 
technologies, network-based S&T, and quick reaction special 
projects.
    The first priority: integrate DOD S&T and focus on 
transformation. Here we have expanded our inputs to our S&T 
decisionmaking process to include capturing more information 
about the global S&T activity. We have enhanced the DOD Defense 
Technical Information Center's role in electronic data 
collection and analysis and realigned it under DDR&E.
    The Department continues to reshape its strategic planning 
and investment review process, and we continue to support basic 
research, ongoing technology initiatives, and near-term 
technology acceleration.
    As a foundation for our S&T capability, the Department's 
basic research program provides new knowledge and understanding 
in the areas that underpin national defense.
    Basic research performed in universities and Government 
laboratories also is important because it is an integral part 
of the education and training of S&Es for the Nation's defense 
workforce. We are forwarding a legislative proposal in this 
area to Congress.
    We have sustained funding in the three cross-cutting 
initiatives: the National Aerospace Initiative (NAI), Energy 
and Power Technologies, and Surveillance and Knowledge Systems.
    The NAI is composed of high-speed, hypersonic technologies, 
space access, and space payloads. NAI was reviewed by the 
National Research Council last year who found it to be a good 
program. It supported the direction that we are going in with 
the NAI. 2004 witnessed two flight tests, National Aeronautics 
and Space Administration (NASA)-led/DOD-supported, of an X-43 
vehicle at Mach 7 and later at Mach 10.
    The second cross-cutting area is Energy and Power 
Technologies. It is enabling a more electric force. Here we are 
testing megawatt-sized superconducting motors and generators, 
developing new hybrid fuel cell and battery systems, and making 
significant progress in the area of solid state lasers.
    The third cross-cutting area is Surveillance and Knowledge 
Systems. It is the enabling underpinning technology for 
command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR). Here is an example 
of collaboration of the Army and DARPA. You saw that in the 
back with the command post of the future. It is being used in 
Iraq today. It also is, in the supplemental, requesting funding 
for additional command posts of the future.
    The second priority area is enhancing technology 
transition. There are several tools that are available and they 
are important and we thank you for your support in these areas. 
One is Advanced Concept Technology Demonstrations (ACTDs). A 
second is the Technology Transition Initiative. The third is 
the Defense Acquisition Challenge, and the fourth is the 
Defense Production Act, title III. You saw an example of the 
Defense Production Act, title III with the laser eye protection 
system, and that was in the back as an example. Here, through 
this title III activity, a domestic manufacturer who had 
experience in coatings at the laboratory level was able to 
bring the process to a production state, maximizing coating 
performance and minimizing the cycle time. They are now capable 
of producing around 32,000 of these per year.
    The third area is expanding the outreach to combatant 
commands and the Intelligence Community. One example here is a 
homeland security/homeland defense command and control ACTD. It 
supports U.S. Northern Command (NORTHCOM), addresses important 
communications and common operational picture challenges for 
Federal, State, and local communities. It includes several 
partnerships across Government, including the Department of 
Homeland Security.
    The fourth area is the acceleration of the support of the 
global war on terrorism. We are in the third phase of the 
Combating Terrorism Technology Task Force (CTTTF) activity that 
was initiated in September 2001. Here we are focusing on force 
protection and counterinsurgency operations for the global war 
on terrorism, with a particular focus on Operation Iraqi 
Freedom (OIF). We have established a research, development, 
test, and evaluation (RDT&E) site at the Yuma Proving Ground in 
Yuma, Arizona, and I would encourage Members and congressional 
staff to visit some of that testing at Yuma.
    The fifth area is to strengthen the national security S&E 
workforce. The future of the U.S. national security S&E 
workforce is a growing and increasing concern. The declining 
supply of U.S. citizens awarded degrees in defense-related S&E 
fields, coupled with recent projections of domestic growth in 
demand for S&Es by 2010, suggests that the DOD and other 
Federal agencies with national security functions will face 
increased competition with domestic and global commercial 
interests for top-of-their-class, security clearance-eligible 
S&Es.
    During 2004, the Department was engaged in several 
activities to help understand and characterize the national 
security workforce situation both within the Department and 
outside, to include interagency forums. The National Security 
R&D Subcommittee, which I co-chair as part of the National 
Science and Technology Council that addressed this issue, 
brought together industry, the DOD, the National Defense 
Industrial Association, and the Aerospace Industry Association. 
Studies and workshops were conducted, as well as national 
competitiveness forums such as the National Innovation 
Initiative.
    Last year Congress, as you pointed out, passed the SMART 
legislation and authorized the Department to carry out a 
scholarship program with an employment payback component. We 
appreciate that, and it is ongoing. As we will talk about 
later, I am sure, it is a very good program. We proposed to 
expand the SMART pilot and build a permanent program presented 
in the budget request as SMART-National Defense Education Act 
(NDEA) Phase 1.
    In conclusion, our S&T investment is focused on technology 
capabilities to enable the warfighters to meet the challenges 
of today, while preparing them to meet the challenges of the 
future. We recognize that our future technological advantage 
depends on the quality of our scientists, mathematicians, and 
engineers, and we are building our workforce through our 
proposed NDEA.
    In closing, Mr. Chairman, I sincerely thank you and the 
subcommittee for the opportunity to outline our successes and 
to review our plans for the future. We appreciate your strong 
support for our S&T program and look forward to working with 
you as we transform our plans into actions. Thank you.
    [The prepared statement of Dr. Sega follows:]
                Prepared Statement by Dr. Ronald M. Sega
    Mr. Chairman and distinguished members of this subcommittee, I 
appreciate the opportunity to discuss the Department of Defense's (DOD) 
fiscal year 2006 science and technology (S&T) program. The Secretary of 
Defense remains committed to transforming the military with a robust 
S&T program. Our military capabilities must become more rapidly 
deployable, easily sustainable, and be able to operate across the full 
spectrum of operations--from peace to war and transition back to peace 
again. Our S&T efforts should support transformation by providing the 
ability to strike with greater speed, agility, lethality, and precision 
while maintaining increased global knowledge. We remain excited about 
near-term and long-term transformational capabilities and possibilities 
that continue to be made possible by Defense S&T.
    As the Director of Defense Research and Engineering (DDR&E), 
serving in the role of the Department's Chief Technology Officer, I 
want to highlight a few representative accomplishments within the S&T 
program and our planned efforts for fiscal year 2006 within the 
framework of my our five established priorities which are:

        <bullet> Integrate DOD S&T and focus on transformation;
        <bullet> Enhance technology transition;
        <bullet> Expand outreach to the combatant commands and the 
        Intelligence Community;
        <bullet> Accelerate support to the global war on terrorism; and
        <bullet> Strengthen the national security science and 
        engineering workforce.

    These priorities continue to help shape the S&T program. DOD S&T is 
an enabler for transformational capabilities for our future force and 
is providing near-term capabilities for the global war on terrorism.
    Amid the significant budget pressures from ongoing operations in 
Iraq and Afghanistan, the Department has maintained its commitment to 
S&T. Our fiscal year 2006 DOD S&T President's budget request of $10.52 
billion is slightly less than $10.55 billion we requested last year. 
However, the fiscal year 2006 President's budget request is still 28 
percent higher than the fiscal year 2001 request of $7.5 billion.

                                           PRESIDENT'S BUDGET REQUEST
                                       [Then year--In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                                    Fiscal Year
                                                                 -----------------------------------------------
                                                                       2001            2005            2006
----------------------------------------------------------------------------------------------------------------
Army............................................................          $1,294         $ 1,783         $ 1,735
Navy/Marine Corps...............................................           1,463           1,718           1,776
Air Force.......................................................           1,291           1,919           1,980
Defense-Wide....................................................           3,494           5,130           5,031
                                                                 -----------------------------------------------
  Total DOD S&T.................................................          $7,543         $10,550         $10,522
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2006 S&T budget request supports the transformation 
and reflects the strategic factors of increased pressures and threats 
from asymmetric and terrorist activity and increased pace and 
globalization of technology development. The Department has increased 
the investment in chemical and biological defense S&T by nearly $200 
million in this year's request. We have increased funding for command 
and control, sensors, surveillance, radio frequency, and electronic 
warfare systems by nearly $100 million. We have also increased funding 
for combating terrorism technology activity, which could lead to new 
capabilities for force protection, improvised explosive device (IED) 
mitigation, etc. We are increasing our investment in hypersonic and 
propulsion technologies, network-based S&T, and Quick Reaction Special 
Projects. Some programs that reflect a decrease in funding from the 
fiscal year 2005 are Ballistic Missile Defense Advanced Technology 
Development (generation beyond the emerging generation), traditional 
Army combat vehicles, and classified programs. Taken as a whole, the 
DOD S&T program is reshaping to meet the needs of the DOD.
             integrate dod s&t and focus on transformation
    We have expanded the inputs to our S&T decisionmaking process to 
include capturing more information about global S&T activity, increased 
formal and informal inputs from the combatant commands, more 
interaction with the interagency processes, and an expanded 
comprehensive review process with the Services and Defense agencies. 
These changes help support the Department's strategic planning process 
and better integrate and align our S&T investments. Mechanisms for 
assessments of the inputs are being aided by enhancing the Defense 
Technical Information Center's (DTIC) role in electronic data 
collection and analysis.
    The rate of change and development of S&T on a global basis will 
continue to increase into the 21st century. Therefore, a key component 
of our strategy is to gain the best possible insight into technology 
development throughout the world, and making that information available 
to all DOD users. The DTIC, which has been realigned under the 
direction of DDR&E, will be the single repository for global technical 
information and capabilities with a searchable web portal that will be 
accessible throughout the DOD.
    A key element in achieving an optimal S&T investment strategy, 
which responds to national security and joint warfighter needs, is a 
collective understanding of the motivations, requirements, directions, 
and opportunities of the DOD component S&T organizations that manage 
S&T resources. Accordingly, we have modified the traditional S&T review 
process to a ``Comprehensive S&T Review'' process to better rationalize 
the program with strategic direction of the Department, and identify 
additional gaps or emphasis areas. This new 2-year review cycle builds 
on current processes (e.g. Technology Area Review Assessments, basic 
research reviews, etc.) and will help guide S&T investment decisions 
for budget and program planning cycles. While the Department is 
reshaping its strategic planning and investment review process, we have 
continued to support basic research, ongoing technology initiatives, 
and near-term technology acceleration.
    As a foundation for our S&T capability, the Department's basic 
research program provides new knowledge and understanding in areas that 
underpin national defense. Applying that knowledge and understanding 
yields advanced technologies that enable us to increase military system 
capabilities; makes those systems easier and less expensive to 
manufacture, operate, and maintain; and improves the way we carry out 
our missions.
    The basic research program is focused on areas with the highest 
potential for long-term military benefit. Our investment complements 
other Federal programs and is the major source of funding in selected 
disciplines critical to defense, such as electrical and mechanical 
engineering, where DOD provides more than 70 percent of the overall 
Federal investment in university basic research.
    Basic research performed in universities and government 
laboratories is also important because it is an integral part of the 
education and training of scientists and engineers for the Nation's 
defense workforce. We are bringing forward a legislative proposal in 
this area to expand the technical workforce available to the 
Department.
    We have sustained funding for three cross-cutting initiatives: the 
National Aerospace Initiative (NAI); Energy and Power Technologies; and 
Surveillance and Knowledge Systems (SKS). These initiatives address the 
development of critical DOD transformational technologies and continue 
to make technical progress.
    The NAI is an integrated roadmap for S&T efforts for in high-speed 
and hypersonic systems, space access systems, and space-based payloads. 
The National Research Council completed an ``Evaluation of National 
Aerospace Initiative'' in 2004 which supported the direction of NAI. 
Our progress in hypersonics was demonstrated in 2004 when the National 
Aeronautics and Space Administration (NASA) X-43A, which was supported 
by DOD, completed two successful flight tests at speeds of Mach 7 and 
Mach 10. In January 2005, we conducted a successful separation flight 
test of HyFLY, a high speed system designed to fly above Mach 6. The 
fiscal year 2006 budget request maintains support of the foundational 
NAI technologies in the Army, Navy, Air Force, and Defense Advanced 
Research Projects Agency (DARPA). With the planned funding, three 
stepping stone projects, HyFLY, Scramjet Engine Demonstrator (SED), and 
Revolutionary Approach to Time-Critical Long Range Strike (RATTLRS) 
will have at least one flight each by 2009. A ``Space S&T Strategy'' 
was developed in 2004 under sponsorship of DDR&E and the DOD Executive 
Agent for Space, and was submitted to Congress. There have been several 
important accomplishments recently in space access propulsion 
technology under the DOD-NASA-U.S. Industry Integrated High Payoff 
Rocket Propulsion Technology (IHPRPT) program. The first advanced U.S. 
liquid rocket engine technology demonstrator since the Space Shuttle 
Main Engine (SSME), the Integrated Powerhead Demonstrator, has begun 
full-up engine testing at NASA Stennis Space Center. The successful 
``hot-fire'' ignition in February 2005 is the culmination of 10 years 
of joint development toward a fully reusable engine. Additionally, the 
DOD is developing electronic propulsion for satellites, which could 
provide a significant increase in satellite on-orbit propulsion 
capability relative to today's systems.
    The Energy and Power Technologies initiative continues to advance 
the goal to transform the electric components of our weapons systems 
and improve military logistics. The $260 million fiscal year 2006 DOD 
investment addresses several topics. The demands for primary and 
auxiliary power, as well as the electric power density for our air, 
ground, and sea platforms are increasing; which in turn increases the 
demands for thermal management also addressed in the initiative. We are 
testing megawatt-size superconducting motors and generators that take a 
fraction of the space of conventional machines. Rechargeable lithium-
ion batteries and state-of-charge battery life indicators for soldier 
system power are in production. We are developing a new hybrid fuel 
cell/battery power system for the individual soldier weighing less than 
half of our current systems.
    The SKS initiative comprises a broad set of command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) programs intended to give our forces dominant 
battlespace awareness and understanding. The investment is about $1 
billion per year, with 50 percent attributable directly to SKS 
objectives and the other half leveraged from other development programs 
that contribute to SKS capability. During the past year we made 
considerable progress toward the objectives identified in the SKS 
roadmap with a strong focus on supporting current operations in Iraq 
and the technical objectives enabling ``command and control on the 
move.'' During 2004 we successfully prototyped a 20 node mobile, ad hoc 
network in a realistic C\4\ISR demonstration, moving us toward the 
capability needed for the Department's vision of network-centric 
operations. Through strong service and DARPA collaboration, we 
supported operations in Iraq by transitioning acoustic sensing 
technology from the laboratory to the field to counter the mortar and 
sniper threats. We also provided forces in Iraq with Command Post of 
the Future (CPOF) technology allowing commanders to maintain greater 
command and control in all situations.
    The Quick Reaction Special Projects program remains an important 
tool in addressing the reality of a rapidly changing world. Under the 
Quick Reaction Fund, projects must be completed in a year. Over the 
past year, we have developed and proven technologies through the Quick 
Reaction Fund that range from demonstrating an affordable, more capable 
seeker to a novel, affordable dry lubricant that can be used on small 
arms weapons, which will provide improved capability to deployed troops 
with less logistics and maintenance required.
                     enhance technology transition
    We have also enhanced technology transition from ideas to fielded 
capabilities through continued collaboration with S&T, acquisition, 
logistics, and user communities. In addition, we have expanded the use 
of Technology Maturity Assessments to link S&T projects with 
acquisition programs, ensuring an avenue for transition and support to 
system development efforts.
    The Advanced Concept Technology Demonstration (ACTD) program 
continues to match innovative joint and coalition technologies with 
warfighter needs in operational demonstrations. Key aspects of this 
program are the operational concepts developed and the residual ``leave 
behind'' capabilities that are provided, allowing the warfighter to 
``touch and feel'' the technology that is being considered before 
expensive acquisition decisions are made. A number of products from the 
ACTD program are being demonstrated and deployed in Iraq, Afghanistan, 
and other operational theaters. For example, Special Operations Command 
(SOCOM) was the operational sponsor of the fiscal year 2002 Pathfinder 
ACTD. This ACTD provides networked communications, real-time urban 
reconnaissance and targeting for precision weapons within a hostile 
environment from an unmanned aerial vehicle (UAV). As a result of this 
successful ACTD, SOCOM has fielded approximately 60 Raven UAVs into 
combat theaters. The Army has also subsequently deployed several 
hundred Ravens in response to an ``Urgent Needs Statement.''
    Beginning in fiscal year 2006, we have proposed a Joint Capability 
Technology Demonstration (JCTD), realigning a portion of the ACTD 
effort into a new business process that complements the Department's 
increased focus on meeting the needs of the joint and coalition forces. 
The JCTD business model would continue to focus on the most critical 
needs of the combatant commander but move even faster than the current 
ACTD program with final demonstrations by the end of the third year. 
JCTDs would provide more of the resources upfront, and would also 
provide non-S&T resources at the end of a project (Budget Activity 4 
and 5) to help address the transition issues. Using this approach, 
military services' budget processes should be better phased with 
successfully demonstrated capabilities.
    The Technology Transition Initiative (TTI) program and Defense 
Acquisition Challenge (DAC) program continue to expand transition 
mechanisms. The TTI program jump-starts funding for critical 
technologies developed in defense S&T programs. For example, the 
National Geospatial-Intelligence Agency Semantic Web Network has 
transitioned to support Marine Expeditionary Forces in Iraq. The system 
provides a single point of access to multiple data sources, distributed 
search capability to support operational planning, and is interoperable 
with other intelligence analysis system tools. The system is being used 
by approximately 100 intelligence analysts in Iraq, and saves 
approximately 4-5 hours of manual activity per query.
    The DAC program is an ``on ramp'' for domestic companies to inject 
new technologies into existing programs of record while supporting the 
DOD's spiral development strategy. For instance, the DAC program funded 
a project that replaces traditional fire barrier materials with a 
flexible aerogel thermal insulating blanket for use on the DD(X) and 
other platforms. Aerogel has demonstrated many superior characteristics 
over traditional insulating materials, including lighter weight, better 
blast, and heat resistance as well as lower costs.
    The transition of promising technology also occurs through our 
domestic production program, the Defense Production Act, Title III. 
Title III authority was used to establish a production capability for 
eyewear that provides protection from lasers on the battlefield. A 
domestic manufacturer had extensive coatings experience in this area 
but only a laboratory-scale production capability. Under the Title III 
project, a production process to maximize coating performance and 
minimize cycle time and cost was funded. The result was an all-new, 
ISO-9000 certified production facility with a capacity of 32,000 Laser 
Eye Protection (LEP) spectacle/goggle pairs per year.
    Another important tool for technology transition includes 
Technology Readiness Assessments (TRAs), which serve as a valuable tool 
metric for assessing the maturity of critical technologies for major 
acquisition systems. Some of the major TRAs completed during 2004 are 
the Littoral Combat Ship (LCS); the CVN 21 Next Generation Aircraft 
Carrier, the Aerial Common Sensor, the Global Command and Control 
System-Joint (GCCS-J), and the Distributed Joint Command and Control 
(DJC2).
    We also enhanced transition of technologies initiated through the 
DOD Combating Terrorism Technology Task Force (CTTTF). For instance, 
post-September 11, one of the novel technologies identified and 
supported by the CTTTF, thermobaric explosives, was accelerated, 
tested, certified, and fielded in 90 days through a collaborative 
effort that included the Defense Threat Reduction Agency (DTRA), Air 
Force, Navy, Department of Energy, and industry. Using the fiscal year 
2002 Quick Reaction Munitions Funds, the CTTTF built upon this initial 
investment in thermobaric explosives in response to a requirement from 
the Marine Corps for an improved Hellfire warhead.
    The DTRA worked in coordination with the Army and Navy on the AGM-
114N Hellfire development effort. Several candidate thermobaric warhead 
fills were tested and assessed during final development. The chemical 
mix selected is substantially more effective in attacks against 
enclosed structures than the current Hellfire blast and fragment 
variants. The demonstration program developed weapons in approximately 
1 year with an initial delivery of approximately 60 residual assets. 
Multiple missiles were deployed and successfully employed in the 
opening of Operation Iraqi Freedom (OIF). Since that time, the 
Department has invested additional funds in the AGM-114N and will 
deliver over 100 units to the Marine Corps and SOCOM by June 2005. The 
AGM-114N is now transitioning to production with a significant increase 
in production fielded units planned over the next 2 years.
    expand outreach to the combatant commands and the intelligence 
                               community
    We have expanded outreach to the combatant commands and the 
Intelligence Community. We work closely with the combatant commands 
through the Joint Staff Joint Functional Capability Boards to develop 
the Joint Warfighting S&T Plan (JWSTP), ensuring that our S&T plans 
support operational requirements and are developed in conjunction with 
our warfighters.
    We continue to interact and collaborate with Federal, State, and 
local governments in areas that affect both military and civilian 
mission areas. One important project that the Department has funded 
with other partners (e.g. Department of Homeland Security) is called 
the Homeland Security/Homeland Defense Command and Control ACTD. This 
ACTD links DOD capabilities (e.g. United States Northern Command) with 
civilian authorities to address important communication and common 
operational picture challenges for Federal, State, and local 
communities.
    Over the past 2 years, we have conducted net assessments to address 
global progress in technology areas such as nanotechnology, energetic 
materials, and directed energy. We will continue to refine the net 
assessment process and expand it to other technology areas. DDR&E is a 
formal member of the S&T Intelligence Committee, a National 
Intelligence Council Working Group, with representation from across the 
Intelligence Community.
           accelerate support to the global war on terrorism
    The CTTTF continues to coordinate potential solutions to new 
challenges in the global war on terrorism with the technology 
communities in the DOD, academia, industry, and other departments of 
the Federal Government. The CTTTF is currently in its third major phase 
of operation. The first phase accelerated technologies for homeland 
defense and the war in Afghanistan, in late 2001. Phase II delivered 
technology in support of Operation Enduring Freedom and OIF. 
Technologies were accelerated to field several specialized, unique 
weapons which focused on specific threats, such as the AGM-114N 
Thermobaric Hellfire discussed previously and other support to our 
fighting forces.
    The current, third phase of the CTTTF is focusing on technology for 
force protection and counterinsurgency operations in the global war on 
terrorism, particularly, OIF. While many specific details on programs 
are classified, actions are underway to mitigate effects stemming from 
terrorist use of weapons such as IEDs, mortars, and rocket-propelled 
grenades. A key focus is on detection and defeat of IEDs; predictive 
analysis capabilities; ISR and countering the IED kill chain.
    The CTTTF has also energized the need to rapidly evaluate 
technologies within a representative environment. Consequently, the 
CTTTF established a research, development, test, and evaluation site at 
the Yuma Proving Grounds in Yuma, Arizona. This site consists of over 
10 miles of roads, road interchanges, buildings, and other features 
found within a representative rural, desert climate. The purpose of the 
test site is to evaluate new technologies and provide recommendations 
on the potential of the system or technologies under evaluation. The 
test site has been a valuable resource for gathering data and 
evaluating new prototypes developed by the scientific and engineering 
community, while enabling the warfighter to assess military utility and 
maturity.
    Promising technologies identified are funded through the Rapid 
Reaction Fund (RRF) within the Quick Reaction Special Projects Program. 
The RRF continues to be a vital resource to develop and rapidly 
transition many new technologies for the global war on terrorism into 
the hands of warfighters, thereby saving lives. We appreciate your 
continued support in providing the flexibility to fund emergent 
technologies for our warfighter.
   strengthen the national security science and engineering workforce
    The future of the U.S. national security science and engineering 
(S&E) workforce is a growing and increasing concern. Since 1999 more 
than 12 major studies, including a 2002 report from the President's 
Council of Advisors on Science and Technology, warn of the 
deteriorating situation within the U.S. S&E workforce. The warnings 
cite several trends that continue to erode domestic S&E capability to a 
point where the U.S. may no longer be the primary innovator in several 
areas crucial to national security. One trend is the declining U.S. 
citizen S&E workforce. The Partnership for Public Service recently 
reported that 60 percent of Federal employees are over 45 years old 
which indicate a significant number of our workforce with valuable 
skills will soon be eligible for retirement, many of whom benefited 
from the National Defense Education Act of 1958. The declining supply 
of U.S. citizens awarded degrees in defense-related S&E fields, coupled 
with recent projections of domestic growth in demand for S&Es by 2010, 
suggests that the DOD and other Federal agencies with national security 
functions will face increased competition with domestic and global 
commercial interests for top-of-their class, security clearance 
eligible S&Es. During 2004, the Department was engaged in several 
activities to help understand and characterize the national security 
workforce situation both within the Department and outside, to include 
interagency forums (e.g. National Security Research and Development 
Subcommittee of the National Science and Technology Council), industry 
(e.g. National Defense Industrial Association and Aerospace Industry 
Association studies and workshops), and national ``competitiveness'' 
forums (e.g. National Innovation Initiative).
    We have enhanced efforts to address this situation and develop an 
outstanding workforce with 21st century critical defense skills. These 
new S&Es will be needed to meet tomorrow's S&T challenges. Last year, 
Congress provided the Science, Mathematics, and Research for 
Transformation (SMART) legislation that authorized the Department to 
carry out a scholarship program with an employment payback component. 
This fall about 25 promising students will enter the 2-year program. To 
ensure we maintain an effective workforce, we propose to expand the 
SMART pilot and built a permanent program presented in the budget 
request as a legislative proposal titled ``SMART--National Defense 
Education Act Phase 1'' (or the National Defense Education Program). 
The proposal would provide additional authorities that would improve 
our ability to develop, recruit, and retain individuals who will be 
critical in fulfilling the Department's national security mission. We 
look forward to your continued support in this critical, foundational 
area for national security.
                               conclusion
    Our S&T investment is focused on technology capabilities to enable 
the warfighter to meet the challenges of today, while preparing them to 
meet the challenges of the future. The budget request continues 
supports the ongoing transformation of the DOD while simultaneously 
ensuring we do all we can to provide potential solutions to ongoing, 
world challenges.
    We have successfully transitioned technologies to support the 
global war on terrorism and we continue to identify opportunities to 
minimize research and development cycle-time and enhance technology 
transition. We are expanding our interaction with the combatant 
commanders and the Intelligence Community; and expanding our global 
knowledge base to invest in the right priorities and programs. We 
recognize that our future technological advantage depends on the 
superior quality of our scientists, mathematicians, and engineers, and 
thus we are building our workforce through the proposed National 
Defense Education Act.
    In closing, Mr. Chairman, I sincerely thank you and the 
subcommittee for this opportunity to outline our successes and to 
review our plans for the future. We appreciate your strong support of 
our S&T program, and I look forward to working with you as we transform 
our plans into actions.

    Senator Cornyn. Thank you, Dr. Sega.
    Dr. Killion, we will be glad to hear from you.

STATEMENT OF DR. THOMAS H. KILLION, DEPUTY ASSISTANT SECRETARY 
  OF THE ARMY FOR RESEARCH AND TECHNOLOGY AND CHIEF SCIENTIST

    Dr. Killion. Mr. Chairman and members of the subcommittee, 
I would like to thank you for the opportunity to describe the 
fiscal year 2006 Army S&T program and the significant role that 
Army S&T has in creating, adapting, and maturing technologies 
to enhance the current force and enable the future force.
    I want to thank the members of this subcommittee for your 
support of our soldiers who are now at war and for sustaining 
the investments that will provide tomorrow's soldiers with the 
dominant capabilities that they will need to defend America's 
interests and those of our allies throughout the world. Your 
continued advice and support are vital to our success.
    Army S&T is currently supporting our soldiers deployed to 
fight the global war on terrorism through three mechanisms.
    First, our soldiers are benefitting today from technologies 
that emerged from past investments. Some notable examples 
include Interceptor Body Armor, cooled and uncooled infrared 
sensors for soldiers and vehicles for owning the night, and 
precision weapons that increase probability of kill and reduce 
collateral damage.
    Second, we are exploiting transition opportunities from 
ongoing S&T efforts in areas such as acoustic and radar sensors 
for enhanced situational awareness and for force protection.
    Finally, we continue to leverage the expertise and 
experience of our S&E to develop solutions for unforeseen 
problems and emerging threats. Examples here include armor 
survivability kits for High Mobility Multipurpose Wheeled 
Vehicles (HMMWVs) to provide protection against small arms fire 
and explosive blasts and slat armor for Strykers to counter 
rocket-propelled grenades (RPGs).
    As reflected in these examples, foremost in all of our 
minds is the need to provide the best available technologies to 
protect our soldiers.
    Beyond those technologies already contributing to the 
current force, we continue to make significant progress in 
maturing sensors and kill mechanisms to enable active 
protection systems. Such systems will significantly increase 
the survivability of light platforms. We are funding both 
close-in and stand-off protection systems to defeat chemical 
energy and kinetic energy munitions. This past year we have 
successfully demonstrated the ability to defeat RPG's fired 
from very close ranges. We are sustaining investments in these 
technologies as well as advanced lightweight armors to provide 
an integrated survivability suite for the Future Combat Systems 
(FCS) and other lightweight combat systems, approaching 
protection levels available today only with heavy armor.
    Reflecting our commitment to the future force, our single 
largest S&T investment remains the pursuit of enabling 
technologies for the FCS. For 2006, we have over $426 million, 
or roughly 25 percent of our budget, in technologies planned 
for spiral insertion into the FCS program. FCS is in the system 
development and demonstration (SDD) phase and is using a spiral 
demonstration and fielding approach that leads to the first 
full unit of action in 2014. The FCS has been designed so that 
each part of the system is networked within the whole to 
achieve an unprecedented synergy. Our technology investments 
both on our own and in partnership with DARPA address a range 
of challenges, including networked battle command systems, 
networked lethality, enhanced survivability, semi-autonomous 
and autonomous unmanned air and ground systems, and affordable 
sensors across the spectrum to find, fix, and target the enemy.
    Our investments in individual soldier technologies, focused 
through our Future Force Warrior program, seek to provide 
dismounted warriors with the connectivity and network lethality 
that is available today only through platform-based 
capabilities. In response to congressional direction, we have 
worked with the program executive officer (PEO) soldier to more 
tightly couple the Land Warrior and the Future Force Warrior 
programs and have implemented a business plan that establishes 
a lead technology integrator common to the S&T efforts and the 
Land Warrior program. This new business approach will speed 
transition of technology and promote efficiency in our efforts 
to field ground soldier system capabilities that include 
network connectivity for compatibility with future force 
platforms.
    We maintain our commitment to the fundamental research 
required for new understanding to enable revolutionary advances 
and paradigm shifts in operational capabilities to enable the 
Army's transformational goals. Our basic research program 
invests in world-class expertise in Government, academia, and 
industry, and in state-of-the-art equipment to explore 
fundamental phenomena and exploit scientific discovery. These 
investments are key to the Army's ability to win the race for 
speed and precision. Today's force has over-matching 
capabilities enabled by technology developments such as the 
Global Positioning System (GPS), night vision devices, and 
precision-guided munitions, and these capabilities can be 
traced to sustained basic research investments in decades past.
    Of course, as has been mentioned here, to maintain 
technological superiority now and into the future, we need to 
staff our laboratories and RDT&E centers with top-quality S&Es. 
We recognize this challenge. The DOD and the Army must compete 
to obtain its future workforce from a declining national pool 
of highly-qualified candidates.
    We have already taken important steps to attract and retain 
the best S&E talent available. Our laboratory personnel 
demonstrations have instituted multiple initiatives to enhance 
recruiting and reshaping of the workforce, such as recruiting 
bonuses, pay banding flexibilities, pay-for-performance, 
incentive awards, and enhanced employee education and 
development programs. To reverse the trends in smaller numbers 
of students pursuing science, math, and engineering, we have 
established an array of outreach programs to attract more 
students to those disciplines.
    We have also provided recommendations based on our 
experience that are being incorporated into the emerging 
National Security Personnel System (NSPS).
    In closing, the Army must have a diverse S&T portfolio to 
be responsive to current and future warfighting needs. The S&T 
community seeks technological solutions that can be 
demonstrated in the near term, explores the feasibility of new 
concepts for the mid term, and mines the imaginable for an 
uncertain far-term future. The Army S&T community has committed 
our intellectual resources, our people, our facilities, and our 
funding to maintain the momentum of the Army's transformation 
while the Army is at war.
    I thank you for your attention and for your continued 
support to our Army and our soldiers.
    [The prepared statement of Dr. Killion follows:]
              Prepared Statement by Dr. Thomas H. Killion
                              introduction
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to describe the fiscal year 2006 Army science and 
technology (S&T) program and the significant role Army S&T has in 
creating, adapting, and maturing technologies to enhance the current 
force and enable the future force.
    We want to thank the members of this subcommittee for your support 
of our soldiers who are now at war and for sustaining the investments 
that will provide tomorrow's soldiers with the dominant capabilities 
they will need to defend America's interests and those of our allies 
throughout the world. Your continued advice and support are vital to 
our success.
            s&t contributions to the global war on terrorism
    Army S&T supports our soldiers deployed to fight the global war on 
terrorism through three mechanisms. First, we are benefiting today from 
technologies that emerged from past investments. Second, we are 
exploiting transition opportunities from ongoing S&T efforts. Third, we 
are leveraging the expertise of our scientists and engineers to develop 
solutions for unforeseen problems. The following are examples of the 
three approaches:

          (1) Reaping the return on past investments: Since the mid-
        1980s, the Natick Soldier Center has pursued advanced fiber 
        technologies, in partnership with industry, to create lighter 
        weight ballistic protection for soldiers. This research 
        produced the technologies to develop the outer tactical vest 
        and components for the protective plate inserts (SAPI plates) 
        that are used by soldiers deployed worldwide today.
          (2) Exploiting technologies from current investments: Radio 
        frequency (RF) jamming technology solutions from investments in 
        our electronic warfare technology program have been 
        incorporated into the family of WARLOCK systems being used to 
        defeat radio-controlled improvised explosive devices (IEDs).
          (3) Leveraging S&T expertise to solve unforeseen problems: 
        Engineers at the Army Research Laboratory and the Tank-
        Automotive Research Development Engineering Center have 
        extensive experience in designing armor and appliques for the 
        Army's combat vehicles. This team rapidly responded to a 
        critical need by designing and demonstrating armor 
        survivability kits for High Mobility Multipurpose Wheeled 
        Vehicles (HMMWVs) to provide protection against small arms fire 
        and explosive blasts. These kits have now been installed on 
        over 12,000 HMMWVs deployed for the global war on terrorism.

    Collectively, these efforts are enhancing current force 
capabilities for fighting the global war on terrorism by applying 
relevant technologies to satisfy existing and emerging operational 
needs.
                            force protection
    Foremost in all of our minds is the need to provide the best 
available technologies to protect our soldiers. The examples above--
Interceptor Body Armor, electronic countermeasures (WARLOCK), and 
lightweight armor kits for our tactical vehicles--represent a few of 
the ``arrows'' in our force protection ``quiver.'' Other examples 
include:

        <bullet> Acoustic and radar sensors for detecting and locating 
        the source of rocket, artillery, and mortar fire;
        <bullet> Infrared technology for counter-sniper operations, 
        providing warning and locations for counter fire; and
        <bullet> Medical technology to protect soldiers from endemic 
        diseases and provide rapid treatment to save lives, such as the 
        Chitosan Bandage and the one-handed tourniquet.

    Beyond those technologies already contributing to the current 
force, we continue to make significant progress in maturing the sensor 
and kill mechanism technologies to enable active protection systems 
(APS). APS will significantly increase the survivability of lightweight 
platforms. We are funding both close-in and standoff protection systems 
to defeat chemical energy and kinetic energy munitions. This past year 
we have successfully demonstrated the ability to defeat rocket-
propelled grenades (RPGs) fired from very close ranges. The 
technologies successfully defeated RPG threats in two different 
scenarios: defeating a single RPG fired against a moving vehicle and 
defeating two RPGs fired nearly simultaneously at a stationary vehicle. 
We are sustaining investments in these technologies as well as advanced 
lightweight armors to provide an integrated survivability suite for 
Future Combat Systems (FCS) and other lighter weight combat systems, 
approaching protection levels available today only with heavy armor.
    We continue to pursue multiple technology solutions to identify and 
defeat IEDs from standoff ranges. Our work is synchronized across the 
DOD through close coordination with the Joint IED Task Force.
                         future combat systems
    The single largest S&T investment remains the pursuit of enabling 
technologies for the FCS. For 2006, we have over $426 million or 
roughly 25 percent of our budget in technologies planned for spiral 
insertion into the FCS program. FCS is in the system development and 
demonstration (SDD) phase of acquisition, using a spiral demonstration 
and fielding approach that leads to the first full unit of action (UA) 
in 2014. FCS has been designed so that each part of the system is 
networked within the whole to achieve an unprecedented synergy. The S&T 
community is maturing technologies for both the initial spirals and the 
full UA capability.
    Key FCS technology investments include:

        <bullet> Networked battle command systems to enable shared 
        situational awareness and improved decisionmaking;
        <bullet> Networked lethality through standoff precision 
        missiles and gun launched munitions;
        <bullet> Enhanced survivability through networked lethality, 
        improved sensors to locate and identify threats, signature 
        management, and active and passive protection systems;
        <bullet> Semiautonomous and autonomous unmanned air and ground 
        systems; and
        <bullet> Low-cost, multispectral sensors to find the enemy.
                            unmanned systems
    The Army S&T program is pursuing unmanned and robotic capabilities 
that include: unmanned aerial vehicles (UAVs), unmanned ground 
vehicles, and unattended sensors. These systems' capabilities will be 
modular in design for spiral technology insertion and rapid adaptation 
to changes in mission needs. The unmanned systems and technology 
applications provide capabilities that are not available today, 
reducing risks to our soldiers while simultaneously reducing logistics 
demands generated by human needs. Specific capabilities include:

        <bullet> Persistent surveillance and communications on the move 
        enabled by multi-sensor and communications mission equipment 
        packages for UAVs; and
        <bullet> Unmanned air and ground systems with lethal 
        capabilities for decisive operations against threats as they 
        are forming.

    As an example, the A-160 Hummingbird UAV is being developed to 
satisfy medium altitude long endurance requirements for communications 
relay and intelligence, surveillance, and reconnaissance in the UA. The 
A-160 is the result of a partnership with the Defense Advanced Research 
Projects Agency (DARPA) and is currently undergoing flight-testing.
                       soldier systems technology
    Our investments in individual soldier technologies seek to provide 
soldiers with the connectivity and network lethality that is available 
today only through platform-based capabilities. We are also pursuing 
technologies to enable a lightweight, low-observable, enhanced armor 
protection-fighting ensemble. Other key soldier technology investments 
include lightweight, high-efficiency power sources; embedded 
physiological monitoring and limited medical treatments; multi-
functional lightweight materials; embedded training; and networked 
sensors to enable unparalleled situational understanding. The program 
executive officer (PEO) has restructured soldier systems development 
under a business plan that establishes a Lead Technology Integrator 
common to the S&T efforts and the SDD program. This new business 
approach will speed transition of technology and promote efficiency in 
our efforts to field Ground Soldier System capabilities that include 
network connectivity for compatibility with future force platforms.
                      network-centric technologies
    The S&T investments to enable network-centric operations cover the 
domains of communications, command and control, and sensors. These 
efforts mature the algorithms, protocols, high data rate processor 
technologies, and antennas to enable mobile, wireless, tactical 
networks. The S&T program will develop and demonstrate real-time, 
continuous situational understanding by integrating data from manned 
and unmanned air- and ground-based sensors. Technologies include: high 
performance multispectral sensors (electro-optic, infrared, radio 
frequency, acoustic, seismic, chemical); fusion algorithms and 
intelligent agents to integrate data from a wide variety of networked 
sensors (airborne and ground). Our toughest challenge to enable 
network-centric operations is to overcome the technical barriers to 
demonstrate affordable high throughput (greater than 10 megabyts per 
second) directional antennas. One approach that shows great promise to 
overcome these barriers uses a distributed multi-element antenna arrays 
to enable steerable beams.
                         basic research program
    The Army basic research program produces new understanding to 
enable revolutionary advances and paradigm shifts in operational 
capabilities to enable the Army's transformation goals. This program 
invests in world-class expertise (government, academia, and industry) 
and state-of-the-art equipment to explore fundamental phenomena and 
exploit scientific discovery. These investments are key to the Army's 
ability to win the race for speed and precision. Today's force has 
overmatching capabilities enabled by technology developments such as 
global positioning systems, night vision devices, and precision-guided 
munitions. These capabilities can be traced to sustained basic research 
investments in decades past.
    The Army's basic research program has five components: World class 
university-led single investigator research; focused centers to enable 
paradigm shifting capabilities such as nanotechnology for the soldier; 
research centers of excellence that advance solutions to enduring needs 
in the areas such as micro electronics and materials; industry-led 
collaborative technology alliances focused on robotics, power and 
energy, communications and networks, advanced sensors, and decision 
aids; and Army-unique, in-house research in behavioral science, 
infectious diseases and combat casualty care, environmental science, 
and ballistics protection among others.
    Some examples of recent progress in Army research are: ``liquid 
armor'' to protect soldier's extremities; remote detection of high 
explosive materials by using new ultra-sensitive polymers; the creation 
of interactive computer-based avatars for soldier training; 
biotechnology for improved sensors; flexible displays for soldier 
applications; ultra-small and inexpensive power supplies using dime-
sized microturbines; and the development of hand-sized UAVs with a full 
suite of sensors for communication and navigation.
                science and engineering (s&e) workforce
    To maintain technological superiority now and into the future, we 
need to staff the Army Laboratories and Research, Development, and 
Engineering Centers with top-quality engineers and scientists. We 
recognize this challenge--the DOD and Army must compete to obtain its 
future workforce from a declining national pool of highly-qualified 
candidates. We have already taken important steps to attract and retain 
the best S&E talent available. Our laboratory personnel demonstrations 
have instituted multiple initiatives to enhance recruiting and 
reshaping of the workforce such as recruiting bonuses, pay banding 
flexibilities, pay-for-performance, incentive awards, and enhanced 
employee education and development programs. To reverse the trends in 
smaller numbers of students pursuing S&E, we have established outreach 
programs to attract more students to math, science, and engineering 
careers. We have also provided recommendations, based on our 
experience, for the emerging National Security Personnel System.
                         technology transition
    Successful transition of Army S&T products is central to enabling 
the Army's transformation. We use Technology Readiness Level metrics to 
assess and communicate the estimated maturity of a technology to our 
acquisition customers, the program executive officers and program 
managers, who buy the systems that are provided to our soldiers. The 
S&T community's outcome-oriented approach to technology development has 
yielded significant progress over the past few years. Examples of 
successful S&T efforts that have transitioned to programs of record 
include:

        <bullet> FCS to SDD;
        <bullet> Line-of-Sight Anti-Tank to SDD;
        <bullet> Objective Crew Served Weapon to SDD;
        <bullet> Tactical command and control protection algorithms to 
        PM Warfighter Information Network-Tactical (WIN-T); and
        <bullet> Network Fires (Cooperative program with DARPA) to SDD 
        as Non-Line-of-Sight Launch System.
                               conclusion
    The Army must have a diverse S&T portfolio to be responsive to 
current and future warfighter needs. The S&T community seeks 
technological solutions that can be demonstrated in the near-term, 
explores the feasibility of new concepts for the mid-term, and explores 
the imaginable for an uncertain far-term future. The Army S&T community 
has committed our intellectual resources--our people--and our 
facilities and funding to maintain the momentum of the Army's 
transformation!

    Senator Cornyn. Thank you, Dr. Killion.
    Admiral Cohen, we would be glad to hear from you.

  STATEMENT OF RADM JAY M. COHEN, USN, CHIEF OF NAVAL RESEARCH

    Admiral Cohen. Good morning, Mr. Chairman, Senator Reed, 
Senator Nelson. First let me say that I am personally honored 
and humbled to appear before you, along with my colleagues. I 
would like to thank you on behalf of our marines and sailors in 
combat for your support in saving their lives and limbs.
    I am currently in the fifth year of a nominal 3-year 
assignment. Eighteen months ago, the Secretary of the Navy, 
Gordon England, asked me as the CNR to help equip and protect 
our naval forces who were to conduct difficult combat 
operations on the ground both in Afghanistan and Iraq. On 
December 12, 2003, we conducted what has become known as the 
``county fair'' at the Naval Research Laboratory right here in 
Washington, DC. We had multi-service, multi-agency, industry, 
and academic representation, demonstrating those technologies 
which we felt could be brought to bear to allow our marines and 
sailors to accomplish their mission and to better defend them.
    Subsequently, with the strong support of the Secretary of 
the Navy in what he called Operation Respond, the Chief of 
Naval Operations (CNO), Admiral Vern Clark, and the Commandant 
of the Marine Corps, General Mike Hagee, along with the 
administration and Congress, many of those capabilities have 
been funded and deployed to Iraq and are in use today.
    Building on that, last summer Secretary England challenged 
me to initiate a ``Manhattan Project,'' as he likes to call it, 
to detect, defeat, and destroy explosives at range and speed. 
Gentlemen, this is a basic research challenge which I believe, 
as do others, will take a few years, nay, many years to solve, 
but we must get started. With your support, the S&E expertise 
in America and around the world, we will demonstrate the 
ability to detect, defeat, and destroy improvised explosive 
devices (IEDs) and suicide bombers, and we will deter their 
misguided actions. This basic research effort goes to the heart 
of why Congress established the Naval Research Laboratory 
following World War I and the Office of Naval Research after 
World War II.
    I look forward to your questions. Thank you.
    [The prepared statement of Admiral Cohen follows:]
              Prepared Statement by RADM Jay M. Cohen, USN
    Mr. Chairman, distinguished members of the subcommittee, thank you 
for this opportunity to appear before you to discuss the Department of 
the Navy's science and technology (S&T) in support of the global war on 
terrorism, transformation, and beyond.
                                overview
    The fiscal year 2006 budget requests $1.78 billion for a S&T 
portfolio designed to provide the best scientific research and 
technology in the shortest time to maximize the benefit to our sailors 
and marines.
    We pursue an integrated and comprehensive S&T program, from basic 
research through manufacturing technology. Programs emphasize 
integrating basic research with applied S&T, promoting the effective 
and expeditious transition of discovery and invention into real-world 
applications. Moreover, ``transition'' has become of utmost importance, 
as the success of S&T is not measured simply by the basic science it 
supports, but also by the active and successful transition of that 
science to supporting America's sailors and marines in the field: 
discovery and invention as well as exploitation and deployment of 
advanced technologies for the Nation's naval warfighters.
      naval science and technology for the global war on terrorism
        The Government should maintain a great research laboratory to 
        develop guns, new explosives, and all the technique of military 
        and naval progression without any vast expense.
            Thomas Edison

    You will remember that I came before this subcommittee a few years 
ago and brought a prototype for demonstration of the Dragon Eye, a 
small unmanned aerial vehicle (UAV), for small unit tactical 
reconnaissance. The Dragon Eye is small, light, easy to transport, and 
easy to fly. This UAV has transitioned into the Marine Corps Force and 
accompanied the First Marine Expeditionary Force (I MEF) in deployment 
to Iraq last year. I have pictures of your marines using the Dragon Eye 
UAV in the battle of Fallujah.
    In response to the decision to deploy I MEF to Operation Iraqi 
Freedom (OIF) II, Secretary of the Navy Gordon England established 
Operation Respond. It provided a forum and process to articulate urgent 
operational needs to the senior leadership. It facilitated the 
procurement of existing systems and rapid insertion of technologies to 
support our marines and sailors in combat.
Rapid Response to Emergent Operational Medical Problems
    The Office of Naval Research (ONR) is taking part in a series of 
medical initiatives to support both OIF and Operation Enduring Freedom 
(OEF). One such initiative is a USB Memory device, called the ``thumb'' 
drive, for storing medical records. An important problem faced by 
medical teams in OIF and OEF is the transportation of patients to 
higher levels of care without their medical records. This means the 
receiving caregivers are unaware of previous treatment, which results 
in delays or sub-optimal care. Attaching a ``thumb'' drive containing 
patient records to soldiers' dog tags would minimize this problem. Over 
1,000 USB ``thumb'' drives have been provided to I MEF to be evaluated 
in theater.
    A second serious problem in OIF and OEF is that hypothermia 
resulting from blood loss causes metabolic acidosis and impairs 
coagulation in the wounded. Currently, casualties are transported in 
poncho liners or body bags, neither of which provides heat. In a second 
OIF/OEF medical initiative, ONR has acquired newly Food and Drug 
Administration (FDA) approved blankets which use chemical heating packs 
to prevent hypothermia. Currently, about 100 blankets are being sent to 
I MEF for field evaluation.
    Effectiveness and capability of current medical gear is a third 
area in which ONR is pursuing medical initiatives. The Naval Combat 
Trauma Registry has been implemented to capture injury data (type, 
cause, severity, anatomical location, frequency, DNBI, etc.). Data is 
obtained at Level II medical treatment facilities and above and will 
indicate medical capability gaps and effectiveness of current gear 
(e.g., eye protection).
    A fourth problematic area of OIF/OEF is the recertification of 
reservist and corpsmen/medics. The current tempo of operations requires 
the deployment of these forces, who may or may not be fully up to speed 
on combat medical procedures. The Tactical Combat Casualty Care (TC3) 
Training Compact Disk (CD) has been developed to help solve this 
problem. The TC3 CD provides scenario-based medical training to improve 
first-responder care and encompasses Care Under Fire, Tactical Field 
Care, and Casualty Evacuation Care.
    Current body armor is designed to protect the torso, leaving the 
arms and legs exposed to serious injury from a blast. In order to 
reduce injuries to arms and legs caused by improvised explosive devices 
(IEDs), another medical initiative is working to develop arm and leg 
protection equipment. Review of medical data for injury trend 
evaluation has been done and injury sites for which protection can be 
provided have been determined. Ballistic testing of proposed material 
systems has been completed and initial arm and leg protection designs 
have been completed and given to warfighters. Warfighter feedback has 
been incorporated and used to modify the original and second phases of 
the designs. Phase three of the design is currently undergoing 
evaluation to ensure the appropriate design, as well as lay-up of 
materials, to ensure warfighter wearability, mobility, and protection.
Counter-IED Efforts
    Under the leadership of the Secretary of the Navy, we have focused 
our efforts on countering IEDs, rocket propelled grenades (RPGs), and 
mortars. I believe a key S&T goal in resolving the IED threat is to 
understand the basic phenomenologies involved in the ability to detect, 
defeat, and destroy IEDs at range and speed. Long-term basic and 
applied research must be conducted to address the foundations of 
current and future IED problems. We must exploit our sensor, chemistry, 
physics, material, and electronic warfare expertise by taking a systems 
approach to attacking each step in the engagement sequence. When we are 
successful, this ability could effectively deter this line of attack.
    The first step in achieving these goals is the detection of IEDs at 
standoff distance. This ability must be able to cover a wide range of 
threats, from generic to specific. It must also be adaptable to 
developing and changing threats. This requires significant S&T 
investment, and although there is no clear ``Silver Bullet,'' testing 
is underway to identify promising technologies. The second phase of 
this process is the defeat of these explosives at standoff distances. 
Ongoing testing and experimentation is being conducted to determine the 
possibilities for future methods to defeat of such threats. The third 
and final phase is IED destruction at a standoff distance. Some current 
detonation and deflagration solutions require knowledge and location of 
IED threats in order to have the greatest destructive impact. These 
solutions have an adequate impact on the main charge of the IED, but 
only limited capabilities in the destruction of other components.
    Taking into consideration Secretary England's guidance and the 
progress made thus far, we must continue this effort throughout the 
naval research enterprise, especially the Naval Research Lab and the 
University Affiliated Research Enterprise along with the other 
services, defense agencies, and national science and research academies 
and foundations. Though a strong cornerstone currently exists, based on 
the previously outlined solutions, the focus must be shifted and an 
investment must be made on both the detection of IED threats and 
advanced long range destruction technologies. Concentration on 
detection, defeat, and destruction of IED threats, while maintaining 
the ability to adapt our technologies to developing and changing 
threats, will allow us to actively and aggressively pursue these 
initiatives.
    Additionally, last April, a special Small Business Innovation 
Research (SBIR) effort was pushed forward to address three critical 
areas: technologies to defeat IEDs, anti-RPG technologies, and anti-
rocket, anti-artillery, and anti-mortar technologies. We received 259 
proposals and a total of 29 SBIR efforts were selected for Phase I 
funding. At this time we are evaluating promising Phase I efforts in 
order to select the Phase II recipients. Next year we will be 
evaluating the Phase II results.
    Those are some of our highlights within this S&T budget request for 
the global war on terrorism. Naval S&T is a sustained journey from 
discovery to deployment in which innovation and invention leads to 
experimentation and validation and transform the operating forces. This 
is a continuous cycle.
    I would like to discuss our transformation efforts for the ``Next 
Navy and Marine Corps''--roughly the forces that will emerge over the 
next 5 to 15 years, and finally the ``Navy and Marine Corps After 
Next''--which we will see in 15 to 30 years.
               transformation: future naval capabilities
    A great deal of our transformational effort is lodged in Future 
Naval Capabilities (FNCs). The objective of the FNCs is to provide 
enabling capabilities to fill identified gaps in Naval Power 21 
warfighting and enterprise capabilities identified by the requirements 
analysis staff of the Chief of Naval Operations and the Commandant of 
the Marine Corps.
    We have focused a major portion of our S&T portfolio on FNCs for 
the ``Next Navy and Marine Corps.'' Approximately two-thirds of our 
Advanced Technology Development (6.3) funds and about 40 percent of our 
late stage Exploratory Development (6.2) funds are invested in the 
FNCs. The FNC process delivers maturing technology to acquisition 
program managers for timely incorporation into platforms, weapons, 
sensors, and process improvements. Each of the current FNC focus areas 
is planned and reviewed by an integrated team with representation from 
the ONR, a program executive office, the Navy and Marine Corps 
requirements community, and the fleet/force user community. This gives 
us constant validation of the relevance of the technologies, and strong 
buy-in and commitment to transition plans.
    Based on the reviews of the FNC Technical Oversight Group we have 
recently strengthened the alignment of the FNC process with the naval 
capabilities development process, which establishes our program 
requirements and priorities in Sea Strike, Sea Shield, Sea Basing, and 
FORCEnet.
    The FNCs, in no priority order, are:

        <bullet> Advanced Capability Electric Systems--The future of 
        naval warfare is electric. Warships will have revolutionary 
        power plants that permit new hull forms and propulsors, reduce 
        manning, streamline logistics, power advanced sensors, and 
        enable future high energy and speed-of-light weapons. This FNC 
        crosses several of the pillars, including, Sea Strike, Sea 
        Shield, and Sea Basing.
        <bullet> Autonomous Operations--This program is pursuing a 
        dramatic increase in the performance and affordability of naval 
        air, surface, ground, and underwater autonomous vehicles--
        unmanned systems able to operate with a minimum of human 
        intervention and oversight. The Autonomous Operations FNC gives 
        us a great potential to operate effectively in what would 
        otherwise be denied areas. It is now aligned to the ForceNet 
        pillar.
        <bullet> Fleet/Force Protection--We have very capable ships, 
        aircraft, and ground combat vehicles. It's our business to 
        ensure that they don't fall to the sorts of asymmetric threats 
        our enemies pose. This FNC, aligned with Sea Shield, is working 
        to develop effective organic means of protection: weapons, 
        sensors, countermeasures, stealth, and damage control.
        <bullet> Knowledge Superiority and Assurance--Information 
        technology is as crucial to naval superiority as it is to any 
        other aspect of contemporary life. This program is developing 
        our ability to distribute integrated information in a dynamic 
        network with high connectivity and interoperability. It will 
        ensure knowledge superiority, common situational understanding, 
        and increased speed of command. This FNC is a key enabler of 
        FORCEnet.
        <bullet> Littoral Antisubmarine Warfare (ASW)--This program is 
        part of our shift in emphasis to littoral, expeditionary 
        operations. The ASW challenge in coastal waters is a tough one, 
        so we are focusing scientific efforts on enhancing our ability 
        to detect, track, classify, and engage enemy submarines by 
        using a layered tactical ASW approach. We do this by first 
        countering enemy submarines near shore, followed by addressing 
        threat submarines prior to their torpedo launch, and then 
        countering any threat torpedoes after launch. Each layer by 
        itself will effectively address its individual objective; and 
        when the layers are viewed in their entirety, it offers an 
        effective ``system-of-systems'' approach that we believe will 
        adequately address the ASW problem. Sea Shield is benefiting 
        from the enabling capabilities of this FNC.
        <bullet> Littoral Combat and Power Projection--The enabling 
        capabilities in this FNC are aligned to Sea Strike. This FNC 
        focuses on deploying uniquely capable combat and logistics 
        systems necessary to deploy and sustain the fleet and the force 
        without building up a large logistical infrastructure ashore.
        <bullet> Missile Defense--This program is focused on technology 
        enabling and supporting lethal engagements of theater missiles, 
        manned and unmanned aircraft at extended ranges in defense of 
        naval forces and assets afloat and ashore. Products being 
        worked will offer ways to expand the battlespace rapidly, 
        identify contacts accurately, and engage threats effectively 
        and efficiently. The Missile Defense FNC is a aligned to the 
        Sea Shield pillar of the Navy's Sea Power 21 operational 
        concept.
        <bullet> Organic Mine Countermeasures--Because they are cheap, 
        and able to seed the battle space with a menace far out of 
        proportion to their numbers, mines have been and will continue 
        to be deployed against us by terrorists and their state 
        sponsors. We're working to give our forces an organic--that is 
        to say, an inherent--and stand-off ability to detect, 
        characterize, and neutralize mines wherever they may be 
        encountered. Aligned with Sea Shield, this FNC has transitioned 
        several important products. One of them, the REMUS autonomous 
        underwater vehicle, is now in the hands of our operating forces 
        in Iraq where it helped clear the rivers to speed supplies to 
        troops. REMUS emerged from a basic oceanographic research 
        program--another piece of evidence that overnight successes are 
        long in preparation.
        <bullet> Time Critical Strike--We are substantially reducing 
        the amount of time it takes to hit critical mobile targets, 
        like theater ballistic missiles launchers, command centers, and 
        weapons of mass destruction. One of this FNC's products, the 
        Affordable Weapon System, a loitering cruise-missile-like 
        system that can carry a variety of payloads, transitioned to 
        the acquisition community for development. Time Critical Strike 
        is aligned with Sea Strike.
        <bullet> Total Ownership Cost--This FNC uses advanced design 
        and manufacturing processes to significantly decrease the cost 
        of buying, operating, and maintaining Navy systems while 
        promoting increased system readiness. We are working to reduce 
        total lifecycle costs during design and manufacturing as well 
        as increase savings realized from reduced manning and better 
        environmental compliance. This FNC supports efforts across all 
        the Sea Pillars.

    The relatively mature technologies managed in FNCs do not spring up 
overnight. In many cases they are the result of long-term investments 
in research and invention programs in basic research and early applied 
research funding categories. We focus our research and invention 
investments on areas where the Navy is the only significant U.S. 
sponsor, such as Ocean Acoustics and Underwater Weaponry, and on S&T 
Grand Challenges whose solution would provide significant advances in 
naval capability, such as Naval Materials by Design. A stable, long-
term discovery and invention investment is essential to keep our 
pipeline full of enabling technologies and to attract the Nation's best 
scientific talent to focus on naval problems.
                       transformation initiatives
    In addition to the FNCs, there are several ongoing S&T initiatives 
that may provide game-changing capabilities. They include the 
hypersonics flight demonstration program (HyFly), superconducting 
electric drive motors, the Virtual At-Sea Training (VAST), and the 
Advance Multi-Function Radio Frequency Concept (AMRF-C).
    The HyFly, a National Aerospace Initiative, will seek to 
demonstrate a hypersonic vehicle with a sustainable cruise speed of 
Mach 6 and a range of 600 nautical miles. To obtain this performance, 
work is focusing on the Dual-Combustion Ramjet (DCR) concept invented 
by the Johns Hopkins University Applied Physics Laboratory. Unlike the 
pure supersonic combustion ramjet--or ``scramjet''--which requires 
highly reactive fuels unacceptable in the naval environment, the DCR 
relies on conventional liquid hydrocarbon fuels.
    The Secretary of the Navy and the Chief of Naval Operations are 
committed to making the electric ship our ship of the future and we are 
providing the S&T. A key requirement for installing electric propulsion 
in a destroyer-sized combatant is a high-power electric motor. Although 
conventional induction motors can be scaled up to that power level, and 
there is similar promise in permanent-magnet synchronous motors, the 
phenomenon of superconductivity offers significant potential for 
smaller size, higher power density, and quieter running. At very low 
temperatures, approaching absolute zero, superconducting materials lose 
virtually all resistance to the flow of electric current, which means 
that extremely large currents can be carried in smaller wires without 
excessive heat dissipation. These large currents also generate much 
more powerful magnetic fields--and hence more electromotive force--in 
motor windings much smaller than their conventional counterparts. Thus, 
for the same power output, a superconducting motor can be as much as 70 
percent smaller than its conventional equivalent, even including the 
cooling system needed to maintain sufficiently low temperatures.
    The VAST system was first demonstrated in fleet exercises in 
November 2002 and will be incorporated into the Battle Force Tactical 
Training program. VAST superimposes a three-dimensional, virtual-
reality battlespace on an area of the open ocean and enables ships' 
crews to conduct live-fire gunnery exercises against simulated land 
targets at sea. A sonobuoy field planted in the target area locates the 
fall of each round within the simulated battlespace, and its effect 
appears on a computer-generated display that shows how a real-world 
view of the area would appear to a forward observer. Simultaneously, 
other computer screens show the corresponding radar or visual pictures 
for fire-control plotters, gunners, and navigators. In the sense that 
its simulated battlespace can be modeled on actual targets of interest 
anywhere in the world, VAST provides even more realistic training than 
a fixed gunnery range ashore. Soon, these same virtual-reality 
techniques will be extended to support at-sea training for close air 
support, long-range strike missions by naval aircraft, and undersea 
warfare.
    The growing number of shipboard radio frequency (RF) functions that 
require topside antennas and apertures creates a serious challenge for 
the Navy, particularly when own-ship radar signatures must be so 
carefully controlled. The AMRF-C is focused on a proof-of-principle 
demonstration of broadband RF apertures capable of performing radar, 
electronic warfare, and communication functions simultaneously using 
common, low signature phased arrays. AMRF-C will divide the frequency 
band into an optimal number of bandwidth segments and use separate, 
electronically scanned, solid-state transmit and receive apertures in 
each portion. AMRF-C's initial demonstration will concentrate on the 
upper band and simultaneously accommodate low-probability-of-intercept 
navigation radar, satellite and data link communications, and 
electronic warfare functions, including electronic attack. An AMRF-C 
test bed that incorporates a prototype control and signal-processing 
architecture is already in operation, and promising transition 
opportunities have been identified.
              transformation--innovative naval prototypes
    The fiscal year 2006 budget requests funding to develop several 
Innovative Naval Prototypes (INPs). These initiatives include:

        <bullet> An electromagnetic railgun prototype gun capable of 
        launching precision-guided, hypersonic projectiles at 
        supersonic speeds against targets with flight times measured in 
        seconds and minutes, not hours;
        <bullet> New concepts for persistent, netted, littoral ASW. Can 
        we integrate multiple unmanned underwater vehicles and other 
        sensors, an associated underwater support infrastructure, into 
        a comprehensive distributed surveillance system that would 
        consist of a substantial number of independent, but mutually 
        communicating, vehicles equipped with tactical or oceanographic 
        sensors for continually searching a shared ocean volume? 
        Cooperating units could dump collected data, replenish power 
        sources, and update mission assignments. Virtually all of the 
        sensor, propulsion, and docking technology needed to implement 
        such a scheme is already in hand, but challenges remain in 
        devising a reliable methodology for ``autonomous 
        collaboration'' among the participants;
        <bullet> Technologies to enable Sea Basing--for example, ONR's 
        longstanding investment in naval architecture and marine 
        engineering has supplied the technology--advanced hull types, 
        composite materials, and new propulsion systems--that will 
        enable the design and construction of 50-knot ``connector '' 
        ships able to deliver 5,000-ton payloads from sea bases to 
        objective areas some 3,000 miles away. Increasing 
        containerization of military cargo and supplies requires 
        corresponding new efficiencies in stowage and handling 
        procedures as well as the ability to transfer containers among 
        ships and to offload them onto lighters--at sea--in conditions 
        up to Sea State 4;
        <bullet> The tactical utilization of space. In direct response 
        to a Defense Department transformational initiative to 
        facilitate more timely exploitation of space by combatant 
        commanders, NRL will soon launch the first in a series of 
        experimental tactical micro-satellites denoted TACSAT-1. 
        TACSAT-1's concept of operations includes responsive, on-demand 
        space lift, near-real-time tasking by theater commanders, and 
        dissemination of sensor data by means of SIPRNet protocols. 
        TACSAT-1 will be launched into low-Earth orbit. The initial 
        sensor package will include both a thermal imager and a visible 
        light camera with modest, but tactically useful resolution. On 
        orbit, TACSAT-1 will be available to regional combatant 
        commanders for operational experiments intended both to 
        evaluate this initial micro-satellite system and to provide 
        real-world experience with the concept.

    I am excited about the INPs. These are the capabilities that 
promise to fundamentally change how we prepare for and fight wars. A 
more tangible example of this is the Sea Fighter FSF-1, also known as 
X-Craft, that we launched in February of this year. The Sea Fighter is 
a high speed aluminum catamaran that will test a variety of 
technologies that will allow us to improve our capabilities in 
littoral, or near-shore, waters. The Sea Fighter FSF-1 will be used to 
evaluate the hydrodynamic performance, structural behavior, mission 
flexibility, and propulsion system efficiency of high speed vessels. 
The Sea Fighter will be the first Navy purpose built ship to 
demonstrate mission flexibility. Mission flexibility will be 
demonstrated through interchangeable ``mission modules'' housed in the 
Sea Fighter's large Mission Bay in standard 20-foot container boxes. 
The Mission Bay will be capable of housing 12 containers, permitting 
the vessel to be quickly reconfigured to support a variety of potential 
missions, including battle force protection, mine countermeasures, 
amphibious assault support, and humanitarian support. A multi-purpose 
stern ramp will allow Sea Fighter to launch and recover manned and 
unmanned surface and sub-surface vehicles up to the size of an 11 meter 
Rigid-Hull Inflatable Boat. From its flight deck, Sea Fighter FSF-1 
will be able to support 24-hour-a-day operations for up to two MH-60S 
helicopters. When turned over to the fleet in May 2005, Sea Fighter, 
manned by a joint Navy-Coast Guard crew of two dozen will serve as a 
risk reduction ``surrogate'' for Littoral Combat Ship (LCS) concept of 
operations and technical capabilities development.
            and beyond--the navy and marine corps after next
    At the basic research end of the spectrum, ONR-funded 
investigations are administered in accordance with scientific and 
technical disciplines--ocean sciences, materials, electronics, 
mathematics, physics, chemistry, medicine, and others--and their focus 
is on discovering and understanding new phenomena that hold promise for 
future application in the Navy/Marine Corps-after-next. Our research 
investment priorities focus on areas that are uniquely naval and 
maritime and usually of interest primarily to the sea services and 
areas where we leverage applicable naval disciplines in conjunction 
with the rest of America's basic research establishment.
    We integrate the Naval Research Laboratory and ONR programs to 
maintain a strong corporate lab at the Naval Research Laboratory. 
Thanks to Thomas Edison's vision the Naval Research Laboratory has a 
long history at the forefront of basic research, including radar, 
nuclear propulsion, advances in timekeeping for the Global Positioning 
System, development of satellites, electronic warfare, and today's 
global war on terrorism ``tools'' to name a few.
    A portion of our applied research (6.2) investment plans are 
targeted to the harvest of successful basic research concepts and 
knowledge for use in the FNCs, the INPs, experimentation, and other 
transitions. We are working to reduce the transition time of the fruits 
of the discovery and invention to less than 10 years. We also work 
closely with the other Services through the DOD Reliance process to 
help rationalize the DOD-wide S&T portfolio.
    National Naval Responsibilities shape these basic and early-applied 
research portfolios, and ONR has earmarked a significant portion of its 
resources to sustain a critical mass of research and development 
efforts in these areas. These scientific and engineering disciplines--
ocean acoustics, underwater weapons, and naval engineering--are 
critical for naval missions but are of limited interest to commercial 
industry and thus unlikely to attract significant private-sector 
investment. It is vital to keep such fields healthy, not only for the 
sake of our own capabilities, but to avoid technological surprise as 
well.
    The naval S&T Grand Challenges are large, difficult, challenges 
that, if met, could give us decisive capabilities 15 to 30 years in the 
future. We encourage the Nation's scientific community to achieve 
breakthroughs in difficult but achievable scientific challenges like 
Naval Battlespace Awareness, Advanced Electrical Power Sources for the 
Navy and Marine Corps, Naval Materials by Design, and Multifunctional 
Electronics for Intelligent Naval Sensors.
    In conclusion, the Nation's return on investment is clear. Success 
in the global war on terrorism, naval transformation, and Navy and 
Marine Corps-after-next, depends on a balanced, long-term, stable, and 
sustained investment in S&T, validated through a cycle of ongoing 
experimentation so we can transition new capability to the warfighter.
    Thank you for the opportunity to testify.

    Senator Cornyn. Thank you, Admiral.
    Mr. Engle, we would be glad to hear you next.

STATEMENT OF JAMES B. ENGLE, DEPUTY ASSISTANT SECRETARY OF THE 
       AIR FORCE FOR SCIENCE, TECHNOLOGY AND ENGINEERING

    Mr. Engle. Mr. Chairman, members of the subcommittee and 
staff, I also very much appreciate the opportunity to provide 
testimony on the fiscal year 2006 Air Force S&T program.
    The United States Air Force continues to transform to a 
capabilities-focused expeditionary air and space force based on 
the concepts of operations (CONOPs) for each of the seven major 
tasks that the Air Force must be capable of accomplishing to 
support our combatant commanders. The Air Force is focused on 
delivering the ability to effectively and affordably train, 
organize, and equip our military forces. The Air Force 
Integration Capability Review and Risk Assessment (I-CRRA) 
master planning process encompasses the effects and 
capabilities required by the seven CONOPs and is key to 
ensuring we have a high correlation between our S&T programs 
and the warfighting capabilities required by these concepts.
    As a result of this capability review and risk assessment, 
the Air Force realigned approximately $500 million of its S&T 
funding to support higher-priority areas over the Future Years 
Defense Program (FYDP). These areas included the Battlefield 
Air Operations (BAO) kit, which I will discuss in more detail 
in a moment; the commander's predictive environment, which 
teams our human effectiveness and information technology 
communities working on network-centric warfare applications; 
and Air Force-unique nanotechnology efforts in the areas of 
chemistry, electronics, and materials.
    Fiscal constraints, operational demands, and ongoing 
peacekeeping operations and conflicts in such places as 
Afghanistan and Iraq continue to place a great burden on our 
people, our already stressed operational systems, and our 
supporting logistics. However, the Air Force is working to 
increase the S&T funding to ensure we maintain our technology 
options in support of future warfighting needs.
    The Air Force fiscal year 2006 budget request for S&T is 
$1.98 billion. This includes $1.4 billion in core S&T efforts, 
which represents an increase of over $60 million, or almost 2.3 
percent real growth compared to the President's budget request 
for a similar core amount of S&T investment in fiscal year 
2005.
    Also with an eye toward maintaining our long-term superior 
warfighting capability, this year's President's budget request 
includes $340 million in basic research funding, or about 18 
percent of the Air Force's S&T budget. Included in this amount 
are university research initiatives and high-energy laser basic 
research programs that were transferred to Air Force S&T by the 
Office of the Secretary of Defense (OSD) the year before last. 
These efforts, along with additional high-energy laser programs 
that also transferred to the Air Force, continue to do well and 
receive oversight and policy guidance from the OSD while the 
Air Force works hard to ensure these programs support the 
diverse multiple military objectives inherent in joint 
activity.
    In addition, the seismic research program for detection of 
nuclear explosions has been successfully integrated into core 
Air Force S&T programs. We continue to work with the OSD, the 
Air Force Technical Applications Center, the Army, and the 
Department of Energy to ensure the right level of investment in 
seismic research that will address the operational nuclear 
explosion monitoring needs of our country.
    As the Air Force continues to transform to meet current and 
future security challenges, we must prepare for a broad 
spectrum of capabilities that address three strategic 
contributions that air and space power provide: persistent 
C\4\ISR, global mobility, and rapid strike. All of this must be 
done, recognizing that we will, in most situations, be 
operating in a joint and often coalition environment. We work 
closely with the warfighter to anticipate new operational needs 
arising from changing national and world security environments 
and to develop and demonstrate S&T applications to rapidly 
mitigate irregular, catastrophic, and disruptive threats, as 
well as traditional threats.
    Our prime example is the Air Force special tactics combat 
controller BAO kit that I mentioned earlier. Lighter batteries, 
hearing protection, and more efficient target designation are 
some of the examples of ongoing BAO kit technology 
enhancements.
    The Battlefield Air Targeting Camera Autonomous Micro-air 
Vehicle (BATCAM), which I brought with me today--and I think 
you have all had a chance to look at--replaces the current 
unmanned air vehicle (UAV) system in the BAO kit with one that 
is 5 times smaller and 10 times lighter. It still provides 
covert reconnaissance. It is simple to operate, inexpensive 
enough to be expendable, and can provide real-time battle 
damage assessment. These new BAO kits provide a joint 
capability that will help save American lives and the lives of 
innocent civilians.
    The Bombot robot, which I also brought with me today, 
provides a joint service capability to aggressively destroy 
explosive devices. The Air Force was selected to develop Bombot 
because of our experience and expertise in ground vehicle 
robotics. The effort resulted in the development of a very 
small, off-road, remote-controlled, reusable robot that has 
been deployed to Iraq for destruction of IEDs. The robot uses 
video feedback or line-of-sight RF to find IEDs, drop the 
explosive destruction charge and move to safety.
    The First Response Expeditionary Fire Vehicle shown in the 
poster boards behind me today provides a lightweight air-
droppable system for effective crash and rescue fire-fighting 
services starting on day one of deployments. This compact, 
lightweight system can be transported on military HMMWVs, 
Gators, or other small vehicles and can effectively extinguish 
two- and three-dimensional fires with one-fifth the 
firefighting agent.
    As demonstrated in the laser eye protection display today, 
the Air Force continues its laser countermeasures effort 
designed to protect warfighters with multiple capabilities and 
approaches to address laser hazards and threats. These 
capabilities and approaches include technologies for training 
tactics, personnel protection, optical hardening, as well as 
technical data to established DOD policies and international 
treaties.
    The Air Force is also developing technology to better 
prosecute the offensive portion of the global war on terrorism. 
The hardened surface target ordnance package (HardSTOP) is an 
airdrop munitions technology development focused on multi-story 
targets in urban terrain. HardSTOP is equipped with over 50 
mini-penetration charges to allow it to hit targets within 
multiple-story buildings and soft bunker type targets. 
Additionally, HardSTOP provides low collateral damage with a 
precisely selectable explosion diameter of as little as 20 
feet.
    We are also engaged in other areas and are working to 
ensure that we transform, as we continue to integrate these 
expanding capabilities with those of other services and non-
military elements of our national power. The technology 
upgrades to Global Hawk propulsion and power systems are an 
example of spiral development. Power extraction from the low-
pressure turbine will triple the current onboard power 
capacity, which is currently 25 kilowatts to 75 kilowatts, as 
an integral starter generator will provide essential in-flight 
engine restart capability, and low temperature fuel additives 
will decrease operations and maintenance costs associated with 
the current fuel mixtures.
    In the area of world-class research, Air Force technologies 
continue to stand out, including directed energy activities at 
Starfire Optical Range at Kirtland, New Mexico, which is 
leading atmospheric compensation technology development for use 
in large ground-based telescopes to image satellites and 
propagate laser beams through the atmosphere.
    Our Information Directorate's networked cyber operation 
tools research at Rome Research Site in Rome, New York, has 
also been cited with exemplar laboratory programs.
    Finally, the Air Force S&E workforce, as you mentioned 
earlier in your opening remarks, is another area that we are 
meeting with great success. The Air Force is generating enough 
S&Es at the present time to sustain Air Force needs through its 
developmental education programs and various recruitment and 
retention initiatives. The Air Force is attracting the best and 
the brightest. We are getting graduates with 4.0 grade point 
averages, and many of our recruiting initiatives are aimed at 
attracting students into the Air Force S&E career field. We 
also have several education programs within our core basic 
research program that could enhance our S&E workforce, such as 
the National Defense Science and Engineering Graduate 
Fellowship program. The Air Force is committed to continuing to 
shape its S&E workforce with the vision to enhance excellence 
and relevance of S&E into the 21st century and appreciates the 
support Congress has already provided.
    In conclusion, the Air Force is fully committed to 
providing this Nation with the advanced air and space 
technologies required to meet America's national security 
interests around the world and to ensure we remain on the 
cutting edge of systems performance, flexibility, and 
affordability.
    The technological advantage we enjoy today is a legacy of 
decades of investment in S&T. However, in this post-Cold War 
world, we cannot afford to rest on our laurels. We are focusing 
our S&T program to meet the challenges of a new security 
environment. The global war on terrorism drives a different 
construct for Air Force S&T, and we are focusing our top talent 
and investing our funds on many efforts that address this war. 
Air Force core competencies in S&T enable solutions to meet 
these emerging threats. The Air Force S&T program continues to 
provide for the discovery, development, demonstration, and 
timely transition of affordable technologies that keep our Air 
Force the best in the world.
    As an integral part of the DOD S&T team, we look forward to 
working with Congress to ensure a strong Air Force S&T program 
tailored to achieve our vision of a superior air and space 
force that can identify and defeat both traditional and global 
war on terrorism targets.
    Mr. Chairman, thank you again for the opportunity to 
present testimony and thank you for your continued support of 
the Air Force S&T program.
    [The prepared statement of Mr. Engle follows:]
                  Prepared Statement by James B. Engle
                              introduction
    Mr. Chairman, members of the subcommittee, and staff, I very much 
appreciate the opportunity to provide testimony on the fiscal year 2006 
Air Force science and technology (S&T) program. The United States Air 
Force continues to transform to a capabilities-focused Expeditionary 
Air and Space Force based on the concepts of operations (CONOPs) for 
each of the seven major tasks the Air Force must be capable of 
accomplishing to support our combatant commanders. The Air Force is 
focused on delivering the ability to effectively and affordably train, 
organize, and equip our military forces. The Air Force Integration 
Capabilities Review and Risk Assessment (I-CRRA) master planning 
process encompasses the effects and capabilities required by the seven 
CONOPs. This master planning process is key to ensuring we have a high 
correlation between our S&T programs and the warfighting capabilities 
required by these CONOPs. In fact, in the fiscal year 2006 President's 
budget request, the Air Force reprioritized approximately $500 million 
of its S&T program to address capability needs identified in the master 
planning process.
    The United States Air Force is committed to defending America by 
unleashing the power of S&T. Our S&T program enables us to achieve our 
vision of becoming an integrated Air and Space Force capable of rapid 
and decisive global engagement. The Air Force S&T program is 
aggressively pursuing high payoff technologies and is focused on 
current and future warfighting capabilities to address not only 
traditional threats, but also the global war on terrorism. The Air 
Force is focusing on technologies to meet the capability needs of the 
combatant commanders. Many of these technologies could be applicable to 
a number of different joint uses and the Air Force actively pursues 
joint programs and sharing of technology with the Services, Defense 
Agencies, Homeland Security, and others.
    A broad foundation of basic, applied, and advanced technology S&T 
investment enables our scientists and engineers (S&Es) the freedom to 
innovate and is the key to ensuring the Air Force will meet the 
challenges of tomorrow. The output of this broad base of science 
investments provides our leadership the opportunities to respond 
quickly to a rapidly changing world. A key example of this flexibility 
is our rapid response to the global war on terrorism with technologies 
to help defend against both traditional and asymmetrical threats. We 
are able to deal with the uncertainty of tomorrow because of our broad 
investment in S&T today--an investment geared towards winning 
decisively, protecting our forces, and minimizing collateral damage at 
anytime and any place in the world.
                s&t budget/senior leadership involvement
    Fiscal constraints, operational demands, and ongoing peacekeeping 
operations and conflicts in places such as Afghanistan and Iraq, 
continue to place a great burden on our people, our already stressed 
operational systems, and our supporting logistics. However, the Air 
Force is working to increase S&T funding to ensure we maintain our 
technology options in support of future warfighting needs. The Air 
Force fiscal year 2006 budget request for S&T is $1.98 billion--this 
includes $1.4 billion in ``core'' S&T efforts, which represents an 
increase of over $60 million or almost 2.3 percent real growth compared 
to the requested amount for similar ``core'' S&T efforts in fiscal year 
2005. An additional $77.8 million in Joint Unmanned Combat Air Vehicle 
funding was added to the S&T program in fiscal year 2006 only.
    Of the programs that were transferred to Air Force S&T the year 
before last, all continue to do well. The University Research 
Initiative program plus the High Energy Laser programs, which were 
devolved to the Air Force by the Office of the Secretary of Defense 
(OSD), continue to receive oversight and policy guidance from the OSD, 
while the Air Force works hard to ensure these programs support the 
diverse multiple military objectives inherent in joint programs. In 
addition, the Seismic Research Program for detection of nuclear 
explosions has been successfully integrated into the core Air Force S&T 
program. We continue to work with the OSD, the Air Force Technical 
Applications Center, the Army, and the Department of Energy to ensure 
the right level of investment in seismic research that will address 
operational nuclear explosion monitoring needs.
    Warfighter and senior Air Force leadership involvement in the 
planning, programming, and prioritizing of Air Force S&T continues to 
be a priority. The I-CRRA master planning process, previously 
mentioned, involves several levels of senior Air Force leadership, 
including the Secretary and the Chief of Staff of the Air Force plus 
all the four stars, and promotes a greater understanding within the Air 
Force of the S&T program and its link to warfighting capabilities. The 
Chief, along with the Secretary, the Air Force Service Acquisition 
Executive, and the Air Force Materiel Command Commander, also 
participates in a full portfolio review of the S&T program similar to 
the former S&T summits. The Capabilities Program Execution Review 
continues to provide a forum in which the commander of each major 
command is afforded a focused look at his portfolio, an opportunity to 
resolve issues at the system/program level, and insight into the S&T 
program. Finally, the Applied Technology Councils continue to bring 
acquisition product centers, logistics centers, major user commands, 
and laboratory personnel together to review, discuss, and prioritize 
S&T efforts.
                             transformation
    The objective of Air Force S&T is to develop technologies for 
lighter, leaner, and more lethal weapon systems and their support 
structure through the continuing discovery, exploitation, 
demonstration, and rapid transition of technology to meet users' 
operational needs. All of this must be done recognizing that we will, 
in a number of situations, be operating in a joint and often a 
coalition environment. The S&T world is usually where new weapon 
systems begin their development process. This is the ideal time to 
consider the full life cycle cost savings by considering maintenance, 
sustainment, and disposal costs. During a conflict, it is not unusual 
for combat-identified problems or needs to be highlighted and near-term 
solutions developed--the Battlefield Air Operations (BAO) kit and the 
robotics improvised explosive device (IED) destruction robotic vehicle 
are examples. Yet, it is imperative that the S&T process considers the 
entire life cycle cost of a proposed system from development to 
disposition.
    As the Air Force continues to transform from a Cold War to a post-
Cold War Air and Space Force, we must prepare for both traditional and 
new forms of terrorism to include attacks on our space assets, attacks 
on our information networks, cruise and ballistic missile attacks on 
our forces and territory, and attacks by adversaries armed with 
chemical, biological, radiological, nuclear, or high explosive weapons. 
To address these emerging possibilities, the Air Force has established 
a process of transformation to achieve and maintain the advantage 
through changes in operational concepts, organization, and/or 
technologies that significantly improve its warfighting capabilities or 
ability to meet the demands of a changing security environment.
    When examining the concept of combat transformation, one must 
remember transformation is not the result of a one-time improvement or 
change, but rather a continuum of sustained and determined efforts. It 
is more than new ``show stopping'' technology as it includes adapting 
existing capabilities, using them in new ways, changing the 
organization structure to increase effectiveness, and changing doctrine 
and our CONOPs. We are also working to ensure that as we transform we 
continue to integrate these expanding capabilities with those of the 
other services and nonmilitary elements of national power--we must 
evolve and embrace joint and coalition operations as we transform. 
Finally, we do not believe that transformation should be achieved at 
the expense of ongoing operations in support of the Department of 
Defense (DOD) strategy of maintaining adequate readiness and 
infrastructure, conducting critical recapitalization, and attracting 
quality personnel--to achieve rational transformation, there must be a 
careful balance between these requirements, which all compete for 
limited resources.
    We work closely with the warfighter to anticipate new operational 
needs arising from changing national and world security environments 
and to develop and demonstrate S&T applications to rapidly mitigate 
traditional and global war on terrorism threats. At almost $2 billion, 
the fiscal year 2006 budget request for Air Force S&T is funded at a 
level to achieve the distinctive capabilities that support Air Force 
warfighting needs.
                               workforce
    The Air Force S&E workforce is another area where senior Air Force 
leadership involvement has played a pivotal role; and the steps taken 
to address S&E workforce issues are meeting with great success. The Air 
Force is generating enough S&Es at present to sustain Air Force needs 
through its developmental education programs and various recruitment 
and retention initiatives. Our workforce continues to be highly 
motivated and productive and the fact that approximately 20 percent of 
our laboratory S&E government workforce is active duty military gives 
us a direct link to the warfighter, which in turn helps us to focus 
technology development on warfighting capability needs. The Air Force 
is committed to continuing to shape its S&E workforce with the vision 
to enhance excellence and relevance of S&T into the 21st century and 
appreciates the support Congress has already provided.
                         technology transition
    Our goal is to get technology to the warfighter. There are several 
ways we measure our effectiveness in obtaining this goal. The Air Force 
believes that looking at legacy systems is one of the most effective 
metrics available. While not perfect, it does demonstrate the 
transition of S&T products into operational warfighting capabilities. 
An excellent example is the F-35. A number of Air Force S&T developed 
or sponsored technologies that transitioned to the F-35 can be traced 
back to S&T investments in previous years. These technologies include 
efforts such as low-observable materials and airframe structures; 
advanced two-dimensional, thrust vectoring nozzles; new durable turbine 
engines; airframe design; and advanced radar.
    In the space arena, examples of technologies that have transitioned 
into space ``products'' include radiation-hardened electronics; longer 
life, lighter weight lithium ion batteries; lightweight composite 
materials; compact, more efficient solar cells; and Hall thrusters. In 
addition, a number of information-related technologies from the Joint 
Battlespace Infosphere (JBI) program have transitioned into operational 
and commercial use. The JBI network centric environment provides the 
framework to establish basic principles and draft standards for a 
variety of different applications.
    Spiral acquisition allows an opportunity for very rapid technology 
transfer. A good example is our BAO kit, which Air Force ground 
controllers use to call in air strikes. Changes in this system were 
rapidly transitioned into use during Operation Enduring Freedom in 
Afghanistan. The BAO kit is one of the Air Force's top priorities and 
continues being developed in several different acquisition spirals as 
the different technology areas mature. The technology upgrades to 
Global Hawk's propulsion and power system are another example of spiral 
acquisition. Power extraction from the low-pressure turbine will triple 
the current on-board power capacity, an internal starter generator will 
provide essential in-flight engine restart capability, and low-
temperature fuel additives will decrease operations and maintenance 
costs associated with current fuel mixtures.
    Technology transition into operational use is the ultimate metric 
for assessing the value of our S&T investment and the warfighting 
capabilities it provides to the Air Force. As evidenced by our high 
technology legacy systems, the technology transitioned from S&T into 
developmental and operational products is extensive and provides 
confidence that S&T funding is being wisely invested.
                          world-class research
    The quality of our program is assessed by the Air Force Scientific 
Advisory Board (SAB) through yearly reviews. The SAB conducts an in-
depth review of half of the S&T program each year, covering the entire 
program over a 2-year period. Eleven technical areas were identified as 
world-class research during the last 2-year cycle of reviews.
    The Directed Energy Directorate's Starfire Optical Range at 
Kirtland Air Force Base, New Mexico, is leading atmospheric 
compensation technology development for use in large ground-based 
telescopes to image satellites and propagate laser beams through the 
atmosphere. They have just developed a sodium laser system that will 
allow compensation for a significantly larger portion of the atmosphere 
along the laser's path. This will enable higher-quality, ground-based 
observations of space objects and enhanced propagation of laser beams 
through a turbulent atmosphere. Satellite images obtained by using this 
technology can provide real-time status information that cannot be 
obtained in any other manner.
    The SAB cited the Information Directorate's cyber operations tools 
research at Rome Research Site in Rome, New York, as an exemplar 
laboratory program with a strong vision, leading edge research that 
anticipated operational needs, and having invented and delivered an 
impressive array of offensive and defensive cyber operations tools to 
the warfighter.
    The SAB also cited the Information Directorate's research in 
Advanced Computing Architectures, a program that includes technologies 
dealing with current problems and technologies of the future. 
Especially mentioned was the work with the Joint Strike Fighter, 
unmanned air vehicles (UAVs), and the Joint Tactical Radio System.
    Another SAB-rated world-class research program is Directed Energy 
Bioeffects being worked by our Human Effectiveness Directorate at 
Brooks City-Base, Texas. Specific research areas include understanding 
laser effects on humans, radio frequency dosimetry, and the fundamental 
bioeffects knowledge of lasers. The Materials and Manufacturing 
Directorate at Wright-Patterson Air Force Base, Ohio, conducts world-
class research in probalistic micromechanical modeling of material 
durability that is based on the physics of failure. Thermo mechanical 
process modeling of metals is having a significant impact on material 
standards and process control.
    The SAB also rated the Automatic Target Recognition (ATR) work 
performed by the Sensors Directorate at Wright-Patterson Air Force 
Base, Ohio, as world-class. ATR enables faster and more accurate 
detection, identification, and prosecution of time-critical targets. We 
are developing ATR tools to better detect targets in urban and obscured 
environments, as well as to change detection algorithms to aid in the 
detection of improvised explosive devices (IEDs). By fusing detection 
and cueing tools with signature databases and advanced signature 
modeling we continue to shorten the ``kill chain.''
    The Space Vehicles Directorate's weather research at Hanscom Air 
Force Base, Massachusetts, continues to be a SAB-rated world-class 
technology development program. The weather modeling and simulation 
capability undergoes frequent spiral upgrades to specify and forecast 
space weather from the Sun to the ionosphere.
    Also, while not specifically identified by the SAB, the Air Force 
has a significant investment in various aspects of nanotechnology. 
Scientific breakthroughs and technology advances in the past few years 
have demonstrated the large potential of nanotechnology to address a 
number of different Air Force applications. Attributes, such as high 
strength, could result in lighter and faster air vehicles and could 
enable miniature satellites. Nanotechnology could also make a 
significant contribution to advanced energy and energetic materials.
                          combating terrorism
    The Air Force S&T program has a considerable portfolio of 
technology focused on the global war on terrorism. One prime example is 
the Elastomeric Coating, which the Air Force developed to protect key 
buildings and installations from close proximity explosions. This easy-
to-apply spray coating is contributing to the safety and protection of 
deployed troops.
    As mentioned earlier, the Air Force continues to provide spiral 
upgrades to the Air Force Special Tactics Combat Controllers BAO kit. 
Lighter batteries, hearing protection, and more efficient target 
designation are some examples of ongoing BAO kit technology 
enhancements. Another enhancement example is the Battlefield Air 
Targeting Camera Autonomous Micro-air Vehicle (BATCAM). BATCAM replaces 
the current UAV system in the BAO kit with one that is five times 
smaller and ten times lighter, yet still provides covert 
reconnaissance, is simple to operate, inexpensive enough to be 
expendable, and can provide real-time battle damage assessment. Still 
another example is the Battlefield Renewable Integrated Tactical Energy 
System (BRITES). BRITES is designed to replace the various batteries 
that are currently carried with a system and is 50 percent lighter, but 
still provides for the same capability. These new BAO kits provide a 
joint capability that will help save American lives and the lives of 
innocent civilians. BAO enhancements provide a revolutionary and highly 
effective way to combat the global war on terrorism threat.
    In close coordination with the other services, the Air Force is 
utilizing its expertise in metal-infused ceramics to develop a more 
effective, lightweight armor. This new material was being developed by 
the Air Force for air vehicle applications. It turns out, however, that 
the new advanced lightweight metal-infused ceramic armor has additional 
applications and could be used in body protection armor and has been 
shown to be effective against shrapnel and multiple small arms shots. 
Additionally, the metal-infused ceramic armor is cheaper, lighter, and 
easier to produce than the standard plates.
    The Bombot robot provides a joint-service capability to 
aggressively destroy explosive devices. The Air Force was selected to 
develop Bombot because of our expertise in ground vehicle robotics. The 
effort resulted in the development of a very small reusable robot that 
has been deployed to Iraq for destruction of IEDs. The robot is a 
small, off-road remote controlled vehicle equipped with a small 
explosive charge delivery system. It is remotely controlled and uses 
either video or feedback or simply line-of-sight radio frequency to 
find the IED, drop the explosive destruction charge, and move to 
safety. This small robot weighs 17 pounds and costs about $3,000.
    The Air Force continues to leverage its success in manportable, 
shoulder-fired missile (MANPADS) countermeasures with the development 
of the Affordable Laser Infrared Countermeasure Survivability System 
(ALISS). ALISS provides aircrew with a highly-effective, threat-
adaptable, jamming infrared countermeasure to the proliferating MANPADS 
threat. Even with its emphasis on affordability, ALISS provides missile 
launch detection and jamming out to beyond the maximum range of 
existing MANPADS with few false alarms. Additionally, since ALISS is a 
pod system, it can be retrofitted onto a variety of aircraft platforms, 
including civilian aircraft.
    The Air Force is also developing technology to better prosecute the 
offensive portion of the global war on terrorism. The Hardened Surface 
Target Ordnance Package (HardSTOP) is an airdrop munition technology 
development focused on multi-story targets in urban terrain. HardSTOP 
is equipped with over 50 mini-penetration charges to allow it to hit 
targets within multi-story buildings and soft bunker type targets. 
Additionally, HardSTOP provides low-collateral damage with a precisely 
selectable explosion diameter of as little as 20 feet.
                     transformational technologies
    There are many other Air Force technology areas that deserve 
special mention. Let me highlight just a few examples. Solid state 
lasers have been around for many years, but we are finally seeing them 
approach weapons class power levels. These lasers offer great promise 
as small, efficient, electrically powered systems that can project 
effects at the speed of light with a magazine that depends only on 
available power generation. The Joint High Power Solid State Laser 
program is jointly funded by the Air Force, the High Energy Laser Joint 
Technology Office, and the Army. In the next few months, we should see 
three competing systems demonstrating close to 25 kilowatts with the 
potential of good beam quality over relevant shot times. We are also 
developing and tracking other promising solid state technologies. There 
are many potential applications for high-powered solid state lasers 
such as aircraft self-protection, anti-sensor weapons, and tactical 
weapons on ground, sea, and air platforms. Following these 
demonstrations, we will evaluate how to best get these transformational 
technologies to the warfighter.
    The Scramjet Engine Demonstrator (SED) is the culmination of our 
Hypersonics Technology work at Wright-Patterson Air Force Base, Ohio, 
and is the cornerstone of future hypersonic capabilities, such as 
destroying time-critical targets and responsive access to space. The 
objective of the SED program is to demonstrate the viability of a 
hydrocarbon-fueled scramjet engine through flight and ground test and, 
as such, is the first-ever flight demonstration of a hydrocarbon-fueled 
scramjet engine.
    In fiscal year 2006, the Air Force will continue to research and 
demonstrate a low collateral damage warhead, allowing a ``behind-the-
wall'' threat prosecution with a highly localized lethal footprint. The 
warhead case consists of a low-density, wrapped carbon-fiber/epoxy 
matrix integrated with a steel nose and base. The low-density composite 
case can survive penetration into a 1-foot hardened concrete wall. Upon 
detonation, the carbon-fiber warhead case disintegrates into small non-
lethal fibers with little or no metallic fragments, thus significantly 
reducing collateral damage to people and structures. The warhead 
explosive fill is a dense inert metal explosive containing fine 
tungsten particles to provide a ballasted payload with sufficient 
penetration mass. The tungsten displaces energetic material so as to 
reduce the total energetic used. The net results are higher dynamic 
energy impulse all within a small lethal footprint.
                               conclusion
    In conclusion, the Air Force is fully committed to providing this 
Nation with the advanced air and space technologies required to meet 
America's national security interests around the world and to ensure we 
remain on the cutting edge of system performance, flexibility, and 
affordability. The technological advantage we enjoy today is a legacy 
of decades of investment in S&T. However, in this post-Cold War world, 
we cannot afford to rest on our laurels. We are focusing our S&T 
program to meet the challenges of a new security environment. The 
global war on terrorism drives a different construct for Air Force S&T 
and we are focusing our top talent and investing our funding on the 
many efforts that address global war on terrorism. Air Force Core 
Competencies in S&T enable solutions to meet these emerging threats. 
The Air Force S&T program continues to provide for the discovery, 
development, demonstration, and timely transition of affordable 
technologies that keep our Air Force the best in the world. As an 
integral part of the DOD's S&T team, we look forward to working with 
Congress to ensure a strong Air Force S&T program tailored to achieve 
our vision of a superior Air and Space Force that can identify and 
defeat both traditional and global war on terrorism targets.
    Mr. Chairman, thank you again, for the opportunity to present 
testimony, and thank you for your continuing support of the Air Force 
S&T program.

    Senator Cornyn. Thank you, Mr. Engle.
    Dr. Tether, the floor is yours.

STATEMENT OF DR. ANTHONY J. TETHER, DIRECTOR, DEFENSE ADVANCED 
                    RESEARCH PROJECTS AGENCY

    Dr. Tether. Mr. Chairman, Senator Reed, Senator Nelson, 
thank you very much for inviting me here today to testify on 
DARPA's decisionmaking processes for strategic directions, 
priorities, and budgets.
    DARPA has many efforts directed at the global war on 
terrorism which have been described in both my written 
testimony and in the strategic plan that we delivered with our 
fiscal year 2006 budget. At the display behind me, there are 
just a handful of our quick reaction efforts which are today in 
Iraq helping our guys beat the stuffing out of the bad guys and 
bring them home safe.
    Our Boomerang program, for example, is a low-cost system to 
locate people shooting at convoys.
    Our Command Post of the Future (CPOF) system is a new way 
to do collaborative command and control where the commanders 
can stay where they are and do not have to come to a central 
location. Not only that, it is allowing everyone else on the 
net to see what is going on so that the fog of decisionmaking 
and why something was being done is now known to people at very 
low levels where it was not known before. Major General 
Chiarelli, who was a commanding general of the 1st Cavalry 
Division, told us and would tell you that CPOF in use today in 
Iraq is doing just that, helping them defeat the insurgents, 
and at the same time saving U.S. lives.
    Our gun truck technology is protecting convoys today. Right 
now the truck uses just steel plates. However, we have a neat, 
new material technology, really very simple, that is polymer, 
sort of like a steel-belted tire. It has shown great promise, 
and if we can show that this has the same capability, we will 
have more lightweight protection, but more importantly, we will 
be able to mold it into the right form. Not only that, we also 
think it might be useful for body armor.
    We also have some programs displayed on language, which is 
a great problem.
    However, your letter requested that we spend this time 
discussing how we shape our strategy and build our budgets. I 
guess you want to know how the sausage is made; sometimes not a 
pretty sight. Much of this was addressed in the strategic plan 
and also in my written testimony. So I am going to, therefore, 
use the time I have to give you examples and hopefully more 
insight into what I believe is a very thorough and complete 
process which has been reviewed at all levels of the Services 
and the OSD.
    A strategic plan has three elements: an objective, a 
strategy for meeting the objective, and tactics for 
implementing that strategy.
    DARPA's original objective, when created by President 
Eisenhower in 1958, was to prevent technological surprise such 
as Sputnik. Over the years, that objective has not changed but 
it has been modified to include not only preventing 
technological surprise but to create technological surprise for 
our enemies.
    Today's potential technological surprise comes in the form 
of what is sometimes termed asymmetric threats, transnational 
threats, threats without a country, or just plain terrorism. We 
have many efforts directed towards these threats, some of which 
I will talk about.
    Creating technological surprise for the enemy is a major 
activity. An example of DARPA-created technological surprise is 
stealth. DARPA has many programs oriented towards creating the 
same degree of surprise. However, these efforts cannot be 
discussed in this forum because, in order for something to be a 
surprise, it should not be known until it is ready. I would be 
pleased to come and brief any of you on all of these programs 
at your convenience. But let me assure you that the appropriate 
staff on your committee have full access and review all of 
these programs.
    DARPA's strategy for meeting these objectives manifests 
itself in the form of thrusts that change over time, fitting 
the conditions and problems of the day. Right now we have eight 
thrusts that center on providing new and enhanced capability. 
You have these in your plan, but they range from not allowing 
sanctuary for any surface target, whether it be fixed, mobile, 
or underground; developing tactical networks; space all the way 
to biology. There is a ninth thrust which is centered on the 
continued development of core technologies such as 
microelectronics, materials, information processing computer 
science in order to enhance current capability and to enable 
new capability.
    These thrusts have been generated directly from the 2001 
QDR and from interactions with senior service and civilians 
from each of the Services and defense agencies. The thrusts are 
then used in our budget process to guide what specific efforts 
should be funded. But we do not pick a thrust and allocate 
money to it and then look for ideas. You would be very lucky to 
get the right allocation. The way we work it is we go and look 
for the ideas. We have the thrust, which we use to tell people 
what we are interested in and we ask for ideas to come forth, 
then we fund the ideas. So we build up our budget really from 
the bottom up, from an idea funding as opposed to a top-down 
allocating money to thrusts. It is a very different type of 
process.
    But where do the ideas come from? They are found in many 
ways. We have program managers (PMs) who are only hired if they 
are the kind of people who can generate ideas. We get ideas 
from industry, obviously. We get ideas from universities. We 
get ideas from other S&T organizations within the DOD, and we 
get ideas from everywhere. We even get ideas from Congress. I 
did not mean it quite that way. Sorry. [Laughter.]
    In addition, senior managers at DARPA meet regularly with 
senior civilians and military leaders throughout the DOD.
    Now, to reinforce this, we have five operational liaisons 
at DARPA. These are people who are from each Service. We have 
one from each Service plus the National Geospatial Agency 
(NGA). They are senior in all respects. They are senior because 
they are a colonel or a captain in the Navy, usually at the end 
of their tour, and they are also old. But they come with a 
great rolodex. Their job at DARPA is take my PMs and bring them 
to the warfighter and to marry them. They act as that go-
between to bring technology to a warfighter, have the PM 
describe what he is doing to the warfighter. The warfighter 
then learns about something new that he might not have known 
about. Plus, the PM now learns about needs that he might have 
known about. This program has worked extraordinarily well in 
both getting ideas and transitioning technologies.
    This is something new for DARPA. I put two full-time DARPA 
people at U.S. Special Operations Command (SOCOM) in Tampa. We 
have two DARPA people in SOCOM at Tampa acting as operational 
liaisons between DARPA and SOCOM. Now, why did I do that? Well, 
SOCOM is a very special place. I consider it our experimental 
lab, and General Brown knows I feel this way. He agrees with 
it. He tries out our stuff. We have things. We bring them down. 
They actually go out and use them and come back and tell us 
what they thought about it, what is to be fixed or not. In 
fact, if on occasion we give them 25-30 things, we have 
outfitted the full force and we all feel good about that. But 
that is a great program and we have many activities going on 
with SOCOM and we are in close contact. General Brown reviews 
our strategic plan on a continuous basis.
    We also have a chiefs program where rising star officers 
from each service come to DARPA on short 2- to 3-month 
assignments to learn about DARPA. These are warfighters again. 
We try to get warfighters and operators, not S&T people. We 
have enough contact with S&T people. But we try to get 
warfighters and operators, so that when they go back out, and 
hopefully they become generals and admirals, they will know 
about technology. In fact, I have a group of them behind me 
here today. There are three Army, one Marine Corps, and four 
Air Force interns here with me today. If you all would maybe 
just hop up and back down. They wanted to come and see how 
sausage was made, too. [Laughter.]
    But the major source of the input is from the constant 
reviews of the strategic plan and its projects from the service 
chiefs, the combatant commanders, intelligence officials, and 
senior civilians from the OSD. In 2004 we had about 100 
separate meetings involving literally hundreds of people from 
across the DOD, as well as congressional members and staffers, 
to review DARPA's thrusts and projects. For 2005 so far, we 
will meet another 100 times.
    Now, I asked my staff how on Earth could I show to people 
how many people review our strategic plan, and the best they 
could do was to give me this book. This book contains the 
agendas. This is just the agendas. Now, those are one-page 
pieces of paper for each meeting, but that is about a 2-inch 
thick set of agendas at various meetings we have had to review 
the strategic plan.
    Let me give you some examples, however. Let me get right 
down to the meat of it and give you some examples.
    One of our thrusts is robust secure self-forming tactical 
networks. We are heading toward a network-centric force where 
the network becomes as important as the platforms. This means 
that the network has to be as reliable and available as the 
platforms and supports because if the network fails, the 
capability of our forces would evaporate. The thrust itself was 
first started when General Shinsheki asked DARPA to help 
develop the architecture for tomorrow's Army. This was the FCS 
which needed to be strategically mobile and have the capability 
to stay within the decision loop of today's and tomorrow's 
asymmetric threats which do not fight in an historical linear 
fashion.
    This led to substantial efforts developing networks that 
are infrastructure-free, that can hold off direct and indirect 
attacks on the networks as a result of the reviews that we had 
with the Army. A personal review of the strategic plan and 
efforts with Generals Schoomaker, Cody, and Byrne reinforced 
that networks with this quality are still at the heart of our 
future force, and I think with the latest mobility initiative, 
that understanding is still there.
    We have also reviewed our efforts with General Jumper. 
General Jumper wants to provide high bandwidth, worldwide 
capability with satellites whose cross-links are lasers and 
whose down-links are lasers to airborne platforms. However, we 
had a problem. He knew he could guarantee getting the data to 
an airborne platform, but he did not know how to guarantee that 
a user on the ground had connectivity because clouds get in the 
way occasionally with respect to lasers.
    We responded to this and created an effort called the 
Optical and Radio Frequency Combined Link Experiment (ORCLE), 
which would take the data on the airborne platform and down-
link it to a user on the ground, using the laser if conditions 
permitted it, but also having a RF link along with that, so 
that it would automatically switch from RF to laser as the 
conditions permit. This way the ground user was always 
guaranteed a dial tone when he picked up the phone.
    I have had the ground users tell me that the only time when 
communications fail is when you are calling for fire. It always 
seems that you never get a dial tone when you are trying to 
call for fire. These are important calls which are very low 
bandwidth. It does not take much bandwidth for a call for fire 
or a call for help. But having this kind of a dual mode 
capability ensures the user, when he picks up the phone, that 
he has a dial tone and he is going to get connectivity, and if 
the lasers are there, he is going to get bandwidth and pictures 
like he has never had before.
    During the review of the plan with Secretary Wynne, he was 
concerned that the network was now going to be so essential 
that the developers of networks needed to take into account the 
requirement that the network had to survive. We responded to 
this by taking the initiative to create a red team capability 
which would be chartered with evaluating network concepts from 
their survivability ability from the concept development.
    We have had several reviews of the plan in our efforts with 
DDR&E Ron Sega. One particular issue he is concerned with is 
that the multi-level security was not being taken into account 
in designing these networks. Here the issue is that each node 
in a network is also a relay for messages from which the user 
at that node may not be cleared. We need to solve this issue in 
order to have one network and not several which would defeat 
the purpose of network centric warfare in the first place. We 
have responded to this by initiating a multi-level security 
effort and we are starting to come up with ideas.
    Urban area operations are another example. Our newest 
strategic thrust is urban area operations which further 
illustrates this process. We were concerned about urban warfare 
and were studying it even before the conflict in Iraq. It is 
logical for adversaries to move in the city to resist us. It is 
easier to hide small caches of weapons, including weapons of 
mass destruction, and to hide activities in urban style areas 
where there are thousands of buildings. The conflict in Iraq 
has brought urban operations center stage and accelerated our 
move into this area.
    We reviewed our strategic plan with Commandant Mike Hagee 
and General Brown, SOCOM Commander. Commandant Hagee told us 
that what they needed more than anything else was situational 
awareness with respect to vehicles, people, et cetera so the 
troops could deploy quickly to trouble spots and basically be a 
force multiplier effect. He also said that they really needed 
better nonlethal weapons in order to be able to control the 
situation when enemy troops were mixed in with local civilians. 
We are studying ideas in this area also.
    We did respond to this by creating a major effort, which 
was discussed, in obtaining situational awareness for using 
small UAVs, cameras, other sensors, and even using the soldier 
on patrol as a sensor. Commandant Hagee spent 4 hours with us, 
along with his senior staff, at a Government-only meeting 
reviewing these efforts and agreed with what we were doing.
    We meet with General Brown and SOCOM's front-line warriors, 
and as a result, we have started a number of very classified 
programs. In fact, I just met with General Brown last week to 
go over some of the more classified efforts within the urban 
operations section that will, undoubtedly, create surprise for 
the enemy when they are ready.
    Cognitive computing. The purpose of the cognitive computing 
thrust is to develop computers that learn to cope with humans 
as opposed to today where humans have to learn how to cope with 
a computer. We believe that if we can do this, we will be able 
to reduce the number of people required in places like 
operations centers and so forth. We are attacking not the 
tooth, but the tail. We are trying to reduce the number of 
people required in the tail who can then be used for the tooth.
    Last month, when we were reviewing our strategic plan with 
CNO Vernon Clark, he asked us to do an effort for reducing the 
number of people required to run a carrier. In other words, he 
would like us to take the number of people who run a carrier 
down by a factor of two, and we have just started that.
    Space. The genesis of our space thrust is directly from 
Secretary Rumsfeld and Under Secretary Aldridge. About 4 years 
ago, I went through the interview process and finally met with 
Secretary Rumsfeld, because he is the one that does pick the 
DARPA Director. It was an interview that was supposed to last 
for 15 minutes, but went on for 45 where he explained what he 
was trying to do. But the point here is that on the way out the 
door, he said to me, look, there was this commission on space 
and here is a report. Space is important. Go do it. Secretary 
Rumsfeld, by the way, reaffirmed that, and that really created 
the thrust at DARPA.
    Now, we have had several reviews of the strategic plan with 
Secretary Teets, DDR&E Ron Sega, General Lance Lord, and more 
importantly, General Cartwright.
    Senator Cornyn. If I could ask you to sum up. I could 
listen to what you are saying all day. It is very interesting 
and it is very substantive, but we need to get to some 
questions.
    Dr. Tether. I could go on with lots of examples, as you 
just said.
    Senator Cornyn. Maybe at another time. I would love to do 
that.
    Dr. Tether. We have had sessions with everybody, and I do 
look forward to your questions. Thank you very much.
    [The prepared statement of Dr. Tether follows:]
                 Prepared Statement by Dr. Tony Tether
    Mr. Chairman, subcommittee members and staff: I am pleased to 
appear before you today to discuss the Defense Advanced Research 
Projects Agency's (DARPA) fiscal year 2005 activities and our fiscal 
year 2006 plans to continue transforming our military through 
technological innovation.
    DARPA's original mission was to prevent technological surprises 
like the launch of Sputnik, which in 1957 signaled that the Soviets had 
beaten the U.S. into space. Our mission is still to prevent 
technological surprise, but also to create technological surprise for 
our adversaries. Stealth is an example of how DARPA has created 
technological surprise.
    DARPA conducts its mission by sponsoring revolutionary, high-payoff 
research that bridges the gap between fundamental discoveries and their 
military use.
    DARPA is the Department of Defense's (DOD) only research agency not 
tied to a specific operational mission. DARPA is designed to be the 
``technological engine'' for transformation, supplying advanced 
capabilities, based on revolutionary technological options for the 
entire Department.
    This is a unique role within DOD. The Department's operational 
components naturally focus on nearer-term needs because they must meet 
urgent needs and requirements. Consequently, a large organization like 
the DOD needs a place like DARPA whose only charter is radical 
innovation.
                    darpa's eight strategic thrusts
    DARPA's strategy for accomplishing its mission is embodied in 
strategic thrusts. Over time, as national security threats and 
technical opportunities change, DARPA's strategic thrusts change. 
DARPA's flexibility and ability to change direction quickly allows it 
to react swiftly to emerging threats.
    The eight strategic research thrusts that DARPA is emphasizing 
today are:

        <bullet> Detection, Precision ID, Tracking, and Destruction of 
        Elusive Surface Targets
        <bullet> Robust, Secure Self-Forming Tactical Networks
        <bullet> Networked Manned and Unmanned Systems
        <bullet> Urban Area Operations
        <bullet> Detection, Characterization, and Assessment of 
        Underground Structures
        <bullet> Assured Use of Space
        <bullet> Cognitive Computing
        <bullet> Bio-Revolution

    Urban area operations is our newest thrust, driven partly by Iraq 
and partly by the increasing likelihood that future conflicts will be 
fought in densely populated areas. The investments in the urban area 
operations thrust area are closely integrated with the investments 
DARPA has in the other seven thrusts. These investments are part of our 
ever-changing investment strategy for the technologies our future 
generations of warfighters will need.
    Let me tell you about these eight thrusts and the forces driving 
them, along with some illustrative examples.
Detection, Precision ID, Tracking, and Destruction of Elusive Surface 
        Targets
    For many years, the DOD has steadily improved its ability to 
conduct precision strike against fixed and other predictable targets. 
However, experience shows we still need better ways to detect, 
identify, track, and defeat elusive surface targets. America's 
adversaries realize they must constantly remain on the move, and hide 
when not on the move, if they are to survive against the United States' 
superior precision strike capabilities. For a number of reasons, it 
remains difficult to strike targets that are hiding, moving, or whose 
destruction requires near real-time reaction by U.S. forces. Hence, the 
basic challenge behind this thrust is, ``How can we find and defeat any 
target--and only that target--anywhere, anytime, and in any weather?''
    DARPA is assembling the sensors, exploitation tools, and battle 
management systems needed to meet this challenge by seamlessly melding 
sensor tasking with strike operations. Success will blur or even erase 
barriers between the intelligence and the operations functions at all 
levels of command, which has large implications for U.S. military 
doctrine and organization.
    As an example of our vision, DARPA is working on foliage-
penetrating radar that could be used to spot potential targets hiding 
under forest ``canopies'' over a large area in all weather. This 
information could be used to cue laser detection and ranging (LADAR) 
sensors to look more closely at those potential targets. These LADAR 
sensors, which are another DARPA project, could provide exquisitely 
detailed three-dimensional images of the vehicles hiding under trees, 
allowing us to identify them as tanks or trucks or something else.
    We are also developing software to ``stitch together'' information 
from a variety of sensors (e.g., moving target indicator radar, 
synthetic aperture radar, optical, video, and acoustic sensors), and 
then cue the sensors to obtain more information. For example, changes 
detected by radar could cue LADAR sensors to watch a new arrival. 
Conversely, if a Predator operator lost track of a target because it 
entered a forest, radar could be cued to search for the vehicle. All in 
all, we are taking a very comprehensive approach to finding, 
identifying, tracking and destroying targets.
    Let me give you some specific examples of what we are doing:
    DARPA's Airborne Video Surveillance program succeeded in matching 
frames from unmanned air vehicle (UAV) video to geospatial reference 
imagery provided by the National Geospatial-Intelligence Agency with 
targeting accuracies of 7-10 meters. This automatic linking of UAV 
video to existing maps is a dramatic and low-cost improvement that will 
greatly improve the operational flexibility of coordinate-seeking 
weapons such as Joint Direct Attack Munition, Joint Standoff Weapon, 
and modern Army artillery. Our current Video Verification and 
Identification program is building on the success of this work.
    Under our Advanced Intelligence, Surveillance, and Reconnaissance 
(ISR) Management program, DARPA developed a tool for planning, 
scheduling, and tasking U.S. intelligence collection and surveillance 
platforms. The tool can perform dynamic replanning as the battlespace 
situation changes. Its effectiveness was verified in recent Air Force 
exercises and it is now included in the Collection Management Mission 
Applications--the system for collection management used by ISR planners 
and managers.
    DARPA's Knowledge-Aided Sensor Signal Processing and Expert 
Reasoning (KASSPER) program uses topography, terrain features, road 
networks, and synthetic aperture radar imagery to greatly reduce false 
alarms and improve the detection of low-speed targets. With KASSPER, 
false alarms have been reduced by a factor of 100 even in the presence 
of highly irregular background clutter and we can detect objects moving 
only half as slowly as we could before. Technologies from KASSPER will 
start to transition to the Joint Surveillance and Target Attack Radar 
System (STARS) this year.
Robust, Secure Self-Forming Tactical Networks
    The DOD is in the middle of a transformation to what is often 
termed ``Network-Centric Operations.'' In simplest terms, the promise 
of network-centric operations is to turn information superiority into 
combat power so that the U.S. and its allies have better information 
and can plan and conduct operations far more quickly and effectively 
than any adversary.
    At the core of this concept are networks--networks that must be as 
reliable, available, and survivable as the weapons platforms they 
connect. They must distribute huge amounts of data quickly and 
precisely across a wide area. They must form themselves without using 
or building a fixed infrastructure. They must withstand attempts by 
adversaries to destroy, disrupt, or listen in on them. These challenges 
must be met, as networks are becoming at least as important as our 
weapons platforms. So, our challenge here is, ``How can we build the 
robust communication networks needed for network-centric warfare?''
    DARPA is working to ensure that U.S. forces will have secure, 
assured, high-data-rate, multisubscriber, multipurpose (e.g., maneuver, 
logistics, intelligence) networks for future forces. This means 
conducting research in areas that include mobile ad hoc self-forming 
networks; information assurance and security; spectrum management; and 
anti-jam and low probability of detection/intercept communications.
    For example, our Networking in Extreme Environments program is 
working to create ultra wideband wireless networks for robust and 
efficient military communications and sensing. Ultra wideband devices 
should be capable of automatically forming hard-to-detect 
communications and sensor networks in areas where traditional 
technologies do not perform well, such as in urban or other cluttered, 
harsh environments. So far, the program has gained a thorough 
understanding about how ultra wideband systems interact with current 
radio systems, one key to determining the ultimate value of ultra 
wideband.
    In the area of information assurance, the threat to military 
networks from computer worms that have never been seen before, and that 
exploit previously unknown network vulnerabilities (``zero-day worms'') 
has exceeded current network defense capabilities to mount an adequate 
defense. DARPA's Dynamic Quarantine of Worms program will develop an 
integrated system of detection and response devices to quarantine zero-
day worms and stop them from spreading before other parts of the 
network are protected.
    Other DARPA-developed network security tools proved to be very 
effective at the 2004 Joint Warrior Interoperability Demonstration, a 
virtual military exercise conducted each year by the Office of the 
Chairman of the Joint Chiefs of Staff. These tools were able to provide 
protection and help network administrators clean up the network after 
an accidental security incident. Lessons from these exercises help 
provide information on which network security technologies the DOD 
should procure. More generally, technology from our Network Modeling 
and Simulation program has been adopted by a number of other agencies 
throughout the DOD, such as Space and Naval Warfare Systems Command, 
Joint Forces Command, and the Defense Information Systems Agency to do 
a better job of designing communication networks.
    An example of what we are doing in the areas of networks for our 
forces deployed in Iraq today is the Marine Airborne Retransmission 
System (MARTS) program. The Marine Corps has an urgent need to securely 
extend the range of tactical radios in its area of operations. MARTS 
does this by using a tactically transportable aerostat system, which 
retransmits through antennas aloft and uses fiberoptics to connect to 
the ground station radios. An aerostat tethered at 3,000 feet altitude 
can retransmit a radio signal over an area approximately 160 miles in 
diameter. The aerostat underwent its first test flight the first week 
in February, and the first system will be deployed with the Marine 
Corps in Iraq very soon.
Networked Manned and Unmanned Systems
    Fully autonomous unmanned platforms offer great promise as 
warfighting platforms integrated with other elements of our Joint 
Forces. DARPA is working with the Services toward a vision of filling 
the battlespace with unmanned systems networked with manned systems. 
The idea is not simply to replace people with machines, but to team 
people with autonomous platforms to create a more capable, agile, and 
cost-effective force that also lowers the risk of U.S. casualties. The 
challenge here is, ``How can we combine manned and unmanned systems to 
create entirely new types of capabilities?''
    Over the last several years, the Services have come to appreciate 
that combining unmanned with manned systems can enable new combat 
capabilities or new ways to perform hazardous missions. Improved 
processors and software are achieving the dramatic increases in on-
board processing needed for unmanned systems to handle ever more 
complex missions in ever more complicated environments. Networking 
these vehicles in combat will improve our knowledge of the battlespace, 
targeting speed and accuracy, the survivability of the network of 
vehicles, and mission flexibility. A network of collaborating systems 
will be far more capable than the sum of its individual components.
    DARPA is working on a variety of unmanned vehicles for both the air 
and the ground, ones suited to a variety of missions and levels of 
environmental complexity. Our A-160 program is working towards an 
unmanned helicopter for ISR missions, with as much as 32 hours 
endurance at 15,000 feet. So far, A-160 vehicles have made 28 flights, 
carried up to 500 pounds, traveled at over 135 knots, and stayed aloft 
for over 7 hours. A number of other vehicles are part of our support to 
the Army's Future Combat Systems program. These include the Micro Air 
Vehicle, which is a backpackable ISR system for dismounted soldiers, 
the Unmanned Ground Combat Vehicle for fire support, and several other 
platforms for ISR and tactical strike. Our Netfires program, a fully 
networked containerized missile system, has transitioned to an Army 
development program for fielding as early as 2008.
    A prominent program here has been Joint Unmanned Combat Air Systems 
(J-UCAS), which the Office of the Secretary of Defense asked DARPA to 
manage in fiscal year 2005. J-UCAS is a joint Air Force and Navy 
program to accelerate the development of networked unmanned combat air 
vehicles for suppressing enemy air defenses, providing precision strike 
and persistent surveillance. The program builds on DARPA's earlier work 
on unmanned combat air vehicles. The program will develop new air 
vehicles, but the key to J-UCAS will be its Common Operating System 
(COS), which will manage its network services and other system 
resources (e.g., sensors, weapons, and communication links). The 
combination of the air vehicles, control stations, and the COS, in 
conjunction with other manned and unmanned systems, will create an 
entirely new and powerful global strike capabilities.
    In the last year we have made solid progress in J-UCAS, including 
several ``firsts.'' A demonstrator vehicle successfully delivered an 
inert Global Positioning System (GPS)-guided smart bomb from 35,000 
feet at 440 miles per hour; the weapon precisely hit the target. 
Control of a vehicle was handed off to a control station 900 miles 
away--and back again--while the vehicle was beyond-line-of-sight.
    Various features required to operate on a carrier deck were 
demonstrated. Perhaps most importantly, two demonstrator vehicles flew 
together as a single team controlled by only one operator on the 
ground.
    In fiscal year 2006, management and funding for the program will 
move to the Air Force.
    In another ``first,'' DARPA held its first Grand Challenge in March 
2004. DARPA is using the special prize authority authorized by Congress 
to recognize outstanding achievements in basic, advanced, and applied 
research, technology development, and prototype development that have 
the potential for application to the performance of the military 
missions of the DOD. The concept is similar to the prize awarded to 
Charles Lindbergh for his solo flight across the Atlantic Ocean that 
then spurred Americans toward innovation and development in aviation.
    DARPA's first use of the prize authority is to accelerate 
technology development in autonomous ground vehicles. DARPA offered a 
$1 million prize to anyone that could develop an autonomous, unmanned 
ground vehicle that could travel approximately 150 miles in under 10 
hours across desert roads and trails between Barstow, California, and 
Primm, Nevada. The vehicles had to be truly autonomous, and only two 
commands were allowed--start and stop. The teams would not know the 
route beforehand--in fact, they received the route navigation points 
just 2 hours before the start signal.
    DARPA designed this grand challenge to spur innovation in a very 
difficult technical area so as to help DOD meet the congressional goal 
that one-third of the Armed Forces' operational ground combat vehicles 
be unmanned by 2015. The autonomous vehicles would remove our men and 
women from harm's way by letting the autonomous vehicles take over 
dangerous combat support missions, such as that faced by our supply 
convoys in Iraq today.
    The Grand Challenge for autonomous ground vehicles serves an 
important part of our overall technical strategy. For years DARPA 
funded programs to develop the technologies necessary for a truly 
autonomous ground vehicle, and, still today, there are programs 
underway at DARPA. While there is measurable technical progress in each 
of these programs, the progress has not been quick enough on the 
ability to develop an autonomous vehicle that could navigate a long 
route, avoid obstacles, and do it with an average speed that is 
tactically useful to the Joint Forces.
    This is where the Grand Challenge helps--to win the prize, teams 
competing in the Grand Challenge must develop vehicles that can 
successfully travel tactically relevant distances and speeds. This is a 
truly daunting technical goal, but not too daunting that no one was 
interested in trying to win the prize, and a place in the history 
books.
    One hundred and six entrants filed applications to compete, and, 
through a series of selection processes, 15 teams were selected as 
having vehicles safe and capable enough to attempt the route for the 
prize.
    Here's what Scientific American \1\ reported about the March 13 
event:
---------------------------------------------------------------------------
    \1\ Scientific American 291, 6, p. 6 (December 2004)

        Of the 15 vehicles that started the Grand Challenge . . . not 
        one completed the 227 kilometer course. One crashed into a 
        fence, another went into reverse after encountering some 
        sagebrush, and some moved not an inch. The best performer, the 
        Carnegie Mellon entry, got 12 kilometers before taking a 
        hairpin turn a little too fast. The $1-million prize went 
        unclaimed. In short, the race was a resounding success. The 
        task that the Pentagon's most forward-thinking research branch 
        . . . set out was breathtakingly demanding. Most bots can 
        barely get across a lab floor, but DARPA wanted them to 
        navigate an off-road trail at high speed with complete 
        autonomy. The agency had expected maybe half a dozen teams, but 
        more than 100, ranging from high school students to veteran 
        roboticists, gave it a try. The race . . . has concentrated the 
        minds of researchers, blown open the technological envelope and 
        trained a whole generation of roboticists. They will be out 
---------------------------------------------------------------------------
        there again next October.

    All across the Nation, from garages to high schools, from 
universities to corporate laboratories, hundreds--perhaps thousands--of 
people worked on solving a problem important to the DOD. We had hoped 
that the Grand Challenge would excite many people, but it grew into 
something much, much bigger than anyone had imagined. The 
congressionally-authorized prize authority inspired many smart people 
who would not ordinarily work on a problem important to the DOD, 
dedicating long days, nights and weekends toward finding a solution. 
The Grand Challenge yielded more benefit for the DOD than the 
technology developed for the vehicles, or the distance the vehicles 
traveled.
    DARPA will run the Grand Challenge again on October 8, 2005. The 
end goal remains the same: build an autonomous ground vehicle that can 
travel the fastest across approximately 150 miles of tough desert roads 
and trails in under 10 hours--but the prize will be $2 million. As of 
this date, 195 teams have applied to compete in the Grand Challenge 
from 37 States and three foreign countries. Thirty-five teams are 
university-based, and three are from high schools. Eventually, we will 
invite 40 teams to a national qualification event, from which 20 teams 
will be selected to compete.
Urban Area Operations
    Our newest strategic thrust, announced last March, is urban area 
operations. Like many in the DOD, we have been concerned about the 
challenges of urban warfare and have been studying the issue. The 
conflict in Iraq precipitated this strategic thrust and continues to 
shape it. We held a major solicitation on this topic last year, and the 
overall thrust continues to take form. Because this is our newest 
thrust and one that is directly grappling with some of the problems 
uppermost on everyone's mind, it merits discussing at some length.
    Each year the world's urban areas increase in population and area. 
By 2025, nearly 60 percent of the world's population will live in 
cities. Our adversaries know that if they present a fixed target on the 
open battlefield, or even a mobile target on the open battlefield, we 
will find it and destroy it. So more and more they will choose to 
resist us in cities. These basic facts suggest that our forces must be 
increasingly prepared to operate in urban areas.
    It is worth considering what makes operating in cities distinctive. 
A city's geometry and demography are very different than the 
traditional battlefields of open- or semi-open terrain so effectively 
dominated by U.S. forces today. Cities have buildings and tunnels and a 
complex three-dimensional terrain with many places to hide and 
maneuver. Think of mountain ranges or other rugged terrain, but with a 
much finer structure--one scaled to cities because they are manmade 
environments. Cities are densely packed with people and their property.
    This has several consequences. Vehicles, weapons, and tactics that 
work effectively in open--even rugged--natural terrain, often work far 
less well in the confines of a city. Our current surveillance and 
reconnaissance systems simply cannot provide enough information of the 
type needed to understand what's really going on throughout a city. In 
most cases of urban warfare, standoff attack will not be sufficient, 
and close combat tends to be chaotic with many casualties.
    In cities, uniformed adversaries and their equipment are mixed in 
among the civilian population, equipment and infrastructure. Insurgents 
are not just mixed in--they blend in. Operations in cities, perhaps 
more than in other settings, will be strongly constrained by political 
considerations. Achieving our political goals will usually not be a 
simple matter of capturing territory or reducing something to rubble. 
The fighting in Najaf last summer is a good example of this reality.
    In short, the advantages U.S. forces enjoy on traditional 
battlefields are drastically reduced in cities. This is why our 
adversaries will be temped to fight us or resist us there; it is a 
logical response on their part. By drawing us into cities, our 
adversaries hope to limit our advantages, draw more of our troops into 
combat, inflict greater U.S. casualties, and, perhaps equally 
important, undermine our ultimate political goals by causing the U.S. 
to make more mistakes that harm civilians and neutrals.
    The proof of this is in Iraq: the power, pace, and precision of our 
forces quickly demolished the Iraqi armed forces on the traditional 
battlefield. The current insurgency is not fighting the same way.
    So our challenge is this: ``How can we operate as effectively in 
the cities as we do on traditional battlefields, and what are the new 
tools we need?'' We chose the word ``operate'' carefully: this cannot 
just be about traditional force-on-force urban combat, as important as 
that problem is. We also need to improve our stability and security 
operations after major combat is over. Just as the tools for combat on 
the traditional battlefield may not be well-suited to urban combat, the 
tools for urban combat may not necessarily be well-suited for stability 
operations. We need better tools across this entire spectrum of 
operations.
    In general, we need far better and different information and 
coverage from our surveillance systems and sensors, more precision and 
options in our maneuvers and command and control, and much finer 
control over the force we apply. Ideally, we would then know much more 
about what's going on in a city, we could easily discern friend from 
foe, we could move around quickly--even using the vertical dimension to 
our advantage--and, when we needed, we could apply well-calibrated 
lethal or non-lethal force with great precision.
    Let me talk in a little more detail about our vision for this 
thrust and describe some of the things we are working on and would like 
to expand.
    One critical key to improved urban operations will be persistent, 
staring reconnaissance, surveillance, and target acquisition (RSTA) 
systems that vastly improve what we know about what's going on 
throughout a city in all three dimensions and over time. We need 
persistent staring RSTA systems that are as well tailored to cities as 
our current RSTA systems are to the traditional battlefield. If you are 
on an open plain you can see what is going on miles away, but in a 
city, you may not know what's going on a block away. We have to change 
that.
    We need a network, or web, of sensors to better map a city and the 
activities in it, including inside buildings, to sort adversaries and 
their equipment from civilians and their equipment, including in 
crowds, and to spot snipers, suicide bombers, or improvised explosive 
devices (IEDs). We need to watch a great variety of things, activities, 
and people over a wide area and have great resolution available when we 
need it. This is not just a matter of more and better sensors, but just 
as important, the systems needed to make actionable intelligence out of 
all the data. Closely related to this are tagging, tracking, and 
locating (TT&L) systems that help us watch and track a particular 
person or object of interest. These systems will also help us detect 
the clandestine production or possession of weapon of mass destruction 
in overseas urban areas.
    There was a recent incident in Iraq where one of our UAVs spotted 
some insurgents firing a mortar. Then the insurgents climbed back into 
their car and drove away. The good news was that the UAV was able to 
track the car so U.S. helicopters could go after it and destroy it. The 
bad news was that, at one point, some of the passengers got out. Then 
we had to decide whether to follow those individuals or the car because 
we simply did not have enough coverage available. If we had other 
sensors available, we would have had a better chance of getting all of 
those insurgents.
    If we could quickly track-back where a vehicle came from, it would 
greatly help us deal with suicide car bombers. It is difficult, if not 
impossible, to deter the bombers themselves, just as you cannot deter a 
missile that has already been launched. But, one key to deterrence that 
has been missing is reliable attribution, or a ``return address.'' If 
we knew where the car came from, using, for example, RSTA systems that 
allowed us to quickly trace the car carrying the explosives back to the 
house or shop it came from, we could then attack that place and those 
people.
    Once people realize that whoever helps launch a suicide attack will 
themselves be targeted (and since it's unlikely that everyone in a 
suicide bombing organization has a suicide wish) we would start to 
deter attacks. At a minimum, we would destroy more of the people and 
infrastructure behind the attacks, and make subsequent attacks more 
difficult. We are pursuing this sort of capability with our Combat 
Zones That See program.
    Now, consider a U.S. team raiding a house looking for insurgents. 
This team has probably never been to the house before, and perhaps has 
never even been to the immediate neighborhood. In an unfamiliar place 
with many similar buildings, it's easy to become confused and break 
into the wrong place, even with GPS. Breaking into the wrong building 
has two effects: the enemies get away, and, at a minimum, you probably 
just made some new enemies.
    Instead, imagine that the team could prepare for the raid using 
clear, three-dimensional images of the actual neighborhood and the 
specific building that had been collected in advance. The team could 
use those images to practice and ``see'' their entire trip to the 
building before they actually start out on their mission so they'd be 
far more likely to enter the right building. Our Urbanscape program is 
working on the technologies to do this.
    Another typical urban mission could require a U.S. team to pursue 
adversaries inside a multistory building. Currently, the defenders 
inside the building have a major advantage in knowing the interior 
layout. If we had technology that would allow our team to quickly map 
the inside of the building and, perhaps, even tell them where the bad 
guys are, this would go a long way to improving the team's 
effectiveness and safety. Our Building Structure and Activity 
Assessment program is developing this capability.
    Thinking more broadly than RSTA, we are also interested in how to 
improve our intelligence on general social, political, and economic 
conditions. In particular, it would help to have tools to predict the 
onset of a rebellion or, failing that, help us understand more clearly 
the likely or possible responses to our actions, i.e., tools to wargame 
our stability operations.
    Another major focus of the urban area operations thrust is Command 
and Control for Urban Warfighting, aimed at developing command and 
control systems and intelligence analysis tools specifically suited for 
urban operations. The goal is collaborative systems that allow our 
warfighters to see and understand what is happening throughout an urban 
area and then direct their actions in real time. RSTA and TT&L will 
give us much better information, but we must then use that information 
to direct what we are doing in a precise way, perhaps reaching down as 
far as the individual soldier.
    Our Command Post of the Future (CPOF) technology, being used today 
by the Army in Iraq, is an early indication of what we are striving 
for. CPOF is a distributed command and control system that creates a 
virtual command post. With CPOF, command and control centers could be 
wherever the commanders are, without regard to a fixed geographic 
location. The Army is using CPOF because it gives them more flexibility 
and insight and allows them to share information and respond more 
quickly. By studying the steps usually taken after specific types of 
events, DARPA is working with the Army to enhance CPOF to automatically 
alert people to take those steps whenever another such events happens, 
which would allow our warfighters to respond faster. Major General Pete 
Chiarelli, Commander of the 1st Calvary Division in Iraq, has told us, 
``CPOF is saving lives.''
    This thrust also embodies our work in Asymmetric Warfare 
Countermeasures, including those devoted to countering the threat of 
IEDs. The IED problem is very difficult, and we are actively pursuing 
and continuing to search for ideas to detect or disable IEDs. In fact, 
the IED problem has been central in shaping our thinking about urban 
operations generally. We have seen the great difficulty we've had with 
even costly partial solutions to the IED problem, ones which, in many 
cases, the insurgents are able to quickly work-around. Our discussions 
with Commandant Hagee of the Marine Corps reinforced our belief that 
the key to limiting IEDs will be identifying their source; this is one 
of the reasons for our strong emphasis on RSTA in this thrust.
    Finding ``sources'' is also the key behind DARPA's low-cost 
Boomerang shooter detection and location system, which we continue to 
improve based on results from the 50 units deployed so far in Iraq. 
When you are traveling in a convoy it's difficult to know if you are 
being shot at because of road noise. With Boomerang, people in the 
convoy can tell if they are being shot at and where the shots are 
coming from, so they can defend themselves more effectively.
    We are also exploring ways to thwart rocket-propelled grenade (RPG) 
attacks. We are transitioning an advanced, lightweight bar armor to the 
Marine Corps to protect High Mobility Multipurpose Wheeled Vehicles 
(HMMWVs) and trucks. We are testing novel, high-strength nets to stop 
RPGs and mortars. Our Iron Curtain project will develop and test a 
system to destroy RPGs and missiles by shooting them down with bullets 
before they can strike a vehicle.
    Another facet of the urban operations thrust is modeling and 
simulation tools, which we believe will be particularly helpful for 
improving training. For example, we have leveraged multi-player 
computer game technology to help train units going to Iraq on better 
ways to avoid being ambushed. After a few times through the simulation, 
and after having ``died'' a few times, the lessons on what to watch for 
and how to react tend to stick in the warfighters' minds. We have 
married speech recognition technology with video game techniques to 
create a Tactical Iraqi Language Tutor that quickly teaches everyone, 
not just linguists, the Arabic needed to get basic ``Who? What? and 
Where?'' information, while getting along with the locals by conducting 
a civil affairs mission in a PC virtual world. Our troops are even 
taught the physical gestures and social conventions needed to help 
establish trust.
    With these and other technologies, our strategic thrust in urban 
area operations promises to make major contributions to our military 
capabilities.
Detection, Characterization, and Assessment of Underground Structures
    Our adversaries are well aware of the U.S. military's sophisticated 
ISR assets and the global reach of our strike capabilities. In 
response, they have been building deeply buried underground facilities 
to hide various activities and protect them from attack.
    These facilities can vary from the clever use of caves to complex 
and carefully engineered bunkers in both rural and urban environments. 
They are used for a variety of purposes, including protecting 
leadership, command and control, hiding artillery and ballistic 
missiles launchers, and producing and storing weapons of mass 
destruction.
    Our challenge here is, ``How can we find out what is going on 
inside deeply buried structures?'' To provide answers, DARPA is 
developing ground and airborne sensor systems with two-orders-of-
magnitude improvement in sensor performance, combined with advanced 
signal processing for clutter rejection in complex environments.
    For example, our Low Altitude Airborne Sensor System (LAASS) 
program should show that sensor payloads on a wide range of air 
vehicles could dramatically increase search rates and our detailed 
characterizations of underground facilities. LAASS will be the first 
sensor system to reveal the connections among underground facilities 
that were not seen during their construction, and it will be able to 
distinguish active facilities from those that are abandoned. This will 
allow prioritization of attacks, as well as allow us to find buried, 
but inert, targets such as escape tunnels and weapons caches.
Assured Use of Space
    The national security community uses space systems to provide 
weather data, warning, intelligence, communications, and navigation. 
These satellite systems provide our national security community with 
great advantages over potential adversaries. American society as a 
whole also uses space systems for many similar purposes, making them an 
integral part of the U.S. economy and way of life.
    These advantages--and the dependencies that come with them--have 
not gone unnoticed, and there is no reason to believe they will remain 
unchallenged forever.
    In fiscal year 2001, DARPA began an aggressive effort to ensure 
that the U.S. military retains its preeminence in space by maintaining 
unhindered U.S. access to space and protecting U.S. space assets from 
attack.
    There are five elements in DARPA's space strategic thrust:

        <bullet> Access and Infrastructure: technology to provide 
        rapid, affordable access to space and efficient on-orbit 
        operations;
        <bullet> Situational Awareness: the means for knowing what else 
        is in space and what that ``something else'' is doing;
        <bullet> Space Mission Protection: methods for protecting U.S. 
        space assets from harm;
        <bullet> Space Mission Denial: technologies that will prevent 
        our adversaries from using space to harm the U.S. or its 
        allies; and
        <bullet> Space-Based Engagement: reconnaissance, surveillance, 
        communications, and navigation to support military operations 
        down on Earth--extending what the U.S. does so well today.

    In our access and infrastructure activities, the Falcon program is 
designed to vastly improve the U.S. capability to reach orbit or almost 
anywhere on the globe promptly from bases in the continental U.S. This 
will improve the military's ability to quickly position ISR payloads, 
while reducing its reliance on forward and foreign basing. This year, 
the Falcon program will launch the first of a series of new, low-cost, 
small launch systems to deliver new hypersonic test vehicles to near-
space. By 2008, Falcon will have conducted flight tests of two 
generations of hypersonic test vehicles, using them to assess designs, 
components, and materials for reusable hypersonic cruise vehicles that 
could revolutionize space access and near-space transportation.
    The Space Surveillance Telescope program will enhance our space 
situational awareness by developing a large-aperture optical telescope 
with very wide field of view using curved focal plane array technology 
to detect and track very faint objects in deep space. This past year 
the program successfully demonstrated a subscale telescope sensor 
composed of a mosaic of curved focal plane arrays, a key technology 
milestone for the program.
    The U.S. national security community and American society depend on 
communications satellites. We must be prepared for adversaries that 
might try to deny us their use by jamming them. Under Space Mission 
Protection, the Novel Satellite Communications program is aimed at 
keeping our communication satellite systems secure. Last year, DARPA 
successfully demonstrated a new approach to dramatically improve our 
satellites' protection against jamming. This year we are developing the 
technology to fully exploit this new technique; a real-time 
demonstration of the Novel Satellite Communications technologies is 
planned for 2008.
    In space-based engagement, the Innovative Space Based Radar Antenna 
Technology (ISAT) program is developing large, revolutionary radar 
antennas to provide continuous tactical-grade tracking of moving ground 
targets or airborne targets, such as cruise missiles. These antennas 
would be extremely lightweight and, when stowed for launch, would be 
about the size of a sport utility vehicle. Once on-orbit, such antennas 
would unfold to a structure that could be, in the fully operational 
version, the length of the Empire State Building. This past year DARPA 
successfully built and deployed a single section of the antenna on the 
ground, and we successfully demonstrated techniques that would measure 
the position and shape of the antenna to within one millimeter on-
orbit. Multiple sections of the antenna will be built this next year, 
combined, and deployed and tested in a thermal vacuum chamber that 
simulates the space environment. The ISAT space-based demonstration of 
a one-third-scale antenna is planned for 2010.
Cognitive Computing
    Many elements of the information technology revolution that have 
vastly improved the effectiveness of the U.S. forces and transformed 
American society (e.g., time-sharing, personal computers, and the 
Internet) were given their impetus by J.C.R. Licklider, a visionary 
scientist at DARPA some 40 years ago. Licklider's vision was of people 
and computers working symbiotically. He envisioned computers seamlessly 
adapting to people as partners that would handle routine information 
processing tasks, thus freeing the people to focus on what they do 
best--think analytically and creatively--and greatly extend their 
cognitive powers. As we move to an increasingly network-centric 
military, the vision of intelligent, cooperative computing systems 
responsible for their own maintenance is more relevant than ever.
    Despite the enormous progress in information technology over the 
years, information technology still falls well short of Licklider's 
vision. While computing systems are critical to U.S. national defense, 
they remain exceedingly complex, expensive to create, insecure, 
frequently incompatible, and prone to failure. They still require the 
user to adapt to them, rather than the other way around. Computers have 
grown ever faster, but they remain fundamentally unintelligent and 
difficult to use. Something dramatically different is needed.
    In response, DARPA is revisiting Licklider's vision as its 
inspiration for the strategic thrust, ``Cognitive Computing.'' 
Cognitive computers can be thought of as systems that know what they're 
doing. Cognitive computing systems ``reason'' about their environments 
(including other systems), their goals, and their own capabilities. 
They will ``learn'' both from experience and by being taught. They will 
be capable of natural interactions with users, and will be able to 
``explain'' their reasoning in natural terms. They will be robust in 
the face of surprises and avoid the brittleness and fragility of expert 
systems.
    As an example of how we are working to get the computers to adapt 
to people--instead of the other way around--our Improving Warfighter 
Information Intake Under Stress program is designing next-generation 
Tomahawk missile battlestations that will monitor the weapon operator's 
cognitive state. The battlestation will then adapt how the battlespace 
information is presented to operators so that it enhances their ability 
to make critical strategic and/or tactical time-sensitive targeting 
decisions.
Bio-Revolution
    Over the last decade and more, the U.S. has made an enormous 
investment in the life sciences. DARPA's ``Bio-Revolution'' thrust 
seeks to answer the question, ``How can we use the burgeoning knowledge 
from the life sciences to help the warfighter?''
    DARPA's Bio-Revolution thrust has four broad elements:

        <bullet> Protecting Human Assets from biological warfare 
        includes sensors to detect an attack, technologies to protect 
        people in buildings, vaccines to prevent infection, therapies 
        to treat those exposed, and decontamination technologies to 
        recover the use of an area.
        <bullet> Enhancing System Performance refers to creating new 
        man-made systems with the autonomy and adaptability of living 
        things by developing technology inspired by living systems.
        <bullet> Maintaining Human Combat Performance is aimed at 
        improving the warfighter's ability to maintain peak physical 
        and cognitive performance once deployed, despite extreme 
        battlefield stresses such as heat and altitude, prolonged 
        physical exertion, sleep deprivation, and a lack of sufficient 
        calories and nutrients.
        <bullet> Tools are the variety of techniques and insights on 
        which the other three areas rest.

    Let me give you some examples of our work.
    DARPA is conducting important work in our Human Assisted Neural 
Devices and Revolutionizing Prosthetics programs. Our vision is simple 
but bold: to dramatically improve the quality of life for amputees by 
developing limb prostheses that are fully and naturally functional and 
neurologically controlled limb replacements that have normal sensory 
abilities. The goal is for amputees to return to a normal life, with no 
limits whatsoever, with artificial limbs that work as well as the ones 
they have lost.
    Our vision includes not only regaining fine motor control, such as 
the ability to type on a keyboard or play a musical instrument, but 
also the ability to sense an artificial limb's position without looking 
at it, and to actually ``feel'' precisely what the artificial limb is 
touching. To do this, DARPA's work in materials, sensors, power 
systems, and actuators will be integrated to develop a highly advanced, 
multiple degree-of-freedom, lightweight mechanical limb.
    Our ultimate goal is to gain full, natural, neural control of this 
advanced prosthetic limb--durable, lifelike, and complete with sensory 
feedback. On the way towards this vision, we will create prosthetic 
arms that are vast improvements over the current state-of-the-art and 
technologies that will be directly applicable to advanced prosthetics 
for the lower extremities. DARPA is working closely with the Department 
of Veterans Affairs to make this a reality.
    DARPA's Handheld Isothermal Silver Standard Sensor program is 
working toward providing our warfighters with a lightweight, handheld 
detector capable of sensing the full spectrum of biological threats: 
bacteria, viruses, and toxins. In a laboratory test last year, this 
sensor achieved nearly perfect detection performance, while minimizing 
the false alarms that plague today's sensor technologies.
    Our Immune Building Program is focused on protecting the occupants 
of buildings from the release of chemical or biological agents directly 
inside or very nearby and dealing with the consequences of the attack. 
The first fully functional Immune Building is scheduled for completion 
in 2006 at Fort Leonard Wood, Missouri. A portable version of DARPA's 
chlorine dioxide gas decontamination technology is being developed for 
use by the DOD, the Department of Homeland Security, and the 
Environmental Protection Agency.
    The Powerswim program is using the highly efficient way sea animals 
swim to design a new swimming device. Ordinary swim fins push through 
the water, like oars push a boat, and are about 10 percent efficient. 
The Powerswim program is developing a device that uses fin lift for 
propulsion--it basically ``flies'' through the water--with an 
efficiency of 80 percent. This could double the speed and range of U.S. 
Navy SEALs, allowing them to arrive on-shore much faster and much less 
fatigued. In another maritime example of using biology, we are looking 
at fuel cells that could produce electric power from plankton and ocean 
bacteria to power sensors and surveillance systems on the ocean floor 
for many years.
    DARPA's Soldier Self-Care program is developing a highly effective 
novel pain medication that neutralizes the chemical trigger for pain 
before it can stimulate the nerves. Progress has been so substantial 
that we have funded a clinical trial at Walter Reed Army Medical Center 
in late 2005 to reduce the incredible pain of soldiers following 
amputation or severe limb trauma whose pain cannot be effectively 
treated with current medications. If successful, it will be a major 
step towards obtaining Food and Drug Administration approval of this 
medication for treating acute pain on the battlefield.
                  darpa's core technology foundations
    While DARPA's eight strategic thrusts are strongly driven by 
national security threats and opportunities, a major portion of DARPA's 
research emphasizes areas largely independently of current strategic 
circumstances. These core technology foundations are the investments in 
fundamentally new technologies, particularly at the component level, 
that historically have been the technological feedstocks enabling 
quantum leaps in U.S. military capabilities. DARPA is sponsoring 
research in materials, microsystems, information technology, and other 
technologies that may have far-reaching military consequences.
Materials
    The importance of materials technology to Defense systems is easy 
to underestimate: many fundamental changes in warfighting capabilities 
have sprung from new or improved materials. The breadth of this impact 
is large, ranging from stealth technology to information technology.
    In keeping with this kind of impact, DARPA maintains a robust and 
evolving materials program to push new materials opportunities and 
discoveries that might change way the military operates.
    DARPA's current work in materials includes the following areas:

        <bullet> Structural Materials and Components--low-cost and 
        ultra-lightweight, designed for structures and to accomplish 
        multiple performance objectives in a single system;
        <bullet> Functional Materials--advanced materials for non-
        structural applications such as electronics, photonics, 
        magnetics, and sensors;
        <bullet> Smart Materials and Structures--materials that can 
        sense and respond to their environment; and
        <bullet> Power and Water--materials for generating and storing 
        electric power, for purifying air or water, and harvesting 
        water from the environment.

    We have been working on ``multifunctional materials''--materials 
that combine structure with other functions, such as batteries that can 
bear loads. DARPA's WASP micro air vehicle uses these structural 
batteries to combine its power supply with its wings, allowing this 
small (less than 200 gram, 12-inch wingspan) micro air vehicle to fly 
for 1 hour with the current sensor suite, almost three times longer 
than other, comparably equipped vehicles of similar size. (With a 
reduced payload, WASP has flown for nearly 2 hours.) WASP is being 
evaluated by the U.S. Marine Corps and the Nimitz Strike Group as a 
surveillance asset.
    DARPA's rapid reaction program in advanced armor materials is 
developing an updated version of the Vietnam-era ``gun truck'' to 
protect our convoys in Iraq. The gun trucks are a standard military 5-
ton Army or Marine truck with an armored gun box in place of the cargo 
container. Thirty prototype gun box kits were recently sent to U.S. 
forces in Iraq and Kuwait, and preliminary reports from the theater 
indicate that the gun trucks provide our troops and convoys with 
protection and comfortable and comparatively spacious operating 
quarters.
    We are also working to develop significantly improved armor 
materials for these trucks. One DARPA program is pursuing a lightweight 
composite armor that uses the same steel wire reinforcement found in 
steel-belted radial tires, and embeds these wires in a polymer matrix. 
If successful, this novel material could be a moldable, low-cost, 
easily manufactured, lower-weight alternative to conventional steel 
armor, while providing the same or greater protection to our 
warfighters. Initial ballistic tests on these new materials are very 
promising.
    In collaboration with the Navy, we are exploring DARPA advanced 
material technology to establish the feasibility of a passively cooled 
jet blast deflector for CVN 21, which could also be retrofit to the 
existing fleet. This system would be 50 percent lighter by eliminating 
noisy and heavy hydraulics and water-cooling systems associated with 
conventional jet blast deflectors, while freeing up space and power for 
other equipment.
    Our DARPA Titanium Initiative aims to completely revolutionize the 
way titanium is extracted from the ore and fabricated into product 
forms of interest to the DOD. The goal of the program is to achieve 
substantially reduced cost (less than four dollars per pound) and 
increased availability of large volumes of titanium. Our intention is 
to achieve a revolution similar to that in aluminum, which was 
transformed from a precious metal to a commodity at the turn of the 
20th century. The program is on-track to develop processes that will 
meet all the DOD requirements for aerospace and other applications.
Microsystems
    Microelectronics, photonics, and microelectromechanical systems 
(MEMS) are three key technologies for the U.S. military, enabling it to 
see farther, with greater clarity, and communicate information in a 
secure, reliable, and timely manner.
    DARPA is shrinking ever-more-complex systems and enabling new 
capabilities into chip-scale packages, integrating microelectronics, 
photonics, and MEMS into ``systems-on-a-chip.'' It is at the 
intersection of these three core hardware technologies of the 
information age that some of the greatest challenges and opportunities 
for the DOD arise.
    The future lies in increasing the integration among a variety of 
technologies to create still-morecomplex capabilities. DARPA envisions 
intelligent microsystems for systems with enhanced radio frequency and 
optical sensing, more versatile signal processors for extracting 
signals in the face of noise and intense enemy jamming, high-
performance communication links with assured bandwidth, and intelligent 
chips that allow a user to convert data into actionable information in 
near-real-time.
    Taken together, these capabilities will create information 
superiority by improving how the warfighter collects, processes, and 
manages information--ultimately allowing U.S. Forces to think and react 
more quickly than the enemy.
    An example of the move to integrated microsystems is the 3-D 
Integrated Circuits program. Conventional 2-D circuits are limited in 
performance by the long signal interconnects across ever larger 
circuits and by existing circuit architectures. By moving to three 
dimensions, we can shorten the signal paths and introduce additional 
functions in each layer of three-dimensional stacked circuits that will 
change the way designers can exploit circuit complexity.
    Advanced materials are important drivers in developing new, 
advanced microsystems. An example is the progress being made in wide 
bandgap semiconductor devices for ultraviolet emitters, microwave 
sensors, and high power electronics. The ultraviolet emitters are being 
integrated into a compact, low-cost, biosensor based on multi-
wavelength fluorescence for a new class of early warning systems being 
transitioned to the Defense Threat Reduction Agency. The microwave 
sensors will extend the performance of future radar, electronic 
warfare, and communications systems, and the advanced power electronics 
will reduce the size and weight of the power conversion station in 
future aircraft carriers or enable tactical electromagnetic weapons.
    In the past year, wide bandgap ultraviolet light emitters at 280 
and 340 nanometers have been incorporated into a prototype biological 
threat early warning system. Initial field data shows it outperforms 
the Army's Biological Aerosol Warning System, with a projected 50 times 
lower cost. The successful development of a low cost bio-sensor with a 
low false alarm rate, a key to fielding any sensor system, will 
revolutionize how biological monitoring and defense is performed.
    Also over the last year, our work on wide bandgap radio frequency 
devices has established new benchmarks for power density from a 
microwave transistor, with close to a 30-fold increase over 
conventional approaches. This work will enable high performance radio 
frequency systems to be deployed on restricted-size platforms, such as 
unmanned air vehicles.
    Finally, our work on wide bandgap power switching devices able to 
stand-off over 10,000 volts has led to the Navy considering, via a 
memorandum of agreement between DARPA, the Program Executive Office for 
Aircraft Carriers, and the Chief of Naval Research, the insertion of 
compact, multi-level signal conversion stations based on this 
technology in future aircraft carriers that will reduce the size and 
weight of the power substation by a factor of two, while adding 
performance.
Information Technology
    The DOD is undergoing a transformation to network-centric 
operations to turn information superiority into combat power. 
Supporting this, DARPA's information technology programs are building 
on both traditional and revolutionary computing environments to provide 
the kind of secure, robust, efficient, and versatile computing 
foundation that our network-centric future requires. We will also 
create radical new computing capabilities to make the commander and the 
warfighter more effective in the field.
    An important part of our work in information technology is machine 
language translation. In past years, we have reported how DARPA's one-
way Phraselator is being used in Iraq and Afghanistan. Recently, we 
demonstrated the first rudimentary two-way Pashto Phraselator; we are 
now working towards making a natural two-way speech translator for 
Iraqi Arabic. In addition, U.S. Central Command now uses technology 
from two other DARPA human language technology programs to help produce 
a variety of intelligence reports. Their analysts do this using our 
eTAP-Arabic system, which combines automatic transcription and 
automatic translation to convert Arabic newswire and news broadcasts to 
English text.
    I hope my remarks today have given you a sense of our programs, as 
well as a sense of our vision and ambitions, of which I am equally 
proud. Thank you for this opportunity to appear today. I would be 
pleased to answer any questions you have.

    Senator Cornyn. Thank you very much. I appreciate what you 
said about DARPA getting suggestions and ideas from all 
sources, although I hope you are not relying on Congress to 
provide you any S&T suggestions. We mostly have warriors here 
and we need, obviously, those ideas to come from the S&T field.
    Let me start out. Since it is just Senator Reed and I here 
for right now--we may have other colleagues join us--we will 
just go back and forth here. We do have a series of stacked 
votes, I am informed, at 11:30. So I want to move rather 
quickly to try to make sure we cover as much as possible.
    But I would like to start with Dr. Sega and just have a 
response from each of you, going down the line. I want to talk 
about the overall strategy of our S&T budget and approach. I 
would like to ask each of you to briefly identify what you see 
as the Department's biggest technology challenge now and, let 
us say, in the year 2020. I have heard Senator Roberts say this 
before. It is one of these ``what keeps you up at night'' sort 
of questions.
    Dr. Sega?
    Dr. Sega. It is a great question. I think what we have been 
doing from a strategic point of view over the last 3\1/2\ years 
or so, since I have been there, is to emphasize more in the 
longer term, as well as transitioning technology in the shorter 
term. The issue of force protection and counterinsurgency 
efforts that the technology community can bring to bear 
additional solutions is the reason why we stood up the CTTTF on 
September 19, 2001. So on a near-term basis, our focus has been 
significant in that area, and we have gone through three phases 
of development of that activity, one focused on Afghanistan, 
another one in OIF, and now force protection and 
counterinsurgency.
    In the longer term, the enabler for us to advance 
technologies is people. So it is the technical talent that one 
needs to carry on and provide the discoveries, innovation, and 
delivery of technical capability to the warfighter in the out 
years. It is the one that I look at being fundamental to 
achieving a variety of things in areas, whether it be in chem-
bio, defense-related areas.
    By the way, we have a new Director of the Defense Threat 
Reduction Agency, Dr. Jim Tegnelia. I wanted you to know that. 
I will have Jim raise his hand there.
    That is an area that we have emphasized in this budget, for 
example, but the two in the near term and the long term are the 
ones I just stated.
    Senator Cornyn. Thank you, Dr. Sega.
    Dr. Killion.
    Dr. Killion. I certainly have to echo in the near term the 
issue of force protection as being a real challenge for all of 
us in terms of finding technologies to protect our soldiers. 
Clearly we are doing that today and are trying to exploit every 
advantage we have from the technology base we have developed 
from past investments.
    For 2020, I would say because we are evolving towards a 
force that is more dependent upon the network for all of its 
operations, really network science and understanding of the 
fundamentals of those networks and how to design them so they 
have all the appropriate features that you want, scalability, 
robustness, and protection, is a real challenge for us, 
particularly for a tactical environment. But part of that, 
again, as Ron was saying, depends upon having that workforce 
that has the appropriate background, that has the science, 
math, and engineering expertise, so that the U.S. maintains its 
competitiveness in the S&T fields.
    Senator Cornyn. Admiral Cohen.
    Admiral Cohen. I will give a slightly broader answer for 
today. The reality in research is that you start with 1,000 
flowers that develop into 100 projects which evolve into two or 
three prototypes to give you one example, the George Foreman 
Grill, one profit-maker. In the Department of the Navy--and I 
think it is true in the rest of the DOD and possibly in 
industry--any good chief executive officer (CEO) or chief 
operating officer (COO) would like one flower to result in one 
project to result in one prototype and result in one George 
Foreman Grill. The Services are to train, recruit, and equip. 
We fight today's wars. As you look to the underlying S&T base, 
the 1,000 flowers, the science projects, you do not know what 
you do not know, and you have to go up a lot of alleys to 
figure out which ones are blind. Einstein said, ``If you knew 
the answer, it would not be research.''
    So the balance between the basic research and the output 
function is a very great challenge today, and you see that 
reflected in the budget. That is something that I and my 
colleagues I know lose sleep over.
    In 2020, to continue that thought, if we are to have 
sustained, unfettered research which will maintain our 
technical and economic--because this is about our economic 
engine in the world where ideas are perishable and go across 
nations--the facts of life are to support the technological 
development and the underlying research with a capable 
technological workforce and research force. It is only 
Congress, in my opinion--only Congress--that has the fortitude, 
division, and the resources to keep these research efforts 
going at critical levels.
    Thank you.
    Senator Cornyn. Thank you.
    Mr. Engle.
    Mr. Engle. Thank you, Mr. Chairman.
    Fundamentally, the warfighter does three things. They have 
to find and fix something. They have to communicate what they 
found and fixed to someone else, and they have to engage it. We 
do a pretty good job on the finding and fixing, and we do a 
pretty good job on the engaging. The command and control or the 
communications aspect of that is probably the most difficult 
technical challenge because the human is probably the best 
communicator ever to emerge out of evolution. We like to 
communicate. We like to communicate in different ways. We are 
rapidly adaptable to new forms of communication, and to keep up 
with a prolifery of expanding technology on ways to communicate 
makes it very difficult for us to get our arms around the 
concept of a global information grid, FORCEnet, or many other 
characterizations of our communication and command and control 
capability.
    I would suggest that our biggest challenge now and over the 
long term is to bring technology to bear to enable us to do 
that communication more effectively, more rapidly, more 
precisely with assurance, and that will continue to be a 
challenge for as long as we have humans trying to figure out 
new ways to communicate. We are, in fact, investing a large 
amount of our resources into that particular piece of those 
three fundamental things, and we will probably continue to do 
that over the long term.
    Thank you, sir.
    Senator Cornyn. Dr. Tether.
    Dr. Tether. I agree with two of the responses. I think it 
is the network. The network is what really bothers me. At 
DARPA, we are constantly thinking of what the force of the 
future will be. We are now taking our organic capabilities on 
platforms such as sensors and weapons and moving them off 
board. The Air Force is counting on having situational 
awareness piped into every airplane and also having weapons 
that can be shot by one airplane and commanded by another. The 
Army clearly wants to be strategically mobile and therefore is 
fractioning its platforms in order to get them down to smaller 
pieces. The Navy is into a littoral situation. We did an 
architecture study for the CNO at his request, and again, the 
answer is defractionate the weapons and the surveillance. The 
Marines are the same way.
    But the secret sauce in all of those concepts is the 
network. The secret sauce that they all are assuming is going 
to be there is that when they pick up that phone, they will get 
a dial tone and they will get an answer. When they want to get 
that superb situational awareness, it will come to them. If 
they want to fire a weapon, that will happen.
    These networks are not commercial networks. The problem is 
that these are special networks. When these forces move into a 
region, we do not have time for the infrastructure to be set 
up. We do not have time for people to put up towers. The 
network now will become an integral part of our warfighting 
capability. It has to form itself as the forces move in. It has 
to automatically create itself hands-off. We do not have to 
worry about people because people will not be able to do it. It 
has to take the nodes, make a network into it, so forth and so 
on. It has to figure out what frequencies to go use because 
Federal Communications Commissions (FCCs) in the rest of the 
world are not the same as ours.
    We are putting a lot of money at DARPA into that area 
because of that concern. We need to be sure that we have 
robust, ad hoc, self-forming networks that are also capable of 
withstanding attack because the enemy is going to come after 
the network. Why? Because people like me blab about this right 
here and they know that the Achilles heel of our future force 
is going to be the network, and if they can take the network 
down, they have devastated the force. So we have lots of 
efforts in trying to prevent that. These efforts, as you might 
expect, are classified, but I would be happy to tell you about 
them all.
    We have efforts on both sides, both on defending networks 
and how to take down networks because sometimes that helps you 
figure out how to defend networks too. But I think the network 
is it and that is the big issue for the future.
    Senator Cornyn. Thank you very much for that.
    I guess all we need to do is look back. I think back to 
when my dad flew B-17s in World War II and how much our 
warfighting capabilities have progressed through the Gulf War 
to Operation Enduring Freedom, OIF, and we are able to do 
things today that I am sure back then he could not have even 
dreamed about, and at the same time, protect civilians from 
collateral damage and the like and defeat the bad guys.
    The things I hear a number of you mentioning in terms of 
the long-term challenges are communications, networks, and a 
well-trained workforce. Of course, in the last NDAA, we created 
a program to try to make sure that we were able to develop that 
workforce in the future by establishing a science, mathematics, 
and research for transformation scholarship for service pilot 
program. Is that an adequate response, Dr. Sega, Dr. Killion, 
or are there other things that we need to be doing?
    Dr. Sega. First, we appreciate the legislation in the SMART 
program and the pilot program that it has created. We formed a 
team across the DOD to set forth how to implement it. We have 
sent out the announcement for potential candidates. It closed 
out I think last week and there were over 600 folks that 
submitted applications for the 20 to 25 slots that will be 
available in the pilot program, which was very good.
    What we have submitted in the budget is a more expanded 
version of SMART, the SMART-NDEA. So we have extended that a 
bit and we also are in the process of bringing forward some 
legislation to potentially expand some of those authorities. 
That should be over to Congress in the very near future.
    So I would like to continue to discuss not only the needs 
where we see them, but also the mechanisms. The ability to have 
a payback feature is a good thing. It does a couple of things 
well. One is if you know the student, say, in their 
undergraduate program--currently it is 2 years. Maybe we would 
like to expand it to their full undergraduate period--that 
encourages the student and the scientist/engineer in the 
laboratory to build a relationship. It also helps them 
understand what they are studying by way of getting hands-on 
work potentially through internships and so forth. If you know 
you are going to work in a laboratory after graduation, you 
tend to do your capstone project in that area. So you are kind 
of preparing yourself in the field in which you are going to 
work, at least for a while during your payback period. You hit 
the ground running. When you come into the defense laboratory, 
you build a relationship and some mentors in the laboratory 
system and you are tending to do that work versus some other 
kind of summer job that you may have during the course of your 
undergraduate experience. There is the potential of also 
looking at the clearance process somewhere in that time period 
in which a student is getting the education.
    So we would like to look at expanding upon the SMART 
program, but we think it is a great start.
    Senator Cornyn. Dr. Killion.
    Dr. Killion. I agree with Dr. Sega about this SMART 
program, the NDEA concept. We really do need to look at how we 
encourage people at those levels in high school and beyond.
    I also want to make sure that we remember that we need to 
encourage people into the science, math, and engineering 
disciplines very early on, and we have a number of programs in 
the Army and in the other services where we encourage people to 
get engaged very early in the process in grade school, in 
middle school. Those are critically important if you are going 
to then reap the benefits of that by having people in high 
school and in college who are going to be interested in and 
able to participate in these kinds of programs.
    I really appreciate the support we have gotten, 
particularly from this subcommittee, in the past for our e-
cyber mission program in the Army which involves 6th through 
9th graders engaging in projects over the Web, and we have 
teams that participate every year. That has been growing by 
leaps and bounds over the last few years. That is the time to 
get people excited.
    I was happy to last week participate as a judge for a 
science fair here locally, and seeing the 7th and 8th graders 
who are interested in S&E, even at that level, that is where 
the talent is going to come from in the future. We need to 
encourage them and then provide them the opportunities when 
they get older to get involved in the national defense 
workforce.
    Senator Cornyn. I have one other question for Dr. Sega, and 
then I will turn the floor over to Senator Reed.
    We see that investments made in the 1990s and in previous 
decades are now paying off in numerous ways. From your position 
as the Department's Chief Technology Officer, as you look 
outward to 2015, are there things we should be doing 
differently to better plan for the future? In other words, are 
we organized to identify future threats and corresponding 
capability gaps in a 10- to 20-year time frame?
    For example, who was in a position to think about things 
like IEDs and some of the current technology challenges we have 
today 10 or 15 years in the past? Do we have people thinking 
about that? Do we have an organization in place to make sure 
that we are anticipating new challenges?
    Dr. Sega. What we have continued to improve is the 
integration among the services and agencies over the last few 
years. We have just recently adjusted our review process to a 
comprehensive S&T review in which we not only look at the 
quality of programs, which we have done in Technology Area 
Review and Assessment (TARA) processes and basic research 
reviews, but also to examine those areas that we may find that 
as we project forward, that there are gaps.
    We also are looking more globally in terms of where S&T is 
going. The creation of knowledge is expanding. We can count on 
the rate of technology increasing through the 21st century. 
That more global look is important in this planning process. I 
think the comprehensive S&T review plan is something that we 
can go into more detail about at some other time. There are 
lots of arrows, but I think we have captured it and we have 
done that together with the services and agencies. So that is 
an important question and one that we are making some progress 
toward.
    Senator Reed. Thank you, Mr. Chairman, and let me thank you 
all, gentlemen, for not only your testimony but for your 
valuable work for the military and for the United States.
    Dr. Sega, everything that has been said today highlights 
the critical importance and the critical contribution that your 
programs make. Yet, the budget is not keeping up with both the 
demands in the world for your products and obviously all the 
projects that you are thinking about.
    Do we have a plan to get to 3 percent funding in the next 
several years?
    Dr. Sega. Three percent remains the goal. You are looking 
at the advocates of the S&T program within the DOD. As the 
Department brings forward the needs and demands from various 
sectors, they are weighed, and a balanced investment 
recommendation goes forward and becomes, of course, part of the 
President's budget request. So we are in a time with a lot of 
competing demands and we advocate for a strong S&T program, and 
the result is the program as we have laid it out.
    Senator Reed. Thank you.
    I know there are projects that have not been able to be 
funded. Dr. Sega and all you gentlemen, for the record, could 
you send in a list of those unfunded top priority projects that 
you think are important but just did not make the cut? That 
would, I think, be very helpful to us as we make our 
considerations going forward.
    [The information referred to follows:]

    Dr. Sega. The fiscal year 2006 President's budget was developed by 
balancing priorities across all functional areas. We believe the 
program submitted best represents the Department's priorities based on 
available funds.
    Dr. Killion. The Army Science and Technology (S&T) program request 
in the fiscal year 2006 President's budget is consistent with our S&T 
objectives of enhancing the Current Modular Force and enabling the 
Future Modular Force. We believe the program submitted best 
characterizes the Army's priorities based on available funds.
    Admiral Cohen. The Navy has established a mature Future Naval 
Capability (FNC) program that integrates science and technology with 
the Navy and Marine Corps requirements development process. The FNC 
program delivers capability for transition to acquisition programs 
every 3-5 years. The number of warfighting requirements gaps exceeds 
the funding available to fill them. Additional funds in later 6.2 and 
6.3 would be used for a combination of (1) solving additional 
warfighting gaps as identified by Navy and Marine Corps requirements 
processes, and (2) accelerating Innovative Naval Prototypes like 
Electromagnetic Rail-gun, Persistent Littoral Undersea Surveillance and 
Sea-Base enablers so that those prototype capabilities are delivered 
sooner.
    Additional funds in basic research (6.1) or early-applied research 
(6.2) would be applied to the Secretary of the Navy's project to detect 
and defeat improvised explosive devices at range and speed.
    Mr. Engle. See attached.
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
      
    Dr. Tether. We do not have any unfunded requirements for fiscal 
year 2006.
    However, Phase III of our High Productivity Computing Systems 
Program (HPCS) would require $50 million more than we have programmed 
in fiscal year 2007 in order to continue two teams as opposed to only 
one. Fiscal year 2008 and fiscal year 2009 have yet to be finalized, 
but additional funds would be needed in both years in order to maintain 
two teams.
    We are soliciting the Department of Energy and the National 
Security Agency to provide the additional required funding for the 
program to have an additional team since they are major beneficiaries 
of the technology.

    Dr. Killion, we all recognize that you have done a lot of 
work on the IED issue. With respect to remote control IEDs in 
Iraq, they are causing a great deal of damage. We have some 
jamming devices. There are several products I suspect. But the 
question really comes, why are we not fielding them as quickly 
as it seems that the field forces need them?
    Dr. Killion. That is a question, honestly, somewhat outside 
my purview since I handle the S&T piece, but not acquisition.
    Senator Reed. Right.
    Dr. Killion. I think the Army does have a strategy for the 
fielding of such devices. We have worked hard to accelerate the 
fielding of such devices. It would be useful to have the 
opportunity to come in and lay out for you exactly what the 
strategy is and the time lines for fielding of different types, 
both the current generation of devices and what we are looking 
at for the next generation of capabilities which will provide 
enhanced protection.
    Senator Reed. Let me just follow up. To be fair, you are 
not in the acquisition business, and this is an acquisition 
problem. But, I do have a few questions.
    One, the technology exists. This is not a situation where 
you are looking around for adequate technology. Is that a fair 
estimate?
    Dr. Killion. There are technologies available that address 
a certain range of the control devices that are out there, yes.
    Senator Reed. This has been made a high priority for you to 
search for the best products and to talk to the acquisition 
people and to move this forward. It is high priority?
    Dr. Killion. It is a very high priority to me, and in fact, 
we have made additional investments in the 2006 budget for 
enhanced survivability for both ground and air vehicles.
    Senator Reed. Let me raise a question for both you, Dr. 
Killion, and Dr. Tether. We have talked about networks. We have 
talked about being able to get that dial tone, but somebody has 
to be able to say something. A lot of what we will be doing in 
the next several decades is in cultures where we do not have 
language skills, cultural sensitivity. We could have the best 
network in the world, but if we have people who do not know how 
to speak the language or do not know how to interpret the signs 
and signals of the local community, then all this technology 
will help but it will not be decisive.
    What are we doing in the realm of DARPA and Army R&D to 
accelerate linguistic training, to provide the resources we 
need to be effective in these different cultures? Do you want 
to go first, Dr. Tether, and then Dr. Killion?
    Dr. Tether. DARPA has a major program in language because 
that is a major problem. Either we are going to have to teach 
our troops 16 different languages or we are going to have to 
give them something that does it for them. In fact, in the back 
there are a couple displays that show some of those 
capabilities.
    We have had a major language program for years. In fact, in 
Iraq we had a program where we were creating an ``Early Bird,'' 
an Iraqi Early Bird, where we were taking the previous day's TV 
broadcast and newspapers and creating that Early Bird that has 
a summary and then the article itself. That proved to be 
extraordinarily helpful. The military phase is over and now you 
are told to control the country, but you do not know what is 
going on around you. That was extraordinarily valuable for 
them. It saved a lot of lives. It saved lives in the sense that 
there would be incidents in a town 20 miles away that we would 
not have heard about for days, as it went through the normal 
chain, but this Early Bird allowed us to deploy and save kids' 
lives.
    Senator Reed. By the way, you have discontinued that I 
think----
    Dr. Tether. Yes. I know you were on the Internet. The 
person who did it just got tired and we are trying to automate 
it more and bring it back on line. Actually, it is not 
discontinued. U.S. Central Command (CENTCOM) still has a 
version of it that they are still using.
    The Phrasealator is an example of a technique, a little 
Phrasealator where you speak into it in English and out comes a 
phrase in any of eight different languages.
    We are now trying to develop a two-way. We are on the verge 
of developing a two-way where a person speaks into it in 
English, and it comes out in whatever language the person 
speaks back, and he hears it in English. We believe that we can 
get a reasonable capability up in perhaps 6 months to a year.
    But we have a major program that is just starting up, and 
our objective is basically to get rid of all the linguists and 
analysts. I probably just made a few more enemies, but we want 
to basically have a capability where the language goes in and 
the output comes in so that the warfighter can get it directly. 
He does not need an interpreter with him. He can understand the 
person talking to him. If he gets a document, he can put it 
into a computer and out it comes in English that he can 
understand. It does not require somebody else to type it in. We 
believe that we can get to what the Defense Language Institute 
(DLI) people would call a level 3 capability in a very short 
period of time. So we have a major program. It is a major 
problem.
    Senator Reed. Dr. Killion, any comments?
    Dr. Killion. Actually we are partnered with Dr. Tether in a 
number of the programs in this area. I think a good example of 
this sort of additional approach the Army is taking is the 
Avatar that you see over on the table from the Institute for 
Creative Technologies, which is a tool that can be used. It is 
artificial intelligence driven. It can be essentially 
programmed to represent any culture and any language and 
provide training to an individual interacting in that type of 
realistic environment and faced with realistic scenarios 
without necessarily having to have a cadre of people available 
to you, which can be expensive and also trouble in terms of 
having them available readily for anybody throughout the United 
States. You can provide access to that training widely and 
fairly cheaply, put it on an X-box or a game-based-type 
environment and provide training to the individual so he is 
better prepared for the culture he is going into.
    With regard to the speech recognition. I will know that Dr. 
Tether has succeeded when Toys-R-Us sells bears that will talk 
to you and understand you. So that is my challenge to Tony.
    Senator Reed. Which raises the question, are we working 
with Toys-R-Us?
    Dr. Killion. There you go. [Laughter.]
    Senator Reed. Admiral Cohen.
    Admiral Cohen. Senator Reed, it is not just about 
understanding and being able to communicate with the enemy. 
Today with coalition warfare, it is critically important that 
we be able to effectively use our allies. Two years ago CENTCOM 
came to me in my overseas office in London and asked for 
something which we then fielded immediately. It was called 
Coalition Chat Line.
    What Coalition Chat Line gave us the ability to do was, 
because we had the ability to do written translation at about a 
90 percent accuracy rate, give command and control with our 
European and other allies using existing networks at an 
unclassified level. We could type in English and it would come 
out in Polish. They would type in Polish; it would come out in 
English, Dutch, et cetera. That is still in use today, and it 
is highly effective. It is not where we want to go. Dr. Tether 
and the Army are doing wonderful work in that area.
    But the second thing that we did--and this comes out of the 
operation Secretary England headed--when, over a year ago, we 
were losing translators--now, these were for-hire and embedded 
translators with our troops, our marines, as they are kicking 
down the doors, et cetera--we went ahead and we established 
back in the United States a call room. We did this under 
contract using an iridium phone through satellites, et cetera. 
This was not ideal and there was a lot of push-back, especially 
when the guy is kicking in the door to hold up the iridium 
phone, saying please, bad guy, talk into it. That is now how we 
used it. We used it to rapidly debrief individuals that we 
needed to get real-time intelligence from in the field.
    What we found was--and Dr. Tether is more sensitive to this 
probably than I am--a number of dialects. I mean, I come from 
New York City. I have had trouble communicating my whole life. 
So, I understand dialects. The chat line gave us the ability to 
have an individual harm's way, who sensed what that dialect was 
on the phone; to refer it to someone else in that call room so 
we got accurate--and that is critically important--translation 
so we had actionable intelligence in the field at the pointy 
end of the spear.
    So the point of those two stories is while the future is 
promising and these technology developments are moving very 
fast, we do what we can do today with what we have.
    Senator Reed. Thank you.
    Mr. Chairman, will we have a second round perhaps?
    Senator Cornyn. Absolutely.
    Senator Reed. Okay. Thank you.
    Senator Cornyn. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Dr. Sega, the Defense Experimental Program to Stimulate 
Competitive Research (DEPSCoR) has been described by a lot of 
folks as a very important program, and it has been particularly 
important for researchers in Nebraska and a number of other 
States and has developed a number of new technologies that have 
enhanced the Nation's military capabilities. So I was alarmed 
to note that in your 2006 budget request you have actually 
reduced the investment in this program by over 30 percent 
relative to the 2005 appropriated level, and even down below 
the 2005 budget request.
    I guess because the program is run out of your office, I 
would like your opinion as to the value of the program, and if 
you have some concerns about it, is there anything that can be 
done to raise your confidence so that we do not see a 
continuing reduction in the budget in the future?
    Dr. Sega. I believe the goals in the DEPSCoR program itself 
are important. The only office I established within the Office 
of the DDR&E was that of Deputy Under Secretary of Defense for 
Laboratories and Basic Sciences. Within that office are 
universities and workforce-related responsibilities as well. 
Dr. John Hopps led that and oversaw the DEPSCoR program. He 
passed away last year.
    Now, I would like to take the details of your question for 
the record, but suffice it to say that the ability for us to 
capture ideas from all parts of the country is something that 
we value.
    [The information referred to follows:]

    There is value in research performed under the DEPSCoR program, as 
well as the larger amount of research performed under other DOD 
Research, Development, Test, and Evaluation programs by academic 
institutions from States eligible for DEPSCoR. The fiscal year 2006 
request for DEPSCoR is $8.913 million which is 9 percent less than the 
fiscal year 2005 request in real terms. The reduction is a reflection 
of difficult decisions made in the current budgetary environment.

    Senator Ben Nelson. Well, there seems to be concern among 
the academics that their role is being minimized in the 
process, and I think that is why the concern has been raised. 
Obviously, you want to get the best ideas. It is alarming to 
see, if in fact this is the case, the academics' role reduced 
unless there is a particular reason for doing it. If they are 
inadequate or something like that, is there something that 
could be done to re-elevate their contributions? Because it 
seems that that is what may be happening here.
    Dr. Sega. If I could get back with you on that to better 
address it.
    [The information referred to follows:]

    There was no budget decision to deliberately reduce academic 
institutions' participation in DOD Research, Development, Test, and 
Evaluation (RDT&E), and we are not aware of any evidence that shows a 
reduction. There are scientific and technical opportunities to be 
explored if additional resources were available for basic research, the 
portion of RDT&E within which academic institutions from all States 
make their greatest contributions. However, we must maintain a balance 
among DOD investments in the various components of RDT&E.

    Senator Ben Nelson. Sure.
    Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Nelson.
    I want to reiterate a request that Senator Reed made just 
so we are all clear for the record. I wanted to make sure that 
we get your unfunded S&T opportunities. In other words, we 
understand that you had to meet a budget goal and presumably 
there are things that you would have asked for if funds had 
been unlimited, which they are not. But if they were, what 
things that you have not requested would you request? If you 
would give that to us please in writing by the end of April, we 
would appreciate that very much.
    Dr. Sega, military threats have been categorized as 
traditional, irregular, catastrophic, and disruptive. The QDR 
will reportedly look at how to mitigate risks in each of those 
four areas. How is the DOD currently working to integrate 
identified capability gaps in each of these four threat areas 
into its S&T investment strategy?
    Dr. Sega. The details--the QDR is an internal document at 
this point. But the National Defense Strategy and National 
Military Strategy were released last week. In there are the 
various challenges of conventional, irregular, catastrophic, 
and disruptive threats. We are participating in all of the 
forms that go into the QDR to assure that the importance that 
we feel, in terms of S&T's impact in dealing with the 
challenges of the future, is addressed. I can assure you that 
we are participating in that, and that the recognition of the 
irregular, the catastrophic, and the disruptive--and the 
disruptive, in particular, has a heavy focus on disruptive 
technology and understands the global environment and how 
technology is being developed and sometimes the unintended uses 
of it have to be thought through as well. We are participating 
in the process and I believe the Department feels it is 
important as well.
    Senator Cornyn. Does that make up part of your investment 
strategy, though, how to address capability gaps in each of 
those areas?
    Dr. Sega. Yes. As I mentioned before, the issue of the 
comprehensiveness of the review is to help us identify gaps 
that we believe we potentially have in certain areas and to 
address those in the context of not only where the Department 
is going by way of strategies that are outlined, including the 
QDR, but also the context of the global environment. We have a 
responsibility not only to look at the pull part, if you will, 
from warfighter needs, but also have a part of our investment 
portfolio looking at the technology push aspects.
    Senator Cornyn. Hopefully, the money that the American 
taxpayer is investing in S&T through your collective efforts 
has a benefit above and beyond, not just our defense or 
national security matters, but will be available across 
agencies. I am thinking particularly of the Department of 
Homeland Security and the Department of Justice.
    A recent Government Accountability Office (GAO) study 
reported a slow pace of information sharing between fingerprint 
databases at the Department of Homeland Security and the 
Department of Justice. The DOD is working on a number of more 
advanced security access devices and personnel recognition 
technologies.
    What mechanisms for coordination and sharing of 
technologies exist among various Departments of the United 
States Government to ensure that we can both accelerate the 
sharing of critical information and also update new and 
available, more reliable and effective technologies? Dr. 
Tether, do you have a view on that subject?
    Dr. Tether. Yes, I do.
    I have met with Chuck McQuery and Dave Bolka at the 
Department of Homeland Security, and we have gone over what we 
are doing with them in great depth, again one of these agendas. 
We are very fortunate, however, in that the Department of 
Homeland Security has a DARPA-like organization. Quite a few of 
the people that are there are people from DARPA. People at 
DARPA are only around for 4 of the 6 years. I like to say we 
are all really summer hires. The deputy is Xan Alexander. She 
used to be my deputy at DARPA. A few of the PMs that used to be 
at DARPA are there. So, we have great relationships. In fact, 
we have joint programs. We have programs in radiation 
decontamination of buildings. We have joint programs in portal 
security, basically how do you detect mail, people, so forth 
and so on. We have a good relationship there.
    We also have a relationship at the Department of Energy. We 
briefed Secretary Card before he left on our plan. We actually 
have a joint program with the Department of Energy at Yucca 
Mountain both in our titanium initiative and in our robotic 
initiative to have a robot that can scrabble over rubble and 
make sure everything is okay.
    We have relationships with the Central Intelligence Agency 
(CIA), the DDR&E, joint programs again, congressional staffers, 
and the National Security Agency (NSA). In the past we have had 
programs with the Federal Aviation Administration (FAA), 
Transportation Security Administration (TSA), so forth and so 
on.
    My PMs are entrepreneurs. If they have an idea, they will 
go anywhere to get that idea used.
    Senator Cornyn. Dr. Sega, are you satisfied that we are 
doing everything we can to not just develop science leads and 
technology within the DOD, but that we are cross-fertilizing 
with other Federal Government agencies and not just looking 
inwardly, but looking outwardly to look at other ways to apply 
this technology to other needs? For example, I am thinking 
about the transfer of some UAVs by the Air Force to the Air 
National Guard to do border security, as well as ground sensors 
along the Rio Grande to deal with the border security issues. 
Are you satisfied we are doing all we can and all we should be 
doing in that area?
    Dr. Sega. Mr. Chairman, I believe this is a goal that we 
always have to work hard on moving toward. This is a work in 
progress. I think we can always try to improve what we are 
doing. As conditions change, we have to relook at how we are 
doing things. We have, I think, improved in many aspects. Tony 
has mentioned a few. The interagency forums have also brought 
forward another mechanism of doing collaboration. For example, 
in high-end computing, we signed a memorandum of agreement with 
the Department of Energy and the NSA. So we do have mechanisms 
to collaborate, but I think this is an area that we have to 
continue to pay attention to and work hard on. It will be a 
work in progress forever, but we have to work, spend time and 
spend energy and focus on that continuously.
    Senator Cornyn. This is my last question. Then I will turn 
the floor over to Senator Reed.
    A number of you mentioned your long-term concerns having to 
do with our networking capability and perhaps a global grid. 
This does not affect any of you immediately, but I worry when I 
see one of our important agencies, the Federal Bureau of 
Investigations (FBI), for example, give up the development of a 
virtual case file program and basically more than $100 million 
goes down the toilet. I wonder whether we are comprehensively--
and this is not just a DOD issue, obviously--across the 
Government looking at the best strategies to develop 
information technology. Obviously, a lot of the concerns are 
similar with secure communications and the like. That concerns 
me and it is certainly something that, as we go forward, I want 
to have a continued conversation with you about.
    Admiral Cohen. Mr. Chairman, sometimes programs can be too 
big. One of the advantages of S&T is its agility. So I have 
been investing about $1 million a year for the last 3 years 
with our Naval Criminal Investigative Service (NCIS). I do not 
take credit for the TV show, but what NCIS did ask for was the 
ability to better leverage their existing computer network to 
put together disparate pieces of information, seemingly 
unconnected, so that pattern recognition and focused 
surveillance, all within the bounds of the law, could take 
place. That now is being exported to other criminal agencies 
within the U.S. Government.
    When we talk about the relationships, we all have these 
memorandums of understanding and informal and formal agreements 
with different Departments and services, et cetera, but I also 
look at the broader needs of our society. From precise time 
measurement came the GPS. The GPS has created a multi-billion a 
year industry in the United States, around the world. It 
changes how we work, how we fly, our leisure time.
    If you will remember about 3 years ago we were in crisis in 
electrical transmission and generation in this country. The 
Navy is going electric. The DD(X) and CVN-21 will effectively 
be all electric ships. So we are looking at directed energy 
weapons. We are looking at the electromagnetic rail gun. We are 
going to launch aircraft using Paramount and Walt Disney 
technology for linear accelerators for roller coasters. But we 
are heavily invested in both high temperature and low 
temperature superconducting both in Massachusetts and in 
California, competing technologies which I believe will give 
this country not only the military advantage that an all-
electric, compact, high efficiency force brings, but will 
enable us to beat back the challenges in electrical 
transmission, high wire, right-of-ways, et cetera and put us 
back in a leading position in the world for export of that 
important industrial capability.
    Senator Reed. Thank you very much, Mr. Chairman.
    Dr. Sega, one of the great assets that the DOD has is the 
S&Es in the laboratories. I know you have been working with 
respect to the new NSPS to look at or compare, at least, the 
flexibilities that might be offered there to the flexibilities 
in these demonstration programs. I know there is one program at 
the Naval Underwater Warfare Center (NUWC), which is very much 
appreciated there.
    Have you done any of the detailed comparisons yet of the 
NSPS and the demonstration programs? Do you have any 
observations at this point?
    Dr. Sega. The demonstration programs I think were very 
important in actually structuring and developing aspects of the 
NSPS. So the experience gained in the demonstration programs I 
believe was important in development of the NSPS program.
    We have had an input by way of our demonstration and 
laboratory experience.
    Now, the phase that we are currently in is a release of the 
naval regulations in The Federal Register, and they are fairly 
broad. The next phase is those that are implementing 
regulations, and it will be, as those are developed and 
presented, that we can have a comparison in terms of the 
demonstration labs and how the flexibilities compare. So that 
is down the road a little bit.
    [The information referred to follows:]

    We can make the analysis, comparing the relative NSPS features and 
flexibilities to those of the laboratory demonstrations, available to 
interested Members of Congress upon request once it is completed.

    Senator Reed. When you come to that juncture, I would be 
very interested in seeing the tradeoffs before any commitments 
are made. We do want to maintain the flexibility in the labs 
and the strength of the labs. Their strength really is 
attracting the very best S&Es.
    Let me turn to both Admiral Cohen and Dr. Tether. I 
understand that DARPA and the Navy are making significant 
investments in developing new undersea technologies, including 
weapons systems, sensor devices, and new concepts of 
submarines. What is the scale of your investment, if you can 
sort of lay that out, and what are the major initiatives? To 
what extent is the NUWC participating? Admiral Cohen or Dr. 
Tether?
    Admiral Cohen. Thank you for that question. Of course, the 
NUWC at Newport is unique in the world and has been doing this 
for some time. When I first came to the Office of Naval 
Research 5 years ago, the Navy was just finishing the 
transition from blue water dominance, which we still enjoy, to 
a focus on the littoral, which Dr. Tether has already 
addressed. What we found was that our deepwater premier 
torpedo, the Mark 48 ADCAP torpedo, which the NUWC was so 
critical in developing, really was not optimized for the 
littoral, shallow water, background scatter, et cetera. Plus we 
had the challenges of mines.
    So we looked to go ahead and develop under our Swamp Works 
program, which is the naval version of Skunk Works. It smells 
about the same. High risk, and we chose the NUWC at that time 
to do that, and within 18 months they had transformed the deep 
ocean torpedo into what we call half-torp, half-length, so we 
could put 52 instead of 26 in a 688 submarine, doubling its 
load, and with the precision to find and destroy a 1-meter 
tethered mine in the littoral with countermeasures present 
because if we could find a 1-meter mine, we could find a 3-
meter or a 5-meter submarine, but the other way is not there. 
So the intellectual capital and the long-term investment that 
you have there paid big dividends.
    We have just, at the direction of the CNO, initiated what 
we call an innovative naval prototype entitled Persistent 
Littoral Undersea Surveillance (PLUS). I have about $150 
million invested in that over the FYDP. It does not have a 
transition partner, but it is looking at distributed sensors, 
weapons, taking the littoral where we deal in the non-RF, and 
making by a wide variety--and I will leave it unclassified--
sensor capabilities, some of which we are working with DARPA 
on, to take undersea targets and turn them into RF signals, 
which can pop up and turn that target into the common operating 
picture. So for our battle forces in littoral, it becomes just 
one more time-critical strike target. It is exciting, and NUWC 
will be a key enabler, along with academia and industry, in 
achieving that over the next 4 to 8 years.
    Senator Reed. Thank you.
    Dr. Tether, any comments?
    Dr. Tether. Yes.
    Four years ago, the amount of interaction DARPA had with 
the Navy was very small. It was sort of cyclical. We were at 
the small side.
    In a meeting with the CNO, the CNO asked us to do an 
architecture study on the--actually I call it the ``literal.'' 
In the part of New York I come from it is ``literal,'' not 
littoral.
    Admiral Cohen. Dialects. [Laughter.]
    Senator Reed. Who is from the Bronx?
    Dr. Tether. Neither of us, I do not think.
    So at the end of that architecture study, we really entered 
into a major program, which is joint, by the way, with Naval 
Research, on persistence surveillance. That is the issue, 
especially if you are talking about the Taiwanese Straits and 
having to know what is going on there under the water and above 
the water. Most of it is classified.
    Another major program that we have that just started off is 
a small submarine program that we call Tango Bravo. Now, this 
resulted from an idea that somebody had that said, gee, we do 
not need a shaft to push a propeller around. We could actually 
put--I am sure the people will cringe at this--propulsers on 
the outside of a submarine and use those to drive the 
submarine.
    What would be the benefit of doing that? Well, if you can 
get rid of the shaft of the submarine, you have a whole bunch 
of tradeoffs now that you can make. You can, for example, take 
the reactor and move the reactor to the rear of the submarine 
and get rid of some of the shielding.
    We had studies done. This was a study that was joint 
between DARPA, Naval Research, and the CNO to see what would 
come out being able to get rid of the shaft in the submarine. 
The study showed that we could probably reduce the size of the 
submarine by a factor of two. The constraint was the same 
warfighting capability. That was very interesting. A factor of 
two displacement. You do buy submarines by the pound. You also 
could get a decrease in the cost because it is just less touch 
labor in trying to make it.
    That program is just underway. We are in source selection. 
The NUWC is an important player in it obviously. They will be 
in it. We are just about ready to make the awards to basically 
look at two of the major technologies in doing that. One 
question is, can you really put these propulsers on the outside 
of the submarine and get the same acoustic quality as well as 
the ability to go at fast speeds? The other thing to get the 
size down is you put the torpedoes outside the pressure hull. 
So can you take your torpedoes and put them outside the 
pressure hull? If you can do that, you could have a submarine 
with greatly reduced manning, and all that comes with it. So we 
have a major program.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Senator Cornyn. Recently, I had a chance to go back home to 
San Antonio and talk to some of the leadership at Brooke Army 
Medical Center and Wolford Hall Hospital at Lackland Air Force 
Base. We learned a little bit more about how dramatically the 
military medicine has improved the likelihood of survival of 
our troops when they, unfortunately, do receive injuries.
    I am also reminded, as Senator Reed I know has done too, as 
we go visit the troops wherever they may be, at Bethesda, 
Walter Reed, or back home in our States, that the nature of the 
injuries that our troops are receiving has changed. It used to 
be that high velocity gunshot wounds were the predominant cause 
of casualties. Today 38 percent of all injuries and 41 percent 
of all fatalities are the results of blasts, and we have 
alluded to some of these earlier in your testimony.
    Research in the area of blast injury prevention, 
mitigation, and treatment is increasingly critical as we look 
for ways to protect and care for our men and women in uniform. 
I know we have alluded to that in a number of responses here 
before, but I wonder perhaps, Dr. Killion, if I can ask you to 
outline for us now efforts underway in each of these three 
areas? Could you especially provide us with information on 
areas in which progress could be accelerated with the 
application of additional resources? Are there additional 
projects you would recommend for these areas if additional 
funding were available?
    Dr. Killion. I would be happy to do that. I think it is 
probably best that I give it to you in detail separately as a 
follow-up to the hearing.
    I had a recent experience at Walter Reed that I thought was 
sobering, enlightening, and actually encouraging for the S&T 
community, probably similar to visits some of you have had. I 
was visiting recently and met a female helicopter pilot who had 
lost both of her legs. I was introduced to her and she said, 
``Oh, good, I did not know who to thank.'' That kind of took me 
aback because that was not exactly what my response would have 
been necessarily. She realized my consternation and said, ``Oh, 
no, you do not understand. The technology that I was given 
worked perfectly. The body armor protected my torso and I am 
alive today because the body armor was there to do that. The 
NOMEX flight uniform protected me from burn injuries so that my 
arms were not burned any more severely.'' She had very minor 
burn marks on her arms. Then she said, ``The helmet work that 
designed the hearing protection and the visor for face 
protection saved my eyesight, saved my hearing.'' So the 
technology worked. So she was happy that we had given her what 
we had. Obviously, our goal is to provide even greater 
protection.
    Her helicopter was hit by an RPG. So both the blast and 
fragmentation effects are issues. In fact, part of our problem 
with our databases is distinguishing those. So, I need to get 
some clarification on the numbers. Some of the trauma injury 
databases when they say blast effects also include 
fragmentation effects.
    We do have specific ongoing efforts that are looking at 
trying to counter the blast injury from things like 
thermobarics that are a special case as opposed to the body 
armor that we are using today, the Small Arms Protection Insert 
(SAPI) plates and the protective vest, which are primarily 
aimed at protecting you from fragmentation and bullets as you 
suggest.
    I will follow up with information on this.
    [The information referred to follows:]

    Blast protection from all threats, to include IEDs and mines, is a 
formidable challenge. During OIF, a large number of blast injuries have 
been incurred by warfighters riding in vehicles. The recent up-armoring 
of tactical vehicles to include the HMMWV has provided added 
protection. This effort was the result of efforts on improved armor 
performed by the Tank Automotive Research, Development and Engineering 
Center (TARDEC) and the Army Research Laboratory (ARL). Blast 
protection improvements for the deployed dismounted warfighter, 
however, are limited because the inherent add-on weight of current 
protective materials restricts the soldier's mobility and range of 
motion.
    Current Army research in blast injury prevention and mitigation is 
focused on enhanced lightweight protective materials for both vehicle 
and personnel armor, improved materials processing techniques, and 
innovative concepts and prototypes with potential to increase 
protection while minimizing added weight burden. Current research 
efforts include the following:

        <bullet> The TARDEC and ARL are investigating new composite 
        material concepts/designs and active protection systems in the 
        area of vehicle protection.
        <bullet> The Natick Soldier Center is researching high-strength 
        fibers such as M5 and Zylon, along with post-processing 
        treatments that could improve the fragmentation protection of 
        soft armor systems. In addition, new methods of production and 
        innovative architectures for protective materials (e.g., non-
        woven, unidirectional fiber layers; novel backing materials; 
        and flexible resin impregnated fabrics) are being assessed for 
        soldier protection.
        <bullet> The Natick Soldier Center, in conjunction with the 
        Medical Research Materiel Command, began an effort in fiscal 
        year 2003 to develop a concept for soldier protection designed 
        specifically to address pressure blast effects that could be 
        incurred within buildings or enclosures.
        <bullet> ARL is exploring advanced transparent armor materials 
        and material processing methods such as microlamination that 
        are applicable for both vehicle (i.e., windshields and windows) 
        and individual (i.e., face) protection. ARL is also 
        investigating new concepts, such as shear thickening fluids 
        (``liquid armor,'') to assess their ability to provide 
        increased protection and flexibility at much reduced weights.

    We recognize that blast injury treatment is critical to the care of 
our men and women in uniform. The Army's medical research program 
currently has investments in trauma treatment research that are 
directly applicable to the types of blast injuries incurred in OIF. 
These efforts are focused in the areas of neuroprotection, 
physiological sensors, and resuscitation.
    In addition to these ongoing efforts, Army medical research in the 
area of resuscitation will begin a new phase in fiscal year 2006 that 
will focus on resuscitation fluids and how the effects of blast-related 
head trauma determine fluid resuscitation requirements. Standard field 
treatment of injuries resulting in blood loss or extreme head trauma 
involves the use of resuscitation fluids to help stabilize the patient. 
However, when the brain is traumatized there is a disruption of the 
blood-brain barrier that allows these normal resuscitation fluids to 
leak through the blood-brain barrier, increasing the risk of brain 
swelling. Research will be conducted in developing new resuscitation 
fluids that would mitigate the brain swelling when the blood-brain 
barrier has been disrupted. We believe that this research is important 
given the number of casualties due to head and neck injury experienced 
in OIF. This research will potentially lead to the optimal use of 
resuscitation solutions in the field.
    The current Army S&T programs in these areas represent a balanced 
portfolio addressing both near-term and long-term warfighter needs to 
optimally identify potential solutions. The current approaches show 
promise for improving blast protection, mitigation and treatment.

    Senator Reed. Mr. Chairman, if I could interrupt. Dr. 
Killion was talking about Major Tammy Duckworth of the Illinois 
National Guard who, when I saw her, assured me she is going to 
fly again in uniform in the United States Army. She will need a 
little help with technology, but just a little. She will do it 
on her own.
    Senator Cornyn. I appreciate your sharing that story with 
us. I guess the most amazing reaction we hear from our troops 
when they are in the hospital is when can I get back to my 
unit, even from some who have suffered, unfortunately, 
significant injuries.
    Let me just ask two other questions. First of all, Dr. 
Killion, if you could get us that additional information in 
relatively quick order. We are going to leave the record open 
and submit some additional questions to each of you in writing, 
which we would ask you to turn around as soon as you reasonably 
can, since obviously time will not allow us to ask all of those 
verbally in the hearing.
    Dr. Sega, I would like to touch on advanced semiconductor 
technology, and I would like for you to take this one for the 
record and get back to us. If you have any comments now, of 
course, I would welcome those.
    Having advanced semiconductor technology is critical to 
maintaining America's military advantage. Making chips has 
become increasingly complex and there are many challenges that 
must be overcome to continue to make them faster, denser, and 
more powerful. Of course, research drives these advances. I 
believe the industry spends about 17 percent of its revenue on 
R&D.
    Given the advantages that the military has gained through 
this advanced technology, I would be interested to know what 
steps the DOD is taking to ensure that we maintain our 
technological edge in this area. If you have any brief comments 
now, I would be glad to hear those, but if you would like to 
take that for the record and get back to us, that is fine as 
well.
    Dr. Sega. We do work with the semiconductor industry on 
individual technologies, as well as the associations that 
represent the Semiconductor Industry Association. There are 
activities that focus on their concerns. Focused Research 
Centers is one of them. But the question is one that I think 
would be best done for the record so we can lay out the 
program.
    [The information referred to follows:]

    The national security community has a requirement for advanced 
semiconductor technology. Many of our requirements are met by the 
industry as a whole. However, there remain specialized requirements for 
low-volume quantities and radiation hardened components. We maintain an 
active program to address these concerns. Programs in rad-hard by 
design, 3D microsystems, and maskless lithography are several 
initiatives the DOD pursues in this area.
    Over the years, the DOD has maintained a strong technology 
investment in leading-edge semiconductor technology and we have worked 
closely with industry. We are currently working with industry to 
establish a focused basic research program. This program will not only 
generate new ideas but will help grow the scientific and engineering 
talent necessary for continued innovation in semiconductor technology.

    Senator Cornyn. Thank you.
    I have one last question and then I would be glad to see if 
Senator Reed has any others before we wrap up. Unfortunately, 
we have four stacked votes starting at 11:30, so we are going 
to have to go do our duty there as well.
    My question has to do with the industrial base. Let me 
start off first by saying I understand the Department's Office 
of Industrial Policy has been conducting a series of 
evaluations on the capabilities of the defense industrial base. 
As technology and manufacturing processes play a key role in 
industrial base issues, which also have had an impact on the 
availability of a well-trained technical workforce, what has 
been your role in contributing to discussions on the 
development of these reports? Dr. Sega, if you could comment on 
that.
    Here again, I hear and read concern expressed from time to 
time that if we discontinue a certain kind of project, we risk 
losing our base. Obviously, going to a sole-source procurement 
is always of concern because we know we typically benefit from 
competitive bidding on various projects. I wonder if you have 
any observations to make on that issue.
    Dr. Sega. Our area of responsibility is principally in the 
development of the technology and the military-critical 
technologies program, now under DDR&E. So that is an important 
function to establish the technical base for those 
technologies.
    The area of industrial policy and its study is out of our 
area, but we would work with that office and provide an answer 
to your question.
    Senator Cornyn. I would just ask you to take this and get 
back to us as part of the questions. Would you describe for us 
the investments that you are making to ensure we are developing 
the next generation of innovative manufacturing technologies 
that will enable us to have that domestic industrial base 
required to support the good work that each of you are doing in 
your S&T field so we will actually be able to produce those 
products here in the United States?
    Dr. Sega. Mr. Chairman, on the manufacturing technology, we 
have again a Defense Science Board study of manufacturing 
technology. It also represents one of the areas of focus in our 
research and engineering goals which we recently have 
distributed. We will be happy to provide that as well.
    [The information referred to follows:]

    Army, Navy, Air Force, Defense Logistics Agency, and Missile 
Defense Agency each has Manufacturing Technology program elements to 
address core service and agency manufacturing requirements. OSD, 
through the Joint Defense Manufacturing Technology Panel (JDMTP), works 
with the military departments and defense agencies to encourage 
investment synergy and collaboration where possible. We work with 
manufacturing initiatives such as Next Generation Manufacturing 
Technology Initiative (NGMTI), Composites Affordability Initiative, and 
Metals Affordability Initiative to identify candidate technologies that 
support DOD S&T strategic plans and have the potential to the benefit 
the warfighter. Most recently, we established a Defense Science Board 
task force to assess the DOD Manufacturing Technology program and 
provide recommendations as to how ManTech can be strengthened to 
improve benefits to the DOD.

    Senator Cornyn. Senator Reed, do you have any follow-up 
questions?
    Senator Reed. I have one question if I may, Mr. Chairman.
    Dr. Sega, you have been recently designed the Chief 
Technology Officer to the DOD. I wonder if you need any 
additional legislative authorities to flesh out this role of 
Chief Technology Officer. We presume that this would be similar 
to positions in the private sector that are designated Chief 
Technology Officer, and I wonder if you have the same 
responsibilities and authorities. So you might respond briefly 
here today, but please follow up in writing if you feel you 
need more responsibilities and more detailed authority.
    Dr. Sega. Senator Reed, that is another area where we are 
actually getting some help from the Defense Science Board as 
they look at the roles and responsibilities of the DDR&E. I met 
on two occasions with their task force. I will also look at 
what their findings and advice are prior to formulating the 
recommendation that goes forward. So I will be glad to get back 
with you, but I think this is an area where we will learn more 
and have another input, in this case from the Defense Science 
Board, that is addressing exactly that question.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Cornyn. Gentlemen, thank you very much for your 
participation here today. We will leave the record open until, 
let us say, 5 o'clock on Friday for any members of the 
committee to submit additional questions in writing, and we 
would appreciate your prompt response to those questions. It 
will give us the information we need so presumably we can help 
you make sure you have what you need in order to continue to do 
the outstanding job that you are doing.
    It is truly impressive what we have seen displayed here 
today. The promise of the research and investments that you are 
making now for the future are equally exciting, although we 
know we have challenges that we have discussed here today, that 
we have not yet met that are very real and occurring today, 
particularly in the area of IED mitigation and dealing with, 
obviously, that tremendous challenge in a new and different 
kind of theater.
    Thank you for being here. Thank you for your service to our 
country.
    This hearing is now adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John Cornyn
                 science and technology budget request
    1. Senator Cornyn. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. Engle, 
and Dr. Tether, when developing and following a carefully constructed 
strategic plan, corresponding budget decisions are necessary. Programs 
must sometimes be canceled, redirected, or initiated. What decisions 
have been made in the fiscal year 2006 budget request--programs 
cancelled and started--as a result of the science and technology (S&T) 
strategy for the current and future national security environment?
    Dr. Sega. The fiscal year 2006 DOD S&T budget request contains 
several new or redirected S&T efforts in support of our five 
priorities: integration of DOD S&T and focus on transformation; 
enhanced technology transition; expanded outreach to the Combatant 
Commands and the Intelligence Community; accelerated support to the 
global war on terrorism; and a strengthened national security science 
and engineering workforce. Within Defense-wide S&T:
    Transformation:

        <bullet> Reduced funding for missile defense in favor of new 
        and transformational initiatives
        <bullet> Established the Trusted Foundry program to provide an 
        assured source of non-exploitable micro-circuit chips
        <bullet> Initiated a focused program to support insensitive 
        munitions development

    Transition:

        <bullet> Restructured the Advanced Concept Technology 
        Demonstration (ACTD) process--now adding Joint Capability 
        Technology Demonstrations (JCTDs)--and realigned funding among 
        RDT&E budget activities to enhance transition

    Outreach:

        <bullet> Increased funding for the U.S. Transportation Command 
        for quick-turn projects to enhance distribution and 
        transportation systems
        <bullet> Realigned the Defense Technical Information Center 
        (DTIC) to DDR&E to increase the synergies between research and 
        engineering and related knowledge systems

    Support to global war on terrorism:

        <bullet> Increased funding for novel biodefense initiatives 
        which take advantage of biotechnology and genetics advances
        <bullet> Increased funding for the Rapid Reaction/New Solutions 
        within the Quick Reaction Special Projects to support the 
        global war on terrorism

    Workforce:

        <bullet> Funded a proposed expansion of the Science, 
        Mathematics, and Research for Transformation (SMART) pilot 
        program into a permanent program called the SMART/National 
        Defense Education Act (NDEA)--Phase I to maintain an effective 
        workforce.

    Dr. Killion. Since we are an Army at war, it is extremely important 
to balance the needs of the future with current needs. In the 2006 
budget request, Army S&T made some difficult choices. For example, 
during this preparation for overseas movement (POM) we canceled the 
Army's portion of the cooperative effort with the Defense Advanced 
Research Projects Agency (DARPA) in the Unmanned Combat Armed 
Rotorcraft (an unmanned rotorcraft designed to be the Comanche 
companion), the development of mission equipment packages for Class 1 
unmanned aerial vehicles (UAVs), and munitions specifically designed 
for unmanned systems. We redirected ongoing efforts to focus on 
affordable missile technology, technologies to enable a counter mortar 
capability, and ground vehicle survivability. We initiated new efforts 
in the area of aviation survivability, network mining, and network 
science.
    Admiral Cohen. No significant Navy S&T programs have been canceled. 
However, the fiscal year 2006 President's budget request ($356.9 
million) is less than the fiscal year 2005 request ($375.8 million), or 
-$18.9 million. The primary area of disinvestment is the High Frequency 
Active Auroral Research Program (HAARP) (fiscal year 2006 $0 million 
versus fiscal year 2005 $16.0 million = -$16.0 million) which is 
consistent with a Navy/DARPA memorandum of agreement. The remaining 
reduction (-$2.9 million or less than 1 percent) will not cause 
significant disinvestment for this line.
    Future Naval Capabilities (FNCs) were aligned with Navy defined 
capability gaps, and a specific focus is planned for urban operations 
and asymmetric threats.
    To take advantage of technology opportunities outside of 
conventional requirements and acquisition processes, Navy has 
introduced the Innovative Naval Prototypes (INP) initiative in the 
fiscal year 2006 budget request. The fiscal year 2006 INP program 
consists of the following: Electromagnetic Rail Gun; Persistent 
Littoral Undersea Surveillance (PLUS); Tactical Space; and, Sea Base 
Enablers. Also, the fiscal year 2006 budget request includes $4 million 
basic research (6.1) funding to initiate planning and design activities 
for University National Oceanographic Laboratory System (UNOLS) fleet 
renewal requirements. This proposed investment is based on Navy's 
``Report to Congress--Requiremnts and Plans for University National 
Oceanographic Laboratory System Fleet Renewal'' dated February 2003.
    Mr. Engle. The Air Force S&T investment is shaped by a master 
planning process called the Capabilities Review and Risk Assessment 
(CRRA), which is key to ensuring we have a high correlation between 
science and industry: programs and the warfighting capabilities 
required by the concepts of operations (CONOPs) for each of the seven 
major tasks the Air Force must be capable of accomplishing to support 
our combatant commanders. In fiscal year 2006, the Air Force 
reprioritized approximately $500 million of its S&T program to address 
capability needs identified in this master planning process. A few 
notable examples include shifting funding from aircraft fuels, 
precision-guided weapons and control, and high power gas lasers to 
support higher Air Force priorities such as Battlefield Air Operations 
kit efforts, the Commander's Predictive Environment, and Air Force-
unique nanotechnology efforts.
    Dr. Tether. The best example of how our strategy has changed 
recently in response to a threat is our new strategic thrust in urban 
operations, which is increasingly coming together in fiscal year 2006. 
That thrust is aimed at making our forces operate as effectively in 
cities as we do on the traditional open battlefield. DARPA had a few 
programs in this area before the Afghanistan and Iraq campaigns, but 
the thrust was brought center stage by these conflicts and some of the 
difficulties our forces faced in urban areas. While the thrust 
continues to be shaped by that experience, DARPA believes adversaries 
will continue to try to fight U.S. forces in urban terrain, and we are 
looking at future capabilities for the joint forces. I've met with U.S. 
Marine Corps Commandant General Hagee and U.S. Special Operations 
Command (SOCOM) Commander General Brown to discuss DARPA's research. 
They've told me DARPA's emphasis on vastly improving the joint forces 
situational awareness in cities is in total sync with their view. In 
creating our strategic thrust in urban operations, we went from an area 
we were concerned about, to immediate challenges, to program ideas, to 
a better understanding of the problem, to even more ideas and a greater 
focus and budget for the area.
    A specific program we've canceled is Responsive Access, Small 
Cargo, Affordable Launch (RASCAL), which was aimed at lowering the cost 
to orbit for small payloads and making that access more responsive. 
After some effort, the increasing costs to develop RASCAL exceeded what 
was felt to be practical. Continuing it would not have been a prudent 
investment. DARPA is collaborating with the U.S. Air Force on Falcon, a 
program that is exploring other concepts for low cost access to space, 
for example, launching a rocket from a C-17.
    An area where we are taking a strategic pause is advanced 
lithography. We have funded work there for many years, but more 
recently the needs of the broader commercial sector and the Department 
of Defense (DOD) have increasingly diverged. So in fiscal year 2006 we 
are reassessing the opportunities to relieve the DOD's problems in 
access to lower cost, very low volume, specialized electronics--a 
solution that will also prove beneficial to U.S. foundries.

    2. Senator Cornyn. Dr. Sega, the fiscal year 2006 request marks the 
first time since passage of the National Defense Authorization Act 
(NDAA) for Fiscal Year 2000 that the request for S&T programs is less 
than the previous year's request. The S&T budget request represents an 
increase of less than 2 percent over inflation compared to the previous 
budget request. Section 212 of the NDAA for Fiscal Year 2000 requires 
the Secretary of Defense to submit to Congress a certification or a 
statement explaining the request's impact. The section also requires a 
Defense Science Board report assessing the impact of the proposed 
budget on defense technology and the national defense. What is the 
status of each of these required actions?
    Dr. Sega. A strong and stable science and technology program is 
important to maintain our technological edge. Each year the Department 
makes an effort to fund the S&T program at a level appropriate to 
maintain the technological superiority we have enjoyed to date. The 
fiscal year 2006 President's budget was developed by balancing 
priorities across all functional areas, and we believe the S&T budget 
is funded at the proper level. Using fiscal year 2000 as a baseline and 
adjusting for inflation, our fiscal year 2006 request of $10.552 
billion is 23 percent higher than fiscal year 2000. The Department 
continues to place a high priority on ensuring adequate funding levels 
for S&T.

                          navy basic research
    3. Senator Cornyn. Admiral Cohen, the fiscal year 2006 budget 
request for the Navy Basic Research (6.1) account includes funds to 
design a research vessel. The request for Navy Basic Research is also 
down 6 percent from the fiscal year 2005 request and is down nearly 10 
percent compared to appropriated amounts. Could you explain the reason 
for including design and ship funds in a Basic Research account instead 
of the usual ship construction account?
    Admiral Cohen. The fiscal year 2006 RDT&E,N budget request includes 
$4 million Basic Research (6.1) funding to initiate planning and design 
activities for University National Oceanographic Laboratory System 
(UNOLS) ocean class fleet renewal requirements. This proposed 
investment is based on Navy's ``Report to Congress Requirements and 
Plans for University National Oceanographic Laboratory System Fleet 
Renewal'' dated February 2003. The Basic Research account was selected 
for the following reasons:

        - Current DOD policy allows the use of RDT&E,N for this 
        purpose. DOD policy (DOD Financial Management Regulation Vol. 
        2A, Chapter 1 Section 010213.C.8.a) states, ``An experimental 
        test bed type of ship or an experimental ship will be financed 
        by RDT&E appropriations.'' The UNOLS vessels are test beds for 
        testing new equipment and conducting research in support of the 
        critical scientific disciplines in Ocean Sciences.
        - Research ships construction was most recently funded using 
        the RDT&E,N appropriation (i.e., fiscal year 1998 $45 million 
        congressional add for oceanographic ship, PE 0604528N). 
        Previously, SCN appropriation was used to fund such costs.
        - The planned research ships support ocean sciences programs 
        which are funded in Navy Basic Research (6.1). Therefore, Navy 
        and Office of the Secretary of Defense (OSD) comptrollers 
        concluded that it is appropriate to include costs associated 
        with the construction of these ships in the Basic Research 
        account.

    It is noted that the fiscal year 2006 $4 million budget request 
involves planning and design activities for the research ships, not 
actual construction activities.

    4. Senator Cornyn. Admiral Cohen, what is the Navy's long-term 
strategy for its Basic Research effort? What would be the impact on 6.1 
programs over the next few years if this request is filled?
    Admiral Cohen. Navy long-term strategy for Basic Research (6.1) 
funds the preponderance of the Navy S&T Discovery and Invention (D&I) 
portfolio which seeks to enable the Navy and Marine Corps to achieve 
technological superiority primarily in capabilities essential to the 
naval mission. Investment priorities, in decreasing order, emphasize 
(1) naval unique research, where Department of the Navy (DoN) must be 
the world leader; (2) strong participation in research communities 
important to future naval applications, but not necessarily lead by 
DoN; and, (3) harvesting and advancing research results from all 
sources in areas of potential naval payoff. Basic research disciplines 
include ocean sciences, underwater weapons and sound, naval 
architecture, ocean engineering, and those studies which could enable 
expeditionary warfare and other warfare applications made more 
challenging in the naval environment. Additionally, Basic Research 
contributes to funding the Naval Research Laboratory (NRL) and the 6.1 
component of naval warfare centers. Basic Research areas shall be 
integrated among NRL and other naval research providers who are 
resourced through the Office of Naval Research to avoid duplication of 
effort.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                 extending the life of veteran aircraft
    5. Senator Thune. Mr. Engle, what new technology and research and 
development (R&D) efforts is the Air Force looking at that could make 
significant strides to extend the life of older aircraft like the B-1 
bomber and F-16, until next generation aircraft come off the assembly 
line?
    Mr. Engle. Overall, the Air Force has an aggressive investment in 
aging aircraft R&D of over $55 million per year. A few exciting areas 
of work include the development of an improved nondestructive 
inspection technique that minimizes the number of aircraft fasteners 
that need to be removed in order to inspect the area. The lead aircraft 
for this effort is the B-1 and this improved technique enables us to 
look deep, down through multiple layers of metal, to detect cracks 
around the fasteners--something we haven't been able to do before. We 
estimate savings/cost avoidance of $4.5 million and around 18,000 
maintenance manhours at the depot. Further, we save wear and tear on 
the B-1 and other applicable aircraft because we don't have thousands 
of fasteners to remove and replace. Another improved nondestructive 
inspection technique focuses on the B-52 and also involves multiple 
layers of metal, but this technique detects corrosion. We estimate that 
this one-time inspection of the B-52's splice plate located on the wing 
near the fuselage will result in savings/cost avoidance of 
approximately $15 million and 54,000 depot maintenance manhours, as 
well as further minimizing wear and tear to the B-52. We are also doing 
great work with material substitution. The F-15 is the lead aircraft 
for this project, which involves replacement of the wing structures 
with a corrosion-resistant aluminum alloy that will result in a 
stronger, more resistant wing. Again, estimated savings/cost avoidance 
are significant at $2.1 million and about 5,580 depot maintenance 
manhours. Savings are expected to grow as the entire fleet goes through 
programmed depot maintenance and the old wing structures are replaced 
with the new alloy.

    6. Senator Thune. Mr. Engle, has the Air Force looked into a 
technology called friction stir welding (FSW) and assessed its utility 
to overhaul veteran aircraft by reinforcing/revitalizing aircraft 
structures and weld points?
    Mr. Engle. Yes, the Air Force has been instrumental in maturing the 
FSW process. Partnered with industry via the Metals Affordability 
Initiative (MAI) consortium, the Air Force is working to develop and 
apply FSW to aerospace components. The MAI team successfully 
transitioned FSW technology to the C-17 Ramp Toe (installed on aircraft 
beginning with plane number 136) and is currently working to adapt the 
process to the C-17 cargo door torque box. Both of these applications 
involve 7000 series aluminum. The MAI team is also working to apply FSW 
to the Delta 4 upper stage tanks, which would involve aluminum lithium 
alloys for space applications.

    7. Senator Thune. Mr. Engle, the South Dakota School of Mines and 
Technology (SDSM&T) is perhaps the leading developer of this 
technology, which has developed to a stage that it can soon be put to 
use in aircraft maintenance/overhaul facilities--both for civilian and 
military aircraft. Will the Air Force be willing to take a look at the 
process developed by SDSM&T to see if it may provide a benefit to 
planned Air Force depot maintenance facilities?
    Mr. Engle. The Air Force would be happy to review the SDSM&T's FSW 
process to assess if it would provide a benefit to planned Air Force 
depot maintenance facilities. We will make contact with SDSM&T and 
offer them an opportunity to show us their work.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                           innovation centers
    8. Senator Kennedy. Dr. Sega, you and I have spoken about the 
importance of S&T in the Base Realignment and Closure (BRAC) process. I 
am very concerned that the BRAC criteria is very quantitative and may 
not fully value the unique needs of the DOD's innovation centers.
    Many economic theorists, including Michael Porter of Harvard, have 
highlighted the value of regional technology clusters as the best way 
to stimulate innovation and establish valuable partnerships between the 
Federal Government, industry, and academic researchers. The regional 
proximity of these centers enhances the innovative capabilities of DOD 
labs and accelerates the process of moving technologies out of the labs 
and into the hands of warfighters--or into the commercial sector. This 
type of innovation has been the engine of our economic growth, as well 
as the source of our military superiority.
    I know for example, the great synergy created by the close 
proximity of the Massachusetts Institute of Technology and the Army's 
Institute for Soldier Nanotechnologies to the Natick Soldier Center and 
the large defense contracting community in the area is helping the DOD 
leverage millions of dollars in private sector R&D and will speed the 
transition nanotechnologies to warfighter. Are you familiar with the 
work of Michael Porter and others on the value of technology clusters?
    Dr. Sega. We appreciate cooperating for the purpose of working 
together for mutual benefit or interest. We rely on the full spectrum 
of technology providers to develop the best possible capabilities for 
the Department. We rely on DOD labs, working with industry, 
universities, and other Federal labs to develop the capabilities.

    9. Senator Kennedy. Dr. Sega, are you confident that the 
Department's BRAC decisionmaking process fully values the need for the 
DOD to keep its centers of innovation co-located with our academic and 
industrial centers of innovation?
    Dr. Sega. I am confident that the Department has considered the 
impact of a large number of factors, consistent with the statutory 
requirements, in evaluating facilities.

    10. Senator Kennedy. Dr. Sega, are you comfortable that the DOD's 
BRAC process fully appreciates that most technical people will not 
relocate to a new location following a BRAC decision--therefore costing 
the DOD valuable scientific and technical expertise once the relocation 
is complete?
    Dr. Sega. The BRAC process is thorough, and during the evaluation 
period, we considered a large number of factors and possible impacts. 
The DOD BRAC process accounts for personnel relocation challenges. We 
are also committed to increasing the pool of scientists and engineers 
available to work on national security issues and partnering with 
universities, industry, and others, to meet DOD technology goals. A 
national challenge is to ensure that we have a technical workforce to 
meet the needs of the Department and Nation.

    11. Senator Kennedy. Dr. Sega, how do you plan on reconstituting 
that expertise following the BRAC round?
    Dr. Sega. The availability of scientists and engineers is an 
important issue facing DOD and the Nation. The Department has submitted 
a legislative proposal titled ``SMART--NDEA Phase 1''. The proposal 
would provide additional authorities that would improve our ability to 
develop, recruit, and retain individuals who will be critical in 
fulfilling the Department's national security mission. We look forward 
to your continued support in this critical, foundational area for 
national security.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                      laboratory workforce issues
    12. Senator Lieberman. Dr. Sega, this committee has been concerned 
over the failure of the DOD to utilize the personnel demonstration 
authorities provided to the Secretary to ensure that our research 
facilities are able to hire and retain the top quality people they 
need. Last year, section 1107 of the NDAA required the Under Secretary 
of Acquisition, Technology, and Logistics and the Under Secretary of 
Personnel and Readiness to work out a process for expediting and 
expanding the use of the demonstration authority, since it continues to 
operate outside of the National Security Personnel System (NSPS). Have 
the laboratories been part of this review?
    Dr. Sega. Yes, the laboratories are participating in the 
development of the plan required by section 1107. Hiring and retaining 
top quality people in our research facilities is of foremost importance 
to the Department and to its laboratories.

    13. Senator Lieberman. Dr. Sega, what specific authorities have the 
laboratories requested as part of this review?
    Dr. Sega. The Plan required by section 1107 will be completed and 
reported to Congress by December 2005. At this time, no additional 
authorities have been requested.

    14. Senator Lieberman. Dr. Sega, do you feel that these requested 
authorities may improve laboratory performance?
    Dr. Sega. The laboratory demonstration projects have shown that 
effective personnel authorities can improve laboratory performance. The 
Department will consider any new and promising laboratory authorities 
resulting from the plan required by section 1107. Based on progress to 
date in defining NSPS, I believe that the new system should be 
sufficiently flexible and adaptable to apply eventually across the 
Department, including laboratories and technical centers.

                           dod basic research
    15. Senator Lieberman. Dr. Sega, the recent National Academy of 
Sciences study, chaired by General Larry Welch, on the DOD Basic 
Research program made a number of recommendations for the program. 
Among these are a change in the official DOD definition of basic 
research, development of a cadre of experienced and empowered program 
managers to run basic research programs, and an expansion of 
``unfettered'' research in the account. What steps do you intend to 
take to implement some of the study's recommendations?
    Dr. Sega. After the National Research Council (NRC) released its 
report, I asked the Defense Basic Research Advisory Group (DBRAG) to 
advise me on which of the NRC recommendations they thought DOD should 
implement. The DBRAG is chaired by the acting Deputy Under Secretary of 
Defense for Laboratories and Basic Sciences and includes senior 
managers from Military Department and Defense Agency offices that 
oversee or carry out Basic Research. We'll be happy to keep your 
committee staff informed as the DBRAG completes its assessment of the 
issues raised by the NRC report and we make progress on possible 
actions to resolve them.

                      classified research programs
    16. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, note that since 2001, there has been significant 
growth in the classified portion of our DOD S&T portfolio. Although 
there is a role for classified research in our national security 
technology development strategy, I am concerned that if too much of our 
research portfolio is classified that traditional performers of 
innovative research like small businesses and universities will have 
difficulty participating in the programs. There is also a concern that 
classified research limits our ability to spin off technologies into 
the commercial sector--where it is often perfected and brought back 
into the military at lower cost and with more capability.
    Understanding the need for some of the research that is done to be 
classified, how are you working to mitigate some of these negative 
aspects of the increase in classified research?
    Dr. Sega. I share your concern regarding an appropriate level of 
funding in the classified portion of our DOD S&T portfolio. The fiscal 
year 2006 request for DOD classified S&T programs is less than the 
amount we requested in fiscal year 2005. As a percent of the DOD S&T 
budget request, classified programs have accounted for between 1.3 
percent and 2.9 percent since fiscal year 2001. The percentage for 
classified programs in the fiscal year 2006 request is 1.5 percent and 
I feel this is appropriate.
    Dr. Killion. The Army's S&T classified budget has been relatively 
small and stable over the past 5 years, averaging only a 2-percent 
increase. Classified research and technology development is limited to 
those activities that require a higher level of security and control. 
The work done under these auspices is planned and accomplished with 
full cognizance of work being done within the commercial sector. Many 
classified efforts have related unclassified aspects that provide small 
businesses, nontraditional suppliers, and universities ample 
opportunity to participate in basic research, applied research, and 
engineering activities that contribute to the classified programs. The 
Army conducts its advanced technology development phase of these 
efforts in collaboration with industry partners capable of 
participating at the appropriate security level.
    Admiral Cohen. The Office of Naval Research does not have 
classified contracting authority, so the science and technology work we 
fund is available to unclassified researchers at universities, non-
government labs and small, innovative businesses.
    Mr. Engle. A portion of the research conducted within the Air Force 
S&T program is by necessity classified. I believe we have an 
appropriate mix of both classified and unclassified opportunities in 
which our commercial sector partners can participate. The Air Force is 
an ardent supporter of the innovative research conducted by small 
businesses and universities and reaches out to them through our Small 
Business Innovation Research (SBIR) program and our basic research 
programs. For the most part, neither our SBIR outreach program nor our 
basic research programs involve classified material. These programs 
have grown substantially over the last 5 years, increasing the 
opportunity for small businesses and universities to participate. 
Further, our policy with respect to universities is in accordance with 
the National Security Decision Directive 189, which states that, to the 
maximum extent possible, the products of fundamental research remain 
unrestricted.
    Dr. Tether. DARPA is always interested in great new ideas, wherever 
they come from. Classification typically only becomes important the 
closer we get to an actual military application. If and when we must 
make some information classified, we are well prepared to sponsor 
willing organizations or even individuals into the National Industrial 
Security Program, which is the program that gives non-government 
organizations access to classified material.
    It is true that there has been significant budget growth in our 
most highly classified programs. However, the overwhelming majority of 
our efforts, which have grown as well, remain unclassified or are not 
highly classified. For example, almost all of our SBIR work, which is 
devoted to small businesses, is unclassified. Our basic research, which 
has more than doubled since fiscal year 1999, is all unclassified. In 
short, DARPA has many opportunities for organizations with good ideas, 
and those that are willing to participate in classified programs can 
(provided they can be properly cleared, of course.)
    Our Grand Challenge for autonomous ground vehicles highlights our 
commitment to getting good ideas from anywhere. With universities, high 
schools, small companies, garage mechanics, etc. that competition is 
wide open. In fact, we picked our Challenge specifically to get a very 
wide variety of organizations involved.

    17. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, what should universities and small businesses do 
in order to be able to participate in these classified research 
programs?
    Dr. Sega. They should seek sponsorship into the National Industrial 
Security Program, which is a program that gives non-government 
organizations access to classified material.
    Dr. Killion. As with its unclassified research programs, the Army 
engages with the commercial and academic communities to support the 
Army's classified research programs. In those situations that a 
business or university has the appropriate facilities for performing 
classified research and have the personnel with the proper level of 
security clearance, they may participate directly in the performance of 
the classified research. Such secured facilities and personnel are more 
often found in the business sector than in the academic sector. In 
academia, it is more common for universities to support the classified 
research programs by performing basic research that is fundamental in 
nature, and as such, does not require a restricted classification.
    Admiral Cohen. The Office of Naval Research does not have 
classified contracting authority, so the science and technology work we 
fund is available to unclassified researchers at universities, non-
government labs and small, innovative businesses.
    Mr. Engle. Small businesses and universities are not excluded from 
participating in classified research programs if they can demonstrate 
the ability to protect sensitive national security information and get 
the appropriate security clearances for their personnel. However, in a 
lot of instances, it would be cost prohibitive for most small 
businesses and universities to obtain these security clearances and the 
infrastructure necessary to handle, store, and publish classified 
reports. One approach that has worked well is teaming arrangements with 
larger defense companies that can provide the infrastructure and, in 
some cases, the people through contract arrangements. In the case of 
universities, we have seen very little interest in participating in 
classified research programs due to restrictions on publication.
    Dr. Tether. In terms of small businesses, we are well prepared to 
get those that need to be cleared into the National Industrial Security 
Program. Moreover, in some cases, when a small business is a 
subcontractor to a prime that already has access to classified 
information, the prime can sponsor the small business into a program 
too.
    The same is true for universities. We are prepared to work with 
them to set up the safeguards needed for classified programs, just like 
other performers.

                         semiconductor industry
    18. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, as you are aware, East Asian countries are 
leveraging market forces through their national trade and industrial 
policies to drive the migration of semiconductor manufacturing to that 
region. If this accelerating shift in this manufacturing sector 
overseas continues, the U.S. potentially could lose the ability to 
reliably obtain high end semiconductor integrated circuits. 
Semiconductors impact every aspect of a warfighter's mission including 
secure communications, smart weapons, precision targeting, navigation, 
and guidance.
    Specifically, the photomask industry is of particular concern, 
especially given that this is the only area in the fabrication process 
where raw data is handled for laying down a complex pattern for 
circuitry. This offshore shift in semiconductor manufacturing is 
occurring at a time when these components are becoming an even more 
crucial defense technology advantage to the United States. For example, 
network-centric capability demands ever faster real time processing for 
defense purposes and also because of the increasing need for such high-
end components in the Intelligence Community.
    What research efforts are in place to mitigate this national 
security risk, and are these efforts adequate to fully abate this 
serious issue?
    Dr. Sega. Photomasks are important for large volume electronics, 
typical of most commercial production. The offshore migration of 
portions of the semiconductor industry, including the photomask 
industry, is influenced strongly by economic considerations. The 
Defense Department has critical needs in the production of leading 
edge, low volume integrated circuits. Mask costs are a significant 
component of the cost of low volume integrated circuits. To address 
future requirements in low volume electronics, DARPA has sponsored 
research efforts in maskless lithography which could eliminate the 
requirements for photomasks.
    Dr. Killion. The OSD is in the lead on this issue and Army S&T 
leadership coordinates its efforts in electronics R&D with OSD through 
the office of the Deputy Under Secretary of Defense for S&T.
    Admiral Cohen. Office of Naval Research (ONR) has substantial 
investments in network-centric technologies, and is keenly aware of the 
need to maintain availability of secure electronics processing. In the 
near term (next 5 years) this need should be met through the Trusted 
Foundry agreement being negotiated between the U.S. DOD and IBM 
Corporation. In addition; the DOD Advisory Group on Electron Devices 
has recently completed a Special Technology Area Review on Field-
Programmable Gate Arrays which considered some of the ramifications of 
increasing offshore processing of this type of high performance 
electronic circuits, and the final report of this review will include 
recommendations for DOD actions. ONR does not support research in 
processing science for current generation silicon electronics, both 
because the scale and proprietary nature of such research is best met 
by other institutions. ONR does, however, support research in novel 
electronics technologies that in the long term may supplant the current 
technologies. This support includes our pioneering and continuing 
investments in both nanoelectronics, and in multifunctional electronics 
(including magnetics, optics, superconductivity, acoustic, etc. 
technologies monolithically integrated with semiconductors). Securing 
and maintaining U.S. leadership in processing capability for such next-
generation electronics is expected to at least partly mitigate the 
increasing shift of conventional electronics processing offshore.
    In summary, the currently supported efforts by ONR are largely 
directed towards ``beyond silicon'' technology. ONR is increasingly 
cooperating with NIST in the pursuit of flexible fabrication processes 
for diverse types of electronic devices. The Naval Air Systems Command 
is involved in the pursuit of an industry based Mask Initiative 
Consortium (MIC) that is composed of the major U.S. companies in this 
field (materials, mask makers, and tools).
    Mr. Engle. The DOD has robust R&D investments in several key areas 
tied to the semiconductor industrial base. This investment has several 
benefits, including: maintaining a knowledge base of scientists and 
engineers by supporting university and industry research; investigating 
and developing technologies that are beyond the risk of industry due to 
current economics, but that may have commercial value after they 
mature; and, most importantly, providing technological superiority over 
current and future adversaries. I defer to Dr. Sega to further address 
these questions.
    Dr. Tether. In fiscal year 2005 DARPA is funding research in 
Advanced Lithography focused on developing Maskless Lithography for 
cost-effective fabrication of low- to mid-volume, Application-Specific 
Integrated Circuits (ASICs), as well as emerging MicroElectroMechanical 
Systems (MEMS), and nano-photonic devices fabricated with feature sizes 
of 100 nm and below. This new lithography technology will be capable of 
directly patterning complex circuits down to feature sizes of 45nm and 
below without use of photo masks. Currently, this program is evaluating 
both optical and electron-beam based approaches to Maskless 
Lithography. These tools are specifically aimed at meeting DOD needs, 
and therefore address only the low- to moderate-volume production of 
specialized DOD circuitry.
    DARPA's Advanced Lithography program will take a strategic pause in 
fiscal year 2006 to reassess opportunities. DARPA continues to evaluate 
new technologies which have the potential to improve semiconductor chip 
fabrication and thereby better support the warfighter. Higher volume 
DOD semiconductor needs depend increasingly on commercial off-the-shelf 
semiconductor devices. The DOD continues to be concerned about the 
shift in semiconductor manufacturing offshore. The military departments 
have recently responded to this concern by establishing a Trusted 
Foundry at IBM to meet specialized DOD semiconductor needs.

                        manufacturing technology
    19. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, the U.S. trade deficit in manufactured goods 
increased $94.5 billion in 2004 from the $536 billion reported in 2003. 
Our largest goods deficit is now with China, standing at $162 billion, 
an increase of $37.9 billion from 2003. We are running major deficits 
with China in defense critical manufacturing areas, such as computer 
hardware ($25 billion) and electronics machinery and parts ($23 
billion) as U.S. production drifts offshore. We are transferring major 
portions of our circuit board, semiconductor, machine tool, and weapon 
system metal casting manufacturing to China because of low wage and 
production costs. Without productivity breakthroughs, the U.S. defense 
manufacturing base particularly, second and third tier small 
manufacturers will continue to erode. What research efforts are in 
place to address the needed innovation in manufacturing and are these 
efforts adequate to fully abate this serious issue?
    Dr. Sega. Army, Navy, Air Force, Defense Logistics Agency, and 
Missile Defense Agency each has Manufacturing Technology program 
elements to address core service and agency manufacturing requirements. 
OSD, through the Joint Defense Manufacturing Technology Panel (JDMTP), 
works with the Military Departments and Defense Agencies to encourage 
investment synergy and collaboration where possible. We work with 
manufacturing initiatives such as Next Generation Manufacturing 
Technology Initiative (NGMTI), Composites Affordability Initiative, and 
Metals Affordability Initiative to identify candidate technologies that 
support DOD S&T strategic plans and have the potential to the benefit 
the warfighter. Most recently, we established a Defense Science Board 
task force to assess the DOD Manufacturing Technology program and 
provide recommendations as to how ManTech can be strengthened to 
improve benefits to the DOD.
    Dr. Killion. Within the Army, we have established an approach, 
where appropriate, in which we conduct manufacturing S&T efforts that 
are fully coordinated with and complementary to our most innovative and 
advanced technology maturation and demonstration programs. We want to 
reduce the cycle time from technology transition through development to 
production while making our systems more affordable. A specific example 
of this parallel development is the Flexible Display Initiative. The 
Flexible Display Center, in particular, will set up the first 
integrated pilot line in the world to manufacture affordable flexible 
displays. This is a collaborative effort among the Army, academia and 
several sector representative companies from the U.S. industrial base. 
The Army Manufacturing Technology program is also investing in high 
strength steel manufacturing processes to strengthen the U.S. forging 
industrial base supplying material for next generation gun barrels. 
Both efforts stress the development of manufacturing techniques that 
enable the affordable production of this state-of-the-art technology. 
In newly emerging areas of interest, specifically nanotechnology and 
biotechnology, the Army has established centers of technology 
excellence. Both the Institute for Soldier Nanotechnology and the 
Institute for Collaborative Biotechnology have incorporated industry 
partnerships to examine early the scale up of manufacturing processes 
for production.
    Admiral Cohen. The Navy's primary investments in production process 
technology are through the Manufacturing Technology (ManTech) and the 
Small Business Innovation Research (SBIR) Programs. ManTech investments 
are used to improve the productivity and responsiveness of the Navy 
industrial base by developing manufacturing technologies that are 
beyond the risk that industry is able to assume. The program develops 
moderate to high risk process and equipment technology needed to 
support emerging acquisition program requirements that address 
warfighting capabilities. For example, on the next generation destroyer 
class, DD(X), numerous warfighting capability requirements drove the 
design of the topside structure to utilize composite materials. Given 
that the hull would remain steel, industry required an effective and 
efficient means of joining the different materials. To address this 
issue, ManTech developed an adhesive bonded joining technology for 
marine applications. It is now being incorporated into the baseline 
design for DD(X) and the technology is available for other 
applications.
    The Navy SBIR program is one of the major sources for funding small 
business in the development of new and innovative manufacturing 
processes, materials and software. The Navy SBIR office continues this 
focus and through Executive Order 13329, ``Encouraging Innovation in 
Manufacturing'' is receiving more visibility from small business and 
acquisition programs that have a desire to use the SBIR program 
resources to help address American defense manufacturing needs. Through 
SBIR funding, one small business has developed automated production 
planning software that creates piping production plans directly from 
the 3-D model of the ship and information about the pipe shop 
facilities. This software, which promises significant savings in 
planning time and cost, is being tested in industry for application on 
the CVN-21.
    Both ManTech and SBIR are focused on Navy acquisition program 
requirements and, as such, are unlikely to have an impact on overall 
industrial competitiveness and the balance of commercial trade. In the 
case of the electronics industry, the DOD share of the overall market 
is less than 1 percent. Industry investments in electronics product and 
process development are based on the needs of the commercial market. 
Therefore, the Navy's manufacturing research done in electronics is not 
focused on productivity improvements for semi-conductors, circuit 
boards and other commodity items. Instead, it focuses on military 
unique items such as traveling. wave tubes and on packaging commercial 
electronics to meet military requirements. The situation is similar for 
machine tools and metal castings. The market in these sectors is also 
heavily weighted toward commercial sales.
    Mr. Engle. Maintaining a strong domestic industrial base is a key 
element to ensuring the DOD with first and assured access to critical 
components from trusted domestic sources. The DOD Manufacturing 
Technology program aids in this quest by developing manufacturing 
technologies that enable affordable production and sustainment of 
current and future weapon systems. The Air Force strives to develop 
resources onshore where possible, but in some cases we are forced to go 
overseas for resources, materials, or technologies that do not exist 
domestically.
    In the case of semiconductors, current military requirements are 
met predominantly by the large vertically integrated United States 
defense manufacturers. Companies such as BAE Systems, Lockheed, 
Northrop Grumman, Raytheon, and Honeywell have design, fabrication, and 
production capabilities to ensure military unique performance and 
security requirements are met. Of course, the concern is with the move 
offshore of materials and components that are used in building the 
devices. Over 70 percent of the manufacturers of items such as ceramic 
packages, high-purity silicon wafers, die materials, quartz products, 
resins, and optical equipment are foreign based or owned. These items 
are not unique to military parts and their economics and technology are 
driven by the commercial market.
    The DOD is evaluating three alternatives to address its 
requirements. The first would establish and maintain a facility 
dedicated to production of components for national security 
applications. Current plans call for a short-term solution that 
establishes a ``trusted foundry'' to produce parts for those systems 
defined as critical or requiring mission assurance. The second is to 
focus investments on revolutionary technologies. Long-range planning 
within DOD's S&T community is focused on enabling and emerging 
technologies as they relate to defense requirements. Investment in 
areas such as optoelectronics and nanotechnology may not only provide a 
significant increase in military capability, but may also have domestic 
commercial economic implications that surpass trying to retain current 
technologies. The third alternative is to use DOD funding to strengthen 
the current commercial industrial base. However, with less than 2 
percent of total market sales, DOD investment may not be adequate to 
overcome industry economics.
    Finally, the Defense Production Act, Title III program has limited 
funding to conduct a preliminary analysis of the Mask Industry 
Consortium's proposal to use Title III funding to provide incentives to 
the mask infrastructure (mask writing, mask inspection, and mask repair 
tools) to assure the domestic availability of state-of-the-art 
photomasks for military integrated circuits. However, initial estimates 
indicate that this could require a DOD investment in excess of $100 
million over 4 years.
    Dr. Tether. One process technology which could change the trade 
deficit is our Titanium Initiative to dramatically reduce the cost of 
titanium and enable new types of alloys. Titanium is an incredible 
material, but its use is partly limited by it cost--just like 
aluminum's use was many years ago. We want to do for titanium what was 
done for aluminum. Titanium costs $16 to $32 per pound now. We are 
developing a process which will reduce that to at least $4 a pound, and 
maybe below $2. At that point, many new uses will open up, from 
replacing the pipes aboard ships to maybe even ships themselves made of 
titanium.
    We've also developed a technology to manufacture bulk quantities of 
structural amorphous metals, sometimes called glassy metals. These 
metals are extraordinarily strong, tough and corrosion resistant, but 
only small quantities could be made until DARPA's recent research. Uses 
might include ballistic hardening for ships or replacing the depleted 
uranium in antiarmor rounds.
    As I mentioned, our work in microelectronics also shows how we work 
on process technologies to reach a new capability for DOD. For example, 
our Focus Centers Research Program is looking at concepts for 
microelectronics and computing devices beyond the current international 
roadmap for semiconductors; this includes process technologies. Our 
wide bandgap semiconductor programs are working on the materials and 
devices needed to use wide bandgap semiconductors for high power and 
high frequency applications. DARPA is funding research in Advanced 
Lithography focused on developing Maskless Lithography for cost-
effective fabrication of low- to mid-volume ASICs, as well as emerging 
MEMS, and nano-photonic devices fabricated with feature sizes of 100 nm 
and below. This new lithography technology will be capable of directly 
patterning complex circuits down to feature sizes of 45nm and below 
without use of photo masks. Currently, this program is evaluating both 
optical and electron-beam based approaches to Maskless Lithography. 
These tools are specifically aimed at meeting DOD needs, and therefore 
address only the low- to moderate-volume production of specialized DOD 
circuitry.
    Our Radiation Hard by Design program also illustrates DARPA's 
approach. Radiation hardened electronics, which are needed for things 
like spacecraft, currently require expensive specialized fabrication 
facilities. As a result, they constantly lag the most advanced 
generation of electronics. Instead of trying to improve the rad hard 
manufacturing process, DARPA's approach is to make such a process 
unnecessary by designing the chip in such a way that a rad hard chip 
can be manufactured in an ordinary, and up-to-date, fab.
    I am confident that as DARPA continues its historical work of 
keeping our military on the technological cutting edge, we will 
continue to help create the process technologies needed for those 
radical new capabilities.

    20. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, are the efforts in your areas coordinated with 
the Defense Industrial Base Capability Studies (DIBCS) that are 
currently underway? Are your research priorities aligned with the 
priorities identified through these studies?
    Dr. Sega. Yes. DOD Science and Technology (S&T) efforts and 
investment strategies are driven by warfighter requirements identified 
in the Joint Warfighting S&T Plan (JWSTP). The DIBCS, along with other 
DOD and commercial studies, can provide valuable insight for how best 
to invest scarce resources.
    Dr. Killion. Army Manufacturing S&T priorities, like our overall 
S&T research priorities, are aligned with the needs of the warfighter. 
We do review results of studies such as the DIBCS to identify and 
mitigate possible challenges to future production of technologies being 
developed. In addition we have also commissioned assessments by 
independent groups, such as the National Center for Advanced 
Technologies, to inform us regarding manufacturing science and 
technology issues that helped us prioritize.
    Admiral Cohen. The Defense Industrial Base Capability Studies 
(DIBCS) are being produced by the Deputy Under Secretary of Defense 
(Industrial Policy). The DIBCS are based on the Joint Staff's Joint 
Functional Concepts (JFCs), which are focused on defense needs in the 
2015-2020 timeframe. The JFCs provide a starting point for the analysis 
of Science and Technology gaps that must be filled in order to meet the 
joint warfighting vision in the 10-15 year horizon. As such, the Navy's 
Science and Technology (S&T) investments are loosely coordinated with 
the DIBCS through the Joint Requirements Oversight Council's definition 
of future warfare needs. However, the Navy's research priorities are 
not aligned directly with the DICBS priorities because industrial base 
issues are but one factor among many that must be considered in the 
prioritization process.
    Mr. Engle. The first study of the DIBCS was released in January 
2004 with the final study scheduled for release in May 2005. The Air 
Force S&T community is currently evaluating DIBCS findings and 
recommendations in order to incorporate these into our research and 
investment plans as appropriate. In some cases, DIBCS findings have 
validated ongoing programs as with the Air Force Manufacturing 
Technology Advance Electronically Scanned Arrays project, which is 
supported by findings contained in the Battle Space Awareness DIBCS. In 
other areas, DIBCS findings may stimulate new or additional investment.
    Dr. Tether. As part of the DIBCS process, the Office of the Deputy 
Under Secretary of Defense (Industrial Policy) (ODUSD(IP)) takes into 
account the S&T community's plans, particularly since the early 
capabilities for a new technology may only exist in research labs. At 
the same time, myself and other members of my staff have participated 
in, contributed to and reviewed some of their studies.
    Our research priorities are aligned. For example, one study 
identified a concern about the supply of Maser clocks for global 
positioning systems (GPS). Our program for a chip scale atomic clock 
might help there. Similarly, we may be able to offer solutions to other 
potential problems in the areas of pulsed plasma thrusters and 
hypersonics propulsion systems. There are likely to be other things we 
have underway which might help.
    So, as ODUSD(IP) identifies specific problems and possible 
solutions, we will fold those issues into the mix we consider while 
formulating DARPA's research programs.

    21. Senator Lieberman. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, what is your current role in the completion of 
the DIBCS efforts and is there additional participation needed by your 
teams?
    Dr. Sega. We understand the final part of DIBCS, Focused Logistics, 
will be published before the end of this fiscal year. The S&T community 
welcomes the opportunity to participate in evaluating and understanding 
the capabilities of the industrial base with regard to DOD goals and 
priorities.
    Dr. Killion. Army S&T does not currently participate in the DIBCS 
efforts. However, as part of the Army's S&T mission to foster 
innovation and develop new capabilities, we have identified technology 
areas where the Army would benefit in terms of technology availability 
and affordability from improved manufacturing capability and/or 
strengthening of the industrial base. The Army has determined that 
pursuing advanced technology in parallel with manufacturing technology 
development works to accelerate an affordable capability to the 
warfighter.
    Admiral Cohen. The Defense Industrial Base Capability Studies 
(DIBCS) are being produced by the Office Deputy Under Secretary of 
Defense (Industrial Policy) (ODUSD(IP)). Four studies covering 
Battlespace Awareness, Command and Control, Force Application and 
Protection have already been published. The final DIBCS study, covering 
Focused Logistics, is planned for publication in May. The Navy has not 
had a role in developing these reports. Since the final report is 
almost complete, additional involvement is not recommended at this 
time. However, once ODUSD(IP) moves into the implementation phase of 
DIBCS the Navy Science and Technology community will need to be 
engaged.
    Mr. Engle. The Air Force did not formally participate in the DIBCS 
as service participation was limited to Joint Staff representation on 
requirements teams. Future Service participation will depend on how the 
OSD implements DIBCS recommendations.
    Dr. Tether. ODUSD(IP) and DARPA are both part of Acquisition, 
Technology and Logistics, so we have organizational proximity that 
facilitates understanding what each other is doing. DARPA has helped 
review some of their reports. So I think the current level of 
interaction works quite well and suits our various roles in the 
research, technology, product life cycle.
    As ODUSD(IP) moves toward the implementation phase of their DIBCS 
work, I fully expect them to engage us in looking for solutions when 
S&T investments by DARPA would be appropriate. I will take their 
assessments into consideration when formulating what research areas 
DARPA might move into.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
          chemical and biological defense program coordination
    22. Senator Reed. Dr. Sega and Dr. Tether, I am concerned that the 
Department's programs and efforts in chemical and biological defense 
S&T are not adequately coordinated with other Federal agencies, 
particularly the Department of Homeland Security (DHS) and the National 
Institutes of Health (NIH). This includes whether there is adequate 
cooperation and a system for avoiding duplication among these agencies. 
I am also aware of concerns that DARPA's efforts are not sufficiently 
coordinated and integrated with the Department's overall chemical and 
biological defense program. Would you agree that there are both room 
and need for improvement in the coordination of the DOD programs with 
other Federal agency efforts, and with the DARPA program?
    Dr. Sega. In any complex enterprise such as this area there is 
``room for improvement,'' and we have, and will continue to stress the 
importance of coordinating interagency and intradepartmental S&T.
    Dr. Tether. You should have no concern as the DARPA Chemical and 
Biological Warfare (CBW) Defense Program is well coordinated both 
inside and outside the DOD. The DARPA CBW Defense Program is completely 
integrated and synergistic with the DOD CBW Defense Program and with 
other Federal programs. Coordination and integration of these DARPA 
programs into the broader Federal programs are done through a variety 
of mechanisms including interagency coordinating committees, community 
outreach briefings, and partnerships for the transition of technologies 
to the operational arena.
    The DARPA CBW Defense Program coordinates its efforts with numerous 
organizations, including the Deputy Assistant to the Secretary of 
Defense for Chemical and Biological Defense, Defense Threat Reduction 
Agency (DTRA), Joint Program Executive Office, Chem-Bio Defense (JPEO-
CBD,) and the DOD Guardian Program, as well as with non-DOD entities 
such as the DHS, Homeland Security Advanced Research Projects Agency 
(DHS-HSARPA), and the Environmental Protection Agency (EPA). Through 
Project Reliance, DARPA formally participates in the coordination of 
the DOD Chem Bio Defense Technology Area Plan. As part of this process, 
DARPA also participates in the biannual Technology Area Review and 
Assessment process. In addition, a DARPA Senior Executive is a member 
of the DOD Senior Advisory Group for CBW Defense. The Advanced 
Diagnostics portion of the DARPA BW Defense program is closely 
coordinated with the U.S. Army Medical Research and Materiel Command 
and DARPA program personnel attended meetings of the Common Diagnostic 
Systems interagency Scientific Steering Committee that participated in 
strategic planning for Defense Technology Objective CB.26 (Common 
Diagnostic Systems for BW Agents and Endemic Infectious Diseases).
    Several examples of successful transition of programs from DARPA 
highlight the strong coordination among the DOD's CBW programs both 
within the DOD and throughout relevant Federal agencies:

    1. Immune Building (IB) Program. The IB program was initiated to 
develop technologies to protect military buildings from internal or 
external attack with chemical or biological warfare agents. Program 
objectives include protecting human occupants, quickly restoring 
building to function, and preserving forensic evidence. Early on in the 
program, DARPA developed a core team of military service 
representatives to review the design and testing of the system and 
offer recommendations to help meet operational requirements. The goal 
of transitioning this DARPA program to a military customer was made a 
reality when Fort Leonard Wood agreed to not only install a 
demonstration system at their site, but to also assume ownership and 
follow-on testing of the IB system after the demonstration.
    2. Building Protection Toolkit (BPTK). DARPA met the challenge of 
implementing the IB technologies in other buildings through the 
development of the BPTK. The BPTK utilizes validated modeling and 
simulation tools for tailoring protective designs to buildings of 
various sizes, construction and uses and to enable cost/benefit 
analysis. The U.S. Army Corps of Engineers Protective Design Center in 
Omaha, Nebraska, which specializes in chemical, biological, and 
radiological weapons of mass destruction building protection, recently 
hired additional personnel to specifically use BPTK to develop new and 
to modify existing facility designs. The BPTK software is transitioning 
to the Joint Warfighting Center at Fort Monroe, Virginia, for 
integration into the Joint Conflict and Tactical Simulation. The 
National Institute of Standards and Technology in Gaithersburg, 
Maryland, will use the BPTK modifications made to CONTAM, a multizone 
indoor air quality and ventilation analysis computer program, in their 
future modeling and standards work to assess and validate protective 
strategies.
    3. C1O<INF>2</INF> Based Building Decontamination. While 
C1O<INF>2</INF> has been in use for some years, there was a need to 
extend the system functionality and to construct a portable building 
decontamination system. DARPA completed both of these objectives in 
fiscal year 2004 and will complete testing of the system effectiveness 
against viral, toxins, CW, and select toxic industrial chemicals in 
fiscal year 2005. DARPA is currently working with DHS-HSARPA, EPA, and 
JPEO-CBD to jointly develop validated CONOPs and to test system 
effectiveness in full building tests against anthrax stimulant. The 
portable C1O<INF>2</INF> building decontamination system is planned for 
transition to both DHS and EPA in fiscal year 2005 and fiscal year 2006 
for use in full building decontamination activities.
    4. TIGER Program. The goal of the Triangulation Identification for 
Genetic Evaluation of Biological Risk (TIGER) program was to develop a 
universal BW sensor system that would support ``gold standard'' 
classification of all biological agents. This sensor has the potential 
to revolutionize biomedical evaluation of natural pathogens, including 
emerging infectious diseases and genetically engineered agents, while 
simultaneously monitoring for biological weapons attacks. The U.S. Army 
Medical Research Institute of Infectious Diseases at Fort Detrick, 
Maryland, has acquired a TIGER system for analysis of emerging 
pathogens. The National Biological Forensics Analysis Center of the DHS 
has procured a TIGER system to provide high-throughput rapid agent 
identification and strain typing. The system will be deployed in fiscal 
year 2005. The Naval Health Research Center (NHRC) in San Diego, 
California, will use a TIGER system for environmental and clinical 
surveillance for human pathogens. An example of specific NHRC research 
utilizing the TIGER is a study which monitors Marine recruits for 
respiratory illnesses.
    5. Pathogen Countermeasures Program: A number of promising medical 
countermeasures have been transitioned for more advanced development 
within the DOD. A few examples within the last 12 months include the 
following:

          CPG: DARPA has supported research into the ability of 
        specific sequences of microbial DNA (called CPG) to activate 
        the innate part of the immune system. DARPA researchers 
        realized that CPG was essentially functioning as an immune 
        activator, and proved that CPG had potential as a new vaccine 
        adjutant. DARPA demonstrated the feasibility of this approach; 
        DTRA is now supporting a human clinical trial of CPG to enhance 
        responses to the current anthrax vaccine. We believe that the 
        series of six shots can be reduced to only two, or perhaps even 
        one, when administered with CPG. The initial human trial will 
        be finished later this spring.
          PlyG: For several years, DARPA has supported research 
        investigating specific viruses (called phage) which infect and 
        kill harmful bacteria, such as anthrax. DARPA investigators 
        proved that specific enzymes from these phage not only kill, 
        but actually disintegrate, anthrax. DARPA demonstrated the 
        feasibility of this approach, and now DTRA is funding these 
        investigators for further development of new antibiotics. 
        Clinical trials are expected to begin in 2006.
          Caspase Based Anti-Viral Therapeutics: DARPA has most 
        recently transitioned to DTRA the development of a completely 
        new approach to kill many classes of viruses by inducing a 
        suicide signal in cells which are infected with a virus. By 
        killing the infected cells, the virus cannot propagate and kill 
        the host. This is a very novel approach, but one which now 
        appears to be at least technically feasible.

    The DARPA program is also coordinated with efforts outside the DOD. 
A panel of chemical and biological defense experts is routinely 
consulted by DARPA to evaluate programs and to ensure that NIH efforts 
are not being duplicated. In addition, the Pathogen Countermeasures 
program is fully briefed to National Institute of Allergy and 
Infectious Diseases (NIAID) every 6 months, and NIAID program managers 
regularly attend the principle investigator meetings. There is also a 
developing close partnership between DARPA and the Food and Drug 
Administration (FDA). Center and office directors at FDA have been 
fully briefed on DARPA initiatives, and FDA personnel are now working 
cooperatively with DARPA to identify regulatory issues and provide 
input as appropriate. FDA scientists now attend pertinent DARPA 
principle investigator meetings.
    Additionally, from October 2004 through January 2005, DARPA hosted 
a series of conferences focused on DARPA programs in the chemical and 
biological defense area. The goals of these events were to ensure that 
the government R&D community (both DOD and non-DOD) is informed of 
DARPA investments in this area, and to promote awareness of potential 
upcoming product transitions. The governmental organizations that 
attended are listed below and additional meetings are planned for May 
2005.
    DARPA CBW Defense Community Briefings--October 5, 2004, December 
21, 2004, January 25, 2005 Participating Agencies

        <bullet> Department of Health & Human Services, Bureau of 
        Health
        <bullet> Department of Health & Human Services, FDA
        <bullet> Department of Health & Human Services, Office of R&D 
        Coordination
        <bullet> DHS, S&T Directorate--HSARPA
        <bullet> DHS, S&T Directorate--Programs, Plans, & Budget
        <bullet> DHS, S&T Directorate--Systems Engineering & 
        Development
        <bullet> DHS, Transportation Security Administration
        <bullet> EPA, Environmental Response Team
        <bullet> EPA, Hazardous Sites Cleanup Division
        <bullet> EPA, National Homeland Security Research Center
        <bullet> EPA, Office of Pesticide Programs
        <bullet> EPA, Office of Research and Development
        <bullet> EPA, Office of Solid Waste & Emergency Response
        <bullet> EPA, Office of the Administrator
        <bullet> EPA, Superfund Remediation & Technology Innovation
        <bullet> Executive Office of the President, Office of S&T 
        Policy
        <bullet> Joint Chiefs of Staff, J8
        <bullet> Joint Program Executive Office, Chem-Bio Defense
        <bullet> Joint Requirements Office, Chemical, Biological, 
        Radiological, and Nuclear (CBRN) Defense
        <bullet> NIH, National Center for Research Resources
        <bullet> NIH, National Institute of Allergy & Infectious 
        Diseases
        <bullet> OSD, Armed Forces Institute of Pathology
        <bullet> OSD, Armed Forces Medical Intelligence Center
        <bullet> OSD, Chem-Bio Defense
        <bullet> OSD, Defense Logistics Agency
        <bullet> OSD, DTRA
        <bullet> OSD, Director, Operational Test and Evaluation (DOT&E)
        <bullet> Pentagon Force Protection Agency, CBRN Directorate
        <bullet> U.S. Air Force, 313 Human Systems Wing
        <bullet> U.S. Army, Army Research Laboratory
        <bullet> U.S. Army, Corps of Engineers
        <bullet> U.S. Army, Edgewood Chemical Biological Center (ECBC)
        <bullet> U.S. Army, Headquarters, G-8 Force Development Branch
        <bullet> U.S. Army, Medical Research Institute of Infectious 
        Diseases
        <bullet> U.S. Army, Research, Development, & Engineering 
        Command
        <bullet> U.S. Army, Medical Research Institute of Infectious 
        Diseases
        <bullet> U.S. Marine Corps, Systems Command
        <bullet> U.S. Navy, Naval Research Laboratory
        <bullet> U.S. Navy, Naval Surface Warfare Center
        <bullet> U.S. Navy, Office of Naval Research
        <bullet> U.S. State Department, Bureau of Diplomatic Security
        <bullet> U.S. State Department, Bureau of Nonproliferation
        <bullet> U.S. State Department, Office of Medical Services
        <bullet> U.S. State Department, Overseas Building Operations

    I hope this information fully alleviates any concern you may have 
had regarding the DARPA program's interactions with both DOD and other 
Federal programs.

    23. Senator Reed. Dr. Sega and Dr. Tether, how do you believe these 
two concerns can best be addressed?
    Dr. Sega. As regards the interagency cooperation, four senior 
officials in the Department are actively engaged in various integration 
and coordination forums set up by the National and Homeland Security 
Councils; DDR&E, ASD(Homeland Defense), ASD(Health Affairs) and 
ATSD(NCB). I believe that these forums are comprehensive in scope and 
effective. As regards internal DOD cooperation and integration, Dr. 
Klein (ATSD(NCB)) is the lead official for execution of RDT&E programs 
in this area and he has been actively working to address this as a 
response to the Major Action Item from the 2004 Chemical-Biological 
Defense Technology Area Review and Assessment (TARA). It is through 
mechanisms of R&E oversight such as TARA that continuing improvements 
can be effected.
    Dr. Tether. DARPA continues to participate in all venues for 
coordination and integration while seeking additional avenues to ensure 
maximum DARPA program effectiveness and to prevent duplication. We 
understand this coordination is essential within DOD as well as across 
all Federal agencies and private industry and academia.
    As detailed in our answer to question 22, I feel that the two 
concerns are bring addressed.

                   joint unmanned combat air systems
    24. Senator Reed. Mr. Engle, the Air Force's fiscal year 2006 S&T 
budget request includes $78 million for the Joint Unmanned Combat Air 
System (J-UCAS). Could you please explain why this program has been 
transferred to the Air Force from DARPA?
    Mr. Engle. The OSD transferred program management of the J-UCAS 
program to the Air Force to establish a joint program office with Navy 
representation and to advance the program. The Air Force and Navy have 
been tasked to restructure the J-UCAS program with emphasis on the 
development of air vehicles that will contribute to future warfighting 
concepts of operations.

    25. Senator Reed. Mr. Engle, why will this improve the program?
    Mr. Engle. Transition of the J-UCAS program to the Air Force will 
allow for an early focus on joint warfighting concepts and increased 
emphasis on timely fielding of J-UCAS capabilities. The development of 
war fighting concepts and capabilities, and the subsequent 
incorporation of these capabilities into overall joint warfighting 
operations, is not an area that DARPA is structured to perform. For 
this reason, as the technology matures, it is important to transfer 
DARPA's ``tech push'' efforts to service leadership. With the extensive 
work the Air Force has done in this area, we are well prepared to take 
the lead for the J-UCAS program.

    26. Senator Reed. Mr. Engle, The J-UCAS program is being partially 
funded in S&T again. Is this a more accurate reflection of the state of 
maturity of the system's technologies?
    Mr. Engle. Yes, the $77.8 million transferred into the Air Force 
S&T Program in fiscal year 2006 reflects the relative maturity of the 
J-UCAS program. This S&T funding provides for completion of technology 
development and facilitates transition of this technology into the 
formal development program. The majority of funding for J-UCAS was 
transferred into the J-UCAS Advanced Component and Prototype 
Development Program Element, which better reflects the more mature 
nature of this system's technology.

    27. Senator Reed. Admiral Cohen, what is the Navy's role in the J-
UCAS program?
    Admiral Cohen. The Navy is integral to the joint program. Navy 
personnel from the Office of Naval Research, Naval Air Systems Command, 
CNO staff, and other organizations comprise a substantial portion of 
the J-UCAS program management, technical, engineering, and support 
staff. A J-UCAS Field Office has been established at NAS Patuxent 
River. Navy objectives have been set for the program, and have a major 
influence on system design, development, and demonstration plans.

    28. Senator Reed. Admiral Cohen, what is the fiscal year 2006 Navy 
investment in the program?
    Admiral Cohen. In fiscal year 2005, all Navy Unmanned Combat Air 
Vehicle (UCAV-N) funds, including those that had been allocated in 
future years, were included in the Defense Wide program element 
supporting the J-UCAS program. Beginning in fiscal year 2006, this 
funding will be transferred to an Air Force program element. The Navy 
continues to support the program with personnel and material resources 
as described in the response to QFR 27.

                     non-lethal weapons development
    29. Senator Reed. Dr. Sega, a variety of Department programs are 
developing non-lethal weapons capabilities that may be deployed to our 
forces. I am concerned that some of these new systems may be sent 
overseas as prototypes for demonstration or experimentation purposes 
without proper policy oversight, testing of the technology, or training 
of end users. How are you working with the Joint Non-lethal Weapons 
Program to develop new non-lethal weapons capabilities and transition 
them to the field, while assuring adequate policy review and testing of 
these systems and adequate training for the forces who will use them?
    Dr. Sega. My office, as well as several other offices within the 
Office of the Under Secretary of Defense for Acquisition, Technology 
and Logistics (OUSD(AT&L)) interact frequently, both formally and 
informally, with the Joint Non-Lethal Weapons Program and the Office of 
the Assistant Secretary of Defense for Special Operations and Low 
Intensity Conflict (OASD/SOLIC), which has policy oversight for the 
development and employment of non-lethal weapons.
    The DOD policy directive on non-lethal weapons, DOD Directive 
3000.3, assigns responsibilities for the development and employment of 
non-lethal weapons. Non-lethal weapons are developed and fielded using 
the same general processes as those used for the acquisition of lethal 
weapons. Non-lethal weapons policy considerations are addressed early 
in concept development and encompass areas such as intended effects, 
human test protocols, concept of operations and employment, and legal 
and treaty compliance.

    30. Senator Reed. Dr. Sega, what is the process for policy review 
of these systems prior to their deployment?
    Dr. Sega. The Office of the Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict (OASD/SO-LIC) has policy 
oversight for the development and employment of non-lethal weapons. The 
DOD policy directive on non-lethal weapons, DOD Directive 3000.3, 
assigns specific responsibilities for the development and employment of 
non-lethal weapons within the Department.

           darpa experimental hiring authority (section 1101)
    31. Senator Reed. Dr. Tether, Congress has given DARPA a special 
hiring authority which DARPA has used successfully to hire a number of 
technical experts to manage research programs. Please described how 
DARPA has made use of this authority to date and what plans are for its 
future use.
    Dr. Tether. Since March 1999, DARPA has successfully used its 
Section 1101 experimental personnel authority to hire highly skilled 
term employees as program managers, deputy office directors and office 
directors. The authority currently has 40 billets; it was expanded from 
20 billets in 2000. Section 1101 has allowed DARPA to compete for, and 
expeditiously hire, highly-skilled individuals from industry and 
academia that would otherwise be lost due to salary disparities and a 
lengthy hiring process. The Section 1101 authority allows us to offer a 
salary up to the Executive Level III cap; offer recruitment, retention, 
relocation, or performance bonuses up to $25,000 per employee, per 
year; and, it allows us to make on-the-spot hires with as little as 1 
week for in-processing time. This is in contrast to being able to offer 
only the limited top grade and step of the General Schedule. Moreover, 
it also prevents DARPA from losing potential talent because of the 
protracted regular hiring process, which has exceeded 6 months in some 
cases. When competing for the kind of talent DARPA needs, compensation 
incentives and expeditious hiring are critical to attracting highly 
sought after candidates and closing the deal.
    The Section 1101 authority granted to DARPA will expire September 
30, 2008. However, in the spirit of embracing the NSPS, DARPA has 
recently switched to using the new Highly Qualified Expert (HQE) 
authority, modeled after the Section 1101 program, for all new, 
eligible hires from industry. One advantage of the Section 1101 
authority has been that we control and manage the entire hiring 
process. As we transition to the HQE authority I hope that we'll be 
able to manage our HQE hiring in the same manner as we managed Section 
1101 and that everything will be running smoothly before Section 1101 
expires. My goal is to be able to hire the same quality of people for 
the same kinds of positions as we have under the Section 1101 
authority, and just as quickly.

    32. Senator Reed. Dr. Tether, I understand that DARPA is now 
working to make use of authority within the NSPS that will enable it to 
hire ``HQEs'' to work at the agency. Could you describe how DARPA is 
making use of this new authority?
    Dr. Tether. We have been delegated authority from the Under 
Secretary of Defense for Personnel and Readiness to manage the HQE 
program at DARPA and received a block of 60 allocations to use from 
Washington Headquarters Service (WHS). We also have a Memorandum of 
Understanding with WHS to assist us with the mechanics of ensuring our 
HQEs are properly entered into the Civilian Personnel Data and Payroll 
Systems.
    Additionally, we have written an interim pay plan, which mirrors 
the Personnel and Readiness implementation guidance, pending a final 
internal DARPA Instruction on HQE personnel administration.
    To date, we have hired two HQEs; one in the Tactical Technology 
Office; one in the Information Exploitation Office. We have another 
offer pending and two more in negotiation.

    33. Senator Reed. Dr. Tether, how do these new authorities compare 
with respect to supporting the performance of DARPA's designated 
mission? Are there particular advantages to one over the other?
    Dr. Tether. The most valuable aspect of the section 1101 and HQE 
hiring programs is the ability to negotiate salary (and bonus) and move 
quickly with an offer of employment. Since receiving the hiring 
authority delegation and a block of allocations, the HQE program can 
meet DARPA's technical hiring needs as well as the Section 1101 program 
has done over the past 6 years. In fact, the HQE program is an enhanced 
version of the Section 1101 program in that, if necessary, we are able 
to offer more compensation than what is allowable under the 1101 
authority (e.g., bonuses of up to 50,000, vs. 25,000 in the Section 
1101 program; HQEs receive 8 hours of annual leave per pay period vs. 4 
hours of annual leave for section 1101 first time appointments).
    As long as DARPA is able to manage our HQE hiring in the same 
manner as we have managed Section 1101, it will be a more advantageous 
and flexible hiring authority.

               high productivity computing system program
    34. Senator Reed. Dr. Tether, how much funding is being requested 
in the fiscal year 2006 budget for the High Productivity Computing 
System Program (HPCS)? What do you expect this funding will achieve?
    Dr. Tether. The fiscal year 2006 budget request for the HPCS 
program is $70.1 million. The requested fiscal year 2006 funding will 
complete the R&D phase (Phase II) of the HPCS program and start the 
full-scale development phase (Phase III). Based on the same successful 
rapid response model used for the transition from Phase I to II, a 
Phase III solicitation will be released, proposals reviewed, and 
vendor(s) selected.
    At this budget level, we anticipate that one team will move forward 
into the full-scale development of HPCS Phase III effort.

    35. Senator Reed. Dr. Tether, how much additional funding is 
necessary in order to fund additional HPCS teams for the system 
development and demonstration (SDD) phase of the program?
    Dr. Tether. An additional team would not require additional funding 
in fiscal year 2006, but would require $50 million more in fiscal year 
2007. This would result in a budget profile of $70.1 million in fiscal 
year 2006 and $125 million in fiscal year 2007. Fiscal year 2008 and 
fiscal year 2009 have yet to be finalized, but additional funds would 
be needed in both years.
    We are also soliciting the Department of Energy and the National 
Security Agency to provide the additional required funding for the 
program to have an additional team since they are major beneficiaries 
of the technology.

    36. Senator Reed. Dr. Tether, why is it advantageous to fund 
multiple contractors during the SDD phase of the program?
    Dr. Tether. A number of recent reports, including the High-End 
Computing Revitalization Task Force report, have indicated the 
importance of revitalizing high-end computing to ensure a strong United 
States high performance computing (HPC) technology, development and 
product base. The number of government agencies already participating 
in the HPCS program (including the DOD, the National Security Agency, 
the National Reconnaissance Office, the Department of Energy, the 
National Aeronautics and Space Administration, and the National Science 
Foundation) attest to the importance of the program to national 
security and scientific leadership.
    Each of the current Phase II vendors offer a unique high-end 
computing capability and commercial market emphasis. Based on the vital 
role of a world-class HPC capability, multiple awards for Phase III 
would greatly increase the industrial base capability to support our 
national security needs, ensure continued U.S. scientific leadership, 
and greatly enhance the long-term viability of high-end computing.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                             nanotechnology
    37. Senator Bill Nelson. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, investment in nano-related S&T research appears 
to have been significant over the last few years. Nanotechnology has 
tremendous intuitive appeal, generated considerable excitement, and 
attracted significant investment. Despite the investment, one does not 
hear much about nanotechnology moving very progressively from 
conceptual potential to technical promise. One cannot survey America's 
research universities these days and not find scientists with a nano-
miracle ready to solve any number of materials, electronic, chemical, 
mechanical or bio-medical problem.
    For example, Florida State University and Florida A&M University 
are in partnership with Armor Holding, Incorporated (manufacturer of 
the up-armored High Mobility Multipurpose Wheeled Vehicle (HMMWV)) in 
the development of a composite material and manufacturing technology 
that will provide new lightweight body armor to protect soldiers' arms 
and legs. The ultimate objective is to apply this manufacturing 
technique to an exceptionally strong and lightweight nano-material, 
also under development at Florida State and Florida A&M. You can 
imagine that scientists at these two great universities are working 
hard on this effort with a great sense of purpose and understanding of 
the urgency to find an extremities protection solution.
    What in your view is the potential or promise of nanotechnology 
solutions to military technical challenges?
    Dr. Sega. Nanotechnology will impact military capabilities across a 
broad spectrum of application areas because the ability to control and 
exploit material structure at the nanometer scale will permit a wide 
range of new functionalities. Some specific areas for which 
nanotechnology offers the greatest potential for enhancing military 
capabilities include: chemical/biological defense, information 
technology, energy and energetics, multifunctional materials and 
devices, and health monitoring and sensing.
    Dr. Killion. Nanotechnology has the greatest potential to impact 
warfighter needs in the areas of chemical and biological defense, 
network-centric technologies, power and energy, light combat system 
survivability, soldier protection, and soldier health monitoring and 
treatment.
    Admiral Cohen. There is significant excitement about the promise of 
nanotechnology for many applications around the world. The example 
cited is one where nanomaterials and composites are being examined as 
potential high strength, but lightweight, materials for body armor. 
Other examples of nanoscience-driven opportunities that have 
significant military application include:

          1) nanoelectronics, nanophotonics, and nanomagnetics research 
        as potential solutions in areas of network centric warfare, 
        information warfare, uninhabited combat vehicles, automation 
        and robotics for reduced manning, effective training via 
        virtual reality, and rapid digital signal processing;
          2) nanomaterials ``by design'' wherein today's computers are 
        capable of designing and testing new materials before they are 
        made resulting in potential, cost effective, solutions in areas 
        of high performance and affordable materials, multifunctional 
        and adaptive (i.e., smart) materials, energetic materials and 
        materials for power generation and storage, nanoengineered 
        functional materials, and materials requiring reduced 
        maintenance;
          3) nanobiotechnology for warfighter protection research as 
        potential solutions for chemical and biological agent detection 
        and destruction, and human performance issues such as health 
        monitoring and prophylaxis.

    The successful transition of these S&T nanoscience research efforts 
into field-tested nanotechnology products will have significant impact 
in the following areas:

          1) information dominance wherein nanoscale phenomena foster 
        lower power and/or less energy dissipation per process, better 
        signal transduction via improved signal-to-noise, faster 
        processing speeds due to shorter transit times, and higher 
        function density;
          2) enhanced platforms wherein nanoscale phenomena provide 
        multifunctional and/or adaptive design flexibility inhibit 
        conventional failure mechanisms in materials, and control the 
        release of energy;
          3) weapons and countermeasures wherein nanoscale phenomena 
        provide controlled energy release fuels and explosives, new 
        materials for high power lasers and missile seeker domes, and 
        stealth;
          4) detection, protection, and decontamination systems for 
        weapons of mass destruction wherein nanoscale phenomena provide 
        improved detector sensitivity, improved selectivity with 
        miniaturized arrays, new capability via distributed autonomous 
        systems, super absorbent material, and nanofibers for membranes 
        and clothing; and
          5) warfighter enhancement and protection wherein nanoscale 
        phenomena provide more function per unit weight and/or volume, 
        improved power generation and storage and/or lower power 
        demand, and personal decision aids.

    Mr. Engle. We believe nanotechnology is paving the way to new 
materials and device architectures that could form the foundation of 
future warfighting capabilities. Because nanotechnology involves 
manipulation of materials at the atomic level, we see applications 
across our portfolio of science. For this reason we are building 
scientific expertise in each of our applicable Technical Directorates. 
Some specific areas we are exploring include materials that can self-
repair for use on aircraft surfaces, energetic materials for better 
control of kinetic weapons, and new materials that will allow us to 
build lighter weight sensors with significantly higher resolution.
    Dr. Tether. The real promise of nanotechnology occurs when working 
at the scale of nanometers provides a specific set of properties that 
can't be achieved any other way. There are a great number of areas in 
which nanotechnology offers promise for significant improvement in 
Defense capabilities. Accordingly, our budget request this year 
includes about $170 million for nanotechnology, which is the highest in 
the Department.
    An example of fielded nanotechnology is the development of 
microwave and millimeterwave transistors where the current carrying 
channel is grown 10 nm thick with atomic layer precision and the 
modulating gate electrode is patterned at 100 nm long to detect and 
amplify signals above 20 GHz. Many of these nanoscale devices are 
flying today on space platforms.
    This type of nanometer control of electronic, photonic, and MEMS 
components is expanding and expected to impact an increasingly large 
number for DOD systems:

        <bullet> Ultradense giant magneto resistance memories were one 
        of the first examples of the promise of nanotechnology. Today, 
        these radiation hard, high speed, nonvolatile memories are 
        being evaluated for missiles and space applications.
        <bullet> Semiconductor optical devices require control of their 
        material and device structure on the order of 10 or 20 nm. This 
        has led to quantum cascade lasers which are useful for 
        detecting chemical agents and the vertical cavity lasers now 
        often used to move signals around inside military equipment, 
        which rely on nanotechnology to create their mirror stacks.
        <bullet> Silicon germanium electronics combined with nanoscale 
        Complementary Metal Oxide Semiconductor (CMOS) is 
        revolutionizing radio frequency (RF) electronics by allowing RF 
        and mixed analog-digital electronics circuits for military 
        systems to be fabricated at a lower cost in silicon fabs.
        <bullet> We can now control the flatness on films deposited on 
        8 to 12 inch diameter silicon wafers down to nanometers. This 
        allows the processing of very fast transistor circuits with 
        clock frequencies in excess of few gigahertz, which is 
        important for many signal processing functions.

    The levels of investment over the last 5 years are setting the 
stage for a myriad of new capabilities that are about ready to be 
brought to fruition. New biological sensors, high density nano-wire 
based electronics, nano-scale photonic devices, nano-scale mechanical 
oscillators, and ultra-high strength fibers from carbon nanotubes to 
name just a few.

    38. Senator Bill Nelson. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, in what areas would you say that nanotechnology 
has demonstrated promise and is very close to operationally testing a 
field application? If nothing is close to operational testing, why, 
given the levels of investment over the last 5 years, have we not 
prototyped a useful nano-solution to a militarily-relevant technical 
challenge?
    Dr. Sega. Nanotechnology is still emerging and at the early stages 
of development. In fact, many of the critical scientific breakthroughs 
needed to realize the potential of nanotechnology for military 
applications have only emerged within the past few years. Nonetheless, 
significant demonstrations of the unique potential of nanotechnology 
have occurred, and many of these results have been transferred to 
technology development, both to industry and within DOD laboratories. 
Some program accomplishments include the following:

        <bullet> An aerosol-based sol-gel method (Aero-sol-gel) for 
        preparing nanoporous iron-oxide nanoparticles with high 
        internal surface area has been developed; a nano-sized oxidizer 
        and fuel material offer the potential (high surface area) for 
        applications that involve rapid energy release.
        <bullet> A new experimental facility was developed for studying 
        plasma synthesis and processing of aluminum nanoparticles for 
        nanoenergetics applications via ARO-funded research at the 
        University of Minnesota. Aluminum nanoparticles were 
        synthesized using a plasma torch over a range of operating 
        conditions. Particle size distributions, elemental composition 
        and particle morphology were characterized.
        <bullet> Recombinant virus protein-directed synthesis of 
        semiconductor nanowires has been utilized to fabricate 
        functional electronic circuits.

    These are just a few demonstrations of the potential of 
nanotechnology for military applications that have been achieved by the 
military departments and DARPA.
    Dr. Killion. The U.S. Army has a broad portfolio of nanotechnology 
investment exploring a wide range of near and far term warfighter 
needs. Specific examples that have been fielded or are about to be 
fielded include:

          a. A novel sensor called Fido, which is based on a unique 
        nanoscale architecture developed at the Massachusetts Institute 
        of Technology, is being produced by Nomadics, Inc. Fido has 
        been demonstrated to detect ultra trace amounts of TNT, and 
        recently received excellent preliminary feedback from field 
        tests conducted by the Marine Corps at Yuma Proving Grounds and 
        during operations in Iraq. The Army has initiated actions to 
        mate Fido with an advanced unmanned ground vehicle capable of 
        carrying multiple sensors to detect an array of threats. The 
        plans include development of 10 systems for deployment to Iraq.
          b. High surface area nanostructured materials have been 
        demonstrated to yield both greater capacity for chemical agent 
        decontamination and faster reactivity, removing over 99.6 
        percent of VX, GD (soman), and HD (mustard gas) from surfaces 
        in under 90 seconds. This technology was fielded in 2004 by 
        Marine Corps Air Station Supply at Cherry Point, NC, and the 
        Research, Development, and Engineering Command (RDECOM), and 
        has dual-use application for civilian first responders.
          c. Nanocomposite thin film photovoltaics have been developed 
        with the capability to provide lightweight, conformal and 
        renewable power with power densities of greater than 40 W/lb. 
        These materials are currently in advanced development. Field 
        capable prototypes are expected during fiscal year 2006 and 
        commercialization is imminent.
          d. Nanotechnology enhanced barrier materials have been 
        developed for CBRN applications and food and materiel 
        packaging. Field testing of prototype materials for enhanced 
        Meal Ready to Eat (MRE) packaging is expected by fiscal year 
        2006.
          e. With joint support from the NIH and the Army, 
        nanometerscale materials with an optical response tunable from 
        viable to infrared wavelengths have been developed that enable 
        a noninvasive approach to destroy tumors. Initial studies with 
        this approach have demonstrated 100 percent success in mice.

    Admiral Cohen. There are examples of nanotechnology that are 
undergoing field tests or that have already been fielded. Some examples 
include:

          (1) Nanoelectronics - the commercial sector already 
        manufactures semiconductor chips that have gate lengths of 90 
        nanometers or less. The dimensions of components in these 
        devices will continue to shrink until they reach the physical 
        limits of our current fabrication process in approximately 
        2014. Current nanoscience research activities are developing 
        the fabrication and metrology tools needed to sustain the 
        current semiconductor fabrication roadmap. Current and future 
        nanoscience research activities are investigating/will 
        investigate the next generation of electronic devices and 
        architectures. The military also has significant investments in 
        gallium arsenide and other III-V semiconductor materials and 
        other electronic materials used for high-speed and/or low-power 
        electronics and infrared sensing applications. Many of these 
        devices also currently employ nanoscale components.
          (2) Nanomaterials - the Navy is currently testing new 
        nanoceramic composite coatings on mine countermeasure ships to 
        solve a significant wear problem associated with its drive 
        shaft. Nano-engineered aluminum particles (nano-aluminum) are 
        being tested for fuel and explosives applications. 
        Nanostructured materials such as silica and titania aerogels 
        are being investigated for improved energy storage (batteries 
        and ultra capacitors) and photovoltaics applications. 
        Nanostructured materials (e.g., polymer, adsorbents, etc.,) are 
        being investigated for membranes, clothing, and decontamination 
        applications. Nanocrystalline diamond materials are being 
        investigated as windows for high energy lasers and for 
        electronics applications.
          (3) Nanosensors - nanoscale components appear in a variety of 
        physical, chemical, and biological sensors that are under 
        development. These components include nanoparticles and quantum 
        dots, nanotubes, nanowires, nanomechanical resonators, etc. 
        Several small companies are beginning to introduce products in 
        this area.

    Mr. Engle. There are nanotechnologies that are already operational. 
For example, infrared cameras that are enabled by nanotechnology to 
optimize the quantum efficiency of the PtSi/Si diodes have already been 
fielded on Air Force U-2 and B-52 platforms, thus providing navigation 
and night-time operational capabilities not previously available. Other 
promising nanotechnology efforts currently funded within the Air Force 
S&T program include:

        <bullet> Ni-Coated Nanostrands: Addition of less than 1 percent 
        Ni-coated nanostrands could provide electrically conductive 
        airframe composite structures for lightning strike protection 
        and protection from electrical discharge on aircraft refueling 
        booms.
        <bullet> Quantum Well Superlattice Lasers for Aircraft Self-
        Protection: Could provide new missile threat countermeasure 
        protection against long-wavelength threats for large aircraft 
        at a significant savings estimated at $300,000 per aircraft 
        over current technology.
        <bullet> Quantum Well Superlattices for Infrared Space Sensor 
        Applications: Could provide faster and more accurate target 
        detection and identification at 25 percent lower launch weight 
        and 95 percent lower energy requirements.

    Dr. Tether. DARPA has been engaged in nanotechnology for many 
years, well before the national initiative began. In fact, many of the 
examples used to start that initiative came from work done at DARPA, 
and we are already beginning to see payoffs for DOD.
    An example of fielded nanotechnology is the development of 
microwave and millimeter-wave transistors where the current carrying 
channel is grown 10 nm thick with atomic layer precision and the 
modulating gate electrode is patterned at 100 nm long to detect and 
amplify signals above 20 GHz. Many of these nanoscale devices are 
flying today on space platforms.
    This type of nanometer control of electronic, photonic, and MEMS 
components is expanding and expected to impact an increasingly large 
number for DOD systems.

        <bullet> Ultradense giant magneto resistance memories were one 
        of the first examples of the promise of nanotechnology. Today, 
        these radiation hard, high speed, non-volatile memories are 
        being evaluated for missiles and space applications.
        <bullet> Semiconductor optical devices require control of their 
        material and device structure on the order of 10 or 20 nm. This 
        has led to quantum cascade lasers which are useful for 
        detecting chemical agents and the vertical cavity lasers now 
        often used to move signals around inside military equipment, 
        which rely on nanotechnology to create their mirror stacks
        <bullet> Silcon germanium electronics combined with nanoscale 
        CMOS is revolutionizing RF electronics by allowing RF and mixed 
        analog-digital electronics circuits for military systems to be 
        fabricated at a lower cost in silicon fabs.
        <bullet> We can now control the flatness on films deposited on 
        8 to 12 inch diameter silicon wafers down to nanometers. This 
        allows the processing of very fast transistor circuits with 
        clock frequencies in excess of few gigahertz, which is 
        important for many signal processing functions.

    The levels of investment over the last 5 years are setting the 
stage for a myriad of new capabilities that are about ready to be 
brought to fruition. New biological sensors, high density nano-wire 
based electronics, nano-scale photonic devices, nano-scale mechanical 
oscillators, and ultra-high strength fibers from carbon nanotubes to 
name just a few.

    39. Senator Bill Nelson. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, what are the barriers to the successful 
transition of nanotechnologies into operational systems?
    Dr. Sega. The primary barriers to successful transition of 
nanotechnologies, similar to those for any new technology, are 
manufacturing, reliability, and acceptance. Significant barriers to the 
future manufacturing of nanometer-sized structures include production 
quantities, quality control, and cost; as an example, carbon nanotube 
manufacturing efforts remain limited by these obstacles despite several 
years of commercial production. Demonstrating reliability and 
durability of nanotechnologies represents another significant barrier, 
particularly since the greatly enhanced feature densities 
characteristic of nanotechnology are expected to render new products 
and systems increasingly susceptible to degradation.
    Dr. Killion. The barriers to successful transition are generally 
identical to barriers encountered in transitioning any new technologies 
to programs of record and program managers, including the ability to 
manufacture the materials in sufficient quantities, to process them 
cost-effectively and reliably, and to develop viable approaches for 
repair, rework, remanufacture, and disposal. Recognizing the need for a 
transition pathway, emphasis is being placed on effective coupling 
between the basic research programs and the SBIR, Small Business 
Technology Transfer (STTR) and Manufacturing Technology (MANTECH) 
programs to establish the unique infrastructure necessary to provide 
quality nanotechnology-based devices that are effective and producible 
in sufficient quantities. Additionally, reliability testing must be 
performed before a new material can be adopted, and additional barriers 
based on public perception of the safety of nanotechnology may be 
encountered and are being considered.
    Admiral Cohen. One barrier is time. Despite our technological 
advancements it still seems to take 15 +/-5 years to transition from 
concept to initial product. Hence, although some of the initial 
nanoscience research can be traced back to the early 1980s most of the 
investment in nanoscience and nanotechnology is more recent. In some 
respects we should not yet expect to see significant transition to 
operational systems.
    Another barrier is funding. This does not mean there is not a 
significant investment in nanoscience, but because it takes so long to 
transition from concept (science) to product (technology), a researcher 
must find several different sponsors along the way to support this 
effort. In addition, there is no automatic mechanism to transition 
nanoscience programs from 6.1 to 6.2 to 6.3, etc. In fact, while the 
majority of investment in nanoscience has been at the 6.1 basic 
research level, there is currently very little investment in the 6.2 or 
higher categories. .
    Another barrier may be acceptance or reliability. While you may be 
aware of the integration and application of MEMS in commercial products 
such as sensors for automotive airbags, MEMS components existed for 
over 20 years before they were accepted for high volume applications 
such as airbag sensors.
    Dr. Tether. Current U.S. Army nanotechnology programs represent a 
balanced investment portfolio addressing both near-term and long-term 
warfighter needs to optimally identify breakthrough capabilities. There 
are no major unfunded requirements specific to nanotechnology.
    Mr. Engle. As with any potentially revolutionary technology, it is 
difficult to mature nanotechnology to the point where system design 
engineers are comfortable including it in a system. Additionally, it is 
difficult to incorporate new technologies into system upgrades because 
of form, fit, and function requirements; often the new technologies 
result in a configuration that is quite different than the existing 
design. Until it can be proven that nanotechnology options are mature 
and affords greater benefits (i.e., cost, weight, strength, etc.) than 
existing technologies, our program offices will be cautious and 
approach this technology like any other new technology.
    Dr. Tether. Transitioning technology to operational use, 
particularly radical new technologies, always requires a great deal of 
work, but the barriers to successful transition of nanotechnology are 
no greater than that for other technologies. There aren't any special 
barriers for nanotechnology.

    40. Senator Bill Nelson. Dr. Sega, Dr. Killion, Admiral Cohen, Mr. 
Engle, and Dr. Tether, what are your unfunded priority nanotechnology 
projects?
    Dr. Sega. The current DOD basic research investment, in view of the 
total National Nanotechnology Initiative (NNI), is adequate and 
represents a balanced investment portfolio addressing both near-term 
warfighter needs and long-term capabilities to identify breakthrough 
capabilities.
    Dr. Killion. Current U.S. Army nanotechnology programs represent a 
balanced investment portfolio addressing both near-term and long-term 
warfighter needs to optimally identify breakthrough capabilities. There 
are no major unfunded requirements specific to nanotechnology.
    Admiral Cohen. Priority projects are already being funded under 
existing investments. The President's budget represents the best 
balance of resources to requirements. Were additional resources to 
become available, the Department would recommend funding higher 
priority items identified on the CNO's or CMC's Unfunded Requirements 
List. However, if additional funds were available, one new area with 
potential impact includes nanosensors for distributed autonomous 
systems.
    Mr. Engle. Like many areas in the Air Force, we could wisely invest 
additional funds in nanotechnology efforts if available. The following 
nanotechnology efforts are included in the expanded Fiscal Year 2006 
S&T Unfunded Priority List:

                        [In millions of dollars]
------------------------------------------------------------------------
            Nanotechnology Efforts                   PE         Amount
------------------------------------------------------------------------
Nanomaterials for Structures..................      61102F          1.0
Nanoenergetics................................      61102F          1.0
Nanoelectronics...............................      61102F          3.0
Nanostructed Materials for Advanced Air Force       62102F          5.5
 Concepts.....................................
Nanocomposite Materials.......................      62202F          3.5
Biological Interaction of Nanomaterials.......      62202F          3.2
Mobile Water Desalinization Using Carbon            62202F          2.5
 Nanotube Technology..........................
------------------------------------------------------------------------

    Dr. Tether. Our request this year includes about $170 million for 
nanotechnology, which is the highest in the Department. We have no 
unfunded nanotechnology requirements.

                             electric-drive
    41. Senator Bill Nelson. Admiral Cohen, I have long believed that 
the Navy's most critical and promising transformational technology is 
the development of electric-drive propulsion systems for surface ships. 
The transformational implications are apparent, from increased combat 
capability to lower manning requirements and especially lower operating 
costs. It is not apparent, however, that the R&D necessary to make 
electric-drive a reality is keeping pace with plans for new classes of 
ships such as DD(X) or the Littoral Combat Ship. How is Navy R&D on 
electric-drive structured and resourced to ensure the availability of 
this capability for integration into new ship design and construction?
    Admiral Cohen. The Navy continues to support the programs that will 
lead to electric drive in future warships. The T-AKE cargo ship will 
have a commercial-derivative electric drive system. The DD(X) will have 
an advanced electric drive and integrated power system. The Navy S&T 
community continues to invest in advanced electric drive technologies 
which will be available for introduction into future classes of 
warships including CG(X). One of the objectives of the ONR program is 
to significantly reduce the size and weight of electric propulsion, so 
that electric drive will be a viable option for small fast ships. 
Technologies being developed include superconducting motors that are 
torque dense and quiet, advanced controller technologies, and advanced 
power electronics that significantly reduce the volume, weight, and 
electrical harmonics associated with current state-of-the-art main 
motor controllers. The first full-scale superconducting motor is 
currently scheduled to be completed in 2006. Additionally, ONR is 
building an Advanced Electric Ship Demonstrator that will enable the 
waterborne demonstration of advanced electric propulsion concepts at 
roughly a quarter scale of a DD(X) sized platform.

    42. Senator Bill Nelson. Admiral Cohen, what are your unfunded R&D 
priorities related to electric-drive that will accelerate the 
development of this technology?
    Admiral Cohen. The President's Budget represents the best balance 
of resources to requirements. Were additional resources to become 
available, the Department would recommend funding higher priority items 
identified on the CNO's or CMC's Unfunded Requirements List. Although 
the ONR S&T program in electric drive is adequately funded, additional 
resources could accelerate work in advanced power conversion equipment. 
Assuming ONR achieves success in development of compact superconducting 
motor technologies, the next target for size and weight reduction is 
the motor drive, which converts power from the generator to the correct 
electrical frequency and voltage to power the propulsion motor. 
Additional funding could enable advanced electric systems topologies, 
improved motor drive power quality, higher performing thermal 
management components/systems, and increased motor drive power density. 
Investments are being made in each of these areas, but at a slower pace 
than the technology could support.

    43. Senator Bill Nelson. Admiral Cohen, how are you leveraging 
other departments' investments in power technologies?
    Admiral Cohen. Many investments outside of the Department of the 
Navy are being leveraged to accelerate the development of advanced 
electric drive and electric warship technologies. For example, the 
Office of the Secretary of Defense recently established a tri-service 
and DARPA Energy and Power Technology Initiative (EPTI), which provided 
both increased funding and additional oversight to energy and power 
investments within the Department. The EPTI ``tiger team'' meets 
regularly to share information and coordinate investment strategies. 
Navy personnel also participate in the Interagency Advanced Power Group 
(IAPG), which includes not only the military services, but also the 
civilian R&D agencies. Some examples of areas in which the Navy 
leverages other service and agency investments include:

        - DARPA's Wide Bandgap High Power Electronics program for 
        advanced power switching devices.
        - DOE and Air Force programs in superconducting wire and 
        superconducting generator technologies.
        - Army investments in capacitors and pulsed alternators to 
        store energy for electric weapons.
        - DOE investments in fuel cells.

                      low cost launch capabilities
    44. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, in 
July, the DOD issued its space S&T strategy document. One of the goals 
of the new strategy is to develop low cost launch capabilities. 
Currently, there is no definition of ``low cost.'' What is ``low-cost 
launch?''
    Dr. Sega. The DOD Space S&T Strategy identifies near- and long-term 
goals for assured access to space as follows:
    Within the next 5 years,

        <bullet> Low-cost and reliable small payload launchers capable 
        of placing a 500 Kg-class payload into low-earth orbit.

    In the year 2020 or beyond,

        <bullet> Survivable, low-cost, and reliable launch systems to 
        enable on-demand launch of payloads to any orbit and altitude 
        required.

    For the near-term, we are focusing on technologies that will enable 
small launch vehicles (500Kg to Low-Earth-Orbit) costing less than $10 
million a piece. The far-term strategy (by 2020 or beyond) focuses on 
science and technology developments that will enable low-cost launch 
for larger payloads.
    Mr. Engle. In the short-term, as defined in the DOD Space S&T 
Strategy as the next 5 years, operational cost reductions or ``low-cost 
launch'' will most likely only apply to small launch. The Air Force 
goal for small launch is less than $10 million to place 1,000 pounds 
into a 100 nautical mile, 28.5 degrees east low-earth orbit. This goal 
excludes the cost of the launch range.
    Dr. Tether. Our primary effort for low cost launch at DARPA is 
Falcon, which we're executing in conjunction with the Air Force. 
Falcon's goals are to provide the flexibility to launch from 100 kg to 
1,000 kg into low earth orbit. Falcon will be responsive, able to 
launch within 24 hours of authorization, and it will cost no more than 
$5 million per launch. The important feature of Falcon is that it will 
remove the launch-cost barrier for small satellites by making launch 
cost comparable to satellite cost. We think Falcon will significantly 
advance our capabilities in space by making small satellites an 
affordable and more attractive option.

    45. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, how 
will you develop the metrics to know whether the short-term (within 5 
years) and long-term (2020 and beyond) goals of ``low-cost'' are 
reached? For example, is the goal a certain dollar amount per pound 
launched, a percentage cost of a satellite, or a percentage reduction 
from today's launch costs?
    Dr. Sega. For the near-term we have established a nominal cost goal 
of less than $10 million per launch for small satellites (less than 500 
kg) to low earth orbit. Concurrent with this cost goal, we are pursuing 
increased responsiveness to enable launch of smaller satellites in a 
matter of days to weeks following call up versus months to years for 
some currently available small spacecraft launch vehicles.
    When completed our roadmap for a next generation large launch 
vehicle will identify the necessary S&T activities, demonstration 
milestones, and tactical level goals, such as launch costs, that were 
identified in the Space S&T Strategy. The metrics will be physics based 
for each system component and provide the technical foundation to 
achieve the system-level capability payoff goals. The roadmaps are not 
yet complete. Thus quantifiable cost performance metrics for next 
generation large launch systems are not yet available.
    Mr. Engle. As previously mentioned, the short-term goal for ``low-
cost'' launch is less than $10 million for a 1,000 pound payload. For 
2020 and beyond, metrics will be developed based on a percentage of 
today's launch cost. The goal is to make launches three to six times 
cheaper than those using current systems. This metric includes 
recurring launch costs, which consist of consumables or expendable 
elements and costs to refurbish reusable elements.
    Dr. Tether. Considering launch cost as a percentage of satellite 
cost is, in my opinion, the most productive way to look at the problem, 
and it's the key to achieving low-cost access to space. When the cost 
of launching a satellite is several times the cost of the satellite 
itself, there's little incentive to invest in ways to reduce satellite 
costs, and more importantly, little incentive to make satellites small. 
On the other hand, if we can make launch costs comparable to or even 
less than satellite costs then there's considerable incentive for 
investment in less costly ways of doing things in space.

    46. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, what 
programs are underway or planned to meet these goals?
    Dr. Sega. The Department has several ongoing S&T activities that 
support the Space S&T Strategy goals of low-cost launch systems. The 
Force Application and Launch from the Continental United States 
(FALCON) program is one specific example for small launch vehicles. 
Even though we have not completely finalized our roadmap for larger 
launch systems, we have verified that existing programs in propulsion, 
materials, aerodynamics and associated topics must be continued to 
provide the necessary foundational technologies.
    Mr. Engle. In the near-term, the joint DARPA/Air Force Falcon 
program will develop and demonstrate a system capable of providing low-
cost, responsive small lift of 1,000 pounds into a 100 nautical mile, 
28.5 degrees east low earth orbit. For 2020, the Air Force is pursuing 
the Affordable Responsive Spacelift (ARES) initiative for payloads in 
the 10,000 to 40,000 pound-class. ARES is a hybrid system with a 
reusable first stage and an expendable second stage. In support of this 
program, the Air Force is pursuing technologies for rocket engines, 
avionics, structures, vehicle subsystems, and operations. For beyond 
2020, the Air Force is pursuing technologies that would enable fully 
reusable systems with both rocket and/or airbreathing propulsion.
    Dr. Tether. Our primary effort at DARPA is Falcon, which we're 
executing in conjunction with the Air Force. Falcon's goals are to 
provide the flexibility to launch from 100 kg to 1,000 kg into low 
earth orbit. Falcon will be responsive, able to launch within 24 hours 
of authorization, and it will cost no more than $5 million per launch. 
The important feature of Falcon is that it will remove the launch-cost 
barrier for small satellites by making launch cost comparable to 
satellite cost. We think Falcon will significantly advance our 
capabilities in space by making small satellites an affordable and more 
attractive option.

                      space situational awareness
    47. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, one 
of the short-term goals of the space S&T strategy document is to be 
able to ``detect, identify, and characterize natural and man-made 
objects, threats and attacks.'' What are the metrics that will be used 
to measure these goals?
    Dr. Sega. The Space S&T Strategy outlines an implementation process 
centered around semiannual space S&T summits with participation from 
the S&T, Acquisition, Intel, and Warfighter communities. The latest 
summit activities have focused on developing S&T roadmaps for four 
operational vectors. When complete, these roadmaps will identify the 
necessary S&T activities, demonstration milestones, and tactical level 
goals, such as space situational awareness. Critical to this effort is 
the identification of technology metrics which will be physics based 
for each system component and provide the technical baseline to achieve 
the system-level capability payoff goals. It is anticipated that 
typical metrics such as smallest size object that can be tracked, 
ability to identify object types, determination of operational status 
of manmade objects will be employed and related to current 
capabilities.
    Mr. Engle. Some key metrics that could be used to measure the Space 
S&T Strategy document goals are probability of detection, timeliness, 
accurate recognition, and knowledge integration and dissemination. 
These metrics can address a range of threats including hard-to-find 
objects, space weather events and their affect on space capabilities, 
and information management and decision support tools related to space 
situational awareness. In addition, these metrics address desired 
future capabilities of predicting space events and determining intent.
    Dr. Tether. DARPA currently has two ground-based space situational 
awareness (SSA) programs, Space Surveillance Telescope (SST) and Deep 
View. The SST program will produce a telescope capable of detecting 
very faint objects in geosynchronous orbit from the ground. SST sees 
all orbital objects as point sources; it doesn't image them. Its 
principal metrics are minimum detectable visual magnitude (which is a 
function of the objects size, shape, and reflectivity), acquisition 
time, coverage rate, and revisit rate. These parameters are closely 
related.
    The Deep View program is principally designed to characterize space 
objects in all orbits up to and including geosynchronous orbits. Deep 
View is an imaging radar, and its key performance metrics are minimum 
radar cross section that can be detected (a function of range), dwell 
time, and minimum resolvable feature size.
    The actual values of these metrics are classified, but we would be 
pleased to provide them under separate cover if you wish.

    48. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, what 
is the time frame that you want to achieve within which you can detect, 
identify, and characterize natural and man-made objects?
    Dr. Sega. To enable assured space situational awareness, as 
outlined in the 2004 DOD Space S&T Strategy, it will be necessary to 
develop and demonstrate enhanced capability technologies that will:
    Within the next 5 years,

        <bullet> Detect, identify, and characterize natural and man-
        made objects, threats and attacks.

    In the year 2020 or beyond,

        <bullet> Provide our warfighters complete space situational 
        awareness under all possible circumstances or situations.

    Mr. Engle. In the near term (i.e., approximately 5 years), the Air 
Force plans to develop technologies in numerous areas of SSA that 
should enable us to be able to detect and track small space objects in 
near-earth and deep space orbits. Our goal is to predict, with high 
precision, the location of high value assets at least 12 hours into the 
future. We also want to be able to characterize on-orbit anomalies, 
changes, and events within 2 days and to predict space weather events 
for at least 12 hours in to the future. In addition, we want to be able 
to determine key attributes of non-United States space forces within 2 
weeks of deployment and to rapidly detect threats to United States 
space assets.
    Dr. Tether. DARPA has two programs underway to enhance SSA with 
ground-based sensors. The SST program is developing new focal plane 
technologies that enable very wide field-of-view, fast optical system 
to detect faint objects in the geosynchronous belt. The program is 
scheduled to end in 2008 with the operational testing of a fully 
capable telescope at the White Sands Missile Test Facility.
    The Deep View program is upgrading a current SSA asset to operate 
as a high resolution, imaging radar. It will be used to characterize 
and support identification of space objects with much improved 
performance. It is scheduled for completion and capability with low-
earth-orbit objects in 2008 and capability with geosynchronous objects 
in 2009.

    49. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, what 
programs are underway or planned that will meet these goals?
    Dr. Sega. The Department has several ongoing S&T activities that 
support the Space S&T Strategy goals of assured space operations and 
space situational awareness. Specific efforts in progress include 
development and testing of onboard warning sensors for satellites and 
exploratory efforts to enhance ground-based space object tracking 
systems. Capability enhancements we hope to achieve from these and 
other programs in this topic area cannot be discussed in a public 
forum.
    Mr. Engle. Air Force advanced technology development efforts, such 
as high accuracy tracking/orbit prediction, space environmental sensors 
and effects, and passive and active high-resolution imaging, support 
Air Force SSA goals. We are exploring the potential utility of multi-
spectral and polarimetric sensing in various technology programs, and 
we continue to invest in technologies for ultra lightweight optics. 
These programs, including space experiments, emphasize new technologies 
for capabilities that support ground- and space-based applications.
    Dr. Tether. DARPA has two programs underway to enhance SSA with 
ground based sensors. The SST program is developing new focal plane 
technologies that enable very wide field-of-view, fast optical system 
to detect faint objects in the geosynchronous belt. The program is 
scheduled to end in 2008 with the operational testing of a fully 
capable telescope at the White Sands Missile Test Facility.
    The Deep View program is upgrading a current SSA asset to operate 
as a high resolution, imaging radar. It will be used to characterize 
and support identification of space objects with much improved 
performance. It is scheduled for completion and capability with low-
earth-orbit objects in 2008 and capability with geosynchronous objects 
in 2009.

                        assured space operations
    50. Senator Bill Nelson. Dr. Sega, Mr. Engle, and Dr. Tether, one 
of the major goals in the Space S&T Strategy document is ``assured 
space operations.'' In the short- and long-term, how will this goal be 
implemented and what programs are underway or planned that will achieve 
this technology focus?
    Dr. Sega. Maintaining Assured Space Operations is a critical goal 
of our Space S&T Strategy. With participation of our S&T, Acquisition, 
Intel, and Warfighter communities we have focused on developing S&T 
roadmaps for operational vectors that should continue to ensure our 
freedom of action in space.
    Some specific elements of assured space operations includes 
providing a responsive launch capability, maintaining full space 
situational awareness, and sustaining on-orbit operations of critical 
defense satellites despite possible hostile actions by others
    Specific short-term and long-term goals include:

        Within the next 5 years,

                <bullet> Detect, identify, and characterize natural and 
                manmade objects, threats, and attacks
                <bullet> Minimize interruptions to operations
                <bullet> Protection and countermeasures for enhanced 
                survivability

        In the year 2020 or beyond,

                <bullet> Complete space situational awareness
                <bullet> Uninterrupted operations
                <bullet> Deny adversary's use of space

    Mr. Engle. Short-term activities will focus primarily on increasing 
SSA capabilities (find, fix, track, identification, characterization, 
and information fusion) and passive onboard threat detection and 
protection. SSA technologies will enhance both ground- and space-based 
data collection, integration, and fusion. Affordable threat detection, 
identification, and protection solutions for various threats will be 
demonstrated and integrated with Space and Missile Command program 
roadmaps.
    Long-term activities will focus primarily on providing a robust SSA 
and Defensive Counterspace Systems (DCS) capabilities. Technologies 
will focus on identification and characterization of hard-to-find 
objects, as well as space event prediction and intent determination. 
Space protection and countermeasures will be improved to ensure 
continued space operations, and off-board, active measures, as well as 
architectural system-of-system protection concepts will be assessed.
    Programs already underway that focus on these technologies include 
the Integrated Space Technology Demonstration or XSS-11, the Maui Space 
Surveillance System, and numerous spacecraft and sensor protection 
efforts.
    Dr. Tether. Our approach to technologies for assured space 
operations considers five basic areas: space access and infrastructure, 
SSA, protection of U.S. space assets, denial of adversary use of space, 
and space-based engagement (surveillance, communications, and 
navigation in support of military operations on Earth).
    Orbital Express will demonstrate the ability for autonomous 
refueling, upgrading, and life extension of on-orbit assets--providing 
greatly increased maneuverability and mission flexibility. The SST will 
demonstrate the optical ability to search geosynchronous altitudes for 
very faint objects and help determine their purpose and intent in a 
more timely manner. The Deep View program will use stronger radar 
techniques also to identify and characterize small objects at multiple 
altitudes.
    Other projects are more long-term. Our Space Awareness program 
(SPAWN) will also investigate the ability to provide space awareness 
and even anomaly diagnostics and resolution from positions on orbit 
with our satellite systems. We are also pursuing a variety of 
microsatellite technologies that support multiple missions in the 
Microsatellite Demonstration Science and Technology Program (MiDSTEP).
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
              missile defense agency research and programs
    51. Senator Ben Nelson. Dr. Sega, how are your S&T programs 
coordinated with those of the Missile Defense Agency (MDA)? What 
investments are you making that will enhance our missile defense 
capabilities?
    Dr. Sega. The MDA is an active participant in all of our S&T review 
and coordination activities for those technical areas relevant to 
missile defense. This includes, for example, the S&T Comprehensive 
Review process. It is through the S&T Comprehensive review process that 
we ensure that investments are made to benefit all the national 
security requirements of all of the DOD components. The Comprehensive 
Review incorporates both an Investment Strategy Review and Assessment 
(ISRA) and a Technology Area Review and Assessment (TARA). MDA also 
participates, where applicable, in preparation of our Basic Research 
Plan (BRP), the Defense Area Technology Plan (DTAP), and the Joint 
Warfighting S&T Plan (JWSTP).

    52. Senator Ben Nelson. Dr. Sega, I understand that your office 
periodically evaluates the technical readiness of major defense 
systems. Have you done an evaluation of any MDA programs? What were the 
results of these technical evaluations?
    Dr. Sega. We have conducted technical assessments for the MDA's 
Ground-Based Midcourse Element and the software for the Initial 
Deployment Option (IDO). The results of these technical reviews were 
provided to the Component Acquisition Executive.

                    network-centric warfare research
    53. Senator Ben Nelson. Dr. Killion and Mr. Engle, your testimony 
highlights your investments in networking technology and information 
systems that will support future network-centric operations. What are 
the key technical barriers you think need to be addressed before we can 
fully realize the vision of truly joint, network-centric operations?
    Dr. Killion The key technology barriers include: making highly 
efficient use of the available frequency spectrum and bandwidth; 
developing highly efficient, compact broadband antennas; maintaining 
cross domain information security; and interfacing with non-network-
centric software architectures and disparate data standards, formats 
and protocols. The Army currently has S&T efforts working on all of 
these challenges.
    Mr. Engle. A major technical barrier to achieving the network-
centric operations vision is the lack of fully joint, secure, and 
interoperable connectivity among people, applications, locations, and 
platforms. Another major barrier to achieving joint network-centric 
operations is interoperable networking across domains--air, space, 
ground, and cyber. In addition, network-centric operations requires the 
modernization of our legacy systems. These older systems must be 
upgraded and net-enabled to ensure cost-effective satisfaction of our 
continuing missions. Also, legacy system architectures should be 
converted to open system architectures to allow needed access to other 
systems and information assets. Developing secure links and networks 
capable of supporting the vast amounts of traffic necessary for full 
network-centric operations will be critical.
    Another key area is the integration of network management, spectrum 
management, network and system topology (planning), and performance 
optimization to create a seamless information enterprise that will 
operate in a global Internet Protocol Version (IPv6) environment.
    Finally, an additional major hurdle is to define and achieve end-
to-end network performance, in the form of information assurance 
mechanisms, at low tactical echelons, while ensuring that throughput, 
network connectivity, and latency are optimized for mission 
effectiveness.

    54. Senator Ben Nelson. Dr. Killion and Mr. Engle, what specific 
areas of research need to be invested in to develop the technologies we 
need to support networked forces?
    Dr. Killion The specific areas of research that are improving the 
ability to operate in a network-centric force include: multiband 
directional ground based and multibeam, multiband satellite antennas; 
dynamic network management for multiple, mobile ad-hoc networks; cross 
security domain solutions; and development of a common language 
capability across Army, Navy, and Air Force with automated language 
translation; and service-oriented architectures for enterprise software 
and network environments.
    Mr. Engle. The Air Force is already investing in various 
technologies needed to support our networked forces, however, as with 
many areas in the Air Force, additional funds could be wisely invested 
if available. There are specific areas of research in both network-
centric operations and network-centric infrastructure where investment 
is needed to support the networked forces. For network-centric 
operations, we need to develop technologies that will allow networked, 
executing forces at the engagement level to be fully informed of 
adversary locations/movement matched by friendly capabilities to 
achieve the desired effect across a spectrum of operations from urban 
warfare, to major theater of war, to humanitarian relief. For network-
centric infrastructure, we need to develop technologies in two specific 
areas:

          (1) Communications--Further research is needed in development 
        of methods to improve the ability of ``wireless on the move'' 
        communications to interface to the wired Global Information 
        Grid in scenarios typical of military theaters of actions; and
          (2) Systems Engineering and Architectures--Investments must 
        be made in systems engineering to ensure that the 
        architectures, designs, interfaces, and applications within the 
        network-centric warfare concept will all work together to 
        produce the objective.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                            rome it research
    55. Senator Clinton. Mr. Engle, your testimony highlights the work 
that is done by the Air Force Research Laboratory's (AFRL) Information 
Directorate in Rome, NY, on cyber operations and information systems on 
major defense platforms like the Joint Strike Fighter. In this budget, 
what investments are you making to continue to expand our leadership in 
areas of cyber operations?
    Mr. Engle. The Air Force is investing and leveraging millions of 
dollars each year to provide cyber security for our operational 
networks. The AFRL's Information Directorate in Rome, New York, is the 
Air Force lead in cyber security technology development and 
demonstration. In the fiscal year 2006 President's budget, the Air 
Force focus is on investing in R&D in the area of cyber operations. The 
majority of this funding is for Information Assurance and Computer 
Network Defense projects. Specific areas in which we are currently 
investing and expanding a leadership role include self-healing 
networks, cyber forensics, wireless intrusion detection systems, cyber 
situational awareness, fusion and correlation of cyber events, and 
decision support. The Air Force investment in cyber operations heavily 
leverages investments made by DARPA and the Intelligence Community in 
these areas, maximizing efficiency and ensuring an expanded leadership 
role in the area of cyber operations.

    56. Senator Clinton. Mr. Engle, how do you work to ensure that 
advances in cyber security made at places like Rome are transitioned to 
the commercial sector, which is equally at risk from cyber attack by 
terrorists?
    Mr. Engle. Much of the Air Force S&T investment in efforts that 
provide for cyber security for our operational networks has either a 
direct path to the field by way of commercial products and 
capabilities, or has immediate spin-off potential into the commercial 
world. The AFRL's Information Directorate in Rome, New York, is leading 
the Air Force in cyber security S&T, paving the way for a more secure 
and trusted Internet. Many of the technologies that have been developed 
and are planned to be developed in the future address the cyber 
security needs of the commercial sector. Some examples of this 
technology include secure and fault tolerant networks, cyber forensics, 
secure communications, wireless information assurance, and cyber 
security situational awareness.
    Commercial network security companies, such as Symantec and 
Cloudshield, have employees who work in-house on a daily basis with Air 
Force cyber security engineers and scientists. These teams are 
developing technology, filling identified technology gaps, and 
providing a direct path for technology transfer to the commercial 
sector. The Information Directorate is also vigorously supporting small 
businesses to ensure that they have a foothold in the commercial market 
place. The SBIR program not only promotes commercialization, but also 
actually requires development of a commercialization plan.
    In addition, there is a unique mechanism for technology transition 
based on the relationship between the Information Directorate and the 
National Institute of Justice's National Law Enforcement and 
Corrections Technology Center--Northeast (NLECTC-NE). The NLECTC-NE has 
developed a Cyber Science Laboratory (CSL) whose purpose is to take 
technology and transition it to the law enforcement community. The CSL 
has a solid connection with the United States Secret Service Electronic 
Crimes Task Force (ECTF) system. CSL's close relationship with the 
Information Directorate enables it to test, evaluate, and transition 
mature Air Force technologies and move those technologies to the ECTF 
and their member institutions.

                       darpa investment strategy
    57. Senator Clinton. Dr. Tether, over the past 4 decades, DARPA has 
played a major role in making America the world leader in innovation, 
thorough, fundamental research investments that led to stealth, the 
Internet, modern integrated circuit design, and so forth. Recently, 
DARPA has characterized its mission as ``bridging the gap between the 
Far Side and the Near Side,'' meaning investing in the space that lies 
between fundamental research and military products. I note that your 
request for basic research investment at DARPA is down $40 million with 
respect to 2005 appropriations, and even down $13 million below last 
year's original request, let alone down $45 million relative to the 
2003 budget request. Is this trend consistent with the successful 
philosophy of the past few decades, or does it represent a shift?
    Dr. Tether. DARPA does not specifically invest in the space that 
lies between fundamental research and military products. By ``bridging 
the gap,'' we look for ideas on the Far Side (e.g. from 6.1 or basic 
research) and fund them in order to accelerate them to the Near Side, 
where they can become a new military capability. Of course, during the 
transition, they do go through the space that lies between fundamental 
research and military products.
    DARPA's basic research in fiscal year 2005 and fiscal year 2006 is 
about 4 or 5 percent of our budget, which is about the average level it 
has been for the last 15 or 20 years. We use our 6.1 funding to assure 
access to knowledge that comes from basic research in order to turn 
that new knowledge into new military capabilities. We are more in the 
business of multidisciplinary engineering, which, at the end of the 
day, is what determines how fast new knowledge can be turned into new 
products and our funding reflects this.
    We strongly support the basic research sponsored by places like the 
National Science Foundation, the Office of Naval Research and the 
Department of Energy. We depend on it and value it and it is an asset 
to the Nation.
    If there has been any shift at all in recent years, it's been 
towards more basic research at DARPA. From fiscal year 1999 to 2006 our 
request for 6.1 funding has doubled and grown almost one-third faster 
than DARPA's overall budget. Our proportion of the total DOD 6.1 
funding has almost doubled too.
    I believe that years from now, when DARPA's work in things like 
nanotechnology, cognitive computing, and neutrally controlled devices 
comes to fruition, it will have a huge impact, just like what we've 
done in the past.

    58. Senator Clinton. Dr. Tether, does this mean you will be 
reducing your investments in university-based research programs that 
may generate the revolutionary new technologies of tomorrow?
    Dr. Tether. Our basic research funding--the portion of our research 
budget that is the best fit with the university mission and the type of 
funding they favor--has more than doubled since 1999. Also since 1999, 
the percentage of our basic research funding going to universities 
increased to about 60 percent in fiscal year 2004, which is the norm 
for DOD. The bottom line is that since 1999 DARPA has increased its 
commitment to basic research and universities are getting a greater 
share of it.
    But as I said in the answer to another question, we are more in the 
business of multidisciplinary engineering, which, at the end of the 
day, is what determines how fast new knowledge can be turned into new 
products.

                      laboratory personnel issues
    59. Senator Clinton. Dr. Sega, Rome Labs is part of the AFRL system 
and as such is part of the laboratory personnel demonstration program. 
It is important that we obtain and retain top quality people if our 
laboratories are to be relevant and globally competitive. The great 
strength of these demo programs is their ability to be continuously 
modified so that local lab directors can experiment with new personnel 
authorities--which eventually may be adopted by the rest of the 
Department. Since Congress has determined that the lab demo programs 
will function independently of the NSPS until 2008, is the DOD still 
processing modifications and amendments to the lab demonstration 
programs or has the process closed down?
    Dr. Sega. No modifications or amendments to existing demonstrations 
have been processed recently. However, the Department will review any 
requests for demonstration project modifications or amendments 
consistent with the plan required by section 1107.

    60. Senator Clinton. Dr. Sega, do you feel that there is value in 
allowing local laboratory directors to continue to have control over 
their demonstration programs rather than being absorbed into a one-
size-fits-all Department-wide system?
    Dr. Sega. The experience of the laboratory demonstration programs 
have had a positive influence on the development of the NSPS. NSPS 
should provide flexible and contemporary human resources with a system 
that enables the Department to meet and adjust, as necessary, to its 
mission requirements quickly and efficiently. When NSPS is implemented 
within the Department, local laboratory directors will find that it 
gives them the tools and controls they need for their personnel systems 
and processes. If that is the case, the Department may submit a 
legislative proposal to bring the NSPS-exempt laboratories into NSPS 
earlier than October 2008.

               small business innovation research funding
    61. Senator Clinton. Mr. Engle, the SBIR program is an integral 
part of the success we have in R&D. It has come to my attention that 
the Air Force has cut SBIR funding to some current contracts for fiscal 
year 2005. Can you explain why the Air Force has withheld this funding?
    Mr. Engle. The Air Force put approximately 50 percent of the fiscal 
year 2005 SBIR funding on withhold as we conducted a review of the 
program to look for ways to improve both our current execution 
performance and the transition rate of technologies developed under 
SBIR Phase I and Phase II. We are continuing to analyze the results of 
this review to identify potential program improvements for fiscal year 
2006 and beyond. However, based on our preliminary findings, the fiscal 
year 2005 SBIR funds were released for execution on March 8, 2005.

    62. Senator Clinton. Mr. Engle, what are the plans to resolve this 
issue and ensure the 2005 contracts get fulfilled?
    Mr. Engle. The fiscal year 2005 SBIR funds were released for 
execution on March 8, 2005.

    63. Senator Clinton. Mr. Engle, are there systemic issues in how 
SBIR contracts are handled by the Air Force's technology development, 
contracting, and financial management organizations that need to be 
resolved in order to ensure that small businesses will not experience 
delays in receiving funding they are awarded in SBIR competitions?
    Mr. Engle. The Air Force recently completed a review of its SBIR 
program and is continuing to analyze the results of this review to 
identify potential program improvements for fiscal year 2006 and 
beyond. Given the increasing size of the SBIR program, managing the 
program is becoming inherently difficult without additional authority 
to use a small portion of SBIR funding for program management. However, 
we are looking for ways to improve both our execution rate and 
transition of technologies, while strengthening the role of innovative 
small businesses and the technological capabilities of our Armed 
Forces.

    [Whereupon, at 11:39 a.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                         MONDAY, APRIL 11, 2005

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                   CHEMICAL DEMILITARIZATION PROGRAM

    The subcommittee met, pursuant to notice, at 2:03 p.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn and Reed.
    Other Senators present: Senators Allard and Salazar.
    Committee staff member present: Judith A. Ansley, staff 
director.
    Majority staff members present: Elaine A. McCusker, 
professional staff member; and Lynn F. Rusten, professional 
staff member.
    Minority staff members present: Richard W. Fieldhouse, 
professional staff member; and Arun A. Seraphin, professional 
staff member.
    Staff assistants present: Benjamin L. Rubin and Nicholas W. 
West.
    Committee members' assistants present: Russell J. 
Thomasson, assistant to Senator Cornyn; and Elizabeth King, 
assistant to Senator Reed.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. This Subcommittee on Emerging Threats and 
Capabilities hearing will now come to order. Gentlemen, thank 
you for being here with us today. We meet today to receive 
testimony on the Department of Defense's (DOD) fiscal year 2006 
budget request for the Chemical Demilitarization Program. We 
welcome all of our witnesses: Michael Wynne, Under Secretary of 
Defense for Acquisition, Technology, and Logistics; Claude 
Bolton, Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology; Dr. Dale Klein, Assistant to the 
Secretary of Defense for Nuclear and Chemical and Biological 
Defense Programs; and Ambassador Donald Mahley, Deputy 
Assistant Secretary of State for Arms Control.
    The DOD Chemical Demilitarization Program is responsible 
for eliminating the U.S. chemical weapons stockpile, which 
originally consisted of approximately 31,000 tons of lethal 
chemical agents and a wide variety of munitions located at 
Johnston Atoll in the Pacific and 8 sites in the continental 
United States (CONUS). Destruction of the stockpile began in 
1990 and is supposed to be completed by April 29, 2007, in 
accordance with the Chemical Weapons Convention (CWC), to which 
the United States is a party.
    Even taking into account the fact that the CWC does permit 
state parties to seek a 5-year extension of that deadline to 
April 29, 2012, this subcommittee is very concerned that as the 
Chemical Demilitarization Program is currently planned and 
budgeted it appears that the United States is not on track to 
complete destruction of our stockpile in accordance with our 
treaty deadlines.
    To date, almost 36 percent of the total stockpile of lethal 
chemical agents has been destroyed, including the stockpiles at 
Johnston Atoll in the Pacific and Aberdeen Proving Ground, 
Maryland. The four baseline incineration sites at Tooele, Utah; 
Anniston, Alabama; Umatilla, Oregon; and Pine Bluff, Arkansas--
I think this is a test to see if I can pronounce all those 
names; you will correct me, I am sure, if I am wrong--are all 
operational and are destroying their stocks of lethal chemical 
agents and munitions. The Army has recently informed us that 
within 30 days it plans to begin neutralizing the VX nerve 
agent stockpile at Newport, Indiana.
    In addition to schedule delays, the cost of the program 
continues to increase at an alarming rate. Current worst case 
estimates of destroying the stockpile range from $26.8 billion 
to $37.3 billion.
    The DOD has an obligation to destroy the U.S. chemical 
weapons stockpile in a manner that is safe for the general 
public, for the workers at the storage and demilitarization 
sites, and for the environment. DOD must also destroy the 
stockpile on a timetable consistent with the international 
legal obligations assumed by the United States when the U.S. 
Senate ratified the CWC in 1997. Finally, DOD has a 
responsibility to manage the Chemical Demilitarization Program 
efficiently and effectively so that the mission is accomplished 
at a reasonable cost.
    Although DOD should be commended for the safe manner in 
which it is destroying the stockpile, DOD is not living up to 
its responsibilities with regard to cost and schedule. The 
subcommittee looks forward to understanding better some of the 
actions taken by Secretary Wynne to address these critical 
problems.
    Before us today are individuals who bear great 
responsibility for the stewardship of this program and for the 
implementation of the CWC. We look forward to your testimony, 
in particular hearing how DOD plans to improve its management 
of this program and whether anything more in the way of fiscal 
resources or legislative authorities is needed to help the 
Department destroy the stockpile safely, on time, and at a 
reasonable cost.
    We look forward to also hearing from Ambassador Mahley 
regarding the requirements of the CWC and the potential 
diplomatic ramifications of the problems that are evident in 
the U.S. Chemical Demilitarization Program.
    Gentlemen, I thank each of you for your service and for 
appearing here today.
    I note that, in addition to the ranking member, Senator 
Reed, and other members of the subcommittee, we will no doubt 
be joined by the distinguished Senators from Colorado, who I 
know have a chemical storage site in their State and share a 
strong interest in this program.
    I will now turn the floor over to Senator Reed for any 
opening remarks he cares to make.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
join you in welcoming our witnesses here today. The Chemical 
Demilitarization Program is truly important and deserves 
national priority for at least two reasons. First, there is a 
vital need to eliminate the risk to the communities where our 
chemical weapons and agents are stored.
    Second, we have an international treaty obligation under 
the CWC to destroy all our chemical weapons and production 
facilities. This is the law of the land. Once the United States 
ratifies and enters into a treaty, we commit ourselves as a 
Nation to meet all of our obligations under that treaty without 
exception or excuse. That means we must make every effort 
necessary to comply with the terms of the treaty. That is the 
same high standard to which we hold all other parties to any 
treaty.
    The U.S. Chemical Demilitarization Program has made great 
progress in the last decade and most of our destruction 
facilities are now operating or about to do so. That is a 
tribute to the hard work of the Federal, State, and local 
officials and the contractor personnel who have made it 
possible to get these complex systems up and running. The DOD 
and the Army leadership represented here today deserve 
considerable credit for the successes we have had to date.
    But there is also a serious issue before us. The Department 
restructured the Chemical Demilitarization Program last year, 
apparently for cost reasons, and this restructuring had the 
effect of jeopardizing our compliance with the CWC. By removing 
the majority of planned funding for the Pueblo, Colorado, and 
Blue Grass, Kentucky, sites and delaying planned construction 
at these two sites until 2011, the Department virtually 
guaranteed that the United States would not be able to meet the 
extended destruction deadline of April 2012.
    One question that arises is whether DOD put our treaty 
obligations at risk in an attempt to save money. Additionally, 
did the Department consult and coordinate with all other 
relevant government agencies and offices before taking a step 
that would put us in noncompliance with a treaty obligation?
    Although the costs for the Chemical Demilitarization 
Program have grown steadily, that trend is not unique to this 
program. Most DOD programs experience cost growth, sometimes 
dramatically so. With normal defense acquisition programs there 
is sometimes an option to slow the program down or reduce the 
planned procurement as a way to save money. However, that is 
not an option with a treaty obligation. There is no clause in 
the CWC that says if the cost of demilitarization increases by 
a certain amount we are free not to meet the destruction 
deadline.
    We will hear today that the Department did not believe the 
previous plan could meet even the extended deadline of 2012. 
However, even so I fail to see how cutting funding from two of 
the planned demilitarization facilities and delaying the start 
of construction there until 2011 can do anything but kill our 
chances of complying with the treaty.
    Fortunately, the Department has recently made modifications 
and is now allowing some redesign work and some neutral 
construction activities to proceed with fiscal year 2005 funds 
that had been previously withheld. The Department is also 
conducting a review of all options to see if there are other 
ways to meet the extended treaty deadline. Unfortunately, the 
previous decision to cut funding for the two sites has cost us 
precious time and there is no commensurate funding requested in 
the fiscal year 2006 budget request to continue the effort that 
is just getting started so late.
    I hope there is no doubt at the end of this hearing that 
the United States is committed to meeting all its obligations 
under the CWC even if doing so costs more than predicted.
    Thank you, Mr. Chairman.
    Senator Cornyn. Thank you, Senator Reed, for your opening 
statement.
    We will proceed to hear from the witnesses any opening 
statements that you may have, within reasonable limits, and 
then allow us to get to our questions. We will proceed through 
those rounds until either we run out of questions or we wear 
you out, whatever comes first.
    The Honorable Michael W. Wynne, Under Secretary of Defense 
for Acquisition, Technology, and Logistics. Secretary Wynne, 
please proceed with any statement that you have, sir.

STATEMENT OF HON. MICHAEL W. WYNNE, UNDER SECRETARY OF DEFENSE 
FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS; ACCOMPANIED BY DALE 
  E. KLEIN, PH.D., ASSISTANT TO THE SECRETARY OF DEFENSE FOR 
      NUCLEAR AND CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS

    Mr. Wynne. Thank you very much. Mr. Chairman, Senator Reed, 
Senator Salazar, distinguished members of the subcommittee: I 
thank you for the opportunity to appear before you today to 
discuss the status of the Chemical Demilitarization Program. 
Today I want to make three points concerning the Chemical 
Demilitarization Program:
    First, if the Chemical Demilitarization Program had 
continued on its prior planned path the United States would not 
have met the Chemical Weapons Convention extended 100 percent 
destruction deadline of April 2012 no matter how much funding 
was appropriated for the U.S. Chemical Demilitarization 
Program. In November 2004, I chaired a Defense Acquisition 
Board to address the Chemical Demilitarization Program. At the 
Defense Acquisition Board I was presented with three options. 
None of the options presented allowed the United States to meet 
the extended 100 percent CWC destruction deadline of April 
2012. In fact, all options required more funding than was 
planned and more time to complete chemical agent destruction 
than the treaty extension may have allowed. As a point of fact, 
the options appeared to me to endanger our opportunity to 
achieve even the 45 percent milestone. I felt this was 
unacceptable, given all the effort by communities and the 
project management team to start destruction of almost 90 
percent of the U.S. stockpile.
    Second, given that no amount of money would meet the 
extended treaty deadline with the complex science, engineering 
and processes required by the then-current plan, I have taken 
aggressive steps to manage the life cycle cost and quality 
performance of the Chemical Demilitarization Program. At the 
same time, we are maintaining safety, meeting the 45 percent 
milestone, and holding out hope that there may be an 
alternative way of meeting the 100 percent extended deadline.
    In December 2004, I gave two directions to the Chemical 
Demilitarization Program. First, I directed the program to 
prioritize funding to operating and constructing a facility to 
maximize our ability to meet the CWC extended 45 percent 
destruction deadline of December 2007. With the startup of 
Newport in less than 30 days, given the notification now before 
you, we will have commenced the destruction of about 90 percent 
of that stockpile.
    Next, I directed the program manager for the assembled 
chemical weapons alternatives, which includes the last 10 
percent of our stockpile, and the Army to develop potential 
alternatives that are safe, secure, timely, and cost effective. 
This 10 percent is divided between Blue Grass, Kentucky, which 
stores 2 percent of the stockpile, and Pueblo, Colorado, which 
stores 8 percent. At the time of my direction, Blue Grass and 
Pueblo were essentially greenfields, that is undeveloped land, 
and they remain that way today.
    I requested the analysis because of the unacceptably high 
risk and cost of the Assembled Chemical Weapons Alternatives 
(ACWA) program and to maximize our ability to meet the CWC 
extended 100 percent destruction deadline. I expect to review 
these alternatives by the end of the third quarter of fiscal 
year 2005.
    To highlight the importance of this issue, recent estimates 
project the life cycle costs of the program at where Senator 
Reed placed them, as high as $37 billion. These estimates have 
been corroborated in part by the Department's Cost Analysis 
Improvement Group (CAIG). While CAIG estimates do place 
pessimism into their projections, unfortunately their estimates 
have been a better forecast of the actual execution for this 
program and may end up to be low as compared to the actual cost 
to perform.
    Understand, sir, that there is a high correlation between 
higher costs and longer schedule because it involves the 
complexity of the plants that we are talking about. I cite, for 
example, the continuing Environmental Protection Agency (EPA) 
concern over the hydrolysate from Newport. Changing the rules 
for environmental wastes is beyond our management capability 
and yet may cause me to have to not certify the current Nunn-
McCurdy breach for Newport, which would then jeopardize funding 
for that site by law.
    This brings me to the third point I wanted to make today. I 
have taken additional steps to put in place a plan of action to 
manage the escalating life cycle costs and timeline for this 
program. Implementing this plan will provide the United States 
with a safe, secure, timely, and cost-effective program to meet 
both the intent and the literal interpretation of the 
international obligation under the chemical weapons program, 
with some assistance from this committee, if that alternate 
method is required.
    On March 23, I took steps to implement a path forward for 
the Pueblo and Blue Grass sites. I would note that Blue Grass 
never stopped designing and Pueblo never stopped designing, 
using residual funds from prior years. The question of whether 
or not they could start neutral construction was above and 
beyond the design capability, for which they have not yet 
achieved the required critical design review (CDR), nor have 
they come forward with an approved design which would allow 
them to start construction.
    I directed the program manager for the ACWA program to do 
the following: First, identify changes to the existing design 
concept so that projects can be implemented with the 
recognition of cost as a major variable and set targets of an 
estimated cost of $1.5 billion for Pueblo and an estimated cost 
of $2 billion for Blue Grass in fiscal year 2002 constant 
dollars;
    Next, to develop revised project milestones, cost targets, 
and appropriate incentives for cost, schedule, quality, and 
safety achievements at not only these two facilities, but 
perhaps back them up to the chemical destruction alternatives;
    Last, provide a plan to preserve to the Government the 
option of competition for future phases of the project.
    These efforts are intended to ensure the best value for the 
taxpayer and to meet the CWC obligations for the safe 
destruction of these chemical weapons.
    The fiscal year 2006 budget submittal reflects my 
direction. I respectfully request your support for this program 
by fully funding the Chemical Demilitarization Program in the 
President's budget. The Department is fully committed to the 
safe, secure, timely, and cost-effective destruction of the 
chemical weapons stockpile, but we cannot start unless we know 
where we are going.
    I welcome your comments on all aspects of our program's 
process. I thank you, Mr. Chairman, Senator Reed, and Senator 
Salazar for coming today and for the opportunity to testify. I 
am happy to answer your questions.
    [The prepared statement of Mr. Wynne follows:]
                Prepared Statement by Hon. Michael Wynne
    Good afternoon, Mr. Chairman, Mr. Ranking Member, and distinguished 
subcommittee members. I am Michael Wynne, the Under Secretary of 
Defense for Acquisition, Technology, and Logistics (AT&L), and I thank 
you for the opportunity to appear before you today to discuss the 
status of the Chemical Demilitarization Program. While we have made 
progress in the destruction of stockpiled chemical weapons, the 
Department of Defense (DOD) recognizes that even greater progress in 
the very near future is required to keep the United States on track to 
meet its international obligations under the Chemical Weapons 
Convention (CWC). This is the first time I have testified before you 
regarding the Chemical Demilitarization Program.
    Today, I want to make three points concerning the Chemical 
Demilitarization Program.
                       program history and status
    First, if the Chemical Demilitarization Program continues on its 
current path, the United States will not meet the CWC extended 100 
percent destruction deadline of April 2012, no matter how much funding 
is appropriated for the U.S. Chemical Demilitarization Program. In July 
2002, the Under Secretary of Defense for AT&L directed that the 
chemical weapon stockpile at Pueblo, Colorado, be destroyed by a 
neutralization facility followed by biotreatment, and in February 2003, 
the Department directed that the chemical weapon stockpile at Blue 
Grass, Kentucky, be destroyed by a neutralization facility followed by 
super critical water oxidation. Both directions also established the 
life cycle cost. These costs were $1.5 billion for the Pueblo project 
and $2.0 billion for the Blue Grass project (in fiscal year 2002 
constant dollars).
    In 2004, it was brought to my attention that the Pueblo project was 
not within the baseline parameters and not designed according to the 
Under Secretary of Defense (AT&L) direction. Costs have increased to 
$2.6 billion, $1 billion over the life cycle cost certified to Congress 
on January 30, 2003. Based on the results of a preliminary assessment 
performed on the Pueblo project in May 2004, I requested a review be 
conducted regarding the Pueblo project by the DOD Inspector General 
(IG). Also, in June 2004, my staff requested an independent assessment 
by Mitretek Systems. The results of the DOD IG review and the Mitretek 
independent assessment showed a more cost-effective and manageable 
facility could be designed using the current neutralization process 
followed by biotreatment technology.
    As a result of the Pueblo project issue and the growing costs at 
the operating and constructed chemical weapons destruction facilities, 
I chaired a Defense Acquisition Board (DAB) in November 2004. At the 
DAB, the Army and Program Manager (PM) for ACWA presented me with 
various options to address the program's funding and schedule. I was 
very concerned that none of the options presented to me resulted in the 
United States meeting the CWC extended 100 percent destruction deadline 
of April 2012. Further, all of the options showed significant increases 
in life cycle cost.
            funding priorities and alternatives development
    Second, I have taken aggressive steps required for managing the 
escalating life cycle cost, schedule, and performance of the Chemical 
Demilitarization Program, without compromising safety. In December 
2004, I prioritized the program's resources to operating and 
constructed facilities to maximize our ability to meet the CWC extended 
45 percent destruction deadline of December 31, 2007. The current plans 
would develop and implement technically challenging designs for 
neutralization-based programs at Pueblo and Blue Grass. This has 
resulted in rapidly increasing cost estimates and schedules. Next, I 
directed the PM ACWA and Army to develop potential alternatives that 
are safe, secure, timely, and cost effective, and I expect to review 
them by the end of the third quarter of fiscal year 2005. These 
potential alternatives may include consolidation of chemical weapons, 
redefining our requirements in terms of performance, cost, and 
schedule, as well as seeking competition for future work. I must make 
it very clear that I did not exclude any alternatives, and I am fully 
aware that any plan to relocate chemical weapons will require statutory 
authority. However, I wanted to maximize our ability to meet the CWC 
extended 100 percent destruction deadline of April 2012 and reduce the 
unacceptably high operational risks and the escalating cost of the 
proposed designs. Through these directions, I am re-emphasizing that 
the Chemical Demilitarization Program remain within fiscal resources 
and that the program was never exempt from this requirement.
                        path forward development
    Third, I have begun the implementation of a path forward for the 
program to provide the United States with a safe, secure, timely, and 
cost-effective program to meet its international obligation under the 
CWC. As part of my renewed emphasis on controlling costs, on March 23, 
2005, I directed the PM ACWA to do the following:

        <bullet> Identify changes to the existing design concept so the 
        projects can be implemented within an estimated cost of $1.5 
        billion for Pueblo and $2.0 billion for Blue Grass, in fiscal 
        year 2002 constant dollars;
        <bullet> Develop revised project milestones and cost targets 
        and incentives; and
        <bullet> Provide a plan for considering competition for future 
        phases of the project.

    I approved the limited release of fiscal year 2005 research, 
development, testing, and evaluation funds to accomplish this redesign 
effort, and I released fiscal year 2005 Military Construction funds 
($40 million for Pueblo and $30 million for Blue Grass) to begin early 
construction for neutral site improvements for any alternative 
ultimately selected. I also requested the PM ACWA provide a cost of the 
redesign effort to right size the Pueblo and Blue Grass projects. These 
steps will enhance our ability to manage cost and schedule as the 
program moves forward to the goal of safely destroying our chemical 
weapons and meeting our treaty obligations.
                               conclusion
    In summary, I took steps to: 1) review the Chemical 
Demilitarization Program; 2) manage life cycle cost and evaluate 
alternatives; and 3) implement a path forward to manage cost and 
schedule. All of these efforts are intended to ensure the best value 
for the taxpayer and meet our CWC obligations. The fiscal year 2006 
President's budget submittal reflects my direction, and I respectfully 
request your support for this program by fully funding it. The 
Department is fully committed to the safe, secure, timely, and cost-
effective destruction of the chemical weapons stockpiles. I welcome 
your comments on all aspects of our program's progress, and I would be 
pleased to answer your questions. I thank you, Mr. Chairman, Mr. 
Ranking Member, and the other members of the subcommittee for the 
opportunity to testify today and your continued interest in and 
commitment to the Chemical Demilitarization Program.

    Senator Cornyn. Thank you, Secretary Wynne.
    Dr. Klein, we would be glad to hear from you.
    Dr. Klein. Since my boss in the Office of the Secretary of 
Defense (OSD) made his opening statement, I am here to support 
and answer your questions. Thank you.
    Senator Cornyn. Thank you very much.
    Secretary Bolton.

STATEMENT OF HON. CLAUDE M. BOLTON, JR., ASSISTANT SECRETARY OF 
      THE ARMY FOR ACQUISITION, LOGISTICS, AND TECHNOLOGY

    Mr. Bolton. Mr. Chairman, Senator Reed, distinguished 
members of the subcommittee: It is my pleasure to appear before 
you as Assistant Secretary of the Army for Acquisition, 
Logistics, and Technology and as the Army Acquisition Executive 
to discuss the status of the Chemical Demilitarization Program. 
I respectfully request that my written statement be entered 
into the record in its entirety.
    Senator Cornyn. Without objection.
    Mr. Bolton. I am joined today by Mike Parker, the Director 
of the Chemical Materials Agency (CMA), and on behalf of Mr. 
Parker and the men and women who perform the safe and 
expeditious destruction of the chemical weapons for the Army, I 
want to thank the committee members and staff for your 
unwavering support of this important and difficult mission. 
Your candid appraisals of this endeavor guide our path and help 
us to achieve the tasks you have charged us to perform.
    As the Army Acquisition Executive, I am responsible to the 
Secretary of the Army and to the Defense Acquisition Executive 
for all aspects of the Chemical Demilitarization Program except 
for the disposal efforts at Pueblo, Colorado, and Blue Grass, 
Kentucky. The Army's paramount objective is to destroy the 
stockpiles of chemical agent and munitions at disposal sites in 
Alabama, Arkansas, Indiana, Maryland, Oregon, and Utah, as well 
as the Nation's nonstockpile chemical warfare material, while 
ensuring the safety and protection of the workforce, the 
general public, and the environment.
    I would like to outline three main points today. First, I 
will illustrate the excellent progress the Army has made over 
the past year. Second, I will highlight how we are conducting 
this mission safely. Third, I will describe some of the issues 
that affect the program's cost and schedule.
    First I would like to point out that this is a remarkable 
time for the Army's Chemical Demilitarization Program. I am 
proud to report that over 36 percent of the total stockpile has 
been destroyed using chemical neutralization and incineration 
technologies. We have destroyed all of the agent drained from 
ton containers at our neutralization facility in Aberdeen, 
Maryland, making it the first facility within the CONUS to 
completely eliminate the risk of agent exposure to nearby 
communities. Our neutralization facility at Newport, Indiana, 
is expected to begin agent destruction operations next month. 
Our incineration facilities are also making tremendous 
progress. I am pleased to report that all of our incineration 
facilities are now operating. We have destroyed more than half 
of the Tooele, Utah, stockpile, which originally constituted 
over 40 percent of the total U.S. stockpile. Over one million 
munitions have been destroyed there, including all of the 
sarin-filled weapons and nearly all of the VX munitions, which 
together represent a 99-percent reduction in the risk to the 
community. The employees at our facility at Anniston, Alabama, 
have destroyed all of their sarin-filled rockets, which 
represents a 33-percent reduction in the risk to the 
surrounding community.
    The workers at our facility at Umatilla, Oregon, also are 
doing their part to reduce the risks posed by continued 
storage. Since beginning operations in September 2004, they 
have safely eliminated over 10,000 sarin-filled rockets. Two 
weeks ago, the workers at our facility at Pine Bluff, Arkansas, 
began destroying munitions and reducing risks to their 
community. They have already destroyed over 100 sarin-filled 
rockets.
    International treaty requires the complete destruction of 
our Nation's stockpile of chemical agent and munitions, but it 
also requires destruction of nonstockpile chemical warfare 
materiel. I am pleased to report that over 80 percent of our 
former production facilities have already been destroyed and we 
are on schedule to meet the April 2007 nonstockpile treaty 
deadline.
    Focusing on my second point, I would like to emphasize that 
we are accomplishing all of the activities safely. The Army and 
its contractors have achieved exceptional safety records and by 
focusing our efforts and protecting the worker turning a valve 
during a plant operation we protect the general public and the 
environment as well. Our facilities have achieved an annual 
average reportable injury rate that, according to the Bureau of 
Labor Statistics, is somewhere between those of a credit union 
and a shoe store.
    Our sites have logged millions and millions of hours 
without a lost time incident. Our facilities at Alabama, 
Arkansas, and Oregon have all recently received prestigious 
safety awards from State government offices in recognition of 
their extraordinary achievements. In addition, through the 
Chemical Stockpile Emergency Preparedness Program (CSEPP), the 
Army works closely with the Department of Homeland Security's 
Federal Emergency Management Agency (FEMA), and with State and 
local governments to review emergency preparedness 
requirements. As individual stockpile sites reduce risks to the 
communities through continued destruction, all 10 CSEPP sites 
have achieved full program benchmark compliance.
    My third and final point is that a number of different 
issues impact the program's cost and schedule. No one 
envisioned the peaceful destruction of these weapons when they 
were manufactured over 50 years ago. However, achieving a 
mission of this scope and magnitude, one that holds the 
interests of so many important stakeholders, poses unique 
challenges. These challenges can be grouped generally into 
three categories: technical, external, and internal.
    As an example of a new technical requirement, we recently 
identified the presence of mercury in portions of the Tooele 
mustard stockpile. The Tooele plant must be modified to remain 
compliant with regulations and prevent the release of mercury 
into the environment. We are currently investigating whether 
mercury contamination exists in the mustard of our other 
stockpile sites and the potential cost and schedule impact.
    Challenges related to external requirements include State 
regulatory requirements, emergency response requirements, and 
litigations, among others. While new and changed requirements 
generally contribute to the increased safety and environmental 
protection, their implementation impacts cost and schedule.
    With respect to internal challenges, operational events 
also have caused schedule delays and cost increases. Chemical 
warfare agents are by design deadly. To protect those who have 
the greatest contact with these weapons, our workers, we demand 
the safe operation of these plants. We work diligently to 
preclude chemical events through well-designed equipment and 
facilities, thoroughly vetted operational procedures, and 
comprehensive operator training.
    We are focused on improving safe destruction operations 
through a continuous improvement approach that results from 
thoroughly examining operational events. We stop, take time to 
assess what went wrong, implement corrective actions, and 
proceed again with caution. I would prefer to stop operations, 
perhaps even for months, to ensure that we are being safe and 
environmentally protective rather than have any doubt about our 
ability to do the job safely.
    I have visited seven sites since accepting the 
responsibility of this program and I look forward to visiting 
them all in due course. I am extremely impressed with the 
professionalism and dedication of the workforce and by the 
robustness of our facilities. I welcome and invite each of you 
to visit any of our disposal facilities and see for yourselves. 
I think you will be duly impressed.
    In closing, Mr. Chairman, I ask for your continued support 
of this critical national program so that we may sustain our 
commitment to the communities surrounding the storage sites, 
the Nation, and to our international partners.
    Thank you for the opportunity to discuss this important 
program with you and I look forward to your questions.
    [The prepared statement of Mr. Bolton follows:]
            Prepared Statement by Hon. Claude M. Bolton, Jr.
    Chairman Cornyn, Senator Reed, distinguished members of the 
subcommittee, it is my privilege to appear before you as the Assistant 
Secretary of the Army for Acquisition, Logistics, and Technology and as 
the Army Acquisition Executive to discuss the status of the Chemical 
Demilitarization Program. On behalf of the men and women who perform 
the safe and expeditious destruction of aging chemical agents and 
munitions for the Army, I want to thank the subcommittee members and 
staff for your unwavering support of this important and difficult 
mission. Your candid appraisals of this important endeavor guide our 
path and help us to achieve the task you have charged us to perform. 
Your dedication to this mission is recognized and appreciated.
    As the Army Acquisition Executive, I am responsible to the 
Secretary of the Army and to the Defense Acquisition Executive for all 
aspects of the Chemical Demilitarization Program, except for the 
demilitarization efforts at Pueblo, Colorado and Blue Grass, Kentucky. 
The Army's paramount objective is to destroy the stockpiles of chemical 
agent and munitions at the demilitarization sites in Alabama, Arkansas, 
Indiana, Maryland, Oregon, and Utah, as well as the Nation's non-
stockpile chemical warfare materiel, while ensuring the safety and 
protection of the workforce, the general public, and the environment. 
The management attention that I personally give this program is 
commensurate with its tremendous importance to the American public, in 
terms of both ensuring safety and proceeding expeditiously with the 
destruction of these weapons in a cost-effective manner.
    This is a remarkable time for the Army's Chemical Demilitarization 
Program. We are achieving a great deal and are doing so safely. 
Executing the mission, however, is not without its challenges.
    I am proud to report that over 35 percent of the total stockpile is 
destroyed, and the bulk of the agent at our neutralization facility in 
Aberdeen, Maryland, has been destroyed. Aberdeen is the first facility 
within the continental United States to completely eliminate the risk 
of agent exposure to nearby communities. The bulk agent neutralization 
facility at Newport, Indiana is expected to begin agent destruction 
operations next month.
    Our incineration facilities also are making tremendous progress. 
Our first incineration facility, on Johnston Atoll in the Pacific, 
safely completed destruction operations many years ago. We are in the 
process of closing out the Resource Conservation and Recovery Act 
permit for that site. We have destroyed more than half of the stockpile 
stored near Tooele, Utah. This site originally stored 44 percent of the 
original U.S. stockpile of chemical agents and munitions. In essence, 
the Tooele facility, alone, has now destroyed nearly one quarter of the 
entire U.S. stockpile, and more than is stored at any other single 
location. Over one million munitions have been destroyed at Tooele, 
including all of the sarin-filled weapons, and nearly all 
configurations of the VX munitions, which together represent a 99-
percent reduction in risk to the surrounding communities. I am very 
proud of the Tooele workforce's accomplishments. The employees at our 
facility in Anniston, Alabama also have reason to be proud of their 
accomplishments. They have destroyed all of the sarin-filled rockets, 
which represents a 33-percent reduction in risk to their surrounding 
communities, and they continue to work safely and diligently to achieve 
their remaining schedule milestones. The employees at our facility at 
Umatilla, Oregon also are doing their part to reduce the risk posed by 
the continued storage of these aging weapons. Since beginning 
operations in September 2004, they have safely eliminated over 8,000 
M55 sarin-filled rockets. I am very pleased to report that last week, 
the workers at our facility in Pine Bluff, Arkansas, began destroying 
agent, thereby reducing risk to their surrounding communities.
    The Chemical Weapons Convention not only requires the complete 
destruction of our Nation's stockpile of agent and munitions, it 
provides for the destruction of our non-stockpile chemical warfare 
materiel as well. This component of the treaty requires the complete 
destruction of all of our former chemical weapons production facilities 
by April 2007, a deadline for which there is no extension provision. I 
am pleased to report that over 80 percent of our former production 
facilities have already been destroyed. The remaining two facilities, 
at Pine Bluff Arsenal and Newport Chemical Depot, are undergoing 
demolition and we are on schedule to meet our international treaty 
commitments. The non-stockpile program has also developed and deployed 
a number of innovative, safe, and efficient destruction technologies, 
such as the Explosive Destruction System (EDS), and the Single Chemical 
Agent Identification Set (CAIS) Access and Neutralization System 
(SCANS). These technologies effectively destroy chemical agent 
munitions and identification sets that contain agent, and they are 
completely mobile and proven to be safe. The EDS has safely processed 
nearly 300 rounds since entering into service in 1999, including the 
World War I chemical weapons recovered in nearby Spring Valley, 
Washington, DC, and we have used SCANS to destroy recovered CAIS vials 
and bottles with improved safety and cost effectiveness as compared to 
previous technology. The nonstockpile program also has developed useful 
chemical agent assessment technologies, such as the Mobile Munitions 
Assessment System, which helps operators identify the configuration and 
contents of recovered munitions. This capability greatly enhances the 
safety and efficiency of recovered munitions destruction operations.
    In short, the Army has safely completed destruction of the 
stockpile at Johnston Atoll in the Pacific and drained all of the agent 
at Aberdeen, Maryland. Four sites are currently using incinerators to 
safely eliminate significant stockpiles. The last of the facilities 
under Army management is expected to begin destruction operations very 
soon and the destruction of our former production facilities and other 
non-stockpile chemical materiel is proceeding on schedule.
    The most important fact is that we are accomplishing all of these 
activities safely. The Army and its contractors have achieved 
exceptional safety records, and by focusing our Safety Management 
System on protecting the worker who is turning a valve during a plant 
operation, we protect the general public and the environment as well. 
Overall, our facilities have achieved an average Annual Recordable 
Injury Rate of 1.39, which, according to the Bureau of Labor 
Statistics, is somewhere between those of credit unions and shoe 
stores. Our sites have logged millions of hours without a lost-time 
incident. As of February of this year, the Anniston facility logged 
more than 6.5 million man-hours, equating to 2 years, without a lost-
time injury. In recognition, the Governor of Alabama and the Alabama 
Department of Industrial Relations presented our Anniston contractor 
with a prestigious safety award. The Pine Bluff facility received the 
Arkansas Department of Labor safety award last September in recognition 
of having logged 5 million man-hours without a lost time injury; their 
record continues and they have now worked more than 5.5 million man-
hours without any lost time. Last month, our Umatilla contractor 
received the 2005 Oregon Governor's Occupational Safety and Health 
Employer Award for its ``outstanding contributions to occupational 
safety and health.''
    We continue to strive for improved excellence in agent monitoring 
technology and practices. In an effort to conform to industry standards 
for worker and population protection, all of our facilities implemented 
new Airborne Exposure Limits (AELs) promulgated by the Centers for 
Disease Control and Prevention.
    Compliance with environmental protection requirements is not 
negotiable. Our incineration facilities fully comply with the 
Environmental Protection Agency's Maximum Achievable Control Technology 
(MACT) requirements for emissions controls. We work daily to 
effectively implement the myriad requirements for the management of our 
solid and hazardous wastes. In addition, we work closely with our State 
and Federal environmental regulators and proactively take steps to stay 
ahead of the ever-changing regulatory environment under which we must 
operate.
    The Army and the Federal Emergency Management Agency (FEMA) of the 
Department of Homeland Security (DHS) work closely with affected State 
and local governments to review emergency preparedness requirements as 
the individual weapons storage sites reduce risk to their communities 
through the destruction of their stockpiles. The Army and DHS FEMA 
share responsibility for the Chemical Stockpile Emergency Preparedness 
Program (CSEPP), which protects public health and safety by ensuring 
the emergency preparedness capabilities of Army installations and 
surrounding communities are ready to respond to an off-site chemical 
agent emergency. All 10 CSEPP States have achieved full program 
benchmark compliance. Capability Assessment and Readiness reports 
conducted by the States and annual program exercises consistently show 
that CSEPP States are better prepared to meet any emergencies than 
their non-CSEPP counterparts.
    No one envisioned the peaceful destruction of these weapons when 
they were first manufactured. I am fond of saying that these chemical 
weapons are not fine wine; they do not improve with age. It is 
imperative that we continue to make significant strides toward 
destroying the Nation's stockpiles while still ensuring the safety of 
all involved. However, achieving a mission of this scope and magnitude, 
and one that holds the interest of so many important stakeholders, 
poses unique challenges. While we are focused on addressing these 
challenges, they will continue to cause significant growth in both cost 
and schedule as they have done in the past.
    Our challenges can be grouped generally into three categories: 
technical, external, and internal. As examples of new technical 
requirements, our plants are aging beyond their expected service life, 
which will result in increased maintenance and refurbishment costs as 
well as schedule increases. As another example of a technical 
challenge, we recently identified the presence of mercury in portions 
of the Tooele, Utah, mustard stockpile. The Tooele plant must be 
modified to remain compliant with environmental regulations and prevent 
the release of mercury into the environment. We are currently 
investigating whether mercury contamination exists in the mustard at 
our other stockpile sites and the potential cost and schedule impacts 
of processing.
    Challenges related to changing external requirements include the 
AELs and MACT requirements that I previously mentioned as well as State 
regulatory requirements, emergency response requirements, and 
litigation. While new requirements generally contribute to increased 
safety and environmental protection, their implementation also impacts 
the program's cost and schedule. In our efforts to safely dispose of 
byproducts resulting from the destruction of VX in Indiana and the 
mustard in Maryland, the Army has pursued several technically and 
environmentally sound offsite disposal options. Attempts to resolve 
public concerns that have been expressed regarding the transport and 
treatment of secondary wastes have caused us to examine alternatives 
that are equally effective but potentially more expensive. Facility 
startups at Tooele and Anniston were delayed in response to community 
concerns, increased local emergency response requirements, and 
litigation.
    With respect to internal challenges, operational events also have 
caused schedule delays and cost increases. Chemical warfare agents were 
designed to be deadly. To protect those who have the greatest contact 
with these weapons, our workers, we demand the safe operation of these 
plants. We work diligently to preclude, or at least minimize, the 
effect of these events through well-designed equipment and facilities, 
thoroughly vetted operational procedures, and comprehensive operator 
training. From this starting point, we are focused on improving safe 
destruction operations through a continuous improvement approach that 
results from thoroughly examining each event. We stop, take time to 
assess what went wrong, implement corrective actions, and proceed again 
with caution. I would prefer to stop operations--even for months--to 
ensure that our operations are safe and environmentally protective than 
to have any doubt about our ability to do this job safely. Our 
improving record on safety, about which I spoke earlier, demonstrates 
clearly that our continuous improvement program is working.
    Finally, all stakeholders with an interest in this program play an 
important role. We are sensitive to the concerns of communities near 
the stockpile disposal facilities, and we work hard to effectively 
address their concerns while ensuring that we meet our program goals. 
We must be able to clearly articulate technically correct rationales 
for our decisions based on sound science while acknowledging citizen 
concerns in a way that recognizes personal and community perspectives 
about our program.
    This is indeed a remarkable time for the Army's Chemical 
Demilitarization Program. As recited in my testimony here today we 
continue to accomplish the mission of safely destroying the stockpile. 
There have been, and will continue to be, challenges to overcome as we 
move forward. We look forward to working with Congress to achieve the 
mission it has laid out for us and to addressing the many challenges 
that affect this program. I have been to three sites, and I look 
forward to visiting them all in due course. I am extremely impressed 
with the professionalism, dedication, and ingenuity of our workforce 
and by the robustness of our facilities. I welcome each and every one 
of you to visit any of our disposal facilities and see them for 
yourselves; each is an impressive sight. I will continue to identify 
our requirements and then work to effectively use the resources that 
Congress provides to the program.
    In closing, I ask for your continued support of this critical 
national program so that we may sustain our commitment to the 
communities surrounding the storage sites, to the Nation, and to our 
international partners. Thank you for the opportunity to discuss this 
important program with you. I look forward to answering any questions 
you may have.

    Senator Cornyn. Thank you, Secretary Bolton.
    Ambassador Mahley, we would be glad to hear from you.

STATEMENT OF HON. DONALD A. MAHLEY, DEPUTY ASSISTANT SECRETARY 
                OF STATE, BUREAU OF ARMS CONTROL

    Ambassador Mahley. Thank you, Mr. Chairman. First of all, I 
have a written statement that I would ask be entered into the 
record in its entirety.
    Senator Cornyn. It will be, without objection.
    Ambassador Mahley. Thank you, sir.
    Second, I would like to summarize from that for my oral 
statement here this afternoon.
    First of all, I am going to say things a little differently 
than what you have been hearing because I am going to talk 
about the treaty, the international obligations, and the 
history of this rather than the details of exactly what we are 
doing in a technical sense. One of the things I want you to 
understand, and I think that you do understand, is that we 
started our Chemical Demilitarization Program well before there 
was a Chemical Weapons Convention. We started it back in 1985 
with the current program. We did that, partly at the behest of 
the United States Congress, with an estimate at that point that 
said we should have been finished with it by 1994, which again 
would have been before the CWC even entered into force.
    The fact that we are still here having this kind of a 
statement and inquiry today I think indicates that there have 
been indeed a number of difficulties that have come across with 
that program and a number of escalations from those initial 
estimates and the initial start that we made.
    I mention all of this because I believe it is important to 
understand that the United States really has been committed to 
this kind of a destruction program even before we had an 
international treaty obligation to do so.
    Now, what are we doing in the treaty itself? We heard the 
year 2012 mentioned a number of times today and indeed that is 
the ultimate deadline by which the treaty will require us to 
have our stocks destroyed. The initial deadline that we set in 
the treaty when we negotiated it was 2007, 10 years after entry 
into force.
    I would point out that that was done with the full 
cognizance of everyone involved with giving us what we thought 
was at that point a safe margin from the then estimated program 
outputs that would have given us an opportunity to have 
complied with our international obligations.
    The 2012 deadline constitutes a 5-year extension on what is 
actually written in the treaty for 10 years after entry into 
force. That is the maximum extension we can get, and so 
therefore there is no prospect that the treaty can be further 
modified in order to change that.
    Having been involved in the negotiation of the CWC, let me 
make it clear. Those deadlines were inserted with the vigorous 
support of the United States. With the information then 
available to us and the program projections then being used, 
they offered what we judged to be a very safe margin, while not 
allowing other states to procrastinate indefinitely in their 
own destruction programs. That is why those limits are there.
    I have been asked to address for this subcommittee 
specifically the implications for the United States with 
respect to that convention if we do not complete 100 percent 
destruction of our chemical weapons inventory by April 29, 
2012. The most obvious but central point should this occur is 
that we will unequivocally become non-compliant with our 
international obligations. There is no automatic procedural or 
substantive impact of such noncompliance on our participation 
in the CWC or the Organization for the Prohibition of Chemical 
Weapons (OPCW). That is, we do not automatically lose our vote 
in either the executive council or the conference of states 
parties, we are not barred from selection to the executive 
council, and we are not subject to any additional inspections.
    However, article 12 of the treaty lists a range of measures 
that can be taken by the conference in different stages of 
noncompliance. It provides that, ``where a State party has been 
requested by the executive council to take measures to redress 
a situation raising problems with regard to its compliance and 
where the State party fails to fulfill the request within the 
specified time, the conference may restrict or suspend the 
State party's rights and privileges under the convention until 
it undertakes the necessary action to conform with its 
obligations under the convention.'' So while I say there are no 
automatic penalties, that does not mean that the conference of 
states parties or the executive council cannot choose to impose 
penalties on a noncompliant state.
    It also provides that in cases where serious damage to the 
object and purpose of the convention may result from activities 
prohibited by the convention, the convention, ``may recommend 
collective measures to States parties in conformity with 
international law,'' and, ``in cases of particular gravity 
bring the issue, including relevant information and 
conclusions, to the attention of the United Nations General 
Assembly and the United Nations Security Council.''
    Further, it does not appear that article 12 of the CWC was 
intended to restrict the rights of parties to the CWC to take 
additional actions allowed under the international law in 
response to a breach, as codified in the Vienna Convention on 
the Law of Treaties. A party specifically affected by a 
material breach may invoke it as a ground for suspending the 
operation of the treaty in whole or in part between itself and 
the defaulting states.
    In other words, should a party believe that the United 
States' failure to destroy chemical weapons by 2012 constitutes 
a serious security breach between the United States and itself, 
it could then suspend operation of the CWC between the United 
States and that party. I.e., they would then feel free that 
they could then use chemical weapons if they had any on the 
United States under those circumstances.
    Other parties may do the same if the treaty is of such a 
character that a material breach of its provisions radically 
changes the position of every party with respect to further 
performance of its obligations. I apologize for the relatively 
legalistic nature of that, but that is how we write treaties.
    Given the way the United States operates by law and under 
the overall national policy objective of complying with its 
international legal obligations, it is obviously a highly 
undesirable circumstance if we do not adhere to those 
obligations. There is also great difficulty in pressing other 
countries to comply with the CWC if the United States is 
noncompliant.
    The particular dilemma we face here, however, is that 
attempting to alter the CWC obligations in such a way as to 
avoid noncompliance is also fraught with real risks. If we were 
successful, we would then be establishing the very situation we 
strenuously tried to avoid during the negotiation of the 
convention. We would be making the destruction obligation 
essentially open-ended and thus gravely undermine the incentive 
for other possessors to continue to make chemical weapons 
destruction a priority in their own national planning.
    For the record, under the current situation the only other 
possessor likely facing the situation of not being done by 2012 
is Russia. Indeed, it would be a major challenge for Russia to 
have even half of its declared stockpile destroyed by 2012.
    If current assumptions hold and we indeed are noncompliant 
for not having completed our stockpile destruction, there will 
inevitably be some countries that will argue the United States 
has lost its right to offer opinions on the activities of other 
countries, at least with respect to chemical weapons. Frankly, 
that argument is made today, even before the deadline has been 
reached, on the basis that we have an inventory at all.
    Responsible countries will not credit such arguments. I do 
not believe we will damage our international influence fatally 
if we have not completed our destruction by the deadline, so 
long as we are continuing to devote obvious and extensive 
effort and resources to the program and so continue to inform 
other parties of the nature of our progress. The Russian 
Federation could seize on any failure of the United States to 
complete the destruction by 2012 as an excuse to further 
submerge its own destruction program in competing budget 
priorities and to justify its own failure to meet the treaty 
deadline.
    In response, we would of course need to emphasize that our 
performance, which far outstrips theirs both in effort expended 
and in results achieved, should not distract anyone from 
examining Russia's performance on its own merits.
    In summary, Mr. Chairman, there are absolute requirements 
under the CWC for complete destruction of chemical weapons 
stockpiles by a date certain. It is not possible to excuse or 
alter those deadlines and the treaty was deliberately written 
to make them inflexible beyond the 5-year extension allowed in 
the existing text.
    If the United States does not complete its destruction 
program by April 29, 2012, a situation that appears 
increasingly inevitable absent fundamental change, the United 
States will be in noncompliance with the CWC. While clearly 
undesirable, assuming continued priority is given to chemical 
weapons destruction by the DOD and by this subcommittee, such 
noncompliance should not be viewed by reasonable states as the 
United States trying to evade its legal obligations to 
eliminate chemical weapons or its commitment to the rule of 
law. There can be no assurance, of course, that those with 
particular political agendas might not seek to exploit the 
situation by making the situation an issue in the OPCW and 
elsewhere.
    Thank you, Mr. Chairman, for your indulgence in this and I 
look forward to answering your questions.
    [The prepared statement of Ambassador Mahley follows:]
              Prepared Statement by Hon. Donald A. Mahley
                   chemical weapons demilitarization
    I am very pleased to have been invited here today to testify on the 
Chemical Weapons Convention (CWC) implications of the United States 
Chemical Weapons Demilitarization Program. You have already heard from 
my colleagues information on the current state of activity and the 
plans for future activity and budgeting. I will try to be brief and to 
outline mostly what the CWC requires, as well as my view on the 
implications for the United States role under that convention of the 
demilitarization activities you have had described today.
    Before I do so, however, I would ask your indulgence to relate just 
a bit of history. I first became involved in the United States Chemical 
Weapons Demilitarization Program back in 1985 when, while serving on 
Active Duty with the United States Army, my responsibilities as a 
member of the National Security Council staff included chemical 
weapons. I make this note to remind all of us that the United States 
began destroying its chemical weapons stockpile long before there was a 
CWC. When the United States began production of binary chemical 
weapons--a process we terminated in 1991, again before there was a 
CWC--we recognized that as a corollary to the production of binary 
weapons as a newer and safer chemical deterrent, we should dispose of 
our existing stocks in a safe and ecologically sound manner.
    One of the aspects of our long history of chemical weapons 
destruction is the gradual process of realizing just how difficult and 
technologically demanding such a program is. When the U.S. Army first 
started this program, it was very confident that it could be 
completed--for unitary stocks--by 1994, and would cost less than a 
billion dollars. The briefings you have heard from my Department of 
Defense (DOD) colleagues today is stark evidence of how much more 
complicated the process is than we recognized when we started down this 
path.
    The CWC, the international treaty banning possession and use of 
chemical weapons, was negotiated over a lengthy period in the 
Conference on Disarmament in Geneva. Realistic activity toward 
completing a workable convention actually began in April of 1984, when 
George H.W. Bush, then Vice President of the United States, presented 
to the Conference a draft treaty that became the basis for negotiations 
and ultimately the foundation of the Convention. Negotiations on the 
Convention were completed by the Conference on Disarmament in September 
1992, and the Convention was opened for signature in Paris on January 
13, 1993. Lawrence Eagleburger, as Secretary of State, signed the 
treaty in Paris on behalf of the United States. The Convention entered 
into force both internationally and for the United States on April 29, 
1997, following lengthy ratification proceedings in the Senate.
    Article IV of the CWC requires all parties to the Convention to 
destroy completely their chemical weapons stockpiles. Paragraph 6 of 
Article IV states that such destruction ``. . . shall finish not later 
than 10 years after entry into force of this Convention.'' Part IV(A) 
of the Verification Annex of the Convention provides additional details 
on the destruction of chemical weapons. Paragraph 13 of Part IV(A) 
specifies that ``. . . the following processes may not be used: dumping 
in any body of water, land burial, or open-pit burning.'' Paragraph 24 
provides that if a country is not able to complete destruction of its 
chemical weapons within 10 years of entry into force of the Convention, 
it may apply for extension of the deadline. However, ``any extension 
shall be the minimum necessary, but in no case shall the deadline for a 
State Party to complete destruction of all chemical weapons be extended 
beyond 15 years after the entry into force of this Convention.''
    What all of that language combines to mean is that the United 
States, in order to comply with its obligations under the CWC, must 
complete destruction of its chemical weapons inventory by April 29, 
2012. That date assumes the maximum possible extension under the 
Convention. Obtaining the extension should be feasible, especially 
considering the number of briefings we have provided to other parties 
at the OPCW and the demonstration--through money and effort--of our 
intentions to carry out destruction as rapidly as feasible. However, 
obtaining extensions beyond that date is not an available option under 
the provisions of the Convention.
    Having been involved in the negotiation of the CWC, let me make it 
clear that those deadlines were inserted into the text with the 
vigorous support of the United States. With the information then 
available to us and the program projections then being used, the 
deadlines offered what we judged as a very safe margin while not 
allowing other states to procrastinate indefinitely in their own 
destruction programs.
    I have been asked specifically to address the implications for the 
United States with respect to the CWC if we do not complete 100 percent 
destruction of our chemical weapons inventory by April 29, 2012. The 
most obvious but most central point, should this occur, is that we will 
unequivocally become noncompliant with our obligations. There is no 
automatic procedural or substantive impact of such non-compliance on 
our participation in the CWC and the OPCW. That is, we do not 
automatically lose our vote in either the Executive Council or the 
Conference of State Parties, we are not barred from selection to the 
Executive Council, and we are not subject to any additional 
inspections. However, Article XII lists a range of measures that can be 
taken by the Conference in different stages of non-compliance. It 
provides that ``where a State Party has been requested by the Executive 
Council to take measures to redress a situation raising problems with 
regard to its compliance, and where the State Party fails to fulfill 
the request within the specified time, the Conference may . . . 
restrict or suspend the State Party's rights and privileges under [the] 
Convention until it undertakes the necessary action to conform with its 
obligations under [the] Convention.'' It also provides that in cases 
where serious damage to the object and purpose of the Convention may 
result from activities prohibited under the Convention, the Conference 
``may recommend collective measures to States Parties in conformity 
with international law,'' and ``in cases of particular gravity, bring 
the issue, including relevant information and conclusions, to the 
attention of the United Nations General Assembly and the United Nations 
Security Council.''
    Further, it does not appear that Article XII was intended to 
restrict the rights of Parties to the CWC to take the actions allowed 
under international law in response to a breach. As codified in the 
Vienna Convention on the Law of Treaties, a party specially affected by 
a material breach may ``invoke it as a ground for suspending the 
operation of the treaty in whole or in part between itself and the 
defaulting State.'' Other parties may do the same if the treaty is of 
such a character that a material breach of its provisions radically 
changes the position of every party with respect to the further 
performance of its obligations.
    Given that the United States operates by rule of law and under the 
overall national policy objective of complying with its international 
legal obligations, it obviously is a highly undesirable circumstance if 
we were not to adhere to those obligations. There is also great 
difficulty in pressing other countries to comply with the CWC if the 
United States is noncompliant. The particular dilemma we face here, 
however, is that attempting to alter the CWC obligations in such a way 
as to avoid noncompliance is fraught with real risk.
    We could attempt to amend the Convention. I would strongly 
recommend against any such effort for two reasons.
    First, if we were successful, we would then be establishing the 
very situation we strenuously tried to avoid during the negotiation of 
the Convention: we would be making the destruction obligation 
essentially open-ended, and thus gravely undermine the incentive for 
other possessors to continue to make chemical weapons destruction a 
priority in their own national planning. For the record, based on the 
current situation, the only other possessor likely facing the situation 
of not being done with destruction by 2012 is Russia. Indeed, it would 
be a major challenge for Russia to have even half its declared 
stockpile destroyed by 2012.
    Second, in opening the Convention to amendment, we run the real 
risk of other countries adding their own favorite subjects to the 
amendment effort. Any and all such proposals would need to be taken 
seriously, because the CWC amendment procedures in effect give each 
State Party a veto, and thus the ability to hold any amendment hostage 
to their own proposals. Seeking to amend the destruction deadline 
potentially could undermine the very object and purpose of the 
Convention, since there is a real desire on the part of a number of 
countries to convert the document from being an arms control and 
security agreement to being a technology transfer and chemical industry 
assistance agreement.
    If current assumptions hold and we are noncompliant for not having 
completed our stockpile destruction, there inevitably will be some 
countries that will argue that the United States has lost its right to 
offer opinions on the activities of other countries--at least with 
respect to chemical weapons. Frankly, this argument is made today even 
before the deadline has been reached, on the basis that we have an 
inventory at all. Responsible countries will not credit such arguments. 
I do not believe that we will damage our international influence 
fatally, if we have not completed our destruction by the deadline, so 
long as we are continuing to devote obvious and extensive effort and 
resources to the program and so inform the other parties.
    The Russian Federation could seize on any failure of the United 
States to complete destruction by 2012 as an excuse to further submerge 
its own destruction program in competing budget priorities, and to 
justify its own failure to meet the treaty deadline. In response, we 
would need to emphasize that our performance which far outstrips theirs 
in both effort expended and results achieved, should not distract 
anyone from examining Russia's performance on its own merits.
    In summary, Mr. Chairman, there are absolute requirements under the 
CWC for complete destruction of chemical weapons stockpiles by a date 
certain. It is not possible to excuse or alter those deadlines, and the 
treaty was deliberately written to make them inflexible beyond the 5-
year extension allowed under the existing text. If the United States 
does not complete its destruction program by April 29, 2012--a 
situation that appears increasingly inevitable absent fundamental 
change--the United States will be in noncompliance with the CWC. While 
clearly undesirable, assuming continued priority is given to chemical 
weapons destruction by the DOD and this subcommittee, such 
noncompliance should not be viewed by reasonable people as the United 
States trying to evade its legal obligations to eliminate chemical 
weapons or its commitment to the rule of law. There can be no 
assurance, of course, that those with a particular political agenda 
might not seek to exploit the situation, by making the matter an issue 
in the OPCW or elsewhere.
    Thank you very much for your attention.

    Senator Cornyn. Thank you very much, Ambassador Mahley. 
That was very informative.
    We will now proceed with a round of questions. Let me 
start. The history of the Chemical Demilitarization Program has 
been marked by numerous restructurings and shifting oversight 
responsibilities between OSD, the Army, and within the Army 
itself. As the Government Accountability Office (GAO) noted 
last year, ``The program's complex management structure, with 
multiple lines of authority within the Army and the separation 
of program components between the Army and the Department of 
Defense raises concerns about the roles and responsibilities of 
the different parts of the program.''
    Although technical surprises and new environmental 
regulations, as some of you have already said, have led to cost 
increases and schedule delays, I want to ensure that we have 
the program structured appropriately to minimize cost and 
schedule problems.
    Let me just say at the outset, gentlemen, that I 
congratulate you for the good work that has been done so far. 
As I said in my opening statement, you have done it safely. I 
am impressed that the morbidity associated with this program is 
somewhere like that of a shoe store, I think you mentioned, 
Secretary Bolton. That is a great accomplishment, to have done 
this so safely.
    But we do have a responsibility to the American people to 
make sure that our treaty obligations are complied with and 
also that their tax dollars are being spent as efficiently as 
possible. So I do have those concerns about both the management 
structure and the shifting of responsibilities, as the GAO 
noted.
    Let me just ask each one of you to comment, if you will, 
starting with you, Secretary Wynne, and then Dr. Klein and 
Secretary Bolton. In your opinion, do we currently have the 
best management structure in place to run this program? If not, 
what changes would you recommend to the program's structure to 
make sure that we do?
    Mr. Wynne. We always quest to have the best organization. 
In this case what we have tried to do is to maximize the 
opportunity for the construction companies to know their 
counterparts and to maximize the experience base of the 
management team with those contractors. I think the way that 
the program is currently organized in a management structure, 
though it may seem a little bit awkward, both Secretary Bolton 
and myself have essentially ordained the same program manager 
to manage both of the CMA and the ACWA efforts to essentially 
consolidate that experience base into a single source.
    The difficulty of Pueblo and Blue Grass has to do with each 
of their individual sites and I think the more difficult 
technologies associated with neutralization as applied to their 
specific compounds and weapons. That having been said, the 
same, if you will, stewards of the system are there for both. 
Bechtel is the contract manager for both Blue Grass and Pueblo 
right now. They have quite a bit of experience dealing with our 
Army program manager and I think that does very well.
    The breakout of the funding that you may have noticed 
myself doing in late last year was specifically to avoid having 
the Nunn-McCurdy statute force me to shut down the entirety of 
this effort as a result of overruns that you have mentioned. 
Breaking it down into three components, CMA, Newport, and then 
the ACWA facilities, gave me more management flexibility 
because I can see my way to certifying the four certification 
requirements of the Nunn-McCurdy break for the underway 
facilities. I have a hard time with Newport, though we have 
registered her for opening, and I do believe that it is, if you 
will, under control. But I do not know whether it is under 
control relative to the EPA regulations. Right now, the Army 
program manager has done an absolutely magnificent job of 
corralling, if you will, the various Federal, State, and local 
regulators on the parts of the program that are underway and in 
many cases making great progress.
    The third part, which was the ACWA, does not really have to 
undergo a Nunn-McCurdy certification since I have asked that it 
be recompeted and/or restructured. But, I think it was in fact 
sailing towards that alternative and that is the reason that we 
broke it out.
    So there is no best case scenario here that I can tell you, 
because best would probably have the program operating on 
budget and on schedule. However, under the circumstances I 
think this is the most effective program management alternative 
we could jointly come up with.
    Senator Cornyn. Thank you.
    Dr. Klein.
    Dr. Klein. As you had indicated, this program is 
challenging. The way it is structured, OSD has the oversight 
responsibility for this program from the standpoint of people's 
attention to both cost and schedule. The Army is the executive 
agent. I think one of the things that would help us the most, 
as Mike Wynne indicated, is now to combine the ACWA and the CMA 
programs so that they are in linear form.
    As Mike and Claude Bolton also indicated, Mike Parker is 
the head of both the CMA and the ACWA program and it would give 
us some efficiencies of scale if those were now combined.
    Senator Cornyn. Thank you.
    Secretary Bolton.
    Mr. Bolton. Yes, sir. I agree with my colleagues. I would 
go on to say that I am going into my fourth year in this 
position and I have been on this particular program with this 
responsibility a little over 2 years, and I must tell you, Mr. 
Chairman, that I resisted with some vigor being chosen to 
select this for this program, the reason being that when I 
judge a program I look for three things: one, do we understand 
the requirement and has it been codified; two, do we have the 
right processes in place to accomplish the task given; and 
three, do we have the right people, both on the Government and 
the contracting side.
    As I stated in my opening comments, and Dale Klein also 
alluded to it, the requirements have changed almost from day 
one for this program, starting back in 1985, then into the 
1990s, and certainly into today, for a variety of reasons. 
Without control over that requirement, it is very difficult to 
control costs and schedule. With the processes we have 
developed, I think we have a pretty good handle on how to 
destroy these agents. We have shown that successfully and 
safely, and particularly with incineration, and we have learned 
a lot from Aberdeen in terms of neutralization. We will learn 
more when we get to start the Newport. So I think those lessons 
learned will lend themselves to a very good operation once 
Pueblo and Blue Grass are open.
    We definitely have the right people. Mike Parker and his 
staff, as well as the contracting personnel, are truly world-
class experts at what they do. They know how to get the job 
done.
    In terms of the management structure, it is a bit 
convoluted and, as I said 2 years ago when we brought this over 
and talked to a few of the staffers, for where we were at that 
point in time it was the best organizational structure. We had 
made some changes. We will continue to improve that and, as 
Dale Klein has already indicated, from my point of view, if you 
want to manage all of this better you put all of the sites 
under one management structure rather than the two that we have 
right now.
    But back to your basic question, the management structure 
is working well. There is room for improvement and we will do 
that in the future.
    Senator Cornyn. Thank you.
    My time has expired. Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for your testimony today.
    Secretary Wynne, I am trying to understand the logic of the 
various budget decisions that have been made. Last year you 
pulled back money and I think from your testimony you suggested 
that the reason was that, without regard to the money 
committed, the plan would not work. Now in the supplemental 
legislation you have 2005 money you are going to add back in 
right now. Does that indicate that the plan is now working, 
that you feel comfortable committing? If so, why do we not see 
anything in the 2006 budget which would be moving forward with 
a maximum and deliberate effort to meet the obligations of the 
treaty?
    Mr. Wynne. Thank you for the question, Senator. I did 
approve the release of an appropriated $40 million for Pueblo 
and $30 million for Blue Grass from the fiscal year 2005 
military construction funding, basically to start site 
preparation for whatever alternatives are ultimately 
accomplished. The design work continues based on prior year 
fundings and has never been stopped. The design work from 2004 
and 2003, frankly, our roll-forward, totals over I think $250 
million of available funding and they still have not achieved a 
67-percent design target, which would constitute the CDR at 
either site.
    So there really is not a go-ahead available to me to 
essentially start major bulldozer activity at either site. That 
having been said, I think it is imperative if we do intend to 
meet the treaty obligation, which we do, to accomplish two 
things. First is we need to meet our 45-percent deadline. This 
means we need to incentivize our ongoing operations to meet the 
deadline. At Pine Bluff, for example, we only have one shift in 
operation because we cannot recruit for Pine Bluff. Now, Pine 
Bluff is not in a location where you might say that people show 
up every day and are looking for work.
    However, there is another side to this. We have a personnel 
reliability program that we put all the workforce through at 
each of these sites just as if they were guarding our nuclear 
weapons on a military installation. These are not inexpensive 
people and we are very selective with who we put through that 
program. So the backlog is there.
    We need to afford the program manager some incentive money 
perhaps to pay bonuses for people to move to Pine Bluff so that 
we can fill out the planned three-shift operation. Otherwise it 
is going to take three times as long to essentially complete 
the Pine Bluff, which would by itself begin to endanger the 
2012 treaty deadline.
    So giving the program manager maximum flexibility to meet 
the 45 percent became an imperative. Basically, waiting for the 
design to complete, with or without any addition of 2006 
funding, they have sufficient money left over from prior year 
funding essentially to move all the way through 2006 right now, 
even if we approved it as a result of this hearing and/or 
approved it as a result of the CDR.
    So I do not feel bad at all about the use of the money. My 
intention is to study all the alternatives, to get the maximum 
capability to meet the 2012 deadline. We will be coming back to 
you, of course, if it is an alternative other than destruction 
onsite. But I would tell you, sir--and you probably know this 
as well--that if it comes to that or if we have to move some 
subset of it later in time, I think we should all hold that 
alternative open and never let it go until such time as we see 
that we can meet effectively, efficiently, and, as Secretary 
Bolton rightly said, safely beyond site destruction that we all 
are kind of questing after.
    Senator Reed. Just to follow up, Mr. Secretary. The 45 
percent destruction, that deadline is 2007?
    Mr. Wynne. That deadline is 2007, sir.
    Senator Reed. 2007. So what you have done essentially is 
focus on the intermediate deadline of 2007 and try to use more 
appropriately and more efficiently the facilities we already 
have in place to destroy the material?
    Mr. Wynne. Yes, sir.
    Senator Reed. That still leaves the question, and you have 
just spoken about it, about the other facilities, Pueblo, et 
cetera. The question I would follow up with is--it seems to me 
that if we are moving forward at Pueblo other than just all 
these other facilities, we would have at least an idea of how 
much money we could deploy in the next budget cycle. There is 
nothing in the budget. I fear that another supplemental or 
another reprogramming will take place next year for funds for 
these facilities. It helps us a great deal to know for 
authorization purposes, not for appropriations purposes, to 
know how much money you could spend next year.
    You have said you think you can get by with what you have 
now, but it puts us in a slight dilemma. We have to authorize 
these funds. Can you comment?
    Mr. Wynne. As I mentioned, Senator, I think I am given 
maximum flexibility for us to meet the requirements for the 86 
percent of the stockpile that is already underway or completed. 
Newport accounts for 4 percent of the stockpile and we have a 
request in that you might accelerate if you would like to. It 
is currently costing me $400,000 a day at Newport to not work 
because I already have a qualified staff there that I could 
open, and this 30-day notification cycle that we are going 
through really was left over from some of the early days of the 
facility. If there is anything I would ask of this committee, 
you might want to accelerate that approval cycle.
    There is $400 million available to essentially begin both--
any of the alternatives that would be considered at Pueblo and 
at Blue Grass should we ever take that alternative, and that 
includes the alternative of destruction in place. This should 
absolutely fill all the requirements that we can foresee for 
fiscal year 2005 and fiscal year 2006, so I do not see anything 
that I would be asking you to do at present.
    That having been said, the Army has not given me the plan 
as yet and that will come in I think by the end of June. We 
will also be providing you the required strategic vision at 
that point as to what we see. We are all hoping that the 
contractors, some of whom have already been in, will in fact 
give us more alternatives that will actually meet the schedule 
and perhaps do it with some schedule incentives as opposed to 
square foot.
    Senator Reed. Just a final point. Mr. Chairman, you have 
been very kind.
    From your remarks, it seems that you are not confident that 
you have in place yet the programs, the facilities, to begin 
significant funding to try to reach the 2012 deadline. Is that 
fair?
    Mr. Wynne. I would say that we are examining every 
alternative we can, which may by the way include onsite 
destruction, but we do not yet have an approved design that we 
can turn a shovel of dirt for the building. We are turning in 
fact or doing major site construction to prepare for either 
building a building and/or moving the stocks.
    Senator Reed. Thank you, Mr. Secretary.
    Senator Cornyn. Thank you, Senator Reed.
    We will go from side to side. Since Senator Reed was the 
last questioner, we will turn now to Senator Allard.
    Senator Allard. Mr. Chairman, thank you. I have a prepared 
statement I would like to submit in the record and I ask 
unanimous consent.
    Senator Cornyn. Without objection.
    [The prepared statement of Senator Allard follows:]
               Prepared Statement by Senator Wayne Allard
    Thank you, Mr. Chairman, for providing me the opportunity to come 
and ask your witnesses a few questions. I recognize that it is highly 
unusual for those who are not members of the subcommittee to appear at 
a subcommittee hearing, but this matter before the subcommittee today 
is of considerable importance to my State of Colorado.
    Mr. Chairman, I am deeply alarmed by the DOD's management of its 
Chemical Demilitarization Program. This program is significantly behind 
schedule and over budget. The program was supposed to have been 
completed before April 29, 2012, at a cost of approximately $2.1 
billion. The program is now on a path to cost as much as $37 billion 
and be completed in 2030.
    The DOD has consistently failed to provide sufficient funding for 
this program, forcing those who run to program to make programmatic 
decisions that pit sites against each other. The DOD has failed to 
provide adequate program management. It has repeatedly stopped design 
work and operations and then restarted, adding enormous start-up and 
stop work costs and considerable schedule delays. The Department has 
failed to effectively communicate its intentions and plans to the 
States in which permitting is necessary and the local communities which 
must provide their support.
    At the Pueblo Depot in Colorado, the Department accelerated the 
program in 2002. Then, in 2004, without communicating its intentions to 
Congress, the State of Colorado, or the Pueblo community, the 
Department unilaterally decided to cease all design work and put the 
program in care-taker status for the next 6 years. Two months ago, the 
DOD ordered a study on whether the stockpile in Pueblo should be 
relocated to an operational incineration site, potentially wasting tens 
of millions of dollars already spent on design work. A month later, the 
Department changed its mind again by ordering the preparatory 
construction and the redesign of the facility. The future of the 
program still remains uncertain because of the lack of funding in the 
Future Years Defense Plan.
    Mr. Chairman, I am frustrated and the people of Colorado are 
frustrated. We cannot seem to get a straight answer from the 
Department. One day I was told by Department officials that the 
stockpile would not be relocated outside of Colorado. The very next 
day, the Department ordered the study of transportation options. The 
DOD has been inconsistent and unreliable regarding its intentions for 
this program.
    I am also troubled by the DOD's apparent willingness to violate the 
CWC not destroying our country's chemical weapons stockpile by 2012. I 
believe the United States has an obligation to comply with it. Our 
Nation's reputation is at stake.
    The most disappointing aspect of this matter is the fact that 
Congress has been more than willing to provide the funds and political 
support to get this program done on time. Last year alone, Congress 
added $50 million for the project at Pueblo. I am certain that if the 
DOD requested additional funding for the overall program, this Congress 
would be more than willing to support this request. Even those Members 
who do not have chemical weapons stockpile in their State recognize the 
importance of completing this program as soon as possible.
    Again, I appreciate your willingness, Mr. Chairman, to provide me 
with the opportunity to question the witnesses here today.

    Senator Allard. Also, my colleague Senator Mitch McConnell 
has a prepared statement he would like to submit in the record.
    Senator Cornyn. Without objection.
    [The prepared statement of Senator McConnell follows:]
             Prepared Statement by Senator Mitch McConnell
    Mr. Chairman, I thank the subcommittee for holding this hearing on 
an issue of prime importance to my constituents in Kentucky and me--the 
deadly chemical weapons that are currently stored at the Blue Grass 
Army Depot. In addition, I would like to thank Senator Allard for his 
leadership on this issue and for submitting this statement to the 
subcommittee on my behalf. He feels as strongly as I do that the 
dangerous substances located at the center of our respective states 
need to be disposed of safely and quickly.
    Imagine how nervous you would be if large quantities of VX gas were 
stored in the committee room across the hall. Now you see how the 
residents of Madison County, Kentucky, feel.
    VX gas and other dangerous chemical weapons have been stored at the 
Blue Grass Army Depot for years. Now it is time to destroy such 
substances. The administration has asked Congress for the money to do 
so, and we have more than complied. Congress has appropriated hundreds 
of millions of dollars so the DOD can safely destroy these materials. 
Yet the Department refuses to do so. The Department has offered all 
sorts of reasons for why--some of which even contradict each other--but 
the bottom line is that the Department refuses to spend the money we 
appropriated to dispose of the chemical weapons.
    This Congress cannot and will not let them get away with it.
    The Department's foot dragging on cleaning up the ACWA program 
sites is simply unacceptable. The best they claim they can do is place 
the Blue Grass and Pueblo sites on ``caretaker'' status--meaning that 
no cleanup action will be taken in the foreseeable future. The longer 
we sit on these dangerous substances, the longer the surrounding 
communities are at risk. The DOD needs to fulfill its obligations to 
clean up these sites now.
    The Department claims that the ACWA sites must be downgraded to 
``caretaker'' status because they are over budget due to cost overruns. 
Yet the Department's own schizophrenic decision making is what has led 
to these high costs. At Blue Grass, they plan to stop design work and 
operations and then restart them again later, adding unnecessary start-
up and stop work costs. They stingily parcel out appropriated monies in 
such small quantities that it is impossible to spend funds efficiently.
    Perhaps we should expect no less. Dale Klein, the Assistant to the 
Secretary of Defense for Nuclear, Chemical, and Biological Defense 
Programs, admitted in congressional testimony last week that ``some of 
our budgeting processes are accurate but incorrect.''
    Let me repeat that. Mr. Klein, speaking on behalf of the DOD, said 
on the record, ``some of our budgeting processes are accurate but 
incorrect.'' I will leave it to someone else to figure out exactly what 
that means, but it does not fill me with confidence in the Department's 
ability to resolve this issue.
    Transporting chemical weapons across state lines is illegal. Yet 
the Department has ordered a study of how to do just that. Kentuckians 
don't want vials of nerve gas speeding down the interstate, Mr. 
Chairman. I suspect neither do the people of other States.
    Most saddening of all is that by placing the ACWA sites on 
caretaker status, the Department is acknowledging that the weapons will 
not be disposed of until 2016 at the earliest. Yet the United States 
has signed the CWC, which establishes a deadline for elimination of 
these substances by 2012. The DOD should be working with all the speed 
it can muster to meet this deadline, not openly thumbing its nose at 
it.
    In this age of terrorism, our decisionmaking processes for handling 
and disposing of such horrifying weapons must be focused and clear. The 
DOD's approach to the ACWA sites has been neither.
    I thank this subcommittee for holding this hearing and for holding 
the DOD up to the strictest standard regarding its cleanup of the ACWA 
sites at the Blue Grass Army Depot and the Pueblo, Colorado Depot. 
Lives may depend on it.
    Thank you.

    Senator Allard. I am sorry about being late. We just got 
off the plane and the weather is not too favorable in Colorado 
right now, but we did get off.
    Mr. Wynne. Welcome, Senator Allard. I will tell you, I 
lived in Colorado and I remember well the late spring snow 
storms. I am glad you are here at all, sir.
    Senator Allard. So you understand how you can have 70 
degrees the day before and 2 feet of snow the next day.
    Secretary Wynne, you had issued a memorandum to the 
Secretary of the Army on March 23, 2005, regarding the 
contracts for the Pueblo and then Blue Grass chemical stockpile 
disposal sites. As I understand it, the memo instructs the 
program manager for the ACWA program to identify changes to the 
existing design concept so that costs for Pueblo do not exceed 
$1.5 billion for Pueblo and then $2.0 billion for Blue Grass.
    I note that the legal requirements of the certification 
statute require only that certification of alternative 
technologies be of comparable cost, safety, and projected 
duration to baseline incineration. The public law made no 
mention of certifying a life cycle cost estimate. The question 
is why did the DOD certify to Congress the $1.5 billion cost 
figure for Pueblo when it was not necessary to do it?
    Mr. Wynne. Sir, at the time I think that we--of course, we 
consulted with our legal authorities and I think at the time 
they thought that met the intent of the statute if it did not 
meet the letter of the statute.
    Senator Allard. Would you not agree that this certification 
has put the Department in a box and made it nearly impossible 
for the work to be completed before the 2012 deadline?
    Mr. Wynne. Sir, I think when it was originally certified it 
was actually done with the idea, fully cognizant of the 
contractor who gave us the estimate and fully cognizant of the 
program that made the thing, that they thought they had 
management margin relative to all of the technical difficulties 
that the neutralization concept would have given them. So we 
did not realize at the time what a bind it would have put us 
in.
    But, we were sailing right towards a Nunn-McCurdy breach 
when we made those stipulations.
    Senator Allard. It seems to me that if you look at what has 
been happening at the other sites, this was a totally 
unrealistic figure. I just have a hard time understanding why 
the Department holds to this life cycle cost when you look at 
some of the other costs which will--it is clear the project is 
going to cost more, particularly when you compare it to 
operational incineration sites, which currently have projected 
life cycle cost estimates that exceed $3 to $5 billion per 
site.
    So this is new technology and I am trying to understand the 
logic of a $1.5 billion estimate when you are looking at the 
other sites and you have $3 to $5 billion to clean them up with 
incineration, which is a commonly-used technology in the 
cleanup.
    Mr. Wynne. Sir, I have not seen the analysis of doing 
incineration at Pueblo, for example, which would be the 
comparative estimate, because every site is different and every 
munition is different. Tooele, for example, has 50 percent of 
our stockpile there that they are trying to close. Johnston 
Island represents one that came open and now is shut down, so 
it has the only life cycle cost that we can sort of do a 
comparison to.
    But the certification usually is relative to the same--a 
different technology on the same site, both, if you will, for 
Blue Grass and for Pueblo.
    Senator Allard. But if you look at all the other sites, 
they are running $3 to $5 billion. Would this not have raised 
some concern when you had one that comes in half, maybe just a 
third of the cost of what was happening at the other sites?
    Mr. Wynne. I would have to take that one for the record, 
sir, as to how the evaluation was made at the time and the 
certification was made at the time. But I do know that the 
estimates were sound when they went through and the changes 
that have come about have been mostly technological.
    [The information referred to follows:]

    When the Department certified neutralization technology to Congress 
it was determined that this technology would meet the cost and schedule 
criteria of a conceptualized incinerator for the Pueblo and Blue Grass 
stockpiles. Based on the analysis for this requirement it is also now a 
fact that the incinerator concepts that would address the Pueblo and 
Blue Grass stockpiles are less expensive than current Assembled 
Chemical Weapons Alternatives neutralization designs.

    Senator Allard. When can Congress expect to see a realistic 
life cycle cost estimate for Pueblo and Blue Grass?
    Mr. Wynne. I have asked the Army to complete their analysis 
of alternatives. We have actually heard from some, you might 
refer to them as optimistic, contractors, who say by the end of 
June we ought to have the estimate underway along with a 
revised design. I would say that until that occurs I cannot 
offer you any earlier date.
    Senator Allard. Mr. Chairman, this is pretty important. I 
hope you can tolerate my going ahead here for a few more 
questions. I hope I am not duplicating anything that has been 
asked previously.
    Secretary Wynne, I was troubled with your memorandum on 
March 23, 2005, that did not highlight the importance of 
schedule. In 1997, the United States Senate ratified the CWC, 
which obligates our Nation to destroy our chemical weapons 
stockpile by 2012. I opposed the ratification of the CWC. 
However, putting that aside, I firmly believe that our Nation 
has a moral obligation to comply with its treaty obligations.
    According to the schedule provided to me on January 18, 
2005, by Assistant Secretary Dale Klein, six of the eight U.S. 
chemical weapons sites will not make the treaty deadline. In 
fact, work at Pueblo is not scheduled to be completed until at 
least 2021. Why did you not highlight the importance of 
schedule in your memorandum?
    Mr. Wynne. When I asked for options in late 2004, none of 
the options met the treaty deadline no matter how much money we 
spent on the project. As an old estimator I realize that the 
increase in cost is almost a surrogate for an increase in 
schedule, and I recognize that we have to, therefore, put an 
incentive on cost. Everyone knows that we are trying to achieve 
the 2012 treaty deadline, so I did not think that it had to be 
reminded. But I did worry that we did not have a cost incentive 
and I correlate the two very closely.
    So when the amount of money required for Pueblo went from 
$1.5 to $2.6 billion, I did not think it would result in a 
shorter schedule, but instead felt that actually we would have 
spent more money and yet not have made the treaty deadline, 
which would have meant that I would have essentially not 
effectively husbanded the taxpayers' resources.
    Senator Allard. It sounds as though the DOD has decided 
unilaterally not to comply with the CWC. Is that true?
    Mr. Wynne. Hardly, sir. In fact, if you really wanted to 
comply with the CWC treaty, you would allow for some of the 
alternatives that we are exploring, such as transportation, 
because we can move to then incentivizing some of the sites 
that are currently operating to essentially accelerate their 
schedules and accommodate these extra munitions. Recall that we 
have already started 86 percent of the chemical stockpile. Four 
percent is underway at Newport, so the remaining stockpile that 
we are talking about here is 10 percent.
    Senator Allard. But transportation is excluded by law. It 
says that you shall not----
    Mr. Wynne. I would agree, sir, that you would play a part 
in whether or not we achieve that deadline.
    Senator Allard. How much of the U.S. stockpile do you 
expect to destroy by the 2012 deadline?
    Mr. Wynne. I would hope, sir, that with your permission and 
good alternatives from the Army, we will have achieved 100 
percent.
    Senator Allard. Now, Ambassador Mahley, on February 17 
during a hearing in the Appropriations Committee I asked 
Secretary of State Condoleezza Rice what the ramifications 
would be if the United States did not comply with the CWC. She 
unambiguously stated, ``If the United States of America is not 
complying with its obligations, then it is going to be hard to 
force anyone else to comply. We have been very much a country 
of laws that insists on our own compliance and so we want to 
keep that record.''
    I could not agree more with her response. Will it be 
difficult to hold other nations to the treaty if we do not 
comply with the CWC?
    Ambassador Mahley. Sir, the answer to that is that we will 
lose some of our moral status in doing so. Number one, that 
does not, in the fact that we are not complying with the 
treaty, remove the obligation for other countries to be 
compliant with the treaty. So the fact is that our not being in 
compliance does not remove their legal obligation.
    What it does do is impede our ability to call them to task 
for that, because they will simply reply that we are indeed 
ourselves not being compliant. I would emphasize, however, that 
I do believe that reasonable states, not necessarily to include 
all the states in the world, but reasonable States will take a 
look at the amount of effort and the amount of progress that 
the United States has made on this deadline and will not hold 
that to be exactly the same kind of noncompliance as someone 
who has not paid any attention to this obligation whatever. 
That of course is a matter of political judgment and would have 
to wait until the actual event occurs.
    Thank you.
    Senator Allard. It just seems to me like it is going to be 
very difficult to insist that the other states comply when we 
are not complying. Have you submitted any recommendation to the 
President as far as complying, or has the State Department 
submitted any recommendation as far as this treaty is 
concerned?
    Ambassador Mahley. Sir, we always submit to the President 
of the United States annual recommendations that the United 
States ought to be and remain in compliance with all of our 
international obligations. The fact is that the question of 
compliance that is in question here is not a current question 
of noncompliance, at which time it would be the Department of 
State's responsibility to recommend to the President of the 
United States how we would like to see the United States come 
back into compliance when we were not.
    But looking at this as a future matter, then I think that 
the answer is no, we have not submitted a recommendation to 
look at this for 2012.
    Senator Allard. So you have notified the President that you 
do not see how we can comply with this. Have you made a 
recommendation that the treaty deadline be extended or anything 
like that?
    Ambassador Mahley. Sir, the treaty deadline cannot be 
extended because there is no flexibility in extending it, 2012 
is actually an extension. The original deadline is 2007. It can 
be extended to 2012, but not beyond that. The only other 
alternative to extension would be something like trying to 
amend the convention, which has its own dangers.
    Senator Allard. So will you have to renegotiate the treaty?
    Ambassador Mahley. Sir, I would not intend to try to do 
that.
    Senator Allard. Mr. Chairman, I have a number of other 
questions. What I would like to do is submit those for the 
record, unless you feel like you have enough time for me to ask 
another----
    Senator Cornyn. I want to make sure we accommodate Senator 
Salazar. We are going to be able to do another round.
    Senator Allard. That would be great.
    Senator Cornyn. So at this time, I will recognize Senator 
Salazar.

   STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM COLORADO

    Senator Salazar. Thank you very much. Senator Cornyn and 
Senator Reed, let me just first, as the chairman and ranking 
member of the subcommittee, thank you for allowing both Senator 
Allard and myself to ask a few questions at your hearing. My 
thanks as well to Senator Warner and Senator Levin as the 
chairman and ranking member of the Armed Services Committee.
    Let me just say to Secretary Wynne, Dr. Klein, Secretary 
Bolton, and Ambassador Mahley, this is a very important issue 
that we are dealing with here today in my State. I join my 
colleague Senator Allard in raising the concerns that he has 
raised with respect to the timeline that we are under 
concerning the Pueblo Army Depot.
    Let me tell you why from my point of view it is so 
important. When you look at the Pueblo Army Depot and you 
realize that there are 780,000 munitions that are stored within 
23,000 acres of the Pueblo Army Depot, it ought to be of great 
concern to you as well as to all of us. I have flown over that 
area probably 100 times during my life and you can see the 
places where the munitions are stored throughout this 23,000 
acre site. To realize that these 780,000 munitions are stored 
within a very close proximity of the city of Pueblo and the 
city of Colorado Springs and the southern edges of Colorado 
Springs and Fort Carson ought to be of grave concern for all of 
us.
    In the last month and a half or so there was a jet that 
actually crashed just on the perimeter of the Pueblo Army 
Depot. Had it just gone another mile and a half or so out to 
the east, it may have crashed into one of these munition 
storage places.
    So when we think about our concern in terms of community 
safety, I have great concerns about the 100,000 inhabitants of 
the city of Pueblo. I have great concerns about the security of 
the half a million people who live in the Colorado Springs and 
Fort Carson areas. So it is important for us that we make sure 
that as we continue this dialogue, which I am sure that we are 
going to continue, at least with me for the next 6 years while 
I am the U.S. Senator, that we have the kind of understanding 
where we have some straight talk and honest answers coming from 
you as we move forward with respect to the particular 
timelines.
    In my mind this is important for us to do, one, because of 
the community safety concerns that I outlined; second, the 
importance of compliance with our international obligations, 
which both Senator Reed and Senator Cornyn have so eloquently 
talked about; and third, because of the potential that these 
780,000 munitions themselves could become targets of terrorism. 
As we deal with the war on terror, how we ultimately neutralize 
these chemical weapons is something that is very important to 
all of us.
    I will tell you that when we got involved in our 
communications with Dr. Klein and Secretary Wynne my concern 
was that we were seeing a position from you that was one of 
extreme waffling and indecision and lack of clarity about where 
it is that we were going. For a long time there in the months 
of January and February, the major issue that we were hearing 
back from the community was that there was a possibility that 
you were simply going to abandon all of the investment that had 
gone into the research and development of the ACWA 
neutralization process and instead look at transportation. So 
for a while there it seemed you were simply planning on 
transporting these chemical munitions to other places.
    So it is in that context that I have several questions to 
ask of you. The first question, Under Secretary Wynne, to you 
is that as I read the letter that you sent to both Senator 
Allard and me on March 25 I implicitly see that letter as 
telling us that onsite water neutralization is still the 
preferred technology and what you want to pursue at the Pueblo 
Army Depot. It seems to say that you are not looking at other 
technologies at this point in time.
    I would like your clarification of what you are looking at 
with respect to the technology that will be used to neutralize 
the chemicals at the Pueblo Army Depot, and whether my 
understanding is correct that we are still moving forward with 
the water neutralization process.
    Mr. Wynne. I have asked the Army, Senator, to be clear, to 
examine every alternative that would make the 2012 deadline. I 
have not left any alternative out. That includes some 
transportation. I would think that incineration in that part of 
Colorado, having lived in Colorado Springs and Denver for 
several years of my life, I look upon it as incineration may 
not be very good, but the scrubbers are getting better. They 
are not cheap. So therefore neutralization looks like it might 
be an option, but I am waiting for the alternatives to come 
forward from the Army.
    We have had, interestingly enough, some contractors show up 
on our doorstep that have different innovative production 
methods, mostly surrounding the continuation of neutralization. 
They mostly want to take advantage of the research that has 
gone on. That led me to try to say, okay, then let us release 
the neutral funding that would in fact allow for site 
preparation work for either construction if we pass the CDR for 
a slightly modified design than they had before----
    Senator Salazar. Let me, if I may, interrupt you for a 
second, Secretary Wynne. Your response is part of what causes 
me grave concern. I know these are the concerns that are shared 
by my colleague from Colorado, Senator Allard. We know that you 
are not going to be transporting these chemical munitions 
offsite. Both Senator Allard and I would fight that. We have 
legislation that we have introduced simply to affirm what is 
already the state of existing law.
    When we talk about limited taxpayer dollars that are 
available to get this job done, which we ought to try to get 
done by 2012, we ought not be studying windmills that have no 
ability, ultimately, to deal with the problem that we are 
facing here. These chemical munitions are not going to be 
transported: one, because it is in violation of Federal law; 
and two, because of community concerns with respect to public 
safety.
    So when we have your Department studying transportation as 
one of the alternatives, it seems to me a nonsensical approach 
to ultimately getting to the end result that we want.
    Second, with respect to incineration, that was a bridge 
that it seems to me we crossed a long time ago with respect to 
the Pueblo Army Depot. That was looked at and the conclusion 
that everyone came to as a group of stakeholders working 
together on a common agenda was that we were not going to go 
down the path of incineration, but instead we were going to 
move forward with the water neutralization technology.
    So I think it is that change from you and from your 
Department that creates huge concerns among the people of 
Colorado and Senator Allard and myself in terms of whether we 
are really moving forward with a good faith effort to stay on 
the agreements and the understandings that we have with the 
local community with respect to a water neutralization effort.
    Mr. Wynne. Well, sir, it is a fine balance between how we 
go through the treaty obligations that we have and meeting the 
needs of the community. The needs of the community may not 
reflect national interests. In fact, I would say that I feel 
like I owe you at this national level every alternative that I 
bring forward to meet the treaty, and then I leave it to you, 
sir, to determine whether or not that alternative is an 
acceptable one for meeting the treaty or whether or not we 
should just hold the treaty in abeyance and meet community 
needs over and above national interests. I do not know the 
answer, but I feel as a steward of the taxpayer dollars I owe 
it to you.
    As to whether or not this is a hazardous material, we 
transport hazardous materials through our major cities all the 
time. If I were to do the transportation in the winter out of 
Pueblo, Colorado, it is the most stable, hardened chemical you 
could transport in the winter. In the summer I might have a 
different thought here.
    So I feel like I need to at least look at that alternative, 
so I might bring to you the range of alternatives. This may not 
be the preference that I have, but in fact if it became 2008 or 
2010 and I had only a small stockpile left and I could meet the 
alternative, I would probably come back to you and say, we can 
meet the treaty if you would allow me to do this. You may say, 
as you are today--and I will adhere to the law, as you so 
state--that, no, that is not going to ever change, so we will 
hold the treaty in abeyance. Sir, that would be your choice.
    Senator Salazar. My time has expired and I have several 
other questions that I will ask you on the next round. But, let 
me just punctuate this point home to you. It makes from my 
point of view no sense whatsoever for you to be spending 
significant sums of money in studying alternatives that we know 
are now illegal under United States law. I will proceed with my 
other questions when we come back around to the next round.
    Senator Cornyn. Thank you, Senator Salazar.
    Gentlemen, this is probably a good question for Secretary 
Bolton, Secretary Wynne, and Dr. Klein. You alluded to, 
Secretary Wynne, the requirement in the National Defense 
Authorization Act of last year for the Under Secretary of 
Defense for Acquisition, Technology, and Logistics and the 
Secretary of the Army, who is responsible for executing the 
chemical agents and munitions destruction program, to jointly 
prepare a strategic plan for future activities of the Chemical 
Demilitarization Program.
    My question is that when we asked about that earlier what I 
heard from you, Secretary Wynne and Secretary Bolton, sounded 
like a fairly coherent plan going forward, but yet you said 
that you would not have that strategic plan as required by the 
National Defense Authorization Act (NDAA) ready until, I 
thought you said, June. Would you clarify that or tell me if I 
misunderstood you?
    Mr. Wynne. Yes, sir, I can. In asking the Army to look at 
alternatives, I felt like I owed them as well, because we know 
that one plant is completed, five are underway and seemingly 
proceeding reasonably well, although I mentioned Pine Bluff 
could use, if you will, incentives to additionally staff.
    Newport, I am very worried about. I would like to see us 
accelerate the opening of that. I feel like that 4 percent of 
material may get underway. It looks pretty good to me right 
now, and I would like to have everything I can in place by the 
time, which is approximately May 6, to allow me to certify that 
under the Nunn-McCurdy statute it is within our management 
ability to contain the costs.
    But I felt like, that having been said, the strategic 
approach to the ACWA is an important part of the strategic 
vision. But my strategic vision, if you will, or goal at the 
end of the day is to achieve or maximize the achievement of all 
chemical weapons destruction by 2012. That could be easily 
submitted on the back of an envelope, but that is not what you 
are looking for.
    I have listened very well to what Senator Salazar has said, 
as well as Senator Allard either personally in his office or 
here today, and I understand the constraints which we are 
operating under. I would only offer that these are the kinds of 
constraints and environmental regulations that have us 
essentially to where Ambassador Mahley says we thought we could 
achieve this by 1994, but it is now 2005 and we have yet to 
break honest ground at either Pueblo or Blue Grass on a 
definable design.
    Senator Cornyn. I hear what you are saying and again it 
makes a lot of sense. My concern is that, given the checkered 
history of this program, both in terms of costs and in terms of 
who is responsible for what, much of which it sounds like you 
have striven to try to remedy, I do not understand why it is 
that it is going to take until June to come up with a strategic 
plan that Congress said they wanted in the NDAA.
    It strikes me that it is imperative to have that in writing 
and produced to Congress so we can all understand. As you see, 
we are struggling to understand, and we can hopefully be of 
assistance to you and, if necessary, we will be actively 
encouraging you to accomplish that plan. But we need to have 
that in writing and, as you said, language on the back of an 
envelope will not suffice. We need something that is 
comprehensive, something so that everybody understands who is 
responsible for what and when, particularly given the history 
of this program.
    Let me ask, Ambassador Mahley, in your view is there 
adequate coordination between the Departments of State and 
Defense to ensure that the Chemical Demilitarization Program is 
in sync with the U.S. treaty obligations and diplomatic 
strategy at the OPCW? Let me ask you also to consider when you 
answer that, what role does the National Security Council (NSC) 
play in ensuring coordination and resolution of any problems? 
Finally, do you have any suggestions for improving coordination 
in this area?
    Ambassador Mahley. Thank you, Senator, for the question. 
Let me answer the first part of it, do I believe we are in 
synchronization. I think the answer to that is yes. The DOD 
continues to inform the Department of State and the NSC through 
the interagency process of what the state of play is with 
respect to the Chemical Demilitarization Program. We coordinate 
a number of briefings that we give to the OPCW on a regular 
basis to update them in terms of their proposal both to meet 
the 45-percent deadline and eventually to meet the 100-percent 
deadline.
    Now, we have not briefed the 100-percent deadline at this 
point because we have just achieved the extension for the 45-
percent deadline and we are now moving to meet that. We will be 
briefing on our prospects for the 100-percent deadline in 2006, 
which is just next year, when we go to The Hague to do this.
    The National Security Council has devoted a number of 
resources to this and if I had any complaint about 
synchronization it would only be in the sense that, as you see 
the table in front of you here, you are probably looking at the 
United States officials who are most knowledgeable about this 
program. Getting the attention of some of the more senior 
members of the various branches of the executive branch is 
sometimes difficult. But that is our job and we undertake it on 
a regular basis.
    So I think that I would not say there is anything that we 
would ask for intervention to try to increase that 
coordination. We are working on it. We have the Office of 
National Authority that works on it. So we are doing it in 
pretty good order.
    Thank you.
    Senator Cornyn. I would say, Ambassador Mahley, if you need 
any help getting the attention of the executive branch that we 
have four Senators, members of the subcommittee, the members of 
the full Armed Services Committee, and I think indeed the whole 
Senate that would be of assistance to you, if you will let us 
know whether you need that help or not. This is an important 
matter for all the reasons we have already discussed and as we 
all already know.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Ambassador Mahley, first let me thank you for your very 
lucid opening statement and your response to questions.
    Specifically, DOD decisions to cease investment in some of 
these facilities for the reasons that Secretary Wynne 
discussed, were those decisions reviewed by the NSC and 
confirmed by the National Security Council, or did DOD 
essentially make the decision by itself through its budget 
process?
    Ambassador Mahley. Senator, I am hesitating just a little 
bit because I think that gets down to a question of what did 
you know and when did you know it in the classic sense of that, 
and I am not----
    Senator Reed. Those are the best questions.
    Ambassador Mahley. I am not real sure that I can answer 
that fulsomely for you. But let me express it this way. I do 
not recall that the DOD specifically briefed the interagency 
nor the NSC, although I am not in a position to answer that 
question authoritatively since they may know things that they 
do not share with me simply because of the press of business, 
if not for other national security reasons.
    But I do not recall that we were specifically briefed about 
the acquisition memo before the acquisition memo itself was 
signed. I do recall, however, that DOD had indicated both the 
general state of play with respect to the Chemical 
Demilitarization Program and that we had had a number of 
interagency meetings, at which the NSC did indeed participate, 
about the various obstacles and problems that we were running 
into, both in terms of overall appropriations level and in 
terms of the technological barriers that are involved in that 
prior to the time that that acquisition memo was actually 
issued.
    Senator Reed. Thank you. Mr. Ambassador, just a final 
question. We are sitting here today and I do not think anyone 
is 100 percent confident that we are going to meet the deadline 
of 2012. If we do not and if we are unambiguously out of 
compliance with the CWC in 2012, would that be the first time 
that we have been out of compliance with an arms control treaty 
obligation?
    Ambassador Mahley. It does not happen very often, which is 
why I am reviewing in my mind to see if I can think of any 
other examples in which that may have occurred. I think I would 
answer your question in the following way. There have been 
charges that the United States failed in compliance with arms 
control treaties at other times in the past.
    There was an incident in 1994 when the Cuban Government 
accused us erroneously of having attacked them with biological 
weapons. There are various issues that the Russian Federation 
raises in almost every meeting of the implementation 
commissions with respect to the Strategic Arms Reduction Treaty 
and the Intermediate-Range Nuclear Forces Treaty in which they 
allege that, for very obscure but nonetheless very elaborate 
reasons, we are technically in noncompliance, all of which are 
rebuttable and which we have rebutted very strongly.
    In my 25 years of working with the arms control arena, I do 
not recall any instance in which the United States has 
unambiguously been in noncompliance with our arms control 
obligations.
    Senator Reed. Thank you, Mr. Ambassador.
    Secretary Wynne, we have heard about the tremendous 
challenges you are facing and I think it bears repeating that 
you have made substantial progress, all of you gentlemen, in 
dealing with a very difficult issue. I can recall when there 
was great difficulty in even thinking about starting some of 
the incineration in Anniston and Pine Bluff and we moved 
through that.
    But I think what we have heard today is the need to develop 
alternatives that are compliant with the law as it exists 
today, not simply saying we can do 15 different things. We need 
to know the cost of that. That I think is something that would 
be very useful for us.
    In that vein, though, do you think there are other issues 
and items that would be appropriate to put in the authorization 
bill or to consider that would give you the flexibility of 
management or different tools that you could use effectively?
    Mr. Wynne. Well, first of all, Senator Reed, thank you very 
much for the opportunity to respond to that. Not yet have I 
given up on the extension of the treaty through 2012. In fact, 
what I did was I made every move to try to achieve the 45-
percent deadline so that we could reserve to ourselves the 
methods and means of achieving the 2012 deadline and, if you 
will, offer our colleagues in the State Department the maximum 
opportunity for a positive briefing when it comes to The Hague 
in 2006.
    Your second point, as to whether or not I should offer 
alternatives, is really very dependent upon the will of the 
people and the will of the Nation to either achieve the 2012 
treaty obligation and/or comply with statutes that they 
themselves have put into place. Right now, as you say, we are 
constrained from implementing any other alternative but onsite 
destruction. I am hoping that in this go-round--as I mentioned, 
the contractors have already brought forward to me some other 
different innovative approaches relative to how you do things, 
lessons learned that we have even gotten now from the 
construction site at Newport, Indiana, from the way we did 
things at Aberdeen Proving Ground, that may in fact inform this 
process to allow us to do some incentivization.
    I also think that the contractors need different kinds of 
incentivization. As I mentioned, they may have to give bonuses 
so that they achieve a full three-shift operation at Pine 
Bluff, which they do not have yet the ability to do. I think we 
should incentivize schedule when we finally have a decent cost.
    I will note that the great struggle with every road 
construction department is finding out how to best incentivize 
contractors to achieve the road construction in minimum time. I 
think we can find those things as well.
    I am pleased to be able to say that this experience that we 
have had with the contractors has already benefited us, in the 
sense that when the increase came as it did at Pueblo and I 
went to inform Senator Allard that, with all of the things 
going on in acquisition, I had to send in the Inspector 
General, I am pleased that he found that it was nothing more 
than essentially an interpretation of the contract on both 
sides than anything that could be ascribed any differently, and 
that the costs were in fact rationalized at both the $1.5 
billion level and then at the $2.6 billion level, frankly, that 
we began to see the search for alternatives.
    So that having been said, the experience we have gained 
maintained, if you will, the cost control that we had in place 
at Blue Grass and I think will ultimately reflect itself in the 
new design that we are bringing forward at Pueblo. But that is 
yet to be determined and I frankly have not seen the details of 
that proposal.
    Senator Reed. Thank you, Mr. Secretary.
    Mr. Secretary, it seems that there is an assumption here 
that this program is just too expensive even to in any way 
restructure it, and either implicitly or explicitly we are 
saying that we will not meet the treaty timelines because it is 
just too expensive. Some of the expenses you alluded to are 
because of technology, some are because of the proper 
incentivization of the contract. Some are because of 
constraints our law places upon the techniques that you can 
use.
    But, I think we need to make that decision, whether this is 
too expensive. I think as a result I would urge once again that 
an alternative has to be developed and costed, if that is the 
right word, with the view of making the obligations by 2012 and 
delivering your best advice to us about how much that will 
cost. Then we can make decisions about whether or not that is 
the appropriate path.
    Mr. Wynne. Right, and all the options that were presented 
to me basically said that no amount of cost thrown at this 
problem will in fact guarantee us to meet the treaty. In fact, 
the more you spend the more uncertain it becomes that you will 
make the treaty obligation because you do not have enough 
people, you do not have enough product, you do not have enough 
outcomes.
    Sir, I worry about making sure that it is a safe manner for 
destruction at the same time, because when you only incentivize 
schedule many times quality suffers. If quality suffers, safety 
cannot be far behind. So, I do worry very dramatically about 
that balance because the farthest thing from my mind would be 
ever to set either a community or a worker at any risk trying 
to achieve something that was nigh onto impossible, if you 
will, when we set them out to do it.
    So that having been said, I fully recognize that we owe you 
a full set of alternatives and not just constrained 
alternatives to try to figure out how to best, if you will, 
manage this process that has been set in motion.
    Senator Reed. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Cornyn. Senator Allard.
    Senator Allard. Mr. Chairman, thank you.
    You expressed your concern about the cost of the project, 
Secretary Wynne. Are you concerned that these additional 
studies may do nothing more than just add to the cost of the 
project?
    Mr. Wynne. Actually, sir, the additional studies have in 
fact informed the process much better. There has been nothing 
that would stop, for example, the achievement of a CDR at Blue 
Grass. There has been no challenge to the design. We have still 
not had a CDR and we are still a greenfield site there.
    Here at Pueblo, I think we have also been informed on the 
production site. Many times, sir, having lost sight of the 
objective, to redouble your efforts is just not the right 
answer. Sitting back and asking hard questions many times can 
save you schedule, can save you costs.
    Senator Allard. You say, well, maybe because of 
technological changes. I will bet you there will be new 
technologies introduced in the next 10 years in this area. So 
when do we say let us move ahead with the project and quit 
studying new technology? It seems to me that at some point in 
time we have to draw the line and move forward with what we 
have in order to comply with the treaty, and I think this new 
technology argument can be extended out almost in perpetuity.
    We have already had three studies on the Pueblo site, and 
finally the 104th Congress said no more that year, which I 
think expressed the will of the people. So when is the 
Department of the Army going to move forward with the will of 
the people and start getting going with this project?
    Mr. Wynne. I have asked the Army to come back to me within 
the third fiscal quarter, which is about the middle of June, 
with alternatives that are a balance of cost, schedule, and 
effective safety to maximize our opportunity to meet the treaty 
obligation.
    Senator Allard. Now, Mr. Secretary, I understand the 
program manager has most of the funding he needs to carry over 
funds to conduct design and preparatory construction at Pueblo 
and Blue Grass during fiscal year 2006. However, I note that 
DOD's current budget for Pueblo and Blue Grass provides only 
$30 million for these sites in fiscal year 2007. This number is 
woefully inadequate. I do not think anybody can argue with 
that.
    If the Department plans to move forward on these projects, 
is there going to be inadequate funding? Does DOD plan to 
provide sufficient funding for construction and final design 
work for the ACWA sites in its fiscal year 2007 budget?
    Mr. Wynne. Sir, to Senator Reed's point, I think we owe you 
the full measure of alternatives that would maximize the 
opportunity to achieve the site, and I think at that point the 
2007 budget would be reevaluated.
    Senator Allard. Will DOD attempt to keep Pueblo and Blue 
Grass in caretaker status for the next 5 years, as was briefed 
to me 2 months ago?
    Mr. Wynne. Sir, I think the answer is the same as I just 
gave. As a result of the studies, I think I am ready to sit 
down with the program manager. If he has a viable plan that 
will maximize our opportunity to meet the 2012 schedule, I am 
willing to support him on it.
    Senator Allard. Secretary Wynne, many in Colorado believe 
that the dramatic cost overruns at operational incineration 
sites have led the Department to take money from Pueblo and 
Blue Grass to pay for these costs. I was skeptical until I 
obtained a copy of a DOD memo dated July 14, 2003, that 
suggests using funding for Pueblo and Blue Grass as ``bill 
payers,'' to pay for other costs in the Chemical 
Demilitarization Program.
    One estimate has the entire Chemical Demilitarization 
Program costing over $37 billion and completed by 2030. Why is 
the Department neglecting Pueblo and Blue Grass in favor of 
operational incineration sites?
    Mr. Wynne. Senator Allard, I probably would have allowed 
the program to continue as it was until the costs went from 
$1.5 billion to $2.6 billion, which is when it really hit my 
radar screen and I tried to take positive action to try to 
determine what alternatives were available to the Department to 
make the 2012 site. Before that, I did not take much else into 
account.
    Senator Allard. Do you have similar concerns about the 
overruns in the incineration sites?
    Mr. Wynne. I do.
    Senator Allard. Why are you not studying them like Pueblo 
and Blue Grass?
    Mr. Wynne. They are for the most part underway, operating, 
have met their regulatory requirements, and are not, if you 
will, greenfield sites, as are Blue Grass and Pueblo.
    Senator Allard. Why has the Department refused to increase 
its budget request for the Chemical Demilitarization Program to 
cover the cost of the overruns both at the other sites as well 
as Pueblo and Blue Grass?
    Mr. Wynne. With all the roll-forward money that has gone 
unspent from 2003 and 2004, there was really no need to, in the 
2006 budget, take a look in that direction. There is plenty of 
money available to complete the design and start the 
construction well through 2006. As you point out, and I think 
we have to meet the intent here, we have to take a look at what 
it means for us in 2007. I think, sir, that is the time that 
your question has a lot of relevance.
    Senator Allard. How much money are we rolling forward? How 
much is in that that is unspent?
    Mr. Wynne. I think it is over $450 million right now.
    Senator Allard. $450 million?
    Mr. Wynne. Yes, sir.
    Senator Allard. Those are funds that are sitting there that 
are unobligated at this point in time, is that correct?
    Mr. Wynne. Yes, sir.
    Senator Allard. What share of those are for Blue Grass and 
Pueblo?
    Mr. Wynne. I do not have that answer, sir.
    Senator Allard. I am thinking somewhere around $300 
million, if that is correct. Do you have any reason to dispute 
that?
    Mr. Wynne. I do not know the answer.
    Senator Allard. I would ask that perhaps maybe you can get 
a chance to check that.
    Mr. Wynne. Yes, I sure can, absolutely.
    Senator Allard. I would appreciate that very much.
    [The information referred to follows:]

    As of February 28, 2005, $267.6 million in Assembled Chemical 
Weapons Alternatives funds are available and not disbursed.

    Mr. Chairman, to wrap this up, I want to thank you for your 
time and consideration. You have been most tolerant while 
Senator Salazar and myself pursue this. Senator Mitch McConnell 
is also very interested in what is happening here. I would also 
like to thank Senator Reed, who I have worked with on many 
issues before in the past.
    This is an important issue for our country. I think it is 
an important policy issue. It is certainly not only important 
to Colorado, but I think the whole country. We have new 
technology here and we have to hold somebody accountable for 
moving forward at some point in time. So I do have to share 
with you a concern at the lack of moving forward. Frankly, when 
we get negotiating with our counterparts in other countries I 
do not think they can say that we are really moving ahead 
expeditiously when I see how much taxpayer dollars we seem to 
be spending here and do not seem to be showing much result. I 
am sort of disappointed in the program as a whole.
    But I would also again extend my thanks to you, Mr. 
Chairman, and also the chairman of the full committee, Senator 
Warner, in working with both Senator Salazar and myself, and it 
has been a pleasure working with my colleague from Colorado on 
this important issue.
    Thank you.
    Senator Cornyn. Thank you, Senator Allard.
    Senator Salazar.
    Senator Salazar. Thank you, Senator Cornyn.
    Let me follow up on a question from Senator Allard if I 
may, Secretary Wynne. My understanding is that for this fiscal 
year what you have requested is $40 million for the water 
neutralization efforts at the Pueblo chemical depot, but within 
the ACWA funding stream that there are about $400 million that 
have already been appropriated and are unexecuted, whether that 
is $350 million or $400 million, whatever that amount may be.
    My question to you is, what assurance do we have that that 
money will continue to be set aside to be used for Blue Grass 
and for the Pueblo Army Depot, as opposed to being filtered off 
into other DOD projects under your jurisdiction?
    Mr. Wynne. One of the things that I did, sir, was create 
three program element codes, which between them would require 
some reprogramming amongst them. We tried to split out the 
funding. I will have to get you the actual look, but by doing 
that it actually helps you to focus in on what is associated 
with the ACWA, what is associated with Newport, and what is 
associated with the CMA program. I think I will try to get you 
what the laydown was, if you will, looking backwards, because 
once the program element codes are struck and approved, which 
they have already been submitted to you, there are some 
restrictions on just blatantly transferring money.
    Senator Salazar. If you can get that information to me, Mr. 
Secretary, I would appreciate it very much.
    Mr. Wynne. I would be happy to.
    [The information referred to follows:]

    For fiscal year 2006 the funding for the Chemical Materials Agency 
(CMA) is $1,203.5 million, $143.0 million for CMA Newport, and $33.0 
million allocated for Assembled Chemical Weapons Alternatives in the 
President's budget.

    Senator Salazar. Let me ask one more question and then I 
will have one closing comment. With respect to the timeline for 
completing the work at the Pueblo Army Depot we would all hope 
that somehow we are going to be able to figure out a way of 
getting this done by 2012 because that is what we are required 
to do under our international obligations. But, based on the 
information that we have gleaned from the DOD, it seems that 
perhaps you are looking more like a 2020 timeline and that for 
right now at least you have Pueblo and Blue Grass both in their 
greenfield status. I know you are working on getting a more 
established timeline back from your personnel by the end of 
June.
    Am I misreading the timeline here at all that there are 
some people saying that it may be 2020 before we actually start 
the construction effort in Pueblo?
    Mr. Wynne. One of the things I am hoping to do with the 
release of the site preparation funds is to actually do some 
site preparation in parallel to the actual down-select and 
obligation of a construction contract, to try to speed things 
up. So I think actually, Senator, we should not allow, if you 
will, the nay-sayers to push us so far on schedule that we even 
start to accept a 2020 date.
    I am hoping that by the time we get to 2010 we will know 
pretty precisely what needs to be done in order to either meet 
our deadline and/or take another decision. That is kind of my 
goal. I spoke briefly with Ambassador Mahley and he indicated 
that we need to be very close to the end to have a cogent story 
for anybody relative to exceeding the treaty deadline. Sir, the 
most cogent story I know of is to be completed.
    Senator Salazar. I think because the timeline is so 
important for us and you will have new information in June, I 
would request, Secretary Wynne, a meeting with you and Dr. 
Klein and whoever else needs to be a part of that meeting at 
the end of June, and I would request that that meeting be with 
Senator Allard and myself as well as other members of the 
Colorado congressional delegation, Representative Hefly and 
Representative John Salazar, who are very interested as well in 
what happens with respect to the Pueblo Army Depot. So if you 
will agree to have that meeting with us, I think it would be a 
very important one to have. I will work on trying to get that 
scheduled.
    Let me just make a closing comment here. For me, as a 
Senator from Colorado, when I look at these 780,000 munitions 
at the Pueblo Army Depot I think it is important that we have a 
definite timeline in which we are moving forward. Our questions 
to you are hard questions and they have been hard questions, 
and I do appreciate the work that you and your colleagues have 
done in trying to clean up the chemical weapons arsenal that we 
had in this country. There has been significant progress made. 
There is still a lot more progress to be made.
    When I see the remnants of what we have there at the Pueblo 
Army Depot, essentially with nothing having happened on the 
ground since we have been working on this issue, in the context 
of the world that we are in today I believe that it still 
presents a huge target for terrorism in our country and 
therefore it is a matter of national security that we move 
forward in as effective a way as we possibly can to make sure 
that we are taking care of the mustard gas there at the Pueblo 
Army Depot.
    Second, it creates huge community and public safety 
concerns for both Colorado Springs and the Pueblo communities. 
You know there are huge populations there.
    Third, I do think that Ambassador Mahley's comment about 
the importance of us as a Nation being able to speak with a 
sense of moral authority requires us to make sure that we are 
doing everything to fulfill our international obligations, and 
certainly the April 2012 deadline that we have under the CWC is 
something that I know you are very concerned about and 
something that we as a Nation are all very concerned about.
    Let me thank you for your very candid responses here today, 
and I very much look forward to our continuing work together.
    Chairman Cornyn and Ranking Member Reed, I appreciate very 
much your leadership in this subcommittee and also for 
indulging both Senator Allard and myself with the opportunity 
to ask questions today. Thank you very much.
    Senator Cornyn. Thank you for joining us, Senator Salazar.
    Secretary Wynne, before we adjourn, you have alluded to 
something you think we might be able to do to be of assistance 
to you at the chemical weapons destruction facility at Newport, 
Indiana. I believe you indicated there is a 30-day notice 
provision.
    Mr. Wynne. Yes, sir.
    Senator Cornyn. But you are standing by, paying the bills 
for people to go to work even though they are unable to go to 
work, until you receive some sort of response from Congress.
    Mr. Wynne. I think a 30-day expiration, sir, or you can 
tell us that the notice has been sufficient and we may go 
forward.
    Senator Cornyn. We will certainly work with the staff, 
Chairman Warner, and Ranking Member Levin to try to give you a 
quick response, because if there is some way we can expedite 
that and get that facility up and running and save the 
taxpayers some money in the process, I am all for it.
    Mr. Wynne. We would appreciate that, sir.
    Senator Cornyn. Well, thank you very much.
    We will keep the record open for let us say a week. That 
ought to be enough time for members if they have additional 
questions they would like to submit in writing, and we would 
appreciate your prompt response to those. But, we will leave 
that open until, let us say, the close of business 1 week from 
today to submit to you.
    Thank you again for your participation and your service to 
our country and for answering I know some tough questions about 
a very important issue.
    This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
                 chemical weapons convention compliance
    1. Senator Reed. Dr. Klein, in your capacity as the Assistant to 
the Secretary of Defense for Nuclear, Chemical, and Biological matters, 
you represent the policy component of the Department of Defense (DOD). 
Can you tell the committee if the DOD is committed to ensuring that the 
United States meets all its obligations under the Chemical Weapons 
Convention (CWC), including the obligation to destroy all our chemical 
weapons by the deadline established in the treaty?
    Dr. Klein. The Department is committed to the safe, secure, cost 
effective, and timely destruction of all U.S. chemical weapons. The 
Department is currently analyzing alternatives that will maximize the 
opportunity to meet the extended 100 percent CWC destruction deadline.

    2. Senator Reed. Dr. Klein, is that commitment dependent on a cost 
limit, or is the Department committed to ensuring U.S. compliance with 
the CWC's obligations even if doing so costs more than suggested by a 
cost estimate from 2002?
    Dr. Klein. The Department has not established an absolute cost 
limit for the Chemical Demilitarization Program. However, the 
Department is taking steps to make sure the program balances cost, 
schedule, and performance objectives while at the same time, maximizing 
the opportunity to meet the CWC extended 100-percent destruction 
deadline.

                            cost constraints
    3. Senator Reed. Secretary Wynne, the decision to restructure the 
chemical demilitarization program, and to move funding from the 
Assembled Chemical Weapons Alternative (ACWA) program to the operating 
sites, was made for cost reasons. I believe all the operating 
facilities have cost more than their initial estimates. If it is not 
possible to build, operate, and close the two ACWA sites for the 
previously estimated cost, does that mean the United States will not 
meet its treaty obligations under the CWC?
    Mr. Wynne. No, the Department is currently analyzing alternatives 
that are safe, secure, timely, and cost-effective, which will maximize 
the opportunity to meet the extended 100-percent CWC destruction 
deadline. Our objective is to select one or a combination of these 
alternatives that will enable the U.S. to destroy the chemical weapons 
at Pueblo, Colorado and Blue Grass, Kentucky, within the cost estimates 
originally certified to Congress.

    4. Senator Reed. Secretary Wynne, would the Department be willing 
to spend more than the previous estimate, if necessary, to ensure our 
compliance with the CWC?
    Mr. Wynne. The Department will provide the necessary resources to 
maximize the opportunity to meet the extended 100-percent CWC 
destruction deadline in a safe, secure, timely, and cost-effective 
manner.

                        new plan for compliance
    5. Senator Reed. Secretary Wynne, your testimony was that 
implementing your new plan ``will provide the United States with a 
safe, secure, timely, and cost-effective program to meet both the 
intent and the literal interpretation of its international obligation 
under the Chemical Weapons Convention, with some assistance from this 
committee if required.'' Exactly how would your plan permit the United 
States to meet its treaty deadline, and exactly what kind of assistance 
you are considering from this committee?
    Mr. Wynne. The Department is currently analyzing alternatives that 
will maximize the opportunity to meet the extended 100-percent CWC 
destruction deadline. The Department has not yet identified specific 
assistance that would be required but in general the Department will be 
requesting assistance from local and state officials with application 
of environmental regulations and issuing of permits. An example of this 
would be off-site disposal of uncontaminated dunage and secondary 
waste.

                      ``certified'' cost estimates
    6. Senator Reed. Secretary Wynne, your prepared statement indicates 
that the Pueblo and Blue Grass project decisions in 2002 and 2003 
established life cycle costs for each site. You say the Pueblo life 
cycle cost estimates were ``certified'' to Congress in January 2003. 
Many DOD programs experience cost growth, and the Department often 
requests increased funding to accommodate these increases. Are you 
suggesting that no DOD programs are permitted to cost more than such 
``certified'' estimates?
    Mr. Wynne. No, the Department is not suggesting that no program can 
exceed ``certified'' estimates. However, the recent estimate for the 
design of the Pueblo, Colorado, project had increased by approximately 
$1 billion, an unacceptably high level. Therefore, I felt it was 
necessary, while the Pueblo and Blue Grass, Kentucky, programs were 
still in their design phases, to determine whether there are 
alternatives that will destroy these chemical weapons stockpiles in a 
safe, secure, timely, and cost-effective manner.

    7. Senator Reed. Secretary Wynne, why are the ACWA cost estimates 
being treated as a cost cap, when there is no legislative cost cap 
imposed on the program?
    Mr. Wynne. The ACWA Program costs estimates are not being treated 
as a cost cap. However, the Department is required to manage the cost 
of this program in the same manner required of managing costs of all 
Major Defense Acquisition Programs.

                        cost estimates and acwa
    8. Senator Reed. Secretary Wynne, you have indicated a serious 
concern with the increasing cost estimates for the chemical 
demilitarization program, which could be $37 billion or higher. What 
percentage and amount of that overall cost estimate is directly 
attributable to the Chemical Materials Agency sites, and how much 
directly to the two ACWA sites?
    Mr. Wynne. On April 8, 2005, the Department submitted the December 
2004 Selected Acquisition Reports (SARs) to Congress for the Chemical 
Demilitarization (Chem Demil)-Chemical Materials Agency (CMA) Program, 
the Chem Demil-CMA Newport Program, and the Chem Demil-ACWA Program. 
Based on the program funding summary for each program SAR, the total 
life-cycle cost estimate (LCCE) for the entire Chemical 
Demilitarization Program is $32.703 billion. For the Chem Demil-CMA and 
the Chem Demil-CMA Newport programs, the LCCE is $27.815 billion, which 
is approximately 85 percent of the entire program LCCE. For the Chem 
Demil-ACWA, the LCCE is $4.888 billion, which is approximately 15 
percent of the entire program LCCE. These cost percentages are 
consistent with the stockpile percentages of 90 percent and 10 percent, 
respectively.

                  possible newport funding termination
    9. Senator Reed. Secretary Wynne, the DOD recently sent a 
notification that it intends to begin neutralization of bulk chemical 
agent at Newport, Indiana, within 30 days. Your statement included a 
reference to the possibility that you would have to cease funding for 
Newport, depending on the Environmental Protection Agency's concerns 
about the post-neutralization waste treatment. Can you explain why this 
might happen, and what steps the Department has taken to avoid a 
requirement to stop the funding for Newport?
    Mr. Wynne. If the Environmental Protection Agency decides the 
Newport facility's waste should not be disposed at the DuPont facility 
in Deepwater, New Jersey, the current cost estimate of operating the 
Newport facility would require re-evaluation based on other treatment 
and disposal methods. If revised estimates are determined to exceed the 
approved Acquisition Program Baseline by 25 percent or more, then the 
Under Secretary of Defense (Acquisition, Technology, and Logistics) 
will have to make certifications to Congress pursuant to Section 2433, 
Title 10, U.S. Code. If the Under Secretary is unable to make timely 
certifications to Congress, statutory limitations on obligating funds 
for that program will be triggered.

                  estimate of likely cwc noncompliance
    10. Senator Reed. Secretary Wynne, you have stated that you were 
presented with options that indicated that on the previous path we 
would not be able to meet our CWC extended destruction deadline. Please 
explain the basis for the analysis of each option that reached that 
conclusion.
    Mr. Wynne. The Department conducted a standard program review of 
the Chemical Demilitarization Program. This type of review is used for 
all defense acquisition programs. The results of the program review 
revealed significant increases in the life cycle cost estimate. This 
prompted the Under Secretary of Defense for Acquisition, Technology, 
and Logistics (USD(AT&L)) to convene a Defense Acquisition Board in 
November 2004 to further analyze the program. Each mission area under 
the Chemical Demilitarization Program, which includes the U.S. Army 
Chemical Materials Agency and the ACWA Program, was instructed to 
provide path forward options that were within fiscal guidance and 
fiscally unconstrained. The Department Cost Analysis and Improvement 
Group (CAIG) had conducted a risk analysis of both cost and schedule, 
and had accorded high risk to all options presented with regard to 
meeting the Chemical Weapons Convention extended 100 percent 
destruction deadline. Consequently, the USD(AT&L) directed the program 
manager to analyze all alternatives that would destroy the chemical 
weapons in a safe, secure, timely, and cost-effective manner, while 
maximizing the opportunity to meet the Chemical Weapons Convention 
extended 100 percent destruction deadline.

    11. Senator Reed. Secretary Wynne, did you share those results with 
the State Department, the National Security Council, the Office of 
Management and Budget, or any other agencies before finalizing the 
fiscal year 2006 budget request for chemical demilitarization?
    Mr. Wynne. Yes. The Department of Defense briefed the Office of 
Management and Budget, State Department, and National Security Council 
prior to the fiscal year 2006 President's budget submission on the 
current path of the Chemical Demilitarization Program and discussed the 
issues related to noncompliance with our international treaty 
obligations. The Office of Management and Budget staff also attended 
the Department's meetings that reviewed the options presented during 
the budget and program review process.

                 consultation prior to budget decision
    12. Senator Reed. Secretary Wynne, your decision to reduce funding 
for Pueblo and Blue Grass, and to delay construction until 2011 at 
those two sites, seems to have the effect of ensuring that the U.S. 
will not meet its CWC destruction deadline. Did the Department consult 
fully with all relevant agencies of the executive branch before making 
such a budget decision, making clear the likely effect on our ability 
to meet our treaty obligations?
    Mr. Wynne. Yes. The Department's discussions with the relevant 
agencies of the executive branch included the development of 
alternatives to maximize our opportunity to achieve the extended 45-
percent CWC destruction milestone of December 2007, as well as the 
extended 100-percent CWC destruction deadline of April 2012.

    13. Senator Reed. Ambassador Mahley, was the State Department fully 
consulted before a budget decision was made on reducing funding for 
Pueblo and Blue Grass?
    Ambassador Mahley. DOD regularly consults with us on the progress 
of the chemical weapons destruction program and the implications for 
U.S. ability to meet its obligations under the Chemical Weapons 
Convention. In general, DOD does not consult State on specific 
acquisition decisions with respect to the destruction program. 
Therefore, State was not consulted about the acquisition decision on 
funding for Pueblo and Blue Grass.

    [Whereupon, at 3:54 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2006

                              ----------                              


                         FRIDAY, APRIL 22, 2005

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

                    U.S. SPECIAL OPERATIONS COMMAND

    The subcommittee met, pursuant to notice, at 9:37 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Cornyn (chairman of the subcommittee) presiding.
    Committee members present: Senators Cornyn and Reed.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Elaine A. McCusker, professional 
staff member; and Lynn F. Rusten, professional staff member.
    Minority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; and Arun A. Seraphin, professional staff member.
    Staff assistants present: Alison E. Brill and Nicholas W. 
West.
    Committee members' assistants present: Russell J. 
Thomasson, assistant to Senator Cornyn; Elizabeth King, 
assistant to Senator Reed; and William K. Sutey, assistant to 
Senator Bill Nelson.

       OPENING STATEMENT OF SENATOR JOHN CORNYN, CHAIRMAN

    Senator Cornyn. Good morning. I am going to convene this 
meeting of the Emerging Threats and Capabilities Subcommittee 
to receive testimony on the roles and missions of the U.S. 
Special Operations Command (SOCOM) in review of President 
Bush's defense budget request for fiscal year 2006 and for the 
Future Years Defense Program.
    Senator Reed and I would like to welcome our distinguished 
witnesses: Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict, Thomas W. O'Connell; and 
Commander of USSOCOM, General Doug Brown, U.S. Army. Welcome to 
both of you. We appreciate your service.
    Clearly, the events of September 11 have forever changed 
our sense of security and the manner in which we organize and 
equip our Armed Forces to defend our Nation and the threats of 
the 21st century. Four years ago, SOCOM was principally focused 
on supporting regional combatant commanders with Special 
Operations Forces (SOF) and was heavily engaged in regional 
security cooperation initiatives. Today SOCOM has much expanded 
responsibilities and is a key player in the global war on 
terror, with forces deployed on operational missions at the 
four corners of the globe.
    Such complex organizational changes are not accomplished 
without hard work, a little trial and error, and dedicated 
leaders such as those we have before us today. A principal 
purpose of this hearing is to hear your reports on the progress 
that you are making in reorienting SOCOM to combat terrorism 
abroad and the challenges ahead in meeting the many and complex 
responsibilities associated with special operations, low 
intensity conflict, high tempo of operations (OPTEMPO), and 
future threats.
    As we meet this morning, thousands of our special operators 
are engaged in military operations at home and abroad in the 
ongoing global war on terror. These brave men and women and 
their families deserve our continued support and they will get 
it. The subcommittee's commitment is to ensure that these 
troops remain the best equipped, best trained, best led, and 
most capable SOF in the world. In doing so, we must understand 
the challenges they face today and those they will face 
tomorrow. The insights of our witnesses today are an 
indispensable part of this process.
    We have a number of important issues to discuss with our 
witnesses this morning. Secretary O'Connell and General Brown, 
SOF have been at the forefront of our military operations. The 
operational demands on SOCOM have been very high. The ability 
of SOCOM to sustain this high OPTEMPO is of great importance. 
The subcommittee wants to ensure that you have the people, the 
capabilities, and the resources to accomplish your many 
missions and prepare for the future. We look forward to your 
assessment.
    While much attention has been focused on operations in Iraq 
and Afghanistan, we cannot lose sight of other challenges 
facing SOCOM. The Horn of Africa and other areas in sub-Saharan 
Africa, Latin America, and Southeast Asia are unsettled and 
potential havens for terrorists. Narcotrafficking and terrorism 
in the Andean Ridge and Central Asia are on the rise. The 
demand for U.S. SOF to respond to short-notice contingencies, 
conduct extended combat operations, and help train the Armed 
Forces of allied nations has never been higher. The 
subcommittee looks forward to your views on these issues as 
well.
    As you prepare SOCOM to undertake expanded 
responsibilities, prudent steps are required to ensure the 
success of potential operations. The operational preparation of 
the environment concept is one such step. While I am supportive 
of the concept in principle, it has produced some concern that 
we want to explore today. We would like to receive an update 
from both our witnesses on the resolution of these concerns by 
other agencies about the program.
    SOCOM has enjoyed great success in identifying emerging 
operational needs of its deployed teams and rapidly developing 
and fielding new capabilities for SOF. Major acquisitions 
programs, however, like the Advanced Sea/Air/Land (SEAL) 
Delivery System (ASDS) have proven to be more challenging. I 
had the chance, as General Brown and I discussed when he 
visited with me in my office recently, to visit the operational 
ASDS site last month and was much impressed by the capability 
of the system and certainly the enthusiasm of the SEAL 
operators. But I am concerned, as I expressed then and I will 
repeat now, by the schedule slippage and the cost growth of the 
program. We look forward to General Brown's assessment of this 
program and the steps he has taken to improve oversight and 
management of this important program.
    Our witnesses today represent the men and women of SOCOM, 
who quietly fight terrorism on distant battlefields, defending 
our homeland from threats of the 21st century. We applaud and 
honor their service and again thank our witnesses for their 
service and their presence before the subcommittee today.
    I will now turn the floor over to Senator Reed, the ranking 
member.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Thank you very much, Mr. Chairman, and let me 
join you in welcoming Assistant Secretary Tom O'Connell, who is 
not only a distinguished Army veteran, but a distinguished 
Rhode Islander. Thank you, Tom, and General Doug Brown, who 
leads with great distinction SOCOM, and also Command Chief 
Master Sergeant Bob Martens. A lot of our most capable special 
operators are senior noncommissioned officers and their role is 
absolutely critical to the military, and we thank you and your 
colleagues for your service.
    We have called this hearing so that we can become better 
informed about how the SOCOM is organizing, training, and 
equipping to conduct its statutory missions, as well as to 
execute its new role leading the Department's global war on 
terrorism efforts. I do not need to go down the list of special 
operations achievements for our witnesses, my colleagues, and 
our observers. It has been an extraordinarily effective force 
in the last several years, as it has been throughout our 
history, and we thank you for the valor, the courage, and skill 
of the people that you lead, General Brown and Secretary 
O'Connell.
    As General Brown outlined in his prepared testimony, the 
command has established a new Joint Interagency Operations and 
Intelligence Center to allow it to better execute its 
counterterrorism mission. The command is also increasing its 
manpower in critical areas, such as civil affairs (CA) and 
psychological operations (PSYOP), and it is working with the 
Marine Corps to increase cooperation and perhaps paving the way 
for the creation of a Marine Corps component for SOCOM.
    The Major Force Program 11 (MFP-11) acquisition authority 
and the rapid procurement process provided by combat mission 
needs statements from the field continue to serve the immediate 
needs of the special operators. Nonetheless, the OPTEMPO 
remains the highest in the history of the SOF.
    In addition, SOF operations are predominantly focused in 
and around Iraq and Afghanistan. Indeed, starting next fiscal 
year, for the first time in 6 years we will not have any SOF 
training the military in Colombia. So I wonder whether we are 
increasing the right categories of SOF by the right amount. 
Understanding that it takes time to create special operators, 
the time to start is now, and the question I have for the 
witnesses is whether the capacity the command has planned to 
build will meet future requirements.
    Also, many of the current special operations assignments 
are direct action missions and they are being conducted at the 
cost of the critical foreign training missions that serve the 
long-term war against terrorism and other U.S. national 
security objectives by providing SOF with familiarity and 
access. SOCOM has had to turn down a higher percentage of State 
Department requests for joint and combined training exercises 
since 2003 than it had even in the 2 previous years. These 
missions are critical in the long-term war against terrorism 
and other U.S. national security objectives. I would like to 
know what plans the Department of Defense (DOD) or command has 
to ensure that the special operations involvement in such 
training missions does not continue to decrease substantially.
    I would also like to hear about any dedicated long-term 
futures planning within the command, noting that the budget 
request contains many legacy items. How do the DOD and SOCOM 
see the future and how is the command posturing research and 
development and procurement activities to meet future 
challenges? Is there a SOCOM transformation plan, in essence?
    Finally, SOCOM's execution of its war on terrorism mission 
has led to concern about the nature of its operations, with 
some press accounts pointing to increased clandestine efforts 
that blur the lines between operational and intelligence 
functions. I would like to hear more about what SOF are doing 
and how these efforts differ from intelligence activities.
    Let me conclude as I began, by commending you, General 
Brown, Secretary O'Connell, and the extraordinary soldiers, 
airmen, sailors, and marines that you lead. Thank you very 
much.
    General Brown. Thank you.
    Senator Cornyn. Secretary O'Connell, we would be pleased to 
hear your opening statement and then we will turn to General 
Brown.

 STATEMENT OF HON. THOMAS W. O'CONNELL, ASSISTANT SECRETARY OF 
   DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT

    Mr. O'Connell. Thank you, Mr. Chairman and Senator Reed. 
Thank you for the opportunity to appear before the subcommittee 
and comment on the status and progress of our Nation's SOF. 
Thank you both for your opening statements and we will endeavor 
to either get you the answers to your questions or provide them 
for the record.
    With your permission, sir, I will keep my opening statement 
short. I have submitted a lengthier statement for the record.
    Sir, the nature of the SOCOM is vastly different from just 
a few short years ago. Not only are they at war, they are 
playing a pivotal and crucial role, and in almost every aspect 
of the global war on terrorism they are playing a leading role. 
Whether participating in the direct action missions against the 
most vicious and dangerous of our adversaries, conducting CA 
missions designed to build the peace as well as infrastructure, 
conducting effective PSYOP activities in support of 
conventional troops, flying dangerous heliborne and fixed-wing 
insertions in some of the most inhospitable terrain in the 
world, attacking Taliban formations and remnants in Afghanistan 
with our Ranger forces, or training foreign SOF all over the 
world to build foreign capacity, and in the case of the Green 
Berets of the Seventh Special Forces Group helping the 
Government and Armed Forces of Colombia overcome the scourge of 
narcoterrorists, the men and women of the United States SOCOM 
deserve a great deal of credit and praise, none more so than 
perhaps two of their leaders that have been acknowledged here 
today: General Doug Brown and Chief Master Sergeant Bob 
Martens.
    Leadership is an intangible. Experience, integrity, vision, 
and savvy are the hallmarks of great leaders. Two of them for 
the SOCOM sit before you today.
    A few months ago, sir, I had the opportunity to visit our 
SEAL Command in Coronado, California, the Naval Special Warfare 
Command. I came away both humbled and awed. Their contributions 
to the global war on terrorism and our Nation's defense have 
been nothing short of remarkable. That is a common thread among 
our SOF. Rangers, CA, PSYOP, Green Beret, Army Special 
Operations, Aviation Forces, Air Force Special Tactics Teams, 
our great Air Force Special Operations Command aviators--flying 
AC-130 gunships, Combat Talons, Pave Low helicopters, our 
pararescue personnel, and weathermen--Navy SEALs, and Special 
Boat Units, all contribute daily under the umbrella of ``quiet 
professionals.''
    I cannot give enough credit to General Brown. He is the 
right man at the right time at the right place to lead our SOF. 
Let me also recognize the great SOF wives, led by Doug's wife 
Penny Brown. They have set the standard for family support and 
fostering a compassionate, caring environment among the SOF 
ranks.
    One of the SOF truths, humans are more important than 
hardware, has been particularly evident in SOCOM's efforts to 
equip the man, rather than man the equipment. Their efforts to 
press the envelope with systems such as the CV-22 and the ASDS, 
which Senator Cornyn just mentioned, reflect this paradigm.
    General Brown and his subordinate SOCOM staff and component 
commanders have worked tirelessly to develop a force structure 
that can optimize leading edge technology. I believe General 
Brown has carefully crafted a coherent plan for future growth 
of SOF. His plan is to increase SOF personnel by about 2,300 
over the next 4 years, to include increases in both Special 
Forces and SEALs, reflecting an understanding of current needs 
as well as recruiting and training base limitations.
    The support of this subcommittee, the full committee of the 
whole, and the entire Congress has been essential to the 
success of our SOF elements. General Brown will discuss the key 
to success in four words--joint, combined, coalition, and 
interagency--and I echo his evaluation.
    Secretary Rumsfeld has charged his DOD leadership with 
developing forces that can meet the demands of our national 
military strategy as well as meeting the parameters of the 
Quadrennial Defense Review and other elements of guidance. I am 
confident that as these deliberations proceed we will determine 
that our SOF are uniquely positioned to meet the challenges of 
the global war on terrorism.
    As we look forward to the future challenges we face, we 
must recognize the tremendous support that members and staff of 
this subcommittee have provided. We welcome your critical 
inquiries. We welcome your counsel.
    Sir, this position provides me with the opportunity and 
deep honor to interact with America's finest. It is indeed a 
humbling experience. With your support, we can do great things, 
and I welcome your questions. Thank you, sir.
    [The prepared statement of Mr. O'Connell follows:]
             Prepared Statement by Hon. Thomas W. O'Connell
    Mr. Chairman, and members of the subcommittee, I thank you for the 
opportunity to testify about special operations and the global war on 
terrorism, as well as those aspects of our current Special Operations 
Forces (SOF) posture that contribute significantly to our national 
capabilities to confront our adversaries.
    I exercise civilian oversight of special operations activities of 
the Department of Defense (DOD). I attempt to ensure that SOF are 
appropriately employed and that senior policymakers understand their 
capabilities as well as their limitations. Not only am I an advocate 
and a defender of the U.S. Special Operations Command (SOCOM) and SOF, 
I am also dedicated to ensuring our SOF continues to be the best 
trained, best equipped, most flexible, and most effective fighting 
force available to our country. Representatives from the Office of 
Special Operations and Low-Intensity Conflict (SOLIC) spend a 
significant amount of time at SOCOM headquarters to assist with 
developing the SOF program and budget. I participate in the SOCOM Board 
of Director's meetings, the Command's executive resource body. This 
effort produces a SOF program and budget that stresses force readiness 
and sustainability, provides sufficient force structure to meet the 
demands of the geographic combatant commanders and the Commander, 
USSOCOM in his role as a supported commander in the global war on 
terrorism. I'd like to recognize my Director of Resources, Tim Morgan, 
whose work on Major Force Program-11 (MFP-11) issues has been superb.
    We sponsor the Combating Terror Technology Support Program, through 
which I maintain executive direction and proponency along with the 
Department of State for the Technical Support Working Group (TSWG), 
which addresses the Nation's interagency combating terrorism 
requirements. We will continue to serve the technology needs of the 
warfighter in addressing the emerging threats. As Secretary Rumsfeld 
stated repeatedly, to address any of a myriad of threats we shall be 
facing, it will be necessary to shorten the decision cycle for force 
definition, equipping, and deployment. The Quadrennial Defense Review's 
recently published Terms of Reference is a reflection of that 
philosophy. Through its numerous requirements-driven successes and by 
continuing to reflect partnered cooperation across its subgroups and 
among Federal agencies, the Combating Terror Technology Support Program 
has shown it can meet that expectation. We also continue to seek 
solutions from many allies and coalition partners. On that point, we 
have achieved numerous successes. The Deputy Secretary of Defense has 
been instrumental in leading an Improvised Explosive Device Integrated 
Process Team. Under the executive leadership of the Army, we have been 
able to apply SOF/SOLIC assistance to the fight against the leading 
killer of U.S. forces in Iraq.
    The United States is at a critical moment in the war on terrorism. 
We have realized initial successes and achieved a degree of momentum 
that together support a general assessment that we are making progress 
in winning this war. But sustaining that momentum and continuing the 
successes against terrorists and their supporters now and into the 
future is just as critical. We must ride the crest of successes of the 
Afghan and Iraqi elections to a new level of democratic processes in 
the region.
    For the past 3 years, we have examined how the attacks of September 
11 have changed how we define ``defense,'' and how, as a consequence, 
the war on terrorism is fundamentally a different type of war than any 
we've fought before. We used to respond to the threat of global 
terrorism in terms of transnational criminal activity. While SOF were 
certainly a part of the equation, the SOF posture 4 years ago is one we 
would hardly recognize today.
    Indeed, that is true of the entire military and the entire concept 
of national defense. Four years ago, we were geared to defend against a 
state projecting force across great distances, and we built extensive 
capabilities to provide us early warning and tools to deter aggression. 
But the potential destructiveness of an attack of the type we suffered 
on September 11 means that we are no longer afforded an opportunity to 
determine an ``appropriate response,'' nor make a clear determination 
of when decisive action is too little or too late. For reasons we all 
understand, SOF have become a critical military tool in taking the war 
to the terrorists before it can be fought on our own soil or that of 
our allies. MFP-11 has been instrumental in allowing SOCOM to chart a 
steady path toward matching changing requirements against available 
resources.
    I repeat my assessment of last year: SOF are uniquely qualified for 
that mission. Because of those qualifications and the demands of the 
war on terrorism, the SOCOM has been structuring and shaping SOF in 
different ways. While SOF were originally conceived to be used as 
forces for supporting or leveraging larger conventional forces in 
battle, or for undertaking discrete, limited strategic missions, the 
new reality has given SOF a prominent, front-line, essential role in 
the defense of our Nation. This change was the impetus for the shift of 
SOCOM from not only a supporting command but also a supported combatant 
command in the global war on terror. Our current Unified Command Plan 
reflects a paradigm shift in strategic thought.
    This means SOF will continue to support regional commanders, while 
also at times being supported by other combatant commands. SOF are 
still the first in and last out in many contingency operations around 
the globe. SOF must be ready to act at any time, in all environments, 
overtly or clandestinely; alone or in concert with U.S. and foreign 
forces. General Brown's creation of the Center for Special Operations 
will pay significant dividends as we move forward to operating with the 
new National Counterterrorism Center.
    Before I discuss further what has changed and what our new national 
security imperatives require of SOF, I want to note explicitly that one 
of the most important factors and essential considerations for us has 
not changed: the importance of the special operator. In terms of 
missions performed and in the qualities of the individuals who 
undertake those missions, the special operator is truly unique and 
requires a different type of mindset on our end in terms of planning 
and support. Our starting point has always been and must continue to be 
what we call the ``SOF Truths,'' which are essentially statements of 
the fundamentals: ``Quality is better than quantity. Special Operations 
Forces cannot be mass produced. Competent Special Operations Forces 
cannot be created after a crisis occurs. Humans are more important than 
hardware.'' General Brown and his subordinate commanders have made sure 
that these truths have not been eroded.
    These truths have been reaffirmed by the superb performance of our 
SOF in Afghanistan, Iraq, Colombia, the Philippines, and many other 
countries around the world. I am keenly aware of how very much the 
dedication and commitment of our special operations professionals are 
appreciated by every member of the political leadership. I would like 
to cite the work of Under Secretaries Dr. David Chu and Ms. Tina Jonas. 
They fully supported the initiatives of SOCOM to address retention 
issues by fostering bonuses that will help with retention of key 
special operators at critical career decision points.
    General Brown's testimony will reflect the importance we at both 
the DOD and SOCOM attach to a Joint, Combined, Coalition, and 
Interagency working environment. Perhaps more so than any other 
combatant command, SOCOM has led the way in breaking bureaucratic 
barriers and fostering interagency cooperation, particularly with the 
Central Intelligence Agency. I echo his comments.
    About a year ago, I had the high honor of visiting some of our SOF 
in Iraq. These forces make us proud--and should cause potential 
adversaries to pause before seeking to harm the United States. The 
commitment of SOF to pursuing terrorists to all corners of the globe is 
embedded in their mindset. The experience gained in defeating the 
Taliban and disrupting al Qaeda in Afghanistan, destroying the brutal 
regime in Iraq, and aiding friends and partners in other corners of the 
globe, such as Colombia and the Philippines, has matured our 
warfighters to a keen edge. Our challenge is to maintain that edge, and 
it will require careful assistance from policymakers.
    I also saw that the nature and importance of the new demands on SOF 
are apparent to the operators in the field, and they are clearly doing 
more with the additional manpower, funding, and materiel you've given 
them to meet the new challenges to our national security. This level of 
support is required to meet the challenges of the war on terrorism. The 
change from a regional, reactive posture to a global, proactive posture 
could not be achieved nor sustained with the levels of funding, 
materiel, and forces that we had before September 11. I believe General 
Brown has charted a steady course of growth for the foreseeable future.
    The fiscal year 2006 President's budget submission for SOCOM is 
$6.7 billion, an increase of a modest 3 percent. This funding request 
will continue the modernization and transformation effort started in 
fiscal year 2004. It will enable SOCOM to: 1) transform SOF 
capabilities to better locate and track individual terrorists across 
the globe and conduct small surgical operations with minimal risk to 
the employed force; 2) maintain sustained operations in areas where 
terrorist networks are operating; 3) continue to invest in critical 
``low-density/high-demand'' aviation assets that provide SOF with the 
mobility necessary to deploy quickly and to execute their missions 
quickly; 4) continue to invest in key command, control, and 
communications infrastructure; and 5) support the personnel USSOCOM has 
added to continue worldwide deployments and 24-hour-a-day operations, 
particularly in the Center for Special Operations and the Theater 
Special Operations Commands.
    This increase is essential to sustaining the necessary operations 
and to ensuring we can meet the Secretary's transformation 
requirements. We are grateful for Congress' continued interest and 
support in sustaining the necessary funding for the mission. I would 
also like to thank this committee and Congress for enacting special 
authorities (section 1208 of the National Defense Authorization Act for 
Fiscal Year 2005) that will permit our SOF to recruit and train 
surrogate forces in areas that offer exceptional opportunities for 
success in the global war on terrorism. In addition, thank you for your 
support on the supplemental that will go to conference shortly.
    I would like to conclude by highlighting the implications the 
posture, programming, and policy for SOF in the war on terrorism have 
for all aspects of our Nation's defense. SOF have always been the 
innovators for the larger military, and the SOF mindset has been the 
incubator of innovation. That is especially true today. With the shift 
from SOF being postured for reactive, regional contingencies to being a 
global, proactive, and preemptive force, we are witnessing a key 
process of evolution in SOF that may also signal a need for additional 
necessary changes in our larger military. Our new Unified Command Plan 
reflects this evolution. As a key innovative force, SOF's direction can 
be a critical tool to inspire the evolution of the larger military and 
support the transformation of our national defense as a whole in coming 
years. As a Nation, we must identify and address those ``ungoverned 
spaces'', and build capacity to deal with those who would harm our 
country. Most of all, we must realize that we are not in a ``battle of 
ideas,'' we are in a ``test of wills.''
    Finally, a personal note: Whenever possible, I endeavor to attend 
funerals of SOF personnel at Arlington National Cemetery. It is indeed 
a high honor to represent the DOD. When I look into the eyes of widows, 
children, parents, and other relatives of our fallen heroes, I 
understand that there is no ``quit'' in their demeanor. We must honor 
their service and sacrifice. They are an inspiration to all who witness 
their courage and spirit. Your support is critical to the success of 
our SOF. I thank you for your careful scrutiny of our program and 
budget. Together, we can help move our SOF into a position of 
prominence that will continue to press the fight against America's 
enemies. Thank you. I welcome your questions.

    Senator Cornyn. Thank you very much, Secretary O'Connell. 
General Brown, we will be glad to hear from you.

 STATEMENT OF GEN BRYAN D. BROWN, USA, COMMANDER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    General Brown. Mr. Chairman, Senator Reed: It is an honor 
to appear before the subcommittee today to report on our SOF. 
It is a privilege to be here with the Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict. I 
enjoy a tremendous working relationship with Mr. O'Connell as 
we aggressively fight the global war on terrorism.
    The threat we face today in the global war on terrorism is 
an adversary without borders or boundaries, using asymmetrical 
methods to attack our vulnerabilities. Defeating this enemy 
requires the full range of our Nation's capabilities. SOF are 
uniquely trained and equipped to support our Nation and our 
coalition's efforts. Operating in this complex environment is 
what SOF do best.
    After September 11, SOCOM's role changed from being 
traditionally a force provider to being the DOD lead for the 
global war on terrorism. Our new mission includes planning, 
synchronizing, and executing direct combat missions against 
terrorist organizations around the world and executing those 
missions as a supported commander when directed. Concurrently, 
we continue to provide our critical role of force provider to 
all our SOF and supporting commands to the geographic combatant 
commanders.
    In addition to being a small, flexible, joint force, SOF 
have specialized skills, equipment, and tactics. We are 
regionally focused, politically and culturally sensitive, and 
many of us possess language skills.
    We are working closely with the geographic combatant 
commanders to determine in which areas SOF should focus to 
achieve maximum effects. Our highly skilled direct action 
capability has resulted in the capture or killing of terrorists 
as we defend this Nation far forward, specifically in Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF).
    However, our capabilities are much more important than just 
direct action. Through careful engagement, SOCOM is also 
accomplishing our core task of foreign internal defense to help 
countries become more capable, our CA operations to eliminate 
the root causes of terrorism, and our PSYOPs to communicate the 
truth to those who would be deciding whether or not to join al 
Qaeda or other terrorist organizations.
    As I mentioned earlier, we are a small force, but to meet 
the challenges of the global war on terrorism we are increasing 
our special operations manpower. We are adding force structure 
in SOF, CA, PSYOPs, our Air Force and our Army Special 
Operations Aviation Forces, and Navy Special Warfare. We are 
also providing additional staff to our theater special 
operations commands in the geographic combatant commanders' 
areas of responsibility (AORs).
    In the next 4 years we will increase our numbers by over 
2,300 personnel. That includes two additional SEAL team 
equivalents and approximately 500 Special Forces. In order to 
create more special operators, we have aggressively increased 
the number of training instructors and support personnel to 
enable us to increase our training capacity without lowering 
the standards. Additionally, with the help of the Service, the 
Office of the Secretary of Defense (OSD), and Congress, we have 
instituted retention initiatives that include targeted bonuses 
for specific operational specialties that are showing a 
decrease in strength and educational benefits for members of 
our command.
    The key to SOCOM's success is our well-trained, well-
equipped, highly capable special operators. Our number one SOF 
truth is that humans are more important than hardware. As such, 
our number one resource priority is our SOF warrior. We are 
emphasizing training, education, and equipment systems that 
will ensure our SOF warriors have the technical and tactical 
skill, regional expertise, language proficiency, and 
specialized equipment necessary to win this war.
    In support of our SOF warriors, our title 10 acquisition 
authority is absolutely critical in enabling SOCOM to rapidly 
respond to battlefield requirements. Through our Special 
Operations Acquisition Executive and Acquisition Center, we are 
able to quickly team operators and acquisition authorities to 
evaluate requirements, procure the right equipment, and respond 
rapidly across the spectrum of our operations. This is a pearl 
at SOCOM and it is a key enabler to the speed required to be 
capable of performing our missions.
    SOCOM is the right command for the mission. However, we 
understand we are only part of the equation. The nature of this 
war and the challenges it poses require a robust, 
interdependent working relationship with the DOD and 
interagencies, to fully harness our Nation's instruments of 
power in this fight.
    This is a long-term conflict and it is worldwide. It does 
not end with al Qaeda. There are multiple terrorist groups 
operating in several countries whose leadership, membership, 
and modes of operation will continue to change as the strategic 
environment changes. When we eliminate a seam, they will search 
for another. The enemy is patient, tenacious, and dedicated in 
this fight and we must be the same. SOCOM is preparing for the 
long term.
    This Sunday marks the 25th anniversary of Operation Eagle 
Claw, the mission that resulted in Congress creating SOCOM. I 
want to thank you and the Members of Congress that created us 
in 1987 and continue to give us incredible support as we work 
together with our interagency and our coalition partners to 
secure our Nation and our global allies. The support of this 
subcommittee and the support of the Secretary of Defense help 
ensure SOF will become even more capable in the future.
    I am ready for your questions, sir.
    [The prepared statement of General Brown follows:]
             Prepared Statement by GEN Bryan D. Brown, USA
    Mr. Chairman and distinguished members of the subcommittee, it is 
an honor and privilege to report to you on the state of the United 
States Special Operations Command (SOCOM). Today's United States 
Special Operations Forces (SOF) are the most capable in the world. They 
have performed magnificently on the battlefields of Iraq and 
Afghanistan, and in their support of geographic combatant commander 
activities around the world.
    The Secretary of Defense expanded SOCOM's role in 2003 to include 
leading the Department of Defenses' (DOD) global war on terrorism 
planning effort, and commanding specifically designated global war on 
terrorism operations. In this role as the lead command for the global 
war on terrorism, SOCOM has matured into a warfighting command that is 
leading the planning and synchronization of DOD activities in support 
of the global war on terrorism. Today at SOCOM, our priorities are the 
global war on terrorism, the readiness of our forces, and building 
SOF's future capabilities to be even more capable to meet the demands 
of the changing strategic environment.
                         strategic environment
    Terrorist networks are globally dispersed and compartmentalized 
into remote, smaller networks or groups that limit direct access to 
their leadership, communications, and infrastructure. They recognize no 
borders and no boundaries, use the local populace for plain-sight 
concealment, and employ terror, torture, and indiscriminate killing as 
standard tactics, techniques, and procedures. Without respect for 
international law, they adapt their methods and conduct operations that 
incorporate technology across the spectrum from low tech to high tech. 
This creates a significant challenge for SOCOM and directs the Command 
along three lines. First, as the supported Commander, SOCOM must 
synchronize DOD efforts, coordinate and collaborate in 
interdepartmental and interagency efforts, facilitate the flow of 
information and intelligence, and foster cooperation with partner 
nations to shape the global war on terrorism. This will require the 
elimination of seams and sanctuaries. Second, SOCOM must focus SOF on 
the global war on terrorism by increasing emphasis on organizing, 
training, and equipping the force to accomplish our main effort of 
attacking terrorist networks and enabling partner nations to do so in 
concert with us. We will provide assistance to other government 
agencies in our effort to persuade or coerce nation states that support 
terrorist networks, diminish the underlying conditions that cause 
terrorism, and counter core motivations that result in terrorist 
networks. Finally, we must continue to flawlessly integrate with 
conventional forces in traditional warfare.
                  socom center for special operations
    When SOCOM was established by Congress in 1987, its primary role 
was to support the geographic combatant commanders by providing them 
with trained and equipped special operations personnel. Now SOCOM's 
focus has been rebalanced to emphasize the global war on terrorism--we 
are at war. The Center for Special Operations (CSO), a directorate 
within SOCOM headquarters, was created to optimize SOCOM's warfighting 
efforts, by breaking down traditional barriers that exist between 
plans, operations, and intelligence functions. By consolidating these 
efforts under a single director, SOCOM has improved its speed, agility, 
and flexibility--keys to success in today's global environment. The CSO 
has embedded interagency liaison teams that streamline interagency 
coordination, communication, and processes, further enhancing 
operations, intelligence and planning fusion. The CSO is in effect 
SOCOM's Joint Interagency Coordination Group. Responsibilities in the 
CSO include reviewing global strategies, developing courses of action, 
and formulating plans and recommendations for operational force 
employment by the Commander, SOCOM.
    A dynamic component of the CSO is our Special Operations Joint 
Interagency Collaboration Center (SOJICC). A state of the art facility 
fusing operations and intelligence, the SOJICC integrates DOD and 
interagency information and databases to exploit the full potential of 
this information to support special operations planning and course of 
action development. SOJICC was developed in response to operational 
priorities and has been used extensively in supporting unique special 
operations requirements in Operation Enduring Freedom (OEF) and 
Operational Iraqi Freedom (OIF) and developing short turn-around 
products in support of SOF in all of the combatant commands.
                        global war on terrorism
Success in Operations
    SOCOM's number one priority is the global war on terrorism. 
Defeating the terrorist threat requires the full range of Special 
Operations capabilities. SOCOM's special operators, carefully selected, 
highly trained, and well equipped, continue to be ``the worst nightmare 
of America's worst enemies'' as President Bush stated in June 2004. 
Employing the tactics, techniques and procedures most appropriate to a 
given situation, our forces act across the spectrum of operations from 
Civil Affairs (CA), to Unconventional Warfare (UW), to Direct Action.
    Our interagency, conventional, and coalition relationships have 
never been stronger than in today's global operations. This joint, 
coalition, interagency team has brought freedom to millions in 
Afghanistan and Iraq. Yet plenty of work remains to defeat the 
insurgents that continue a violent struggle against democracy. SOF, 
deployed in support of the geographic combatant commanders, have been 
involved in every phase of this global effort. As we transition to the 
post-election environment in both Afghanistan and Iraq, joint, 
combined, and interagency efforts will be more critical than ever to 
win the peace, as we continue on the path to a more stable and secure 
world.
Iraq
    SOF operations, in support of United States Central Command 
(CENTCOM), remain focused on defeating anti-coalition militia elements 
and denying them freedom of movement and action throughout Central and 
Northern Iraq. SOF have been very successful at finding, fixing, and 
finishing the enemy, and one of the keys to our success has been the 
ability to fuse intelligence with operations resulting in actions that 
not only capture or kill the enemy, but also generate additional 
information for further operations.
    In close coordination with Iraqi and Coalition Forces, U.S. SOF 
played a critical role in virtually every major operation in Iraq 
during 2004, particularly the defeat of the insurgent offensives in 
April and August, the liberation of Fallujah in November, and coalition 
victories in Najaf, Samarra, and Ramadi. In these and other operations, 
SOF conducted numerous offensive actions resulting in a significant 
number of detainees. In addition to their combat effectiveness, SOF 
personnel have shown extraordinary maturity, cultural awareness, and 
good judgment. SOF, in coordination with conventional forces, continue 
to execute an aggressive offensive strategy against terrorists, but do 
so in a way to minimize the negative impact on Iraqi citizens.
    A very visible and successful Special Operation Foreign Internal 
Defense mission has been our work with Iraqi security forces. Trained 
by Green Berets, the 36th Commando Battalion and the Iraqi 
Counterterrorism Battalion are now capable of providing ongoing 
security against insurgents. I have visited both units. They have 
fought valiantly in such difficult cities as Fallujah, Najaf, and 
Samarra alongside U.S. Special Forces. They are good, and are getting 
better.
    Applying lessons learned from earlier successes against the Taliban 
in Afghanistan, SOF ground forces in Iraq have worked closely with 
conventional airpower to eliminate terrorists. SOF aviation has also 
been highly effective, destroying a large number of enemy targets with 
minimal collateral damage and providing rapid responses to time-
sensitive information. SOF have rescued hostages and assisted local law 
enforcement agencies in capturing terrorists who murdered western 
hostages. In the waters of the Persian Gulf, SOF have conducted 
maritime interdiction operations to disrupt terrorist movement and 
operations. SOF are committed to helping the Iraqis, in support of 
CENTCOM's strategy, to establish a secure and peaceful future. SOF have 
played major roles alongside their conventional and coalition partners 
in supporting the road to Iraqi self-government and lasting security. 
Although much work remains, the very successful recent election is a 
striking example of the success of our efforts in global war on 
terrorism. The commander of the Multi-National Force in Iraq, GEN 
George W. Casey, Jr, described SOF achievements in Iraq as 
``Herculean.''
Afghanistan
    SOF continue to make vital contributions to the war on terrorism as 
well as stability operations. Major strategic events enabled by SOF 
include Afghanistan's first ever national election in October and the 
December inauguration of its first elected President. SOF operations 
focused on supporting these two historic events and were critical to 
these strategic victories. In precisely targeted offensive operations, 
SOF killed and captured hundreds of terrorists and insurgents. These 
operations have been crucial to securing cities near the critical area 
along the border with Pakistan and in former Taliban strongholds. SOF 
manned dozens of small camps in areas frequented by insurgents and 
terrorists, inhibiting enemy operations and enhancing the security of 
the Afghan population. The enemy has repeatedly attacked these small 
camps, but SOF, conventional, and Coalition Forces have defeated all 
enemy offensives and inflicted heavy enemy casualties.
    Throughout Afghanistan, SOF conducted UW. A SOF core task, UW is 
operations conducted by, through, and with surrogate forces. The 
Services are using the term ``Unconventional Warfare'' frequently; 
however, accomplishing missions in a new or unconventional manner is 
not the same as UW. UW is a capability unique to SOF and will continue 
to be an important skill in future operations.
    As in Iraq, major coalition goals included building up Afghan 
forces and having those forces conduct effective military operations, 
thereby increasing the legitimacy and popular support of the 
government. SOF emphasized combined operations, with the Afghan 
National Army taking the lead role throughout the country to accomplish 
these goals.
    Coalition Forces, including SOF, assist in the counternarcotics 
effort in Afghanistan by reporting, confiscating, or destroying drugs 
and drug equipment encountered in the course of normal operations, 
sharing intelligence, and training Afghan security forces in these 
efforts. The adverse effect of the narcotics problem on Afghanistan's 
security, stability and society is significant and requires a multi-
faceted and long term effort. The Afghan Government, aided by the 
international community, must work to create viable economic 
alternatives for growers and manufacturers.
Other Regions of the World
    In addition to supporting the Commander, CENTCOM, SOF prosecuted 
global war on terrorism missions around the globe. In support of 
Commander, United States European Command, U.S. SOF joined our North 
Atlantic Treaty Organization SOF allies to form a response force in 
support of the 2004 Olympics in Athens, Greece, a high value potential 
target for international terrorists. This response force was fully 
integrated into the Olympic Games' security task force and helped 
ensure that terrorists did not disrupt the games.
    SOF also worked with security forces from several African nations 
to enhance their counter-terrorist capabilities, conducting 2-month 
training periods with indigenous forces focused on logistics, 
communications, and weapons skills. The effort was designed to 
eliminate sparsely-populated border regions as potential terrorist 
safe-havens before terrorists arrived in force. In the Balkans, CA, 
Psychological Operations (PSYOP) and other special operators supported 
operations in Bosnia, bolstering civil institutions to help maintain 
peace in that country.
    In addition to short-term operations, SOF long-term activities help 
develop the strategic environment by contributing directly to 
deterrence efforts. U.S. SOF participated in over fifty Joint Combined 
Exercise Training events globally with host-nation forces. In the 
Pacific theater, SOF supported the Commander, United States Pacific 
Command (USPACOM) by providing assistance to allied nations seeking to 
stem narcoterrorism, as well as remove mines laid during four decades 
of regional conflicts. SOF continues to support OEF-Philippines, and 
during 2004, Joint Special Operations Task Force-Philippines deployed 
teams to provide operational planning and special skills training to 
Filipino Armed Forces personnel. U.S. SOF worked with Filipino military 
forces and other units throughout the country to prevent the disruption 
of national elections. Meanwhile, U.S. Navy SOF personnel worked with 
their counterparts to conduct expanded maritime interdiction operations 
around the archipelago. PSYOP soldiers sought to garner support of the 
local population.
    The tsunami of December 2004 brought horrific destruction around 
the rim of the Indian Ocean, and SOF, in support of PACOM, responded 
immediately to provide humanitarian assistance to those struck by this 
devastating natural disaster. Through the use of specialized skills and 
equipment, SOF supported the U.S. and international relief efforts. SOF 
soldiers, airmen, and sailors provided their expertise in diverse areas 
such as airfield management, airlift, and delivering and distributing 
medical care and supplies in conjunction with the U.S. Air Force, Army, 
Navy, Marine Corps, and civilian organizations.
    In South America, SOF efforts support the Commander, United States 
Southern Command through operations helping the Government of Colombia 
in its fight against terrorists, narcotics trafficking groups, and 
insurgents. SOF support included counter-narcoterrorist training 
deployments, training assistance to Colombian SOF, help with 
establishing a special operations command and control (C2) 
organization, longstanding CA and PSYOP activities and assistance 
fusing intelligence with operational planning. U.S. SOF also helped 
with the search for American citizens held hostage by terrorists. By 
the end of 2004, the Colombian military and police forces had made 
notable progress in the fight against narcoterrorists.
                               readiness
    Force readiness is a SOF priority and is crucial to mission 
success. SOCOM's number one readiness issue is our people, followed 
closely by our equipment and training.
People
    SOCOM, while scheduled to grow in fiscal year 2005, remains less 
than 2 percent of our Nation's military force. Our operators are high-
caliber professionals with intelligence, stamina, problem-solving 
skills, mental toughness, flexibility, determination, integrity, and 
extraordinary strength of character and will. Additionally, they are 
experts with their weapons, and many are language trained. Our small 
number of carefully selected, incredibly dedicated, capable, mature, 
well-trained, and well-led people are key to our quality force. 
However, we must have the total force--the correct mix of Active, 
Reserve, and National Guard personnel to meet the challenge. Last year 
I reported that SOF were deployed globally at the highest sustained 
operations tempo in their history. That is still true today, with over 
6,100 special operators supporting the geographic combatant commanders.
    To accomplish SOF missions, highly specialized skill sets are 
required, including cultural and regional awareness and expertise, and 
skill in employing both low and high-tech equipment and solutions. To 
achieve the required level of proficiency and guarantee SOF relevance, 
recruitment, training, accession and retention, development of the 
force must be closely managed. With the support of the Office of the 
Secretary of Defense and Congress, SOCOM was able to secure a 
comprehensive SOCOM retention package aimed at specific SOF operational 
specialists throughout their careers.
    I believe our current operations tempo is manageable, but stressed 
in certain critical specialties--namely our SEALS, Special Forces, Air 
Force Special Operations Command Combat Controllers, Pararescuemen, and 
Special Operations Weather personnel. CA and PSYOP forces will be 
discussed shortly. SOCOM began our growth by investing in our 
schoolhouses through additional instructors to increase throughput for 
creating special operators while maintaining our standards. Coupled 
with retaining experienced SOF personnel, this will improve our 
capability to meet the demand on our force.
    However, adding SOF is not a near-term fix, as SOF cannot be mass-
produced, nor created after emergencies occur. Our recruiting is good, 
and our schools are full, but because of our rigorous selection and 
training process for SOF operators, it takes between 12 and 24 months, 
depending on specialty, to graduate an initially-qualified SOF 
operator. In fiscal year 2006, SOCOM will grow by 1,405 members to an 
end-strength of 52,846. We are adding personnel to our Active-Duty SEAL 
teams, increasing active Special Forces Group strength, and adding 
personnel at the 16th Special Operations Wing to support forward 
deployed and rotational requirements. We have also added one MH-47 
aviation battalion based on the west coast and oriented towards the 
Pacific. With great support from the Secretary of Defense, we have 
significantly increased the authorized manning levels of SOF over the 
past 2 years, but areas of concern remain our PSYOP and CA forces.
Civil Affairs and Psychological Operations
    CA and PSYOP were essential in facilitating the elections in both 
Afghanistan and Iraq and will continue to play critical roles in the 
stabilization and reconstruction of both countries. CA and PSYOP also 
had a vital role in combat operations and consolidation activities in 
Afghanistan and Iraq. Whether encouraging enemy fighters to surrender, 
directing civilians away from battle zones, or separating terrorists 
from their base of support, tactical PSYOP multiplied the effectiveness 
of combat operations and saved many lives.
    Dissemination of truthful information to foreign audiences in 
support of U.S. policy and national objectives is a vital part of SOF's 
effort to secure peace. Culturally-oriented PSYOP units with selected 
language skills are supporting commanders and other U.S. Government 
agencies in operations ranging from humanitarian assistance to weapons 
collection. PSYOP forces have an aggressive program of providing 
handbills to children explaining the threat of unexploded ordinance and 
minefields. Additionally, through leaflets and broadcasts, PSYOP forces 
disseminate information to raise awareness about the Rewards for 
Justice Program. SOF then facilitate linking individuals possessing 
information with the appropriate agencies. PSYOP forces use nonviolent 
means in often violent environments to convince adversary, neutral, and 
friendly nations and forces to take action favorable to the U.S. and 
its allies. These forces, along with SOF CA units, are force 
multipliers. Three quarters of our PSYOP personnel are in our Reserve 
component.
    CA forces are key to our long-term success in the global war on 
terrorism. CA specialists can quickly and systematically identify 
critical infrastructure requirements needed by local citizens. They can 
also locate civil resources to support military operations, help 
minimize civilian interference with operations, support national 
assistance activities, and establish and maintain liaison dialogue with 
civilian aid agencies, commercial and private organizations. CA forces 
are currently working with local governments of Iraq and Afghanistan 
and international humanitarian organizations to rebuild infrastructure 
and restore stability. They facilitate, plan, and coordinate repairing 
wells, providing food to hungry children, bringing medical care to 
families, and are hard at work helping rebuild school systems to 
counter radical thought through education. CA forces become advocates 
for their plans to synchronize indigenous populations and aggressively 
seek funding for regional projects. Over 90 percent of our CA personnel 
are in our Reserve component.
    This level of effort, however, doesn't come without a price. While 
we believe people are more important than hardware and closely monitor 
our deployment schedules, Army Reserve CA and PSYOP units have been 
mobilized for up to 24 months under the partial mobilization authority. 
This in turn has made us more reliant on the few Active-Duty CA and 
PSYOP units to meet operational requirements. Future rotations for OIF/
OEF will be constrained by the number of personnel in these specialties 
available. To improve these areas we have added four PSYOP companies 
(Reserve), two PSYOP companies (Active), two CA battalions (Reserve), 
and two CA companies (Active). While the use of Provisional Battalions 
created for the war effort is a concept we are exploring, compressed CA 
specialty training is not the best solution to this problem. We owe it 
to the geographic combatant commanders to send fully qualified CA and 
PSYOP personnel to the battlefield.
               building future special operations forces
    The command's main goal for the future is to identify and develop 
the capabilities SOF will need to remain the decisive piece of a joint, 
coalition, and interagency team while maintaining the readiness 
required to shape and respond to the world today. SOCOM is committed to 
producing next generation SOF capabilities that will provide 
competitive advantages over future adversaries. Future SOF will be 
positioned to respond rapidly to time sensitive targets in the global 
war on terrorism, provide strategic responsiveness as an early entry 
force, possess state of the art battlefield command, control, 
communications, computers, intelligence, surveillance, and 
reconnaissance (C\4\ISR) and continue to increase cultural, regional, 
and linguistic expertise. SOF must construct systems and capabilities 
to have access around the world to locations of our choosing and have 
dominant C\4\ISR.
    Long-term success in the global war on terrorism depends largely 
upon our ability to rapidly employ a sustainable mix of capabilities 
with little warning--requiring agile, adaptive, and responsive 
warriors. We are transforming our force quickly to provide better on-
the-ground capability to operate in the different ``gray areas'' around 
the world where conventional forces are traditionally uncomfortable. 
This will require a change in our thinking, not just our force 
structure. We continue to transform our headquarters to incorporate 
these changes. Our organization includes a standing Joint Task Force 
(JTF), capable of providing a spectrum of command and control options 
from providing a handful of liaison officers to an existing JTF to 
deploying a complete JTF. Moreover, SOCOM is organized for interagency 
transparency, a key element for success.
    SOCOM is pursuing a holistic approach to our training, doctrine, 
organizational structure, and technology. We will blend the 
authorities, functions, and activities of a supported combatant command 
with our current Service-like authorities, functions, and activities 
necessary to develop, maintain, and enhance integrated joint SOF forces 
and capabilities. SOCOM will cut across current national, regional, and 
geographic boundaries by networking key counterterrorism and 
counterinsurgency command and control nodes to create a Global Counter 
Terrorist Network (GCTN) employing a tailored mix of assigned, 
attached, and supporting joint forces and capabilities.
Budget and Acquisition
    The SOCOM fiscal year 2006 President's budget request is $6.7 
billion, 3 percent more than the fiscal year 2005 appropriated amounts. 
This request includes military pay and allowances to ensure that now, 
and in the future, the President, the Secretary of Defense, SOCOM, the 
combatant commanders, and country teams have SOF capable of defeating 
terrorist organizations worldwide. Our Operations and Maintenance 
budget request grows $85 million, to $2.2 billion, which also includes 
a $22 million increase for training, as well as funds associated with 
sustaining SOF-specific weapons systems. Quick action on SOCOM's Fiscal 
Year 2005 Supplemental Request is the issue on which I need immediate 
support.
    At the heart of SOCOM's strength is the commander's acquisition 
authority, which is similar to that of the Military Departments. It is 
one of the things that makes SOCOM special and makes our operators more 
capable, more quickly. Among the responsibilities assigned to SOCOM 
under Title 10, Section 167, is developing and acquiring ``special 
operations-peculiar'' equipment. SOF-peculiar equipment is based on 
technologies that enable our operators to become faster, stealthier, 
more precise, lethal, survivable, and sustainable. It will also enable 
PSYOPs forces to broadcast themes into denied areas, and provide CA 
specialists with SOF specific training and communications equipment. 
With exceptional support from Congress, the Secretary of Defense, the 
Services, and our industry partners, these authorities have been 
instrumental in equipping today's world-class SOF team to perform a 
broad range of SOF missions. We are aggressively eliminating those 
systems that do not support the global war on terrorism and directing 
those resources for more appropriate programs. Our Flagship Programs, 
the Advanced Seal Delivery System and the CV-22 Osprey continue to be a 
very important part of SOF's future. We will add, in the near future, 
two new flagship programs, our SOF Warrior Systems and our SOF training 
centers.
    Our research and development (R&D) activities are focusing on 
discovering and exploiting technologies in the following areas:
Intelligence
    SOCOM's primary concern remains actionable tactical intelligence. 
The ``find'' piece of find, fix, and finish is an intelligence based 
problem set. In other words, we have to find out who the bad guys are, 
where they are, and have the right forces in the right place at the 
right time to capture them. SOCOM is working to harness capabilities, 
like signals intelligence, imagery intelligence, and unattended sensors 
that channel the proper intelligence information to our analysts and 
operators so we can capture terrorists regardless of where they are on 
the globe. This persistent intelligence, surveillance, and 
reconnaisance (ISR) concept is a combination of continuous analysis, 
human intelligence, and SOF focused ISR systems that will dwell on a 
target for as long as the mission requires--the unblinking eye. We have 
made progress aggressively pursuing unmanned aerial vehicles, 
persistent intelligence systems and denied area access technology. We 
must continue to improve these capabilities, especially our ability to 
find and track targets in all weather conditions. SOCOM's number one 
technological shortfall is in our ability to persistently and remotely 
locate, track, and target a human.
A Global Network
    SOF-led collaboration and synchronization across command lines will 
play a dramatically larger role. SOCOM will use the GCTN to position 
SOF around the world, in synchronized, simultaneous, and custom-
tailored operations against designated terrorist organizations, their 
allies and sponsors. The GCTN will synchronize global ISR to gain 
persistent close-in visibility, coordinate interagency and capable 
partner nation efforts, and integrate command and control. These 
operations will be coordinated by SOCOM and geographic combatant 
commanders through their Theater Special Operations Commands which will 
serve as the focal points for joint SOF missions conducted within their 
regions. Key to this effort will be high bandwidth and reachback 
communications.
    Additionally, SOF must facilitate the development of indigenous 
capabilities to fight against terrorists and rogue regimes. Robust UW 
capabilities greatly expand the set of options available to policy 
makers. SOF must also maintain and improve capabilities to support 
conventional forces. The concept of a GCTN is designed to position SOF 
in key locations to collect, fuse, analyze, and disseminate 
intelligence. Developing greater situational awareness in priority 
countries and regions will enhance SOF effectiveness in combating 
terrorist networks.
Develop the Special Operations Warrior
    SOF can anticipate continued global employment in the near future. 
They will have to operate simultaneously in more than one geographic 
combatant commander's area of responsibility against elements of the 
same global enemy to eliminate seams and be responsive. For SOF the 
challenge is immense: how to train for the enormous and demanding range 
of functional skills necessary to meet SOCOM's core tasks while 
adapting intellectually to the global demands of this war against an 
enemy who holds no territory. SOCOM will meet these requirements 
through continued adaptation and growth of our education and training 
capabilities, to include advanced training systems. Additionally, in a 
globally networked operating environment, SOF must be survivable, 
sustainable, lethal, maneuverable, and possess superior situational 
awareness. These are SOCOM's R&D focus areas to support the SOF 
warrior.
                               conclusion
    The struggle against global terrorism is different from any other 
war in our history. We will not triumph solely or even primarily 
through military might. We must fight terrorist networks and their 
supporters using every instrument of national power of the United 
States. Progress will come through the persistent accumulation of 
successes--some seen, some unseen. Our goal will be reached when 
Americans and other civilized people around the world can lead their 
lives free of fear from terrorist attacks.
    SOF will continue to play a lead role in this war by bringing 
terrorists, their supporters, and their state facilitators to justice, 
or by bringing justice to them. But winning this war will require new 
capabilities, sustainable increases in capacity, and significant 
improvements in the global reach and speed of SOF forces. To meet the 
demands of the new environment, we must ensure that our capabilities 
are well-tuned to meet emerging needs. U.S. special operators have been 
the cornerstone of our military operations since the beginning of the 
global war on terrorism. From Tampa to Tikrit to Toibalawe all of SOCOM 
is in high gear, a tempo we expect to maintain for a long time.
    Our efforts will remain focused on our mission. Our success will 
come from the finest trained and prepared warriors in the world who are 
in the right place at the right time against the right adversary. SOF 
play a key role in America's and the world's defeat of terrorism. In an 
environment of asymmetric threats, we are this Nation's asymmetric 
force. With energy, focus, skill, and determination, we will take the 
fight to the enemy and win. Your continued support of our soldiers, 
sailors, airmen, marines, and DOD civilians is the foundation of our 
success.

    Senator Cornyn. Thank you, General Brown and Secretary 
O'Connell. Your written statements will be made part of the 
record, without objection. We thank you for summarizing those 
for us.
    We are going to go to a closed session by no later than 
10:45 in order to probe a little further in that classified 
setting. I would just ask you as we pose questions to you in 
the open setting, if there are areas that you think are 
appropriately addressed or perhaps in greater detail in the 
closed setting, if you will just advise us and we will follow 
up later in closed setting.
    Mr. O'Connell. Yes, sir.
    General Brown. Yes, sir.
    Senator Cornyn. Thank you very much.
    General Brown, in 2003 the Secretary of Defense designated 
you as the lead combatant commander for the global war on 
terrorism and increased your responsibility to plan and conduct 
operations under circumstances as a supported combatant 
commander. Could you summarize what changes you have made in 
SOCOM's organization to enable you to plan, conduct, and 
sustain such operations?
    General Brown. Yes, sir, Mr. Chairman. First of all, at the 
staff level, we were organized into centers. We are not 
organized in line and block diagrams like traditional military 
organizations are. We were oriented on train, organize, and 
equip, which was basically our function. We did very few other 
types of missions. We reorganized the staff immediately and we 
built a Center for Special Operations, and I am happy to say 
that we have been approved for an additional three-star general 
who is going through confirmation right now that, when 
approved, will command our Center for Special Operations.
    It is about a 450-man staff. We did that with very little 
plus-up in our headquarters, but that is our operational center 
and it combines our plans, operations, and intelligence into 
one integrated operation at Tampa, Florida. They will soon, in 
November of this year, move into a new building.
    That was a huge reorganization challenge for us. We did it 
without appreciable growth. But we also did it by adding over 
100 partners from other agencies that now work down at SOCOM 
headquarters to help us take on this mission. So I will still 
have a deputy, who will be a three-star, and that is Admiral 
Eric Olson, and then we will have another three-star that will 
run simply this synchronization of the global war on terror, 
and he will run the Center for Special Operations.
    If you would have gone down to visit us about 3 years ago, 
you would have seen a command center that basically answered 
the phone and directed phone calls. Today we have a full-up 
operations center. It is online 24 hours a day monitoring 
situations around the world. Additionally, we have built a 
Special Operations Joint Interagency Collaboration Center, 
which is a very powerful capability, in our intelligence 
center. So we have stood up the ability to actually command and 
control.
    One last thing real quick that we have done is we have 
stood up a Joint Task Force (JTF). We have a deployable 
capability. Should we be called on to do a major supported 
commander-type mission, we can deploy this JTF. For the first 
time in SOCOM's headquarters, last week it was deployed to the 
field at Avon Park, Florida, set up and operated for 5 to 7 
days out of tents with deployable equipment, and it did very 
well on an exercise operating with two of the geographic 
combatant commanders supporting our exercise.
    Those are just some of the organizational changes that we 
have made down there, Mr. Chairman.
    Senator Cornyn. General Brown, to the extent you can 
discuss this in open session, under what circumstances would 
this authority that has been conferred on you as a supported 
combatant commander be used?
    General Brown. The first circumstance is that we do have a 
current requirement for synchronizing the global war on 
terrorism. So we are doing that portion of the planning and 
ensuring that the seams between the geographic combatant 
commanders and other combatant commanders are covered, and that 
we are lashing all of those plans together and making sure that 
the DOD has one integrated plan to go forward. So we are 
actually operating at that level right now.
    Additionally, should there become a requirement for us to 
be a supported commander, I believe it would be a very 
specific, SOF-unique mission where we could go in and assist 
the geographic combatant commander. It may be one that is at 
the seam of two or three geographic commanders' areas and, just 
to keep the coordination requirement to a minimum, we would 
just put us in charge of it and it would be directed against 
the global war on terrorism.
    Senator Cornyn. Thank you.
    I would like to hear both of you comment on this question, 
and then I will turn the floor over to Senator Reed. The 
concept of Operational Preparation of the Environment (OPE) was 
developed to better enable SOCOM to be prepared to execute 
operations against terrorist targets if and when actionable 
intelligence becomes available. Several newspaper articles in 
December 2004 and early 2005 suggested that the DOD program was 
not well received by other government departments.
    In general terms, please describe the purpose of the OPE 
program, and please describe what steps you have taken to 
reassure other government departments about the intent of this 
program and to improve coordination.
    Mr. O'Connell. Thank you, Senator Cornyn. OPE is a term 
that evolved from two terms that were used previously, and 
perhaps we or the Department did not pick the best choice of 
words when it came to describing the activities of the teams, 
particularly to other members of the interagency.
    We have always had in special operations--and I can go back 
to as early as 1980, when we had elements called regional 
survey teams that were out operating in embassies, and their 
attempt was to look at the types of threats that Americans 
might face, let us say, in a Guatemala, to survey the embassy, 
to look at routes to the airport for potential evacuation, 
areas of weakness in protecting ambassadors, how to best 
coordinate with the security forces and the embassy security 
forces in a particular embassy. Even back then, the concept of 
a regional survey team was not well understood.
    When September 11 took place, the Department, I think, very 
quickly assessed the fact that they did not know where the next 
attack might come. As the rest of the government reacted by 
standing up certain activities, the U.S. SOCOM and the 
Department looked at areas where they felt that increased 
military cooperation, particularly of a SOF-type nature, might 
be required. I will not mention the specific areas. We can in 
closed session.
    But the first two names we used were ``operational 
preparation of the battlefield'' and ``pre-crisis activities,'' 
which tried to describe what teams might do on the ground. One 
of the first concerns was a head-scratch from, let us say, some 
people in the State Department saying: What battlefield or what 
crisis? As we were planning ahead, we did not necessarily say 
that there would be a battle here in this particular place or 
time.
    But we have evolved, and I think both of the gentlemen 
would agree that almost every embassy situation is different. 
Each chief of mission and each chief of station from the 
Central Intelligence Agency (CIA) has a different perspective 
and different experience and different relationship with the 
military. They also see military requirements as being 
different from country to country. In each case, we will try to 
build that relationship between the chief of mission and the 
chief of station, so that it most effectively represents the 
needs of, first of all, the theater commander, the combatant 
commander, and also General Brown if he were required to 
conduct an operation in that area.
    I would be happy to go into the specifics of some of the 
activities of the teams in closed session, sir.
    Senator Cornyn. Thank you.
    General Brown, let me just ask you to follow up on that 
question and response from Secretary O'Connell. Has SOCOM 
conducted or does it intend to conduct military activities in 
any country overseas without the knowledge of the chief of 
mission in any instance?
    General Brown. Absolutely not, Senator.
    Senator Cornyn. I appreciate your clarifying that. Of 
course, as we have discussed previously, there have been some 
newspaper stories that have suggested otherwise.
    What is your opinion on the level of coordination and 
cooperation among different agencies in this initiative?
    General Brown. First of all, Senator, OPE is about speed. 
It is about how fast can you move into an area and perform 
whatever task you have been given, and that is where OPE was 
developed. We work very hard on coordinating every activity 
with every one of the interagencies. I work very closely with 
the CIA on coordinating anything we are doing, and we work very 
closely with the State Department. Before any team of any kind, 
to include joint/combined exercises for training or any other 
special operations team deploys, they deploy with the full 
knowledge and approval of the embassy. They get a country 
clearance, just like any other deployment of a conventional 
force, and they get country clearance from the geographic 
combatant commanders.
    So I am very comfortable we are working very hard and that 
we have never ever deployed into a country, quite frankly, in 
my history in special operations, without the full knowledge of 
the ambassador or the country team that we are going into that 
country.
    I will be glad to discuss further the actual tactics, 
techniques, and procedures of OPE in a closed session.
    Senator Cornyn. Thank you very much.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Let me just follow 
up on this line of questioning that you have raised, because it 
is an important line of questioning.
    These teams that will be operating, you have acknowledged, 
General Brown, that they do so in your view with the full 
disclosure to the ambassador and to the chief of station. If 
they were to be discovered and detained, would they maintain 
themselves as military personnel?
    General Brown. Sir, it would probably be better if I 
answered those questions in closed hearing, if that would be 
okay.
    Senator Reed. That would be fine, General, if that is your 
judgment. I appreciate that.
    There is always the question of notification of some of 
these operations pursuant to the law. There is a much more 
robust and historically better developed sort of policy with 
respect to CIA operations. Are you developing policies or 
should we think about policies to notify Congress about these 
operations if they are particularly sensitive?
    General Brown. Senator, we report everything that we are 
doing up to the Joint Chiefs of Staff and the OSD so that they 
can be appropriately reported.
    Senator Reed. My question then would be, at that level of 
reporting to us, is there a need to look at that level of 
reporting?
    General Brown. I believe what I have been told is--and Mr. 
O'Connell may have more detail on this--that the Secretary was 
over yesterday and met with the leadership of the House and the 
Senate to ensure that all of the reporting would be worked out 
as appropriate.
    Senator Reed. Mr. O'Connell, do you want to add a point?
    Mr. O'Connell. Yes, sir. As General Brown mentioned, the 
Secretary did host a meeting with congressional leadership 
yesterday specifically over reporting procedures, to which 
committee, and I think the discussion--and I do not want to 
reveal the specific details or violate the confidence of the 
Members that were present--but, led by the Under Secretary of 
Defense for Intelligence, Dr. Cambone, Secretary Rumsfeld, 
Senate leadership, and House leadership looked at the types of 
structures that exist within Congress today and their specific 
oversight responsibilities.
    Some of our activities are intelligence-related. Some of 
them are title 10 versus title 50 activities, and the reporting 
mechanisms are different. Sometimes they straddle both sides of 
a particular operational issue. The Secretary did give several 
examples yesterday, both historical and theoretical, where he 
felt that there were difficulties on both the executive branch 
and perhaps the legislative branch, as to how we stay in sync.
    Several proposals were raised yesterday, some by the 
legislative leadership, some by the Secretary, and the promise 
was to continue to work these out. But the key thing is that 
everyone wants to do the right thing, to do the efficient 
thing, and to make sure that we are not jeopardizing speed or 
secrecy. So I think there was general agreement and comity in 
the room yesterday when that was discussed. But I would defer 
any specifics to the Secretary.
    Senator Reed. Surely. But I think what you have suggested 
is this is fertile ground for further work, analysis, and 
perhaps, if not legislation, then certain understandings 
between the executive branch and Congress about reporting.
    Mr. O'Connell. Yes, sir.
    Senator Reed. General Brown, your OPTEMPO is 
extraordinarily high. You have suggested that you are going to 
increase your forces by about 5,000 personnel. I understand 
that that is going to take place over the next several years, 
beginning in the 2008 budget to 2011. Could you outline those 
plans? More specifically, it seems to me that the demands on 
you might call for a more immediate and even more robust 
increase in special operators. Also, recognizing the fact that 
training special operators is something that takes years, it is 
not something where in 3 or 4 weeks or 3 or 4 months you have 
an accomplished special operator--the field skills, the 
cultural sensitivities, just the maturity takes a while. So 
again, I think that suggests to me that beginning now rather 
than waiting until 2008 might be more appropriate.
    Could you comment?
    General Brown. Senator, you are exactly right, and we are 
working real hard at that. Over the last 3 years--and I will be 
glad to get the exact figures for the record--we have added, 
over 1,000 CA and I believe about 300 to 400 PSYOP personnel, 
and those today are two of our stress areas, specifically CA, 
which is our most stressed area.
    So we are already taking actions. We are about to grow two 
SEAL team equivalents and that is happening in 2006 and 2007. 
So we are growing some special operations. But the way we took 
this on was to grow our schools, to make sure that our schools 
were capable of the throughput that we needed and immediately 
put the resources necessary to grow the school so we could then 
start growing the force.
    We cannot grow the Green Beret force until we get it full 
for the first time. Last year, at the end of 2004, I believe it 
ended the year about 89 percent full of Green Berets. We have a 
great plan for the future. General Phil Kensinger down at the 
Army Special Operations Command is doing a great job of 
focusing it. We have actually started teaching the same course 
in less weeks and with a higher standard requirement for 
graduation in language skills than ever in the history of 
special operations.
    So all these things come together. We have the biggest 
classes going through that we have ever had in the history of 
special operations. We think we will get into the mid-1990s in 
our fill rates of Green Berets this year. Hopefully we will be 
on a glide slope that will allow us to continue this growth 
into the future as we continue to add another 500 or more Green 
Berets that will be necessary in the future.
    It does take time. We started right away. We are in better 
shape than we have ever been in the history of the Green 
Berets. But quite frankly, we still have a lot of work to do on 
it.
    [The information referred to follows:]

    As you correctly stated ``training special operators is something 
that takes years,'' with this in mind, we began in fiscal year 2004 
ramping up our production of Army Special Forces soldiers and Navy 
SEALs. Special Forces throughput in fiscal year 2004 was increased from 
450 to 550 at the U.S. Army Special Warfare Center and School. To 
further increase the number of SOF, in fiscal year 2006 we will add 
instructors and support personnel to both our Army and Navy training 
centers. Currently, the SOCOM is programmed to add 1,405 spaces in 
fiscal year 2006, 465 spaces in fiscal year 2007, and 1,675 spaces in 
fiscal year 2008. These increases will primarily support institutional 
training, operational, and support units which will improve readiness 
and mission effectiveness. To relieve the stress caused by OPTEMPO in 
OIF and OEF, and increase our operational capabilities, SOCOM will add 
more CA, PSYOP, Special Forces, Army Rangers, Special Operations 
Aviation (rotary and fixed wing), and maritime forces.

    Senator Reed. Thank you, General Brown.
    Let me ask one more question, then I will yield back to the 
chairman, and I presume we will go back and forth until 10:45. 
Thank you, Mr. Chairman.
    Secretary Rumsfeld is in the process of promulgating a new 
directive on post-conflict and stability operations. You will 
play a key role in that. What changes do you see that you have 
to make to play this role in the new emerging strategy of post-
stability operations? There are some specific issues that will 
come up and I would like your comments.
    First, you mentioned CA. I think it is critical to have CA. 
We have discovered that shortages have plagued us over the last 
several months in Iraq and Afghanistan. I think it is 
important. On a recent trip to Iraq, I was struck by the 
difficulty of getting State Department, U.S. Agency for 
International Development (USAID), and other civilians who are 
in the CA business in the field, which leaves military forces, 
and properly so in many cases because of the security 
considerations, the only show in town.
    So this CA function has to be critical. There is an issue 
of whether CA should be in SOCOM or should be migrated back to 
the Army, Marine Corps, or Navy. That is an issue.
    Then there is another issue, too, which is whether or not 
we have to start training our conventional units and give them 
more special operations capabilities, if you will, since the 
missions are blending so significantly when you do stability 
and counterinsurgency operations.
    So both Mr. O'Connell and General Brown, if you would 
comment on that range of issues.
    Mr. O'Connell. Senator Reed, fair question and a very 
complex question, as I think you understand. Subsequent to the 
end of hostilities or the conventional phase, let us say, of 
the Iraqi conflict, there was much attention paid by the 
Department to how we were structured for post-conflict 
activities, and the Defense Science Board did a summer study on 
this which the Secretary chartered and received extensive 
briefings on. Other studies were done by the Institute for 
Defense Analysis.
    They generally pointed to the same issues in terms of 
transition to and from war: Were we properly structured to do 
the types of planning that are required? Second, subsequent to 
an event, how were we postured and resourced to handle 
stability operations?
    From those discussions came a series of initiatives which 
are under way today. One, a Department initiative which was 
adopted as a presidential initiative, the Global Peace Ops 
initiative, was adopted last year at the G-8 meeting, whereby 
we are going to be permitted to transfer money to the State 
Department to allow them to start looking at developing a 
significant peacekeeping capability, but one that does not 
deteriorate, as many have historically, over time, to put in 
places where we can increase partner capacity and reduce the 
strain on U.S. forces.
    I think during the last year there were three or four 
instances--Liberia, Haiti--where we rushed conventional forces 
in, far more capability than we actually needed on the ground, 
and perhaps we would have been much better working with partner 
nations and putting in basic infantry-trained peacekeepers.
    With respect to your question of whether CA belong within 
the SOCOM, my personal view is that there is room in many 
forces for CA activities. The Marine Corps have some of their 
own. General Schoomaker is now looking, in consultations with 
the Secretary and General Brown, as to what portion of our CA 
forces might be permanently assigned to new Army units of 
action and which elements of CA should remain in SOCOM.
    It is my personal view that CA can certainly be a combat 
multiplier. They can assist both the conventional and SOF on 
the ground, and the type of training that is given within the 
special operations school system in many cases for our Green 
Beret forces and our CA, much of the training is common. Could 
it be placed elsewhere? If the Secretary decides that it would 
be more effective elsewhere, that may happen.
    But I would strongly urge the Department in any 
reorganization to retain a substantial, particularly Active 
Duty, CA capability within the SOCOM.
    Senator Reed. General Brown, your comments?
    General Brown. Sir, I think you are exactly right again. We 
will play a big piece in the stability operation. Specifically, 
that will fall on the shoulders of our CA. It is absolutely 
critical that at the appropriate time in the transition of the 
battle that the State Department, USAID, and all the other 
government agencies that play a part arrive on the battlefield 
at the right time and start carrying their portion of the 
reconstruction.
    Additionally, you have to accommodate those private 
volunteers and nongovernmental organizations because they do 
bring a great deal of capability to the battlefield. So it is a 
very complex environment at that time, that transition in phase 
four. But it is extremely important.
    The problem with CA is very complex because, quite frankly, 
we have a new appreciation for it, I think, in all of the DOD, 
but we have always had 27 battalions in the Reserve component. 
We have only had one battalion in the active force. So we went 
through those battalions fairly quickly and, quite frankly, 
that is our biggest stressed area now because we have deployed 
all of them. Over 90 percent of them have already been used on 
the battlefield and as we go into the next phases in rotations 
it is getting more and more difficult for us to find CA forces. 
We are working very closely with the Army to try and plus up 
our CA strength within the next year so that we can go ahead 
and get those folks now so that we can train them to standard 
and get them on the battlefield for the next rotations.
    There are good things happening in CA. We have now worked 
with General Hagee and all the Marine Corps CA units, of which 
there are two going to three. The CA groups, their small 
battalions, will now go through the Army CA training at Fort 
Bragg, North Carolina, where we own the school. That is a good 
thing. That CA guy walking on the battlefield now will have a 
standard level of training, whether he is a marine or an Army 
CA soldier.
    We are working closely with the Marine Corps--and, by the 
way, always have in the CA arena in every area, but 
specifically in CA. As we did routine deployments into Bosnia 
and Kosovo with our CA forces, the Marines were often part of 
that and took some of those rotations off of it.
    I believe there are more tasks that the conventional forces 
can do with a special operations capability, and I think you 
are seeing that, especially in the Army under General Pete 
Schoomaker, who has some background in special operations, is 
working that pretty hard.
    You will see that at our national training centers in the 
Army and our centers for training as you go out and see that 
they are putting a lot of energy into how military commanders 
work with civilian populations on the battlefield, a 
traditional CA function, but now they are more involved with 
it, and bring in the CA to help with it.
    So I think there are a lot of good things going on with CA. 
We are into discussions of whether they should be in SOCOM or 
in the Army or a mixture of both of them. It is a key part of 
what we do on the battlefield in special operations, but the 
preponderance of the CA force is in direct support of a 
conventional military unit such as an Army division or an Army 
corps or a Marine Corps division, because the Army CA also 
support those divisions.
    So I think the answer is--and I have met with General 
Schoomaker on it several times--to make sure we are doing what 
is best for CA and what is best for how we can perform the 
mission. Those are the things that we are working through right 
now. But I think there is a place in special operations for CA 
and we need to make sure that we have at least a portion of it.
    Senator Reed. Thank you.
    Mr. Chairman.
    Senator Cornyn. General Brown, SOCOM has long had a 
reputation for being able to rapidly respond to operational 
needs of their teams by being able to quickly identify 
requirements, develop the concept, find sources of supply, and 
rapidly field new capabilities to teams. I would like for you 
just for our edification to mention maybe a couple of successes 
that you think you have had in that area. Then I would like you 
to comment on the less positive story, at least from my 
perspective, when it comes to the complex acquisition programs 
like the ASDS. Then perhaps we can get Secretary O'Connell's 
comments about how we are going to deal with those more complex 
acquisition programs to make sure that they are clear in 
concept and design and well managed and hopefully kept within 
reasonable expense boundaries.
    General Brown. Thank you, Mr. Chairman. We do have a 
reputation, and I think it is more than a reputation. We 
actually execute acquisition very rapidly. We are very good at 
our MFP-11 for commercial off-the-shelf applications that apply 
to SOF. As we go into the battlefield with our combat mission 
needs statement, which you mentioned earlier, it is a very 
powerful process where somebody on the battlefield from any one 
of our Services that has a combat mission need can get that 
immediately to my headquarters and we have to make a decision, 
by our own policy, within 48 hours.
    So it turns very quickly. Then we go after it if it is a 
valid requirement and we have to do whatever it takes, which is 
oftentimes reprogramming money or doing whatever we have to do 
to make this happen, because it is a combat mission need.
    We have had great successes on it and I have a long list of 
them, everything from our Multiband Inter-Team Radio, which 
started out as just a very small acquisition program. As soon 
as the troops got on the battlefield and saw the need for the 
radio we rapidly--with the help of Congress, I might add--added 
a bunch of radios, and it has been one of the big success 
stories even though it is just a small radio. The successes 
include everything from weapons capabilities to sights to--
unmanned aerial vehicles (UAVs) are a perfect example, hand-
held UAVs, small, deployable UAVs. We basically had none when 
OEF started and now all the teams out there have them, and that 
is through our rapid acquisition process.
    So I think that is a big success story. We have to be very 
careful not to add any bureaucracy or let it grow down at our 
headquarters, and we certainly want to keep that.
    The ASDS has been a long process, as you got to see it out 
in Hawaii. It is an extremely important capability that SOCOM 
needs around the world. While I will not get into the details 
of its operational capabilities, the program has been fraught 
with some problems over the years. But we still think it is one 
of our flagship capabilities we need.
    What we have done as recently as March of this year is I 
called in the contractor, had a meeting in the Pentagon with 
the Navy, with the program managers, with the shipyard. We had 
everybody stand up in front of the boss and tell us where we 
are on this and how we are going to get this thing across the 
finish line.
    I sent a personal message out yesterday to the same 
membership telling them we are going to do it again. Quite 
frankly, we are focusing on the ASDS and we are going to try 
and get this across the finish line because we really need it.
    The Milestone C decision is in December of this year. By 
December 5 we hope to make that. We are not allowed to have any 
long lead items or purchase any long lead items until that 
decision is made. With the success we are having with the 
batteries and their arrival in June, that will be operating by 
July and we will have a chance to test it by September. I am 
starting to get cautiously optimistic that we are going to make 
Milestone C on this program, and we need to.
    When we have taken it out and tested it and put it through 
its trials--and we are doing that right now--it has been very 
successful in performing the operations we want it to perform. 
We have had the battery problem. We are about to solve that. 
There are a couple of other problems that we are about to 
solve. But for the most part, I am cautiously optimistic that 
this time we are going to get it across the finish line.
    Senator Cornyn. Thank you.
    Secretary O'Connell, if you have watched some of the full 
committee hearings we have had recently, including Gordon 
England's confirmation hearing and that of Mr. Krieg yesterday, 
you can tell there is a lot of concern on the committee and in 
Congress generally about our acquisition programs. 
Unfortunately, the ASDS, while it is something that the SEALs 
love--and I take General Brown at his word that it is an 
essential component in our abilities--we are concerned about 
management of those acquisitions.
    Could you enlighten us or fill us in on anything General 
Brown did not cover that you think might be helpful to our 
understanding?
    Mr. O'Connell. Just a couple points, sir, because I think 
General Brown covered them very well. I was privileged to 
attend his March session with the contractor. I do not think it 
was a session that could be described as pleasant for the 
contractor. Assistant Secretary Young from the Navy attended 
and was very supportive.
    I think everyone realizes that this is a case where a 
unique requirement was identified. Perhaps the initial effort 
and some of the early decisions made on ASDS certainly have not 
been models of efficiency, but this was a really new concept. 
Part of the problem is that it involves one sophisticated 
platform being attached to another sophisticated platform, and 
that creates new demands because stealth in one system has to 
equal stealth in another.
    As they worked through those issues and had some mechanical 
and other problems, they started to recognize errors that were 
made early on in the program. They went back and I think they 
have made an excellent good faith attempt to realign their 
production.
    The point that I would like to make, more from a policy 
standpoint--and again, I understand that this acquisition has 
not been a model of efficiency. But if we can get it right, the 
opportunity it gives us for numerous special missions is 
particularly important as we face threats we really have not 
looked at for some time. I would be happy to talk about some of 
those in closed session.
    But my final point is that I think the command, the DOD--
and I would like to acknowledge the presence of my resource 
director here, Tim Morgan, who has worked diligently over the 
years establishing and working with MFP-11. We have had long 
talks about what do we do with ASDS. I still believe we are at 
the point where we are on track for Milestone C and I think 
General Brown has the right contractor here.
    Senator Cornyn. General Brown, are you satisfied with the 
attention the Navy is now providing?
    General Brown. Yes, sir.
    Senator Cornyn. Let me ask about one other area and then I 
am going to turn the floor back over to Senator Reed. This has 
to do with counterdrug, counterterrorism activities. Current 
law now allows counterdrug funding to be used for 
counterterrorism activities in certain countries, but otherwise 
precludes the use of these funds for counterterrorism 
activities elsewhere, including counterdrug activities along 
our borders in the United States.
    My own impression is that when you get people who are 
engaged in lawless activity, whether it is smuggling human 
beings or drugs or weapons or the like, they do not necessarily 
discriminate other than to go for whatever generates the most 
money. So I wonder whether counterdrug funding should be 
available to support counterterrorism activities as an overall 
policy.
    Mr. O'Connell. Sir, my quick answer to that is yes. The 
central transfer account and the general funding provided by 
Congress for counternarcoterrorism is perhaps the most 
effective and flexible moneys in the Department. It can be 
rapidly shifted. It can be used for a wide variety of options. 
I can tell you, in the case of the first supplemental that we 
had for Afghanistan it was really the--if we had not had that 
seed money, we would not have been able to lay the foundation 
for a program that can be integrated by the combatant commander 
and eventually put an Afghan face on it.
    I believe--in fact, my Deputy Assistant Secretary for 
Counternarcotics was just out and is out on the southwest 
border looking at some of the tunnel technology that we have 
been able to develop through other narcoterrorism funding and 
see if we can apply that. We know that perhaps drugs come 
through those tunnels, and perhaps people come through those 
tunnels. That is an example of flexible use.
    If either member has not visited the Joint Interagency Task 
Force-South in Key West, I would encourage both of you to do 
that, because it is a remarkable orchestra of an ongoing 
battle. You have the Coast Guard, the Navy, the Air Force, the 
Colombians, and our law enforcement fighting a 24-hour battle 
using real live surveillance, tagging and tracking, 
interdiction. It is a remarkable thing to watch. I think it is 
the wave of the future, and the central transfer account gives 
us extraordinary flexible capability, and so any restriction--
anything that continues towards that type of arrangement I 
think is worthwhile, sir.
    Senator Cornyn. Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    Mr. Secretary and General Brown, our interrogation policy 
for detainees has gotten us into some sordid and very 
regrettable situations. I would note that recent information 
from Freedom of Information Act requests suggests that some of 
the individuals in the 519th Military Intelligence Group in 
Iraq claim that they got some of their ideas from the 
Interrogation Rules of Engagement, from some of the special 
operations units, which raises the question at this moment not 
only of what happened and how it happened, but within the 
context of Iraq at least, where we know the Geneva Conventions 
apply, what are the operative rules of interrogation for 
special operators?
    I say this because I find it in a way ironic. We have some 
special operators who have been charged criminally and they are 
at literally the point of the spear, in a hostile situation in 
which they are fearful for their life, their safety, and so 
many other things, which suggests to me unless the rules are 
very clear and very consistent with regulations then we are not 
doing them a service in putting them out there if there is any 
ambiguity, because in that environment unless there is a clear 
bright line there is a tendency to do things not only that we 
regret, but later they might be held accountable for.
    So first, General Brown, are the policies consistent with 
the regulations and the law of land warfare?
    General Brown. Sir, I think they are. I would tell you that 
special operations has no unique interrogation policies. When 
we deploy forces to a geographic combatant commander's AOR on 
the battlefield, they are bound by the same policies as 
everyone else in that geographic combatant commander's AOR. If 
we were to be the supported commander, it would then be our 
responsibility to publish those policies and rules of 
engagement and interrogation.
    So I am not familiar with the 519th and I will go back and 
take a look at that and exactly what they said. We have had 
some Special Operations allegations.
    Senator Reed. Yes, sir.
    General Brown. I think there are about 40 of them. I think 
13 of them are still under--I should not say that. I think 
about eight. I will make sure I get the record straight and I 
give you the exact numbers. I think we have had 13 people 
receive some sort of punishment or administrative punishment 
for some sort of problem with interrogation and handling of 
prisoners.
    But to get to the bottom line, we operate under the same 
policies as everyone else in any AOR that we go to.
    [The information referred to follows:]

    The SOCOM does not dictate interrogation policies or techniques in 
Iraq. The Secretary of Defense transfers operational control of those 
forces to the Commander, U.S. Central Command, when they deploy in 
support of OIF. However, we are certainly concerned with ensuring that 
our forces comply with U.S. and international law regarding armed 
conflict. The overarching policies on interrogation are the same for 
Special Operations Forces as they are for conventional forces, although 
specifically approved techniques may vary. Subordinate units can craft 
more restrictive policies, but may not expand them. The current 
policies and techniques have all received legal reviews to ensure 
compliance with controlling regulations and the law of armed conflict.

    Senator Reed. That raises another question, which you may 
want to defer. With these new concepts of operational control 
elements, where just technically they would be under a 
combatant commander but in reality they are not I think tied in 
directly to a combatant commander, do those same rules apply? I 
think it is important.
    General Brown. I would be glad to talk about that in closed 
hearing. I would just tell you the rules do apply.
    Senator Reed. Thank you, sir.
    Let me just move to another topic. In 2001, Under Secretary 
Doug Feith established the Office of Strategic Influence (OSI) 
and that had a rocky reception and there was a perception or 
fear that this might be a device to propagandize, even in a 
misleading way. In 2004, SOCOM established the Joint 
Psychological Operations Support Element (JPSE) and there are 
some suggestions that it has a role in terms of broadcasts, 
short-wave radio contacts, and Web initiatives. The question I 
think is, are we once again getting into this area that found 
so much resistance for the OSI. Mr. Secretary?
    Mr. O'Connell. Let me start first and then I will pass to 
General Brown.
    Senator Reed, I was not in office during that time frame, 
but I have, because the issue was so contentious, gone back and 
talked to people and said, let us look at what really happened. 
I think my own personal view is that there were a series of 
unfortunate incidents that happened serendipitously to cast the 
intentions of that office in a bad light.
    Primary among them was the allegation that somehow the OSI 
was designed to specifically mislead the foreign press. From 
everything I have seen, I have heard from the people I have 
talked to, that was never the case. But I think because the 
press made the allegation, the Department reacted swiftly and 
that capability went away.
    Now, many can argue, did we miss an opportunity by not 
having that type of capability prior to the war, during the 
war, and even after the war? I will leave that for the experts.
    But in terms of our role currently in information 
operations, one of the five elements of information operations 
is PSYOP. Unfortunately, that term has tended to pick up 
unfortunate connotations over the years. Really, it should be 
just the opposite, because our PSYOP have been effective, they 
have been very helpful to the commanders, and they have 
targeted our adversaries when necessary.
    That is my little take on OSI and I will pass the PSYOP 
question to General Brown.
    General Brown. Senator, while the name, the ``Joint Support 
Element,'' was not selected at that time, we were actually 
discussing this long before the growth and the demise of the 
OSI up here. It came from a frustration that I personally had 
as the Army Special Operations Commander when we started OEF 
originally and started putting SOF on the ground. All 
psychological operations forces are resident in SOCOM and, once 
again, they are mostly resident, with the exception of our 
great Commando Solo aircraft up at the 193rd Pennsylvania 
National Guard, everything else is in SOCOM, and all that is in 
Army Special Operations Command.
    But what immediately happened was that we did not have 
people with the PSYOP skills and background. Psychological 
operations forces are only allowed to tell the truth, and their 
purpose is to support the commander on the battlefield and to 
get his message out, a very powerful message and capability.
    So what I envisioned was that we would stand up some teams 
that I could send to other geographic combatant commanders or a 
functional combatant commander, where we could send him some 
expertise to help say, this is what leaflets look like, this is 
how you develop them, these are the themes that are approved.
    So while you always stand up a joint PSYOP task force--that 
is the doctrine--it quite frankly is a little slow getting its 
legs up under it when a war starts and additionally it is an ad 
hoc organization.
    What I thought would be helpful is if we could build an 
organization that could go out and advise whoever needed that 
kind of advice on how you use SOCOM PSYOP products, the best 
way to get them, the best way to develop the programs, what the 
themes are, what the themes should be, and these teams--and 
that is basically what we are doing with this JPSE. We are 
standing up some deployable teams out of my headquarters that 
can go out and help anybody that needs that kind of help to do 
this.
    Senator Reed. They will be helping combatant commanders.
    The reason I raised that question is because so much of 
what you do comes very close to the roles of other agencies, 
like the State Department, public diplomacy, like the U.S. 
Information Agency. I am trying to get a handle on the 
boundaries and the coordination between your role in this 
endeavor and those other agencies. Why do you not just comment 
on that?
    General Brown. With the standup of what we call the JPSE, 
the reality is the roles have not changed one bit. We still are 
a DOD agency. We advise the DOD and all of the combatant 
commanders on the best application of using, quite frankly, the 
products we develop for PSYOP missions.
    Senator Reed. Thank you.
    Gentlemen, we are going to now recess this open hearing and 
then move to S-407 in the Capitol, where we can conduct the 
closed hearing. But let me say here publicly again how much we 
appreciate your responses to these questions. This has been 
informative and very useful, and we look forward to asking some 
additional questions and getting some follow-up on matters that 
you indicated earlier should be more appropriately handled in 
closed session.
    So we will move immediately from here over to S-407 and we 
will reconvene as soon as we can all gather there.
    [Question for the record with answer supplied follows:]
          Question Submitted by Senator Hillary Rodham Clinton
                            manned aircraft
    1. Senator Clinton. Secretary O'Connell, there has been much 
discussion of military unmanned aircraft requirements. Does the special 
operations community have requirements for manned clandestine 
intelligence, surveillance, and reconnaissance aircraft? What might 
some of those requirements be and what sort of aircraft could meet 
those needs?
    Mr. O'Connell. The U.S. Special Operations Command has both 
classified and unclassified requirements for intelligence, 
surveillance, and reconnaissance (ISR) aircraft supported by the fiscal 
year 2006 President's budget. The committee has been provided detailed 
budget justification materials describing special operations ISR 
programs. We will be happy to provide additional information detailing 
the manned requirements at the appropriate classification level.

    [Whereupon, at 10:45 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
